SIGAR                  Special Inspector General for
                       Afghanistan Reconstruction
                                                       APR 30
                                                        2012




QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from the left):
An Afghan miner unloads coal outside a mine in
Samangan province on April 3. Experts estimate the
value of the nation’s mineral resources at $1 trillion.
A key reconstruction goal is to improve Afghanistan’s
ability to exploit these resources and to attract
foreign investment. (© AFP 2012, Qais Usyan)
Farmers spread soil on a field in Nahr-i in
Kunduz province on March 30. After a particularly
severe winter, USAID continued to help distribute
food to the most vulnerable Afghans. The World
Food Programme estimates that 7.6 million
Afghans will need food assistance this year—more
than a third of the population. (© AFP 2012,
Johannes Eisele)
An Afghan schoolboy washes his face at a water-
pump in Mazar-e Sharif in Balkh province on April 9.
Last quarter, Afghans
assumed responsibility for security in this city. This
quarter, the transition to Afghan control continued
in many other districts and cities throughout the
country. (© AFP 2012, Qais Usyan)
Unaccompanied Afghan women walk along a
road in Bazarak in Panjshir province on April 7. The
status of women has improved dramatically since the
overthrow of the Taliban, who denied them the right
to work, vote, be educated, receive medical care, and
walk in public without a male escort. This quarter,
Secretary of State Clinton reaffirmed the U.S. com-
mitment to maintaining this progress.
(© AFP 2012, Johannes Eisele)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     APR 30
                                                                                      2012




The National Defense Authorization Act for FY 2008 (P.L. 110-181)
established the Special Inspector General for Afghanistan
Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the inde-
pendent and objective
•	 conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
•	 leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations, and to prevent and detect waste, fraud, and abuse in such programs
   and operations.
•	 means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
SIGAR RESULTS TO DATE
AUDITS
•	   56 reports completed, 12 audits ongoing.
•	   177 recommendations made.
•	   up to $259.9 million identified in funds that should be returned to the U.S. government.
•	   3 forensic audits under way of $39 billion in reconstruction funds managed by DoD, DoS, and USAID.
•	   4 ongoing inspections.

INVESTIGATIONS
•	   $52.9 million recovered.
•	   approximately $131 million in contract monies protected.
•	   164 ongoing investigations.
•	   20 convictions, 20 arrests, 10 charges.
•	   88 referrals for suspension or debarment, resulting in 21 finalized debarments and 20 suspensions.
•	   781 Hotline complaints received.




                                               JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                             BALKH                    TAKHAR


                                                               SAMANGAN
                                   FARYAB                                     BAGHLAN
                                               SAR-E PUL                          PANJSHIR
                         BADGHIS                                                       NURISTAN
                                                                       PARWAN   KAPISA      KUNAR
                                                             BAMYAN                 LAGHMAN
                                                                             KABUL
             HERAT
                                                                    WARDAK
                                                                                      NANGARHAR
                                   GHOR                                    LOGAR
                                                DAYKUNDI
                                                                                      PAKTIYA
                                                                   GHAZNI                 KHOWST

                                             URUZGAN
              FARAH
                                                                            PAKTIKA
                                                           ZABUL




              NIMROZ                                                                                   Current SIGAR offices
                         HELMAND
                                          KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                       audit and investigation work
                                            SPECIAL INSPECTOR GENERAL             FOR

                                            AFGHANISTAN RECONSTRUCTION


April 30, 2012

  I am pleased to submit SIGAR’s quarterly report to the Congress on U.S. reconstruction in Afghanistan. Over the last
quarter, several troubling incidents strained U.S.-Afghan relations and hampered reconstruction. Going forward, two
developments will have a direct impact on the reconstruction effort: the President’s reduced budget request for FY 2013
and the transition of private security services to the new Afghan Public Protection Force (APPF).
   The President has requested approximately $9.7 billion for reconstruction programs in FY 2013. This request
represents a 34% reduction from the $14.8 billion that the Congress provided in FY 2012 and reflects a change in U.S.
priorities, principally in the security sector. The President has requested about $5.7 billion to support the Afghan
security forces in FY 2013, compared with $11.2 billion appropriated in FY 2012. This 49% decrease signals a major shift
from building infrastructure and providing equipment for the Afghan security forces to sustaining these forces through
the 2014 transition. If approved, the President’s request will bring the total appropriated for Afghanistan’s reconstruction
since 2002 to approximately $100 billion.
   The APPF, a state-owned enterprise established by the Afghan government to replace private security companies,
began assuming responsibility for providing security for development projects during this reporting period. On
March 29, I testified before the Congress about SIGAR’s ongoing audit work, which has identified a number of
concerns about the transition to the APPF, including the potential for rising costs and the possible disruption or
termination of reconstruction projects if the APPF cannot provide the required security.
   In addition to these developments, corruption remains a major threat to the reconstruction effort. During my visit to
Kabul this quarter, I met with U.S. and Afghan officials to discuss and assess their anti-corruption efforts. I also shared
with them SIGAR’s work to combat corruption: nearly 30% of our investigations involve public corruption and bribery.
This quarter, our investigators partnered with other federal and Afghan law enforcement agents to recover $446,000 in
stolen fuel and $175,000 in cash in cases involving Afghan attempts to bribe U.S. officials. In addition, three individuals
who had been convicted of bribery were sentenced to prison terms and ordered to pay fines and restitutions totaling
$269,000. The three had been arrested and charged in cases in which SIGAR participated.
  Also this quarter, SIGAR investigations resulted in the termination for default or voiding of five contracts, protecting
$131 million in unspent funds. In addition, SIGAR issued seven referrals for the suspension or debarment of individuals
and companies for illegal activities or poor performance.
  Our Audits Directorate continues to identify issues of significant concern. This quarter, SIGAR completed three
audits, including one that found problems with USAID’s implementation of its stabilization programs. Our auditors also
continued to advance an oversight community initiative to develop a strategic framework for audits and inspections in
FY 2013.
   Afghan reconstruction has reached a critical turning point. The shift in strategy, decline in funding, and persistent
violence and corruption underscore the need for aggressive oversight. SIGAR remains committed to fulfilling its oversight
responsibilities and keeping the Congress and the U.S. public fully informed about the status of this historic effort.

Very respectfully,




Steven J Trent
Acting Special Inspector General for Afghanistan Reconstruction


                                     2530 CRYSTAL DRIVE   ARLINGTON, VIRGINIA 22202
                                   EXECUTIVE SUMMARY




SIGAR ACTIVITIES Q2, FY 2012
This quarter, SIGAR participated in investigations that led to five contracts with $131 million in
unspent funds being terminated for default or voided; recovered $446,000 in stolen fuel; seized
$175,000 in illicit cash; and helped disrupt a bribery scheme at the U.S. Embassy Kabul. Three indi-
viduals who had been convicted of bribery last quarter were sentenced to prison terms and ordered
to pay fines and restitutions totaling $269,000. SIGAR participated in the investigations that led
to their arrests and convictions. In addition, SIGAR issued a management alert letter and testi-
fied before the Congress about the potential for rising security costs as private security contracts
are transitioned to the Afghan Public Protection Force (APPF). Since SIGAR’s last report to the
Congress, it has published three audit reports and announced three new audits.


ALERT LETTER TO USAID                                      STRATEGIC PLANNING GROUP
In March, SIGAR sent a letter to the U.S. Agency for       IDENTIFIES 13 AUDIT PRIORITIES
International Development (USAID) detailing SIGAR’s        This quarter, SIGAR and the Offices of Inspector
concerns that the imminent transition from private         General (OIGs) of the Department of Defense, the
security companies (PSCs) to the state-owned APPF          Department of State, and USAID signed a charter
is likely to increase security costs significantly and     formalizing the new Strategic Planning Group. The
to put 10 major reconstruction projects at risk if the     group is developing a strategic oversight framework
APPF proves unable to provide the required security.       to guide audit and inspection planning. It has identi-
                                                           fied 13 overarching issues that will be the focus of
CONGRESSIONAL TESTIMONY                                    FY 2013 audits and inspections related to recon-
The House Subcommittee on National Security,               struction in Afghanistan.
Homeland Defense, and Foreign Operations invited
SIGAR’s Acting Inspector General, Steven Trent, to         AUDITS
testify about how the dissolution of PSCs would affect     This quarter, SIGAR completed three audit reports.
USAID projects. Mr. Trent noted that the Afghan            One examined the steps that the U.S. Central
decision to disband PSCs will affect all U.S. and inter-   Command’s Joint Theater Support Contracting
national reconstruction programs. Under the original       Command (C-JTSCC) has taken to improve the
two-year transition strategy, the APPF was expected        accuracy of its contract data. The audit examined the
to provide security for all development projects           discrepancies in C-JTSCC’s data to determine how
and convoys by March 20, 2012, and for all military        they occurred, evaluated the measures C-JTSCC had
construction sites and bases by March 2013. Mr. Trent      taken to address the cause of these discrepancies,
emphasized that SIGAR is primarily concerned about         and identified what additional steps, if any, C-JTSCC
increased costs and potential disruption of recon-         needs to take to ensure that contract data is accurate
struction projects.                                        and reliable. Another audit assessed the cost and
                                                           outcomes of the Local Governance and Community
                                                           Development project and evaluated USAID’s oversight
                                                           of the project. The third audit identified the awards
                                                           that USAID has funded for Afghanistan reconstruction




                                      vi
                                   EXECUTIVE SUMMARY




since 2002 and assessed the status of the agency’s         deemed ineligible to receive such contracts. In addi-
financial oversight of its contracts, cooperative agree-   tion, the U.S. Army Corps of Engineers terminated for
ments, and financial instruments.                          default three construction contracts to build facilities
   This quarter, SIGAR announced three new audits,         for the Afghan security forces. These contracts had
two assessing aspects of the U.S. effort to build the      unexpended funds totaling $51 million.
Afghan security forces, and one examining a USAID
agriculture project.                                       Suspensions and Debarments
                                                           This quarter, SIGAR referred 7 cases for suspension
INVESTIGATIONS                                             or debarment, bringing the number of referrals to 88,
During this reporting period, SIGAR’s integrated           as of March 31, 2012. This includes 53 individuals and
approach to detecting and deterring waste, fraud, and      35 companies working on U.S.-funded reconstruction
abuse of U.S. reconstruction funds paid dividends in       programs. As of December 31, 2011, these referrals
three critical areas: protecting U.S. tax dollars from     had resulted in 21 suspensions, 45 proposals for
being wasted, recovering stolen property, and build-       debarment, and 5 finalized debarments. During this
ing cases for criminal prosecution.                        reporting period, SIGAR also prepared documentary
   SIGAR is conducting two programs to protect U.S.        support for proposals to debar companies accused
funds from being wasted. In one, SIGAR investiga-          of theft or poor performance under the Host Nation
tors are working closely with contracting officials to     Trucking Contract, from May 2009 to September 2011
terminate or void contracts that are at risk of wasting    for the shipment of fuel and bulk cargo throughout
significant public funds. In the other, SIGAR’s sus-       Afghanistan.
pensions and debarment program seeks to improve
contractor accountability and to ensure that only          Cash Seizures and Recoveries
responsible and reliable companies receive U.S.-           SIGAR’s collaboration with other federal agents and
funded reconstruction contracts.                           Afghan law enforcement officials led to the seizure of
   This quarter, SIGAR opened 45 new investigations        $175,000 in cash, the recovery of more than $446,000
and closed 7, bringing the number of open investiga-       in stolen fuel, and the repossession of a stolen tanker.
tions to 164. SIGAR works all investigations jointly       Because the U.S. reconstruction effort relies on
with the International Contract Corruption Task            U.S.-funded imports of petroleum products, SIGAR is
Force. SIGAR is the lead agency on 36 of the new           working closely with other federal investigative agen-
cases (80%).                                               cies to detect pilfering. SIGAR is also working with
                                                           federal prosecutors assigned to the Department of
SIGAR Initiative Identifies Poorly Performing              Justice to build criminal cases against individuals and
Contracts                                                  companies stealing fuel.
This quarter, SIGAR investigations led to five con-
tracts being terminated for default or voided. These       Three U.S. Citizens Receive Sentences for Bribery
contracts had unspent funds totaling $131 million.         This quarter, three individuals were sentenced to
Contracting officials voided an $80 million trucking       prison terms and ordered to pay fines and restitu-
contract after investigators provided information          tions totaling $269,000 for the crime of bribery in
indicating that the Afghan-owned company that had          Afghanistan. The three had previously been arrested
been awarded this contract was closely affiliated with     and charged in cases in which SIGAR participated.
another transport company that U.S. officials had




                                                                          vii
TABLE OF CONTENTS




     SECTION 1
     AFGHANISTAN OVERVIEW
     	 3	 The President Requests $9.7 Billion for
          Reconstruction in FY 2013
     	 5	 SIGAR Notes Concerns about the Afghan Public
          Protection Force
     	 8	 General Allen Provides Update on Transition
     	 10	 Task Force 2010 Changes Command
     	 11	 Looking Forward: The NATO Summit and Tokyo
           Donor Conference




     SECTION 2
     SIGAR OVERSIGHT
     	 17	 Audits
     	 31	 Inspections
     	 31	 Investigations
     	 39	 SIGAR Staff




     SECTION 3
     RECONSTRUCTION UPDATE
     	 43	 Overview
     	 47	 Status of Funds
     	 63	 Security
     	 89	 Governance
     119	 Economic and Social Development
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   147	 Completed Oversight Activities
   153	 Ongoing Oversight Activities




   SECTION 5
   APPENDICES
   168	 Appendix A: Cross-Reference of Report to
                    Statutory Requirements
   174	 Appendix B: U.S. Funds for Afghanistan
                    Reconstruction
   176	 Appendix C: SIGAR Audits
   178	 Appendix D: SIGAR Investigations and Hotline
   179	 Appendix E: Abbreviations and Acronyms
The Relationship Remains Strong
ISAF Commander Gen. John R. Allen meets with ANA  	
Maj. Hanifullah Shinwari at Forward Operating Base Marjah
in Helmand during a mission to Regional Command - 	
Southwest on March 5. Credit: U.S. Army photo, MSG 	
Kap Kim.
1
AFGHANISTAN 	
OVERVIEW




     1
                   AFGHANISTAN OVERVIEW




     “Now, each of these events is
       heart wrenching, and my
 thoughts and my prayers go out to
all of those affected by this violence,
   coalition and Afghan alike. But I
      assure you the relationship
    between the coalition and our
         Afghan security forces
            remains strong.”
                                              —General John Allen,
                                                Commander, ISAF




          Source: Gen. John Allen, Testimony before the House Committee on Armed Services, 3/20/2012.




               2                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
During this quarter, which U.S. officials described as “tumultuous” and “trying,”
a series of unfortunate incidents jeopardized the already strained U.S.-Afghan
relationship and hampered the U.S reconstruction effort. 1 These events—the
Koran burning, widespread protests, the massacre of Afghan citizens, the killing
of coalition soldiers by members of the Afghan National Security Forces (ANSF),
and multiple attacks by the insurgents on April 15—left U.S. and Afghan officials
struggling to keep transition plans on track. Other significant developments this
quarter included the following:
•	 The President submitted his FY 2013 budget request, which was about
   34% less than the FY 2012 appropriation for reconstruction funding for
   Afghanistan.
•	 The new Afghan Public Protection Force (APPF) began assuming responsi-
   bility for private security of development projects.
•	 International Security Assistance Forces (ISAF) Commander General Allen
   provided an update to the Congress on transition progress.
•	 Command of Task Force 2010 changed.
•	 The United States and its coalition partners prepared for the upcoming
   NATO summit that will establish a framework for the Alliance’s commitment
   to Afghanistan through the 2014 transition and beyond.

THE PRESIDENT REQUESTS $9.7 BILLION FOR
RECONSTRUCTION IN FY 2013
On February 13, 2012, President Obama submitted his FY 2013 budget to the
Congress, requesting about $12 billion to rebuild Afghanistan, including
$9.7 billion for the major reconstruction funds and $3.3 billion for civilian
operations. The budget divides the $9.7 billion among funds managed by the
Department of Defense (DoD), Department of State (DoS), and the U.S. Agency
for International Development (USAID) to strengthen the Afghan National
Security Forces (ANSF), improve Afghan governing capacity, and promote
economic and social development. This request is 44% less than the $17.4 billion
the President requested for these funds for FY 2012, and about 34% less than the
estimated $14.8 billion the Congress appropriated for these funds this fiscal year.
The decline reflects a major shift in U.S. reconstruction priorities in Afghanistan
as the U.S. government refocuses its resources on transitioning from a military to
civilian-led mission by 2014.



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         3
                                                   AFGHANISTAN OVERVIEW




                                                As of March 31, 2012, the Congress had appropriated $89.4 billion to rebuild
                                            Afghanistan, including civilian operating costs. If the President’s budget is approved,
SIGAR AUDIT                                 it would bring the amount appropriated since 2002 to more than $100 billion.
In its audit of the U.S. civilian uplift,       In his submission to the Congress, the President said that the budget would
SIGAR found that from January through       continue to support the ANSF as they increasingly take responsibility for secu-
June 2011, U.S. agencies had more           rity in Afghanistan. It would also lay the “groundwork to expand the civilian
than tripled the number of civilians        footprint in Afghanistan as U.S. forces draw down and focus civilian assistance
deployed to Afghanistan, at a cost          on foundational investments in economic growth, reconciliation and reintegra-
of nearly $2 billion. For details, see      tion, and capacity building.”  2
SIGAR Audit 11-17, “The U.S. Civilian           In FY 2012, more than 77% of reconstruction funding—$11.2 billion—has been
Uplift in Afghanistan Has Cost Nearly       used to recruit, train, equip, and sustain the ANSF. Under the proposed FY 2013
$2 Billion, and State Should Continue       budget, funding for the ANSF would drop 49% to $5.7 billion; this accounts for
to Strengthen its Management and            most of the decline in the budget request for Afghanistan’s reconstruction. In
Oversight of the Funds Transferred to       the security sector, the budget signals a shift from building the Afghan security
Other Agencies,” which is available at      forces to sustaining them.
the SIGAR website (www.sigar.mil).              To support short-term stabilization and long-term development programs, the
                                            President requested more than $1.8 billion—only slightly less than the estimated
                                            $1.9 billion provided in FY 2012. At the same time, the President’s budget would
                                            maintain other reconstruction funds at the same or slightly higher levels than the
                                            FY 2012 appropriations: the Commander’s Emergency Response Program (CERP),
                                            Afghanistan Infrastructure Fund (AIF), Task Force for Business and Stability
                                            Operations (TFBSO), DoD Drug Interdiction and Counter-Drug Activities (DoD CN)
                                            fund, and International Narcotics Control and Law Enforcement (INCLE) account.
                                                As in FY 2012, the Administration divided its FY 2013 international affairs
                                            budget into two parts: a core budget that reflected “enduring” or “base” needs,
                                            and an Overseas Contingency Operations (OCO) budget that combined extraor-
                                            dinary, temporary costs in Iraq, Afghanistan, and Pakistan. For the second year,
                                            the President has provided a unified OCO budget that amalgamates the requests
                                            for the operations and activities of DoD, DoS, and USAID in these conflict areas.
                                            The OCO budget aligns priority missions across these agencies, including the
                                            U.S. reconstruction of Afghanistan. 3
                                                Of the $1.8 billion that the President is requesting for the Economic Support
                                            Fund (ESF), about $1 billion is for the ESF (OCO) budget, and $811 million is for
                                            the ESF (base) budget. In its budget justification, DoS said that the ESF (OCO)
                                            funds “will support programs linked to stabilization needs, foundational invest-
                                            ments in critical sectors, and capacity building essential for a sustainable transition
                                            of security and governance to the government of Afghanistan.” 4 The base por-
                                            tion of the ESF request will support programs critical to Afghanistan’s long-term
                                            development: economic growth, agriculture, health, education, rule of law, and
                                            governance. 5 Secretary of State Hillary Clinton told the Senate Foreign Relations
                                            Committee that the President’s budget “will support the ongoing transition helping
                                            Afghans take responsibility for their own security and their own future and ensur-
                                            ing that this country is never again a safe haven for terrorists.” 6 Table 1.1 compares
                                            the FY 2012 appropriations and the FY 2013 budget requests, including enduring
                                            and OCO funds, for the major reconstruction programs.



                                               4                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        AFGHANISTAN OVERVIEW




TABLE 1.1

FY 2012 APPROPRIATIONS AND FY 2013 BUDGET REQUESTS
                                  FY 2012 Enacted ($ Millions)            FY 2013 Request ($ Millions)             Change (%)
DoD
ASFF                                                     11,200.0                                  5,749.2                 -48.6
AIF                                                          400.0                                    400.0                  0.0
CERP                                                         400.0                                    425.0                +6.3
DoD CN                                                       381.5                                    405.4                +6.3
  DoD CN (OCO)                                               325.3                                    378.9
  DoD CN (Base)                                               56.2                                     26.5
TFBSO                                                       150.0a                                    179.0               +19.3
DoS/USAID
ESF                                                        1,836.8                                  1,849.3                +0.7
  ESF (OCO)                                                1,836.8                                  1,037.9
  ESF (Base)                                                    0.0                                   811.4
INCLE                                                        324.0                                    600.0               +85.2
  INCLE (OCO)                                                324.0                                    200.0
  INCLE (Base)                                                  0.0                                   400.0
MRA                                                           81.0                                     65.0                -19.8
  MRA (OCO)                                                   20.0                                      0.0
  MRA (Base)                                                  61.0                                     65.0
ECE                                                             7.4                                     8.0                +8.1
  ECE (OCO)                                                     7.4                                       0
  ECE (Base)                                                    0.0                                     8.0
BBG                                                           18.4                                     17.6                  -4.3
  BBG (OCO)                                                     2.2                                     0.0
  BBG (Base)                                                  16.2                                     17.6
Total                                                  14,799.1                                  9,698.5                  -34.5
Notes: Numbers affected by rounding. DoD = Department of Defense. ASFF = Afghanistan Security Forces Fund. AIF = Afghanistan
Infrastructure Fund. CERP = Commander’s Emergency Response Program. DoD CN = Department of Defense Counter-Narcotics. OCO =
Overseas Contingency Operations. TFBSO = Task Force for Business and Stability Operations. DoS = Department of State. USAID = U.S.
Agency for International Development. ESF = Economic Support Fund. INCLE = International Narcotics Control and Law Enforcement.
MRA = Migration and Refugee Assistance. ECE = Education and Cultural Exchange. BBG = Broadcasting Board of Governors.	
a. Excludes “Operations and Maintenance, Army” funds, which are included in TFBSO figures in “Status of Funds” and Appendix B.
Source: OMB, response to SIGAR data call, 4/17/2012.




SIGAR NOTES CONCERNS ABOUT THE AFGHAN PUBLIC
PROTECTION FORCE
This quarter, the APPF, a state-owned enterprise established by the Afghan
government to replace PSCs, began assuming responsibility for providing
security for reconstruction programs. Under a two-year “bridging strategy,” the
Afghan government planned for the APPF to take over security for all interna-
tional development projects and convoys on March 20, 2012, and for all military
construction sites and bases a year later. On March 18, the Afghan government
announced that it had granted 30- to 90-day provisional licenses to some imple-
menting partners to give them time to finalize contracts with the APPF.



                  REPORT TO THE UNITED STATES CONGRESS                       I   APRIL 30, 2012                          5
       AFGHANISTAN OVERVIEW




    SIGAR has completed three audits related to PSCs and is conducting an audit of
the costs of PSCs used by USAID’s implementing partners. On March 9, with the tran-
sition deadline looming, SIGAR alerted USAID to issues raised by its ongoing audit.
SIGAR is primarily concerned about increased costs and the possible disruption or
termination of reconstruction projects if the APPF cannot provide the necessary
security. (For details on SIGAR’s management alert letter, see Section 2.)
    On March 29, 2012, SIGAR’s Acting Inspector General (IG) testified before
the House Committee on Oversight and Government Reform’s Subcommittee on
National Security, Homeland Defense, and Foreign Operations about the poten-
tial impact on reconstruction of the Afghan government’s decision to dissolve
all PSCs and transfer their responsibilities to the APPF. Although the hearing
focused on the immediate effect of the transition on USAID, the largest single
funder of development projects in Afghanistan, SIGAR pointed out that the
Afghan government’s decision to disband PSCs will ultimately affect all U.S. and
international reconstruction programs. For the full testimony, see the SIGAR
website (www.sigar.mil).

Building the APPF
After President Hamid Karzai issued a decree ordering the dissolution of all
domestic and foreign PSCs, the international community and the Afghan govern-
ment developed a strategy to build the new APPF and transition private security
functions to it over two years. In March 2011, an APPF Advisory Group was
tasked to support the development of the APPF. The group consisted of 130 advi-
sors and 40 translators from the NATO Training Mission - Afghanistan (NTM-A)
and the Combined Security Transition Command - Afghanistan (CSTC-A), DoS,
USAID, the Department of Justice, and several other U.S. government agen-
cies. The “bridging strategy” also called for a team of officials from the Afghan
Ministry of Interior, ISAF, and the U.S. Embassy Kabul to conduct assessments
after six months and every three months thereafter to determine whether the
APPF has the capability to provide the necessary security services as the transi-
tion progresses.
   The six-month assessment, which was completed in September 2011, raised
significant questions about the APPF’s ability to provide the necessary security
for reconstruction projects. A second joint Afghan and U.S. government assess-
ment was conducted in December 2011, but its findings have not been released.
A third assessment was supposed to take place in this quarter, in March, but had
not been completed at press time.

The Six-Month Assessment
The six-month assessment found that the APPF did not have sufficient capacity
or capability to perform six essential tasks and met only 46 of 166 transition-
readiness standards. It concluded that the APPF was not on track to assume
PSC responsibilities by March 20, 2012. The assessment team made a number of
urgent recommendations, including the following:




   6               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




•	 Establish a framework to manage the business functions inherent in transi-
   tioning and executing the security service contracts.
•	 Develop a phased plan and implementation guidance to transition PSC con-
   tracts, people, and equipment to the APPF.
•	 Provide an operating budget to support APPF development and initial busi-
   ness costs.
•	 Recruit and train personnel and provide resources for the APPF headquar-
   ters, the APPF Training Center, and the zone/provincial headquarters.
•	 Approve the charter for the state-owned enterprise.
•	 Develop command and control, and operational procedures for convoy secu-
   rity and personnel security details.
   The assessment noted that the risk for Afghanistan of not accomplishing these
tasks was “the possible loss of billions of dollars in development projects, loss of
revenue and jobs, a diversion of counter-insurgency forces to self-security roles,
and general lack of confidence by the international community and Afghans alike
in the ability of the Government to provide security.” It added, “A commitment by
the GIRoA and specifically the Ministry of Interior is essential in order to expedi-
tiously develop the capability and capacity of the APPF to provide the security
services acceptable to the international community.” 7

The APPF Is Evolving
During this transition period, the APPF has been continually adapting to meet
the needs of the international community. For example, in January 2012, in
response to U.S. and coalition concerns about the capabilities and management
of APPF guards, President Karzai authorized the creation of risk management
companies (RMCs) to provide advice on security issues. A PSC corporate entity
may disband or establish a new legal corporate entity and apply for a license as
an RMC. A single corporate entity may not hold both a PSC license and an RMC
license. The RMCs may not provide security services, but they may provide secu-
rity consulting services and on-site training of APPF guards. The regulations also
permit them to carry light arms for self-defense. Moreover, the regulations allow
them to assist an implementing partner in contracting for security services with
the APPF. The Afghan government is charging international RMCs $124,000 for a
license to operate. These companies must also post a bond of about $300,000.
    The APPF employs personnel who voluntarily transfer from their current jobs
with PSCs; it is also recruiting and training new guards. Those who have been
trained and certified by PSC employers are assumed to have been trained and
thus do not have to attend training at the APPF Training Center. At the end of
2011, the APPF reported having authorized 6,558 of the 11,000 trained security
personnel that the advisory group estimated it needed to provide security for
development projects and convoys. The APPF’s goal is to have 25,000 guards on
its roster by March 2013.
    In March 2012, the APPF reported it had signed 18 contracts to provide guard
services for development activities and issued licenses to 12 RMCs. However,




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         7
       AFGHANISTAN OVERVIEW




as SIGAR’s Acting IG told the Congress, “the current rush to establish contracts
with the APPF is not the end game.” 8 The real test is whether the APPF can pro-
vide the security required to implement reconstruction projects.

SIGAR To Conduct Additional Audits
The transition to the APPF poses a significant challenge to the reconstruction
effort. SIGAR’s audit work highlights a number of factors that make the transi-
tion particularly difficult—increased costs, difficulty complying with changing
rules and regulations, and the lack of U.S. control over the current process. U.S.
government agencies are making concerted efforts to comply with the man-
date to transition security services from PSCs to an Afghan government entity.
The APPF Advisory Group, for example, has worked closely with the APPF to
develop a template for contracting with USAID implementing partners. However,
it is too early to assess whether the work of agencies like USAID will be enough
to enable security to transition to the APPF without adversely affecting the
reconstruction effort.
    Because successful reconstruction depends on the capability of the APPF to
provide security services, SIGAR will begin two additional audits later this year.
One will assess the security costs of transitioning PSCs that currently provide
security services for projects funded through the DoD-managed Afghanistan
Security Forces Fund (ASFF). The Congress has appropriated more than half of
all U.S. reconstruction dollars to the ASFF, which supports the ANSF. SIGAR will
also be conducting an audit to examine costs and other issues related to the tran-
sition of PSCs to the APPF and its effect on U.S.-funded reconstruction projects.
    SIGAR will continue to closely monitor the transition to the APPF, assess
transition outcomes, and keep key policy and decision makers informed about
the results of its work.

GENERAL ALLEN PROVIDES UPDATE ON TRANSITION
This quarter, ISAF Commander General John Allen sought to reassure the
Congress that the United States and its coalition partners were on track to com-
plete the transition of security responsibilities to the ANSF by December 2014. He
acknowledged that “the last couple of months have been trying,” but he said, “the
relationship between the coalition and the Afghan security forces remains strong.” 9
   General Allen told the Congress that over the last year the ANSF had
expanded from 276,000 to 330,000 and would reach its full strength of 352,000
before October 2012. He said that the Afghan security forces were becoming
increasingly professional and capable of providing security for their country.
According to General Allen, these forces have taken the lead in more than 42% of
the joint operations conducted over the last five months. He said, “As they move
to the fore, they are gaining more and more confidence and they’re gaining more
and more capability.” General Allen told the Congress that over the next two
years, coalition forces would remain combat-ready “but increasingly focused on
security force assistance and supporting Afghan combat operations.” 10




   8                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                               AFGHANISTAN OVERVIEW




ISAF Commander Gen. John R. Allen appeared before the Congress on March 20 to report on
the transition of responsibility for security to the ANSF by December 2014. Gen. Allen testified
that Afghan security forces are becoming increasingly professional and capable of providing
security for their country. Credit: U.S. Army photo, MSG Kap Kim.


   General Allen said the transition is proceeding in five tranches across the
country. The first phase began in July 2011; the second phase, in December 2011;
U.S. and Afghan authorities are deliberating on when to begin the third phase.
General Allen said he expected that President Karzai will announce the transition
of the fifth tranche in summer 2013. 11
   General Allen also pointed out that the transition plan faces serious long-term
challenges from resilient terrorist networks and from government corruption. He
said that the Taliban remains a “resilient and determined enemy” and predicted
that insurgents would try to regain lost ground through assassination, intimida-
tion, high-profile attacks, and improvised explosive devices. He added, “We know
that corruption still robs Afghan citizens of their faith in their government and
that poor governance itself often advances insurgent messages.” 12
   During his testimony, General Allen highlighted the roles of two military orga-
nizations established in 2010 to prevent and combat corruption—the Combined
Joint Inter-agency Task Force−Shafafiyat (transparency) and Task Force 2010.
Task Force Shafafiyat works with Afghan and coalition law enforcement person-
nel to identify corrupt activities and coordinate anti-corruption efforts. Task
Force 2010 was established in July 2010 to track the flow of contracting dollars
through the Afghan economy and prevent U.S.-funded contracts from inadver-
tently enriching power brokers, criminals, and insurgents. SIGAR is working
closely with both Task Force Shafafiyat and Task Force 2010.



              REPORT TO THE UNITED STATES CONGRESS        I   APRIL 30, 2012               9
     AFGHANISTAN OVERVIEW




TASK FORCE 2010 CHANGES COMMAND
During this reporting period, Major General Richard Longo replaced Brigadier
General Ross Ridge as the commander of Task Force 2010. The task force falls
under the authority of U.S. Forces - Afghanistan. It leverages intelligence, law
enforcement, and forensic investigations to (1) gain visibility over subcontrac-
tors, (2) identify accountability issues, and (3) determine what action needs to be
taken to mitigate financial risks and other threats to coalition forces.
   According to task force officials, since its inception Task Force 2010 has
reviewed 2,000 contracts, contract modifications, and cooperative agreements to
identify connections to criminal networks and insurgent groups. Based on these
reviews, the task force has made hundreds of recommendations to command-
ers to mitigate risk. Task force officials estimate that commanders have saved
about $1.2 billion by implementing these recommendations. Equally important,
task force officials say that preventive measures have minimized the potential
of contracting funds going to criminal elements and unscrupulous vendors.
These measures have also prevented projects from failing and helped ensure
that U.S. contracting officials and contractors are following proper accounting
procedures.
   Task Force 2010 has reported recovering more than 290,000 stolen military
items valued at $180 million since January 2011. Working jointly with U.S. and
Afghan law enforcement entities, the task force has recovered this property
through undercover sting operations, targeted raids, and container recovery
missions. SIGAR, the International Contract Corruption Task Force, and the
Criminal Investigation Task Force at Fort Belvoir in Virginia have supported Task
Force 2010 in these efforts.
   In a major effort to improve accountability of transportation contracts, Task
Force 2010 also helped the Joint Support Theater Contracting Command estab-
lish the National Afghan Trucking Contract to replace the Host Nation Trucking
Contract in September 2011. During the first 90 days of the new contract, the U.S.
government spent $38.5 million less than during the same period in 2010. The task
force is continuing to work with SIGAR, the Department of Justice, and the Defense
Criminal Investigative Service to pursue civil forfeiture and asset seizure actions
against companies that had contracts under the Host Nation Trucking Contract.
   Task Force 2010 has taken a number of steps to institute best practices for
contingency contracting and to propose reforms that would improve regulations
and policies related to contracting. For example, the task force worked closely
with DoD’s Office for Procurement and Acquisition Policy to propose legislation
that would give contracting entities the authority to rescind or void contracts with
companies that clearly associated with enemy groups. The Congress incorporated
these changes in the National Defense Authorization Act for FY 2012.
   SIGAR has a special agent assigned to the task force. SIGAR investigators
have also collaborated with Task Force 2010 under Brigadier General Ridge to
document and prepare nearly 100 proposals for suspensions and debarments




  10                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




over the last 18 months. Brigadier General Ridge, who has been nominated for
promotion to Major General, will become the new Deputy Inspector General of
the Army. SIGAR looks forward to continuing to work closely with Task Force
2010 under Major General Longo.

LOOKING FORWARD: THE NATO SUMMIT AND TOKYO DONOR
CONFERENCE
During this reporting period, the United States and its coalition partners
prepared for two major meetings that will define international support for
Afghanistan through the transition in 2014 and beyond: the NATO Summit in May
and the Tokyo Conference in July. These meetings will establish a framework for
international security and development assistance for the future.
   More than 50 heads of state will attend the May 20–21 NATO Summit in
Chicago to evaluate the status of the security transition in Afghanistan and pres-
ent a plan for continued funding of the ANSF. Although NATO has expressed
a determination to support Afghanistan after the security transition has been
completed, the summit is expected to identify the resources required as U.S. and
NATO combat troops withdraw. A major topic will be the projected size of the
ANSF. This quarter, U.S., coalition, and Afghan officials all acknowledged that
the force strengths of the Afghan National Army and the Afghan National Police
will likely be reduced after the transition. In his congressional testimony, General
Allen said he expected the forces to draw down to approximately 230,000 by
around 2017, depending on the security situation in Afghanistan.
   In July, Japan will host a donor’s conference to assess Afghanistan’s develop-
ment needs beyond 2014. During this reporting period, Afghanistan’s Ministry of
Finance has held several meetings with representatives of other Afghan institu-
tions and with international partners to establish Afghan priorities for the Tokyo
Conference. Both the Afghan government and the international donor commu-
nity are particularly concerned about how the withdrawal of international forces
is going to affect the Afghan economy.
   Last quarter, the Afghan government outlined its economic transitions strat-
egy in a report, entitled “Towards a Self-Sustaining Afghanistan.” It analyzed the
economic impact of the military drawdown, promised government reform, and
called for continued international support of the country’s national priority pro-
grams in the key sectors of security, governance, and development. The Afghan
government said it must look to donors to help finance government operations,
development programs, and the cost of its security forces until 2030. 13 The
Afghan government is looking to the NATO Summit and the Tokyo Conference to
build an international consensus for this long-term support.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         11
                                                           ENDNOTES




1. 	   Dr. James Miller, Acting Under Secretary of Defense for Policy, Testimony before the Senate Armed Services Committee, 3/22/2012.
2. 	   Gen. Allen, Testimony before the Senate Armed Services Committee, 3/22/2012.
3. 	   OMB, Fiscal Year 2013 Budget of the U.S. Government, 2/13/2012, p. 90.
4. 	   DoS, FY 2013 Budget.
5. 	   DoS, FY 2013 Budget.
6. 	   Secretary of State Hillary Clinton, Testimony before the Senate Foreign Relations Committee, Hearing on the FY 2013 Budget Proposal for the
       State Department and International Operations, 2/28/2012.
7. 	   U.S.-GIRoA, “Final Report of the 6-Month Assessment of the Bridging Strategy for Implementation of Presidential Decree 62 (Dissolution of
       Private Security Companies), Bridging Period 3/22/2011 to 3/20/2012.”
8. 	   SIGAR, Testimony before the House Subcommittee on National Security, Homeland Defense, and Foreign Operations, 3/29/2012.
9. 	   Gen. Allen, Testimony before the Senate Armed Services Committee, 3/22/2012.
10. 	 Gen. Allen, Testimony before the Senate Armed Services Committee, 3/22/2012.
11. 	 Gen. Allen, Testimony before the Senate Armed Services Committee, 3/22/2012.
12. 	 Gen. Allen, Testimony before the Senate Armed Services Committee, 3/22/2012.
13. 	 GIRoA, “Towards a Self-Sustaining Afghanistan,” 11/29/2011.




                                                     12                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
Building the Capacity To Heal
An Afghan anesthesiologist applies a cast to the arm of a
member of the 67th Forward Surgical Team (Airborne). The
surgical team and PRT Farah conducted a class for Afghan
medical providers at Farah City Hospital on February 11.
Credit: ISAF photo, 1st Lt. Mark Graff.
2
SIGAR 	
OVERSIGHT




    15
       SIGAR OVERSIGHT




  “As a result of our prior and
ongoing audit work and discus-
  sions with U.S. government
officials and contractors, SIGAR
has a number of concerns about
security costs and the ability of
 U.S. agencies and their imple-
menting partners to successfully
provide and oversee the neces-
sary security for reconstruction
            projects.”
—Steven J Trent, Acting Special Inspector
 General for Afghanistan Reconstruction




       Source: House Oversight and Government Reform Subcommittee on National Security, Homeland Defense, and Foreign Operations,
       “Statement of the Acting Special Inspector General for Afghanistan Reconstruction Steven J Trent,” 3/29/2012.




           16                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




                                                                                     COMPLETED AUDITS
SIGAR OVERSIGHT                                                                      ··Audit 12-7: Reliability of Data on Prime
                                                                                      Reconstruction Vendors.
                                                                                     ··Audit 12-8: USAID Contracts for LGCD
                                                                                      Project.
During this reporting period, SIGAR prevented taxpayer dollars from being
                                                                                     ··Audit 12-9: USAID’s Financial Audit
wasted, recovered cash and stolen property, identified issues that need to be         Coverage of Incurred Costs.
addressed to protect reconstruction funds, and worked with the oversight
community to develop a strategic framework for audits and inspections in the
                                                                                     NEW AUDITS
upcoming fiscal year. Acting Inspector General Steven Trent provided testimony
to the Congress. SIGAR highlights this quarter include the following:                ··ANA Logistics Capability for Petroleum,
                                                                                      Oil, and Lubricants.
•	 issued a management alert letter and testified before the Congress concern-
    ing the increasing security costs for development projects that may result       ··Construction of ANA Facility in Badghis
                                                                                      Province.
    from the transition of private security responsibilities to the Afghan Public
    Protection Force (APPF).                                                         ··USAID’s Partnership with International
                                                                                      Relief and Development, Inc.
•	 completed three audits addressing the reliability of U.S. Central Command
    (CENTCOM) contract data, a $400 million U.S. Agency for International
    Development (USAID) local governance and development program, and                ONGOING AUDITS
    USAID’s financial oversight of its contracts.                                    ··USAID’s Task Order in Support of
•	 conducted investigations that led to contracts with $131 million in unspent        Afghanistan Stabilization Initiative.
    funds being terminated for default or voided.                                    ··USACE O&M Contracts for ANSF
•	 recovered $446,000 in stolen fuel and $175,000 in cash.                            Facilities.
•	 participated in investigations that resulted in three individuals being sen-      ··USAID’s Costs for Private Security
    tenced to prison and penalized with fines and restitutions totaling $269,000.     Support Services.
•	 helped disrupt a bribery scheme at the U.S. Embassy Kabul in coordination         ··Outcomes of DoS Public Diplomacy
    with partners from the International Contract Corruption Task Force (ICCTF).      Grants.
                                                                                     ··Oversight of A-TEMP for the ANP.
AUDITS                                                                               ··Implementation of the AIP.
This quarter, SIGAR sent a management alert letter to USAID about the potential
rise in security costs resulting from the Afghan government’s decision to dissolve   ONGOING INSPECTIONS
private security companies (PSCs) and transition their responsibilities to the       ··Four USACE Construction Projects.
APPF. This critical issue was a focus of the IG’s testimony.
   Also this quarter, SIGAR and the Offices of Inspector General (OIGs) of the       FORENSIC AUDITS
Department of Defense (DoD), Department of State (DoS), and USAID agreed to
                                                                                     ··DoD Transaction Data Related to
develop a joint oversight plan for audits and inspections focusing on 13 strategic    Reconstruction.
issues that are fundamental to the U.S. reconstruction effort.
                                                                                     ··USAID Transaction Data Related to
   Since its last report to the Congress, SIGAR completed 3 audit reports and         Reconstruction.
announced 3 new audits, bringing the number of ongoing audits to 12, including
                                                                                     ··DoS Transaction Data Related to
3 forensic reviews of the major reconstruction funds. SIGAR also has 4 ongo-          Reconstruction.
ing inspections. The audit reports published this quarter examine the reliability




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       17
SIGAR OVERSIGHT




of DoD contract data, assess USAID’s $400 million Local Governance and
Community Development (LGCD) project, and evaluate the status of USAID’s
financial oversight of its contracts, cooperative agreements, and other financial
instruments.

Management Alert Letter to USAID
On March 9, 2012, SIGAR provided a management alert letter to USAID that
(1) detailed SIGAR’s concerns about the imminent transition from PSCs to the
APPF and (2) offered suggestions to mitigate the risks the transition poses to
U.S. reconstruction projects. U.S. agencies and their implementing partners have
depended on PSCs to provide security for reconstruction programs. The Afghan
government planned for the APPF to assume PSC responsibilities for all inter-
national development projects and convoys on March 20, 2012. On March 18,
the Afghan government announced that it had granted 30- to 90-day provisional
licenses to some implementing partners to give them time to finalize contracts
with the APPF.
    While conducting an audit of the costs associated with PSCs used by USAID
and its implementing partners for FY 2009 through FY 2011, SIGAR identified
three major issues:
 •	 The transition to the APPF may raise labor costs for Afghan security guards
    by as much as 46%, and labor costs for expatriate security personnel by as
    much as 200%.
 •	 At least 10 ongoing USAID projects valued at about $899 million were at risk
    of termination if the APPF cannot provide the needed security.
 •	 Four PSCs working on USAID projects were not properly licensed by the
    Afghan government.
    SIGAR made the following suggestions to help address these three issues:
•	 USAID should analyze security costs for projects that are to continue after
    the transition and determine whether funding will be available to cover
    increased costs. SIGAR also encouraged USAID to include security costs as a
    factor in the decision to award future contracts, cooperative agreements, and
    grants.
•	 If the APPF is unable to provide adequate security services, USAID should
    plan for the full or partial termination of as many as 29 projects.
•	 USAID should ensure that its implementing partners are in full compliance
    with Afghan regulations on the provision of security for projects and on
    implementing partners’ personnel.
In response to SIGAR’s letter, the USAID Mission Director in Afghanistan
acknowledged the issues that SIGAR identified but questioned their scope and
magnitude. SIGAR provided additional comments in support of its findings. The
Congress invited SIGAR and USAID to testify about how the Afghan govern-
ment’s decision to dissolve PSCs and transfer their responsibilities to the APPF
would affect USAID’s reconstruction projects.




  18               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                SIGAR OVERSIGHT




SIGAR’s Acting Inspector General, Steven J Trent, testifies before the Congress on March
29 about a number of concerns that SIGAR identified relating to the transition from private
security companies to the APPF. Credit: Courtesy of House Subcommittee on National Security,
Homeland Defense, and Foreign Operations.


SIGAR Testifies Before the Congress
On March 29, 2012, Acting Inspector General Steven Trent appeared before
the House Committee on Oversight and Government Reform’s Subcommittee
on National Security, Homeland Defense, and Foreign Operations to discuss
changes in Afghanistan’s PSC policies and their impact on USAID reconstruction
projects and personnel in Afghanistan. He noted that Afghan President Hamid
Karzai’s decision to disband PSCs and transfer their responsibilities to an Afghan
state-owned enterprise—the APPF—will ultimately have an impact on all U.S.
and international reconstruction programs. Under a two-year “bridging strategy,”
the APPF was to provide security for all development projects and convoys by
March 20, 2012, and for all military construction sites and bases by March 2013.
On March 18, two days before the deadline for the transition, the Afghan govern-
ment announced that it had granted 30- to 90-day provisional licenses to some
implementing partners to give them time to finalize contracts with the APPF.
   The transition most immediately affects USAID, which is the single larg-
est funder of development projects in Afghanistan. Mr. Trent emphasized that
SIGAR’s primary concerns are increased costs and the possible disruption or
termination of reconstruction projects if the APPF cannot provide the neces-
sary security. He said that SIGAR has more questions than answers about how
the APPF will operate. The bridging strategy called for developmental assess-
ments of the APPF at the 6-, 9-, and 12-month marks. The 6-month assessment,



             REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2012             19
SIGAR OVERSIGHT




completed in September 2011, found that the APPF was not ready to assume
any of the essential PSC responsibilities to meet contract requirements—such
as training, equipping, and deploying guard forces. Mr. Trent pointed out that the
December assessment, which would have been at the 9-month mark, has not yet
been made public and that the deadline for the 12-month assessment has passed.
The questions raised by the 6-month assessment of the APPF’s capability still
need to be addressed.
   SIGAR had suggested that USAID determine whether funding will be available
to cover additional security costs for projects that will continue after the transi-
tion and that the agency assess the effect that increased security costs will have
on project implementation. SIGAR also had suggested that USAID “carefully and
objectively consider whether the expected benefits of a reconstruction project
outweigh the rising costs of security.”
   Mr. Trent assured the Congress that SIGAR would continue to closely monitor
the transition to the APPF, assess transition outcomes, and keep key policy mak-
ers and decision makers informed about the results of its work.

Strategic Planning Group Identifies 13 Oversight Priorities
This quarter, SIGAR, DoD OIG, DoS OIG, and USAID OIG signed a charter for-
malizing the Strategic Planning Group and its commitment to develop a strategic
oversight framework to guide audit and inspection planning for the reconstruc-
tion effort in Afghanistan. The group identified 13 overarching strategic issues
that will be the focus of audits and inspections for FY 2013:
•	 building the capacity and capabilities of the Afghan National Security
    Forces (ANSF)
•	 ensuring accountability and proper financial management of the Afghanistan
    Security Forces Fund (ASFF)
•	 building Afghan governance capacity
•	 ensuring the sustainability of Afghan programs and infrastructure
•	 increasing revenue generation within the Afghan government
•	 implementing civil service and pay reforms within the Afghan government
•	 planning and coordinating U.S. assistance programs
•	 supporting electoral reforms and preparation for the 2014 presidential
    election
•	 executing and sustaining counter-narcotics programs
•	 expanding the capacity of the overall justice system
•	 implementing anti-corruption initiatives
•	 ensuring good stewardship of direct assistance funds
•	 overseeing contract awards and administration
SIGAR, DoD OIG, DoS OIG, and USAID OIG are preparing a strategic oversight
plan that will define the strategic issues and their importance to the achievement
of the U.S. government’s objectives in Afghanistan. The OIGs will use this plan,
to be released in June 2012, as a strategic guide for developing audits and inspec-
tions for the FY 2013 Comprehensive Oversight Plan for Southwest Asia.




  20                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               SIGAR OVERSIGHT




Completed Audit Reports
This quarter, SIGAR completed 3 audit reports. They examined the reliability                  COMPLETED AUDITS
of DoD contract data, assessed a USAID project, and evaluated the status of
USAID’s financial oversight of its contracts, cooperative agreements, and other
                                                                                              ··Audit 12-7: C-JTSCC Has Taken Steps
                                                                                               To Improve the Accuracy of Its Contract
financial instruments.                                                                         Data, But Should Assess the Feasibility
                                                                                               of Correcting its Data for Fiscal Year
Audit 12-7: Agency Oversight                                                                   2009 and Earlier.
C-JTSCC Has Taken Steps To Improve the Accuracy of Its Contract Data, But Should Assess the
Feasibility of Correcting its Data for Fiscal Year 2009 and Earlier                           ··Audit 12-8: USAID Spent Almost $400
                                                                                               Million on an Afghan Stabilization Project
Since 2001, the United States has provided more than $85.5 billion to DoD, DoS,                Despite Uncertain Results, But Has Taken
USAID, and other U.S. agencies for the reconstruction of Afghanistan. Within                   Steps To Better Assess Similar Efforts.
DoD, numerous contracting authorities, including the U.S. Central Command’s
                                                                                              ··Audit 12-9: USAID Has Disbursed
(CENTCOM) Joint Theater Support Contracting Command (C-JTSCC), use                             $9.5 Billion for Reconstruction and
reconstruction funds to implement security and development assistance projects.                Funded Some Financial Audits as
   In 2010, C-JTSCC reported to SIGAR that it obligated about $6.7 billion from                Required, But Many Audits Face
reconstruction funds to contracts from FY 2007 through FY 2009. In June 2011,                  Significant Delays, Accountability
the Congress questioned the accuracy of C-JTSCC’s FY 2009 data after observing                 Limitations, and Lack of Resources.
that the reported obligations for two contractors appeared overstated. C-JTSCC
later confirmed that data was inaccurate—in the case of one contractor, the
reported data overstated obligations by 38 times.

OBJECTIVES
This audit had three objectives:
•	 Examine the discrepancies in C-JTSCC’s data to determine how they occurred.
•	 Evaluate the measures C-JTSCC had taken to address the cause of these
   discrepancies.
•	 Identify what additional steps, if any, C-JTSCC needs to take to ensure the
   accuracy and reliability of contract data.

FINDINGS
1.	 C-JTSCC officials reported that the query used to generate the data provided
    to SIGAR in 2010 had design flaws that resulted in C-JTSCC overstating its
    FY 2009 contract obligations by about $2.6 billion. Moreover, C-JTSCC’s data
    included contracts funded from sources other than reconstruction funds.
    Although contracting officials are supposed to identify the source of funds
    for a contract, SIGAR found that 5,600 of the 14,700 contract records it
    reviewed did not provide a funding source.
2.	 C-JTSCC has taken a number of steps to improve its ability to report accu-
    rate data. C-JTSCC officials must now complete a training course in query
    design prior to accessing procurement data systems. C-JTSCC also imple-
    mented a three-level process to review data prior to providing information
    to external customers. In addition, C-JTSCC increased the frequency of
    program management reviews and finalized policies and procedures to stan-
    dardize data entry.




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2012            21
SIGAR OVERSIGHT




3.	 Although C-JTSCC took steps in FY 2010 to help minimize long-standing
    data entry errors, it had not corrected the information entered into its data-
    base for FY 2009 and earlier. As of October 2011, C-JTSCC had more than
    3,600 active contracts for which more than $1 billion had been obligated in
    FY 2009.

RECOMMENDATION
Because C-JTSCC implemented measures to improve the accuracy of its data
queries, SIGAR did not make any recommendations in this area. However,
C-JTSCC had not taken any action to correct its contract data for FY 2009 and
before. Therefore, SIGAR made one recommendation that the CENTCOM
Commander direct the C-JTSCC Commander to take the following action:
1.	 Assess the feasibility of and the time and resources required to correct
    C-JTSCC’s contract records for FY 2009 and earlier years. If the assessment
    determines that prior years’ records cannot be corrected or the expense is
    not worth the effort, C-JTSCC should notify those who use its databases
    that its historical records are not reliable. In addition, C-JTSCC should
    report to the Office of Federal Procurement Policy and the General Services
    Administration that its FY 2009 and earlier records may not be accurate.

AGENCY COMMENTS
Overall, C-JTSCC concurred with SIGAR’s recommendation and reported that it
has taken steps to determine the feasibility of correcting its data for FY 2009 and
previous years.

Audit 12-8: Governance and Economic Development
USAID Spent Almost $400 Million on an Afghan Stabilization Project Despite Uncertain
Results, But Has Taken Steps To Better Assess Similar Efforts
In October 2006, USAID awarded two task orders to Development Alternatives,
Inc. (DAI) and Associates in Rural Development (ARD) to implement the Local
Governance and Community Development (LGCD) program in Afghanistan.
Although the LGCD changed over time, it was designed to contribute to the
creation of a stable environment for medium- and long-term political, economic,
and social development. Since September 2003, USAID has obligated more than
$1.1 billion for 20 major contracts or grants that supported stabilization efforts.
As of September 2011, USAID had expended about $373 million for the LGCD.
This LGCD has ended, but USAID is continuing to support stabilization efforts,
including two contracts totaling $151 million for the Stabilization in Key Areas
(SIKA) program.

OBJECTIVES
This audit had two objectives:
•	 Assess the cost and outcomes of the LGCD program.
•	 Evaluate USAID oversight of the project.




  22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




FINDINGS
1.	 USAID increased the LGCD’s funding and extended the life of this program
    despite project delays, unexpectedly high contractor operating costs, dif-
    ficulty setting and measuring program outcomes, and indications that the
    program had mixed results, at best. USAID initially approved a funding
    ceiling of $150 million that was to last no more than three years; however,
    USAID increased funding for LGCD to nearly $400 million and extended the
    project by almost two years. The LGCD posed a number of challenges for
    USAID. Less than half of all LGCD funds were spent on subproject activity,
    even though the original task orders called for the majority of funds to be
    spent for that purpose. USAID also had difficulty determining the effective-
    ness of the program and, over time, changed its expectations of what it could
    achieve. Available evaluations of the program indicated that it had mixed
    results. For example, USAID requested an independent evaluation that found
    that the LGCD program had pockets of success but had not met its overarch-
    ing goals of extending the legitimacy of the Afghan government, bringing the
    government closer to the people, or fostering stability.
2.	 Travel and other security restrictions hindered USAID’s ability to monitor
    the LGCD program. The U.S. government accepts a certain amount of risk in
    undertaking programs like the LGCD. This makes it particularly important
    that implementing agencies obtain supporting data from contractors for
    their invoices and that independent financial audits are conducted. However,
    SIGAR found that the LGCD task orders and related contracts did not require
    contractors to submit supporting documentation for their invoices. In addi-
    tion, USAID only recently committed to contract for a financial audit of the
    LGCD projects. That audit is scheduled to occur in 2012.

RECOMMENDATION
SIGAR remains concerned about the extent to which USAID will successfully
define and measure outcomes for its stabilization activities. However, because
USAID has issued a Request for Task Order Proposal to measure the impact of
stabilization initiatives and review previous and ongoing stabilization efforts,
among other things, SIGAR did not make any recommendations related to this
issue.
    To strengthen oversight of contractor costs and allow the Contracting Officer’s
Representative to link invoiced costs to the goods and services intended to be
provided, SIGAR recommended that the USAID Mission Director in Afghanistan
take the following action:
 1.	 Direct contracting officers to ensure that the SIKA contract and others, as
     appropriate, require contractors to provide complete supporting detail with
     invoices.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        23
SIGAR OVERSIGHT




AGENCY COMMENTS
In commenting on a draft of the audit report, USAID stated that its current policy
guidance already addresses SIGAR’s concern about strengthening oversight of
contractor costs. However, USAID’s policy guidance depends on annual audits of
contractors’ costs to provide reasonable assurance that contractors are claiming
only eligible, supported costs for reimbursement. Because USAID has a signifi-
cant backlog of audits of contractor-incurred costs, relying on this policy is not
sufficient for addressing SIGAR’s concerns. In programs like the LGCD, the risk
that the U.S. government accepts is particularly high. Therefore, additional cost
verification measures are necessary. USAID further stated that if SIGAR retained
the recommendation, it should be addressed to the USAID Administrator
because it pertains to the entire agency. Although the recommendation may have
broader applicability, SIGAR addressed it to the mission level because of the
unique risks posed by stabilization programs, such as the LGCD, in Afghanistan.
Therefore, SIGAR kept the recommendation addressed to the Mission Director.
If USAID believes that the recommendation has broader applicability, SIGAR
welcomes USAID’s efforts to apply it throughout the agency.

Audit 12-9: Agency Oversight
USAID Has Disbursed $9.5 Billion for Reconstruction and Funded Some Financial Audits as
Required, But Many Audits Face Significant Delays, Accountability Limitations, and Lack of
Resources
Since 2002, USAID has awarded $15.2 billion in Afghan reconstruction funds
to its implementing partners through 305 contracts, grants, cooperative agree-
ments, and other funding mechanisms worth more than $100,000 each. Financial
audits of funds expended under such awards provide USAID with independent
assessments of how those funds were used. Ensuring that financial audits are
conducted in a timely manner is critical to provide accountability over recon-
struction funds in Afghanistan, where USAID has experienced challenges in
monitoring program implementation. Moreover, financial audits of award recipi-
ents often result in savings to the U.S. government by identifying costs that may
be disallowed and recovered because they do not comply with the terms of an
award, lack adequate supporting documentation, are not allowable to a specific
program, or are deemed unreasonable. SIGAR sampled $2.4 billion of the
$9.5 billion disbursed by USAID.

OBJECTIVES
This audit had two objectives:
•	 Identify the awards that USAID has funded for Afghanistan reconstruction
   since 2002.
•	 Assess the extent to which financial audit requirements had been met for the
   various types of awards and implementing partners.




  24                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




FINDINGS
1.	 Since 2002, USAID has made 305 awards with a total estimated value of
    $15.2 billion to 149 implementing partners to fund reconstruction activities
    in Afghanistan. As of September 30, 2011, USAID had disbursed $9.5 bil-
    lion through these awards, which included 136 contracts and task orders,
    93 cooperative agreements, 53 grants, and 23 inter-agency agreements. The
    majority of USAID funding has gone to U.S. contractors, U.S. nonprofit
    organizations, and multilateral organizations. Ten implementing partners
    accounted for about 70% of total USAID funding.
2.	 Based on SIGAR’s sample of 64 awards, SIGAR found a number of issues
    with USAID’s financial oversight:
     •	 Incurred-cost audits of U.S.-based contractors were delayed because of
        a backlog of such audits caused by understaffing at the Defense Contract
        Audit Agency (DCAA) and lack of funding by USAID. As a result, nearly
        $1.1 billion disbursed by USAID since 2003 to the 13 U.S. contractors
        in the sample had not been audited by DCAA as of September 30, 2011.
        Annual audits of U.S.-based nonprofit organizations were conducted in
        accordance with Office of Management and Budget Circular A-133, but
        many did not include specific USAID Afghanistan awards, thereby provid-
        ing limited accountability over reconstruction funds.
     •	 Annual financial audits of awards to multilateral organizations and other
        non-U.S. entities were often conducted. However, in some instances,
        these audits only partially met requirements, or the results were not pro-
        vided to USAID.
     •	 Audit requirements for funds provided to other U.S. agencies were vague,
        or audits were not required in many cases.
     •	 Although the majority of the 305 awards had been completed or had
        expired as of September 30, 2011, most had not been closed, partly
        because of delays in conducting close-out audits as required. Therefore,
        USAID lacked assurance over the use and disposition of its funds and
        property for completed or expired awards. Not closing the awards also
        delayed the potential recovery of $103 million in unliquidated obligations
        and $27.3 million in unpaid cost share, which are resources that the imple-
        menting partner is responsible for providing.
     •	 Finally, although as much as half of the funds that USAID provides for
        contracts, grants, and cooperative agreements may flow down to sub-
        recipients, USAID lacked transparency with regard to whether financial
        audits of sub-awards were being conducted as required.

RECOMMENDATIONS
To improve financial audit coverage of U.S.-based contractors, SIGAR recom-
mended that the Administrator of USAID take the following action:
1.	 Increase the quantity and timeliness of incurred cost audits of U.S. contrac-
    tors by (a) using appropriations for program funds to help finance those




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        25
                                           SIGAR OVERSIGHT




                                               audits and (b) contracting with private audit firms for those instances in
                                               which DCAA cannot respond to audit requests.
                                           To provide better accountability over funds provided to contractors and grantees
                                           for Afghanistan reconstruction, SIGAR recommended that the Administrator of
                                           USAID take the following actions:
                                           2.	 Develop a system to identify and prioritize awards to U.S. nonprofit organi-
                                               zations to determine whether USAID should (a) request that the awards be
                                               audited as major programs by the organizations’ OMB Circular A-133 audi-
                                               tors or (b) contract for award-specific financial audits of those awards.
                                           3.	 Expedite close-out audits for expired awards, especially for (a) the 90
                                               expired awards with $103 million in unexpended obligations and (b) the 13
                                               expired awards with $27.3 million in unpaid cost share as of September 30,
                                               2011.
                                           4.	 Amend USAID’s awards for Afghanistan reconstruction to include a require-
                                               ment that prime recipients develop and submit to the respective contract or
                                               agreement officer a plan for ensuring that financial audits of expenditures
                                               under sub-awards are conducted, as required.

                                           AGENCY COMMENTS
                                           In commenting on a draft of this report, USAID found the report informative
                                           and objective. USAID noted that it fully recognizes the need to conduct more
                                           financial audits in a timely manner to ensure accountability for the billions of
                                           dollars channeled by USAID through its implementing partners. Overall, USAID
                                           concurred with the recommendations and has taken some steps to address
                                           them, but USAID noted some issues in implementing them. Specifically, the lack
                                           of qualified audit firms in Afghanistan will require USAID to hire U.S. and inter-
                                           national audit firms. This will likely increase audit costs. In regard to SIGAR’s
                                           recommendations to expedite close-out audits and ensure that financial audits
                                           of sub-awards are conducted as required, USAID suggested that such actions
                                           should apply across USAID—not just USAID Afghanistan. SIGAR’s audit work
                                           does not address other USAID missions, but SIGAR encourages USAID to take
                                           the steps it deems necessary to ensure that its financial oversight requirements
NEW AUDITS                                 are implemented uniformly across its missions.
··Afghan National Army (ANA) Logistics
 Capability for Petroleum, Oil, and
 Lubricants.
                                           New Audits Announced This Quarter
                                           This quarter, SIGAR announced three new audits. Two are assessing aspects of
··Construction of the 3rd Brigade, 207th   the U.S. effort to build the ANSF, and one is examining a USAID agriculture proj-
 Afghan Army Corps Garrison in Badghis
                                           ect. Building the ANSF and developing Afghanistan’s agriculture sector are U.S.
 Province.
                                           government priorities.
··USAID’s Southern Region Agricultural
 Development Project’s Partnership with
                                           Afghan National Army (ANA) Logistics Capability for Petroleum,
 International Relief and Development,
 Inc.
                                           Oil, and Lubricants
                                           The United States is working through the Combined Security Transition
                                           Command - Afghanistan (CSTC-A) to help the ANA build an independent and




                                             26               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




sustainable logistics capability. This quarter, SIGAR began an audit to assess the
status of CSTC-A’s efforts to develop the ANA capabilities to manage and distrib-
ute petroleum products. This audit will also determine whether the ANA has the
internal controls needed to account for petroleum products and prevent fraud,
waste, and abuse, including the unauthorized diversion or theft of fuel.

Construction of the 3rd Brigade, 207th Afghan Army Corps
Garrison in Badghis Province
In January 2012, SIGAR received an allegation that the NATO Training
Mission - Afghanistan/CSTC-A did not consider less expensive options before the
U.S. Army Corps of Engineers (USACE) awarded an $81.3 million construction
contract for an ANA garrison. After meeting with U.S. military officials and the
USACE to discuss the concerns, SIGAR initiated an audit to assess the basis for
the decision to proceed with the construction contract.

USAID’s Southern Region Agricultural Development Project’s
Partnership with International Relief and Development, Inc.
USAID is funding the Southern Region Agricultural Development Project to
combat regional instability, increase agricultural employment and income, and
assist the region’s transition from an insecure area to one with a sustainable and
prosperous agricultural economy. In February 2012, SIGAR received allegations
that USAID’s implementing partner—International Relief and Development,
Inc. (IRD)—had failed to coordinate sufficiently with the local government and
military officials and was spending funds on solar panels and farm tractors with-
out justification. SIGAR is conducting this audit to (1) assess the basis for the
acquisition and distribution of solar panels and farm tractors and (2) determine
                                                                                     ONGOING AUDITS
whether IRD’s expenditures complied with the terms of its strategic partnership      ··USAID’s Task Order in Support of
                                                                                      Afghanistan Stabilization Initiative-East
agreement and the intended goals of the program.
                                                                                      Program.

Ongoing Audits                                                                       ··USACE Operations and Maintenance
                                                                                      Contracts with ITT Systems Corporation
SIGAR has six additional ongoing audits. These audits are evaluating contracts        for ANSF Facilities.
and programs funded by the three main U.S. implementing agencies—DoD, DoS,
and USAID—in security, governance, and economic development.
                                                                                     ··Costs of Private Security Contractors
                                                                                      Utilized by USAID Contractors for
                                                                                      Reconstruction in Afghanistan.
USAID’s Task Order in Support of the Afghanistan Stabilization                       ··Outcomes of DoS’s Public Diplomacy
Initiative–East Program                                                               Grants in Support of Reconstruction in
In June 2009, USAID’s Office of Transition Initiatives awarded a three-year task      Afghanistan.
order with a funding ceiling of $151 million to Development Alternatives, Inc., to   ··Oversight and Costs Associated with
support the U.S. government’s Afghanistan Stabilization Initiative program in the     the Afghanistan - Technical Equipment
eastern regions of the country. The initiative seeks to improve the economic and      Maintenance Program (A-TEMP) for the
social environment in target districts of Afghanistan though small community-         ANP.
enhancement projects. SIGAR is assessing the cost, schedule, and outcomes of         ··Implementation of the Afghanistan
the initiative, as well as the oversight and progress made toward transitioning to    Infrastructure Program (AIP).
the build phase of the U.S. counter-insurgency strategy.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        27
SIGAR OVERSIGHT




A SIGAR team visits a wastewater pumping station at an ANA garrison built with U.S. recon-
struction funds. SIGAR is conducting an audit of the operations and maintenance of a contract
to provide ANSF facilities. Credit: SIGAR photo.



USACE Operations and Maintenance Contracts with ITT Systems
Corporation for ANSF Facilities
In July 2010, USACE awarded two firm-fixed-price contracts to ITT Systems
Corporation to provide operations and maintenance for ANSF facilities. Valued
at a total of $800 million, these contracts cover Afghan army and police facilities
in northern and southern Afghanistan. According to the program manager, these
contracts may cover more than 660 sites. The contracts consist of one base year
plus four option years; they require that the contractor train Afghan workers in
all aspects of operations and maintenance. SIGAR is assessing cost, schedule,
and compliance with contract terms, contract oversight, and sustainability. DoD
OIG is conducting a separate audit on the training aspect of the contracts.


Costs of Private Security Contractors Utilized by USAID
Contractors for Reconstruction in Afghanistan
The U.S. government has relied on PSCs to provide security for USAID recon-
struction and development programs in Afghanistan, but information about their
costs is limited. This audit will identify the PSCs used by USAID’s implementing
partners and determine their costs and their status in light of the ongoing trans-
fer of PSC security functions to the APPF.




   28                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




Outcomes of DoS’s Public Diplomacy Grants in Support of
Reconstruction in Afghanistan
SIGAR has identified 21 DoS public diplomacy grants totaling $78 million in
reconstruction funding and may identify additional public diplomacy grants for
reconstruction during fieldwork. This audit will review the cost, schedule, and
outcomes, as well as the administration and oversight of the grants.

Oversight and Costs Associated with the Afghanistan - Technical
Equipment Maintenance Program (A-TEMP) for the ANP
To support the ANP under the A-TEMP, CSTC-A is funding contracts with
Automotive Management Services and PAE Government Services, Inc. This audit
will focus on government oversight of the prime contractors and any subcontrac-
tors, the costs associated with the contracts, accountability for vehicle parts and
maintenance supplies, and the status of efforts to transition vehicle maintenance
to the ANP.

Implementation of the Afghanistan Infrastructure Program (AIP)
In FY 2011, the Congress created the AIP and authorized DoD and DoS to jointly
develop high-priority, large infrastructure projects to support the civil-military
campaign in Afghanistan. The Congress has provided more than $800 million for
the Afghanistan Infrastructure Fund which supports the AIP. The audit will focus
on project selection; cost, schedule, and outcomes; and compliance with legisla-
tive requirements.

Forensic Audits
Public Law 110-181, as amended, requires that before SIGAR is terminated, it
must prepare and submit to the appropriate congressional committees a final
forensic audit report on programs and operations funded with amounts appro-           FORENSIC AUDITS
priated or otherwise made available for the reconstruction of Afghanistan. To         ··Forensic Review of DoD Transaction
identify waste, fraud, and abuse of taxpayer dollars, SIGAR is conducting foren-       Data Related to Afghanistan
                                                                                       Reconstruction.
sic reviews of three major reconstruction funds:
 •	 the Afghanistan Security Forces Fund (ASFF), managed by DoD.                      ··Forensic Review of USAID Transaction
 •	 the Economic Support Fund (ESF), managed by USAID.                                 Data Related to Afghanistan
                                                                                       Reconstruction.
 •	 the International Narcotics Control and Law Enforcement (INCLE) account,
    managed by DoS.                                                                   ··Forensic Review of DoS Transaction
                                                                                       Data Related to Afghanistan
                                                                                       Reconstruction.
Forensic Review of DoD Transaction Data Related to Afghanistan
Reconstruction
In March 2010, SIGAR initiated a review of DoD appropriation, obligation, and
expenditure transaction data related to the ASFF. Since the fund was created in
FY 2005, the Congress has appropriated more than $50.6 billion to the ASFF.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        29
SIGAR OVERSIGHT




   SIGAR has conducted a forensic analysis of approximately $11.2 billion—
including $9.5 billion of Foreign Military Sales (FMS) disbursements through FY
2010, and $1.7 billion in disbursements from the USACE through FY 2009. This
amount accounted for 97% of actual FMS disbursements through FY 2010. The
review covered more than 80,000 transactions. SIGAR screened the results, using
a risk-scoring methodology to identify high-risk transactions that warranted
additional review. DoD granted SIGAR direct access to its electronic document
system, and SIGAR began the review of potential duplicate payments and other
payment anomalies; however, the documentation stored within the system pro-
vided limited insight into the actual invoices and nature of transactions. SIGAR
is working with DoD to identify other methods to isolate exceptions with the
highest risk, such as service contracts. SIGAR is also coordinating with DoD
to obtain direct access to other DoD systems that will enable further review of
more detailed source documentation.
   Obtaining data to perform testing has been a challenge because when DoD
obligates ASFF funds, it transfers a significant amount of these funds to an
FMS trust-fund account to await disbursement through a variant of FMS called
pseudo-FMS. Most of these funds are used to procure equipment and training
for the ANA and ANP. SIGAR intends to issue a formal notification letter to
the Defense Security Cooperation Agency requesting the reporting of pseudo-
FMS case obligations and disbursements to further identify how the funds are
assigned, implemented, and tracked, and for what purpose the funds were
disbursed.

Forensic Review of USAID Transaction Data Related to
Afghanistan Reconstruction
SIGAR has completed a secondary review of USAID transactional data totaling
approximately $10 billion in disbursements from FY 2002 through FY 2011. The
data covers more than 100,000 transactions. SIGAR has screened the results,
using a risk-scoring methodology to identify high-risk transactions that war-
ranted additional review. SIGAR has requested source documentation from
USAID to review exceptions related to duplicate vendors, potential duplicate
payments, and other payment trending anomalies. There has been a significant
delay in obtaining this source documentation; as a result, SIGAR has limited its
request to documentation related to FY 2009 and later. SIGAR is awaiting this
outstanding documentation for additional review.

Forensic Review of DoS Transaction Data Related to
Afghanistan Reconstruction
SIGAR has completed an initial forensic review of $2.4 billion in DoS transac-
tional disbursement data from 2002 through June 2011. The review covered
25,000 transactions. SIGAR screened these results, using a risk-scoring methodol-
ogy to identify high-risk transactions that warranted additional review.
   Upon reviewing these results in December 2011, SIGAR identified a number
of transactions that did not appear to be related to Afghanistan reconstruction.



  30               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




Working with DoS, SIGAR determined that one of the two allotment codes used
to pull the data set was not utilized strictly for Afghanistan. SIGAR is waiting for
DoS to provide a new data set that includes only Afghanistan-related transac-
tions. There has been a significant delay in obtaining this information owing to
the difficulty of identifying the correct information at the transactional level that
is required for a comprehensive forensic review.

INSPECTIONS
SIGAR is conducting four inspections of construction projects contracted by the         ONGOING INSPECTIONS
USACE for ANSF facilities in three provinces: Kunduz, Nangarhar, and Wardak.
                                                                                        ··Wardak ANP Training Center (USACE).
SIGAR is examining the quality of construction and assessing whether the facili-
ties are being operated and maintained for the purposes intended.
                                                                                        ··Nangarhar Border Police Company
                                                                                         Headquarters Facility (USACE).
   SIGAR audits have found that in the security sector alone, the U.S. govern-
ment planned to have built at least 900 facilities for the ANA and the ANP by           ··Jalalabad ANA Garrison (USACE).
the end of FY 2012. DoD has provided $8 billion for the construction of ANSF            ··Kunduz ANA Facility-2/209th
                                                                                         Headquarters (USACE).
facilities from FY 2010 through FY 2012. SIGAR launched its inspections program
last quarter because earlier audits identified a number of issues that put the U.S.
investment in infrastructure at risk, including sustainability.

INVESTIGATIONS
During this reporting period, SIGAR’s integrated approach to detecting and
deterring waste, fraud, and abuse of U.S. reconstruction funds in Afghanistan
paid dividends in three critical areas: protecting U.S. tax dollars from being
wasted, recovering stolen property, and building cases for criminal prosecution.
   In addition to conducting traditional criminal and civil investigations, SIGAR
investigators seek to protect U.S. funds in several ways. SIGAR is working
closely with contracting officials to identify poorly performing contractors.
During this reporting period, this initiative contributed to the termination
for default or voiding of five contracts with unspent funds totaling $131 mil-
lion. SIGAR has also developed a robust suspension and debarment program
to improve contractor accountability and to ensure that only responsible and
reliable companies receive U.S.-funded reconstruction contracts. This quarter,
SIGAR issued seven referrals for the suspension or debarment of individuals and
companies for illegal activities or poor performance.
   SIGAR’s collaboration with other federal agents and Afghan law enforcement
officials led to the seizure of $175,000 in cash, the recovery of more than $446,000
in stolen fuel, and the repossession of a stolen tanker. Three individuals, who
had previously been arrested and charged for bribery in cases in which SIGAR
participated, received sentences this quarter that included fines and restitutions
totaling $269,000.
   SIGAR and its partners in the International Contract Corruption Task Force
(ICCTF) investigated a scheme by foreign nationals at the U.S. Embassy Kabul
to solicit bribes in exchange for contracts. SIGAR and ICCTF agents also worked
jointly with the Anti-Corruption Unit of the Afghan Attorney General’s Office




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012           31
                                                              SIGAR OVERSIGHT




                                                              on a bribery case, which resulted in the arrest of an Afghan national who was
                                                              subsequently convicted of bribery and theft-related charges under Afghan law.
                                                              As a result of another investigation, a subcontractor received the $125,000 it was
                                                              owed by the prime contractor.
                                                                 SIGAR has built an integrated investigations team of experienced special
                                                              agents, investigative analysts, suspension and debarment attorneys, Special
                                                              Assistant U.S. Attorneys (assigned to the Department of Justice), Afghan inves-
                                                              tigators, and support staff to address waste, fraud, and abuse in the complex
                                                              and extremely high-risk environment in Afghanistan. SIGAR has deployed 22
                                                              investigators in 7 locations across the country—almost as many agents as the rest
                                                              of the ICCTF members combined. This enables SIGAR to successfully focus its
                                                              resources in critical areas and conduct a broad range of investigations that not
                                                              only build criminal cases but also deter fraud and protect U.S. taxpayer dollars.
FIGURE 2.1


SIGAR INVESTIGATIONS: NUMBER OF OPEN
                                                              Ongoing Investigations
                                                              From January 1 to March 31, SIGAR opened 45 new investigations and closed
INVESTIGATIONS, AS OF MARCH 31, 2012
                                                              7, bringing the total number of open investigations to 164. All investigations are
                        Total: 164                            worked jointly with ICCTF members, but SIGAR is the lead investigative agency
                                                              in 108 of these open cases. Of the 45 new investigations, SIGAR is the lead
                                                              agency on 36 (80%). SIGAR’s Hotline generated 23 of these cases.
                                                                 Of the 164 ongoing investigations, 51.8% involve procurement fraud and 28.7%
               Contract &                                     involve public corruption and bribery, as shown in Figure 2.1. The remaining
               Procurement        Public                      19.5% are investigations of theft and other illegal activities. The SIGAR Hotline
               Fraud              Corruption
               85                 & Bribery                   received 70 complaints—nearly double the number received last quarter.
                                  47
                                                              SIGAR Initiative Leads to Contract Cancellations and Protects
                                                              Unspent Funds
Civil                                     Miscellaneous
3                                         12                  During this reporting period, SIGAR’s initiative to prevent waste resulted in the
Assessments                               Theft of Property   termination for default or voiding of five contracts, with unspent funds totaling
6                                         and Services        $131 million. SIGAR investigators provided contracting officials with the informa-
                                          11
                                                              tion they needed to terminate or void these contracts that were at risk of wasting
Source: SIGAR Investigations Directorate, 4/9/2012.           significant public funds. In addition to conducting traditional investigations
                                                              focused on building cases for prosecution, SIGAR investigators have increased
                                                              their support of efforts to use other tools to better protect U.S. reconstruction
                                                              funds from waste, fraud, and abuse—such as contract terminations for default
                                                              and suspensions, and debarments of individuals and companies. SIGAR believes
                                                              it is as important to quickly identify and stop potential waste as it is to build
                                                              cases to prosecute criminal activity, particularly in Afghanistan where many
                                                              contractors are not U.S. citizens and are less likely to be successfully prosecuted
                                                              in the United States. The assistance and support provided by the USACE was
                                                              particularly valuable in several of this quarter’s investigations.

                                                              $80 Million Transport Contract Voided
                                                              U.S. contracting officials voided a contract valued at about $80 million after
                                                              SIGAR investigators provided information indicating that the Afghan-owned



                                                                32               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




trucking company that had been awarded this contract was closely affiliated
with another transport company that U.S. officials had deemed ineligible to
receive U.S. government contracts. SIGAR discovered the connection between
the contractors during an investigation of trucking companies and alerted con-
tracting officials.
   The Afghan National Trucking Contract, which was established by the U.S.
Army, is one of three theater-wide trucking contracts under which the U.S.
government funds and manages trucking contracts for the transport of all fuel
and materials in the sectors where U.S. forces operate. Transport for fuel and
dry goods to support the reconstruction effort is procured through subcontracts
awarded by the Bagram Regional Contract Center under the Afghan National
Trucking Contract.

$31 Million USACE Contract Terminated
The USACE terminated a $31 million contract with a company owned by a third-
country national after a SIGAR investigation uncovered an illegal partnership
agreement between that company and an Afghan construction company. SIGAR
discovered the connection during an investigation of alleged misconduct by
that company and its nonperformance on at least five USACE prime contracts
in Afghanistan. The $31 million contract was for the construction of the ANA
Regional Military Training Center in Gardez.

Two USACE Contracts Valued at $20 Million Terminated
The USACE terminated two contracts that had a remaining value of $20 million
after a SIGAR investigation identified several significant contract issues, includ-
ing evidence of nonperformance and nonpayment of subcontractors. In support
of a USACE contract review, SIGAR investigated allegations that a company
owned by a third-country national was not fulfilling the terms of two contracts
valued at $59 million for the construction of an ANSF facility in Gardez and two
ANSF facilities in Gamberi. The contract terminations resulted in a cost savings
of $11 million on the $33 million Gardez contract and $9 million on the $26 mil-
lion Gamberi contract.

Contract Terminated for Failing To Provide a Forward Operating
Base with Protective Barriers
On March 4, 2012, in response to a SIGAR investigation, the Regional Contracting
Center at Forward Operating Base Salerno, in Khowst, terminated a contract
for the contractor’s failure to deliver large concrete barriers—known as “Alaska
barriers”—which protect military and civilian personnel from gunfire and explo-
sions. The SIGAR investigation determined that the contractor had delivered
only 299 of the 456 protective barriers it had contracted to provide. The Regional
Contracting Center’s termination for default resulted in a cost savings to the
United States of approximately $104,650.
   As SIGAR noted in its investigation, the failure to deliver the Alaska barri-
ers increased the risk of injury or death for civilian and service personnel. The



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         33
SIGAR OVERSIGHT




protection provided by the barriers may be the only difference between life and
death in a forward operating area. Based on SIGAR’s investigation and the results
of an independent contract review, the Regional Contracting Center plans to seek
the debarment of the contractor from future contracts with the U.S. government.

SIGAR Recovers $175,000 in Cash and More Than $446,000 in
Stolen Fuel
Because the U.S. reconstruction effort relies on U.S.-funded imports of petro-
leum products that are at a high risk for fraud, SIGAR is working closely with
other federal investigative agencies to detect pilfering. SIGAR is also working
with federal prosecutors assigned to the Department of Justice to build criminal
cases against individuals and companies stealing fuel. This quarter, three inves-
tigations yielded $175,000 in cash and the recovery of fuel worth an estimated
$446,000.

Cash Seizure of $160,000 and Recovery of $180,000 in
Stolen Fuel
During this reporting period, SIGAR and its partners in the ICCTF seized about
$160,000 in cash and recovered almost 12,000 gallons of stolen fuel valued at
about $180,000 at Forward Operating Base Fenty. A tip to the SIGAR Hotline
alerted investigators to the planned theft, and SIGAR immediately launched
an investigation. SIGAR and other ICCTF investigators identified the Afghan
subjects and intercepted the stolen fuel when the subjects attempted to leave the
base. During this investigation, SIGAR and ICCTF agents identified and inter-
viewed several U.S. service members involved in the scheme to steal fuel. The
case has been referred to Department of Justice prosecutors.

SIGAR Agents Recover Stolen Tanker and $116,000 in Stolen Fuel
SIGAR—together with other federal investigators and Task Force 2010—recov-
ered a stolen fuel tanker truck and fuel valued at approximately $116,000. SIGAR
initiated this investigation based on information it received from a confidential
informant. Working in cooperation with the ICCTF and the Supreme Group—a
company contracted to deliver fuel to U.S. bases—SIGAR identified an organized
theft ring operating at Camp Leatherneck. The gate guards at Camp Leatherneck
subsequently detained a truck that the thieves said contained contaminated fuel.
Because of the fuel’s particular characteristics, investigators were able to deter-
mine that it was Supreme-supplied fuel. The tanker truck was recovered, and the
fuel was returned to the Supreme Group’s inventory. No funds were seized. As a
result of this investigation, the Supreme Group terminated five of its employees
and barred them from U.S. facilities.

Afghan Citizen Charged with Bribery and Theft of $150,000
in Fuel
On January 24, 2012, a joint investigation by SIGAR, other members of
the ICCTF, and Afghan authorities led to the arrest of an Afghan national,



  34               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




Esrarceddin Burhanuddin, at Forward Operating Base Fenty for stealing fuel. He
was subsequently convicted under Afghan law, sentenced to four years imprison-
ment, and fined $15,000. Three other Afghan nationals who were associated with
Burhanuddin have been banned from U.S. facilities.
   This successful joint operation resulted from a briefing SIGAR gave at the for-
ward operating base on how to combat fraud. During the briefing, SIGAR agents
told service members that U.S. officials and contractors have been approached
and were offered bribes, and the agents described the steps that anyone who was
offered a bribe should take. Subsequently, SIGAR agents received a phone call
from a U.S. service member who had attended the fraud briefing. He informed
SIGAR that Burhanuddin had offered him a bribe to facilitate the theft of fuel
from the forward operating base. Burhanuddin worked for a trucking company
that had a U.S.-funded contract to deliver fuel and dry goods.
   The service member cooperated with SIGAR and other agents of the ICCTF
in this investigation to protect U.S. assets. In a joint operation, the U.S. agents
and Afghan law enforcement partners had Burhanuddin under surveillance
when he gave the service member $15,000 and tried to divert two fuel tanks with
10,000 gallons of fuel. The Afghan authorities arrested Burhanuddin on the spot,
recovered the fuel tankers, and seized the $15,000 as evidence. Burhanuddin had
smuggled the U.S. currency onto the base in a potato chip can.
   Together with its partners in the ICCTF and Afghan law enforcement, SIGAR
is continuing to investigate large fuel thefts at various U.S. military installations.

SIGAR Investigates Two Bribery Schemes at Kabul Embassy
During this reporting period, SIGAR participated in two investigations in sup-
port of investigators from DoS OIG. As a result of these investigations, the U.S.
Embassy Kabul fired 7 foreign nationals for soliciting bribes for contracts and
suspended 17 companies—and the aliases that these companies were using—
from receiving U.S. government contracts. Together with agents from the
Federal Bureau of Investigation (FBI) and DoS, SIGAR agents investigated two
separate allegations that foreign nationals working as procurement clerks for
the U.S. Embassy Kabul had solicited and received bribe payments from Afghan
contractors in exchange for embassy contracts. In one scheme, investigators
determined that the former embassy employees created fictitious companies to
receive contracts.
   In addition to terminating the employment of the 7 foreign nationals involved
in the schemes, the DoS Suspension Debarment Official suspended 2 Afghan
nationals, 17 companies, and the aliases that these companies were using from
receiving U.S. government contracts.

DoD Official Sentenced for Bribery
On March 28, 2012, the U.S. District Court for the Northern District of Georgia
sentenced Desi Deandre Wade to one year and eight months in prison for using
his position as a DoD official to solicit and receive nearly $100,000 in bribes from
a military contractor based in Afghanistan. The prison term will be followed by



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012           35
SIGAR OVERSIGHT




three years of supervised release. Wade pled guilty to a one-count violation of
18 U.S.C. 201, bribery of a public official. The judge also ordered Wade, a former
DoD employee who had been chief of Fire and Emergency Services with U.S.
Forces - Afghanistan, to pay a fine of $4,000.
   In August 2011, after a joint investigation by the FBI, SIGAR, the Defense
Criminal Investigative Service (DCIS), and other ICCTF partners in Afghanistan
and the United States, Wade was arrested for soliciting kickbacks from a DoD
contractor. Wade admitted to having solicited and received two bribes—one for
$4,000, paid in Afghanistan, and the other for $95,000, paid in Atlanta. He also
admitted that he requested the bribe payments in exchange for directing DoD
contracts to a contractor. During a debriefing by SIGAR, FBI, and DCIS investi-
gators, Wade also admitted to being aware of contractors who were engaged in
fraudulent billing practices involving U.S. reconstruction funds.
   After the sentencing, U.S. Attorney Sally Quillian Yates said, “Bribery costs
our taxpayers countless millions every year. When a corrupt contractor like this
defendant demands a bribe, he builds that cost into the bid—meaning that, in the
end, the taxpayer bears the expense of the corrupt contractor’s greed. Rooting
out this type of corruption overseas is a difficult task; the investigative agencies
involved in this case should be proud of their agents’ work.” 14

Two Former U.S. Soldiers Sentenced for Bribery
On January 20, 2012, as the result of a joint investigation by SIGAR, the FBI, and
other ICCTF partners, the U.S. District Court for the District of Hawaii sen-
tenced a former sergeant and a sergeant major in the U.S. Army to prison terms
for accepting bribes from an Afghan trucking company to procure a lucrative
trucking contract. The judge sentenced former Sergeant Charles O. Finch to
51 months in prison, followed by 3 years of supervised release. Finch was also
ordered to pay $200,000 in restitution to the DoD. Sergeant Major Gary Canteen
received a 31-month sentence followed by 3 years of supervised release. The
judge ordered Canteen to pay $50,000 in restitution to DoD.
   In August 2011, Finch and Canteen pled guilty for their roles in conspiring to
receive a $50,000 bribe from a military contractor in return for the award of a
DoD trucking contract. Finch pled guilty to one count of conspiracy to commit
bribery and one count of bribery, and Canteen pled guilty to one count of con-
spiracy to commit bribery. These cases were related to another investigation by
SIGAR and ICCTF members that led to the successful criminal prosecution of
two Afghan trucking companies for bribery-related offenses.
   The investigation revealed that Finch and Canteen served on an Army logisti-
cal task force at Bagram Airfield from January 2004 until January 2005. Finch
was responsible for coordinating trucking or “line haul” services to ensure the
distribution of all goods destined for U.S. and coalition soldiers throughout
Afghanistan; Finch served under Canteen’s command. Finch also participated in
evaluating, recommending, and facilitating the award of line haul contracts to
various military contractors.




  36                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




   Canteen and Finch agreed to accept a $50,000 bribe from two brothers—John
and Tahir Ramin—who owned AZ Corporation, in return for Finch’s recom-
mendation and facilitation of the award of a line haul contract to AZ. As part of
his plea agreement, Finch admitted that in addition to the $50,000 bribe from
the Ramins and AZ, he also accepted at least $150,000 in additional bribe money
from the Ramins and other line haul contractors at Bagram Airfield.
   The cases against Finch and Canteen stemmed from a broad investigation
conducted and supported by SIGAR, the U.S. Army Criminal Investigation
Command, and the U.S. Air Force Office of Special Investigations. That investiga-
tion had led to the arrest, conviction, and sentencing of five other individuals.

SIGAR Investigation Results in $125,000 Contract Payment
A SIGAR investigation into allegations that a prime contractor had not paid a
subcontractor resulted in a $125,000 settlement. In January 2012, the subcontrac-
tor reported to SIGAR that the prime contractor had failed to make the contract
payments it owed. SIGAR confirmed that the prime contractor had not paid the
subcontractor and referred the issue to the Regional Contracting Center. The
contracting center issued a letter of caution to the prime contractor for nonpay-
ment. On February 29, 2012, the prime contractor, which had a contract from
Regional Contracting Command at Camp Leatherneck, made the contract pay-
ment to the subcontractor, a United Arab Emirates company that provides air
transportation services.

Suspensions and Debarments
This quarter, SIGAR referred 7 cases for suspension or debarment, bringing the
total number of referrals to 88, as shown in Figure 2.2 on the following page. This
includes 53 individuals and 35 companies working on U.S.-funded reconstruction
programs. As of March 30, 2012, these referrals had resulted in 20 suspensions,
and 21 finalized debarments.
   SIGAR makes referrals for suspensions and debarments—actions taken by
U.S. agencies to exclude companies or individuals from receiving federal con-
tracts or assistance because of misconduct—based on completed investigations.
SIGAR provides all of the documentation needed for an agency to take action.
   During this reporting period, SIGAR also prepared documentary support for
proposals to debar companies accused of theft or poor performance under the
Host Nation Trucking Contract from May 2009 to September 2011. Transportation
contracts for the shipment of fuel and bulk cargo throughout Afghanistan fall
under the umbrella Host Nation Trucking Contract. SIGAR has prepared a
comprehensive analysis of the documentation related to allegations against a
number of former contractors for the U.S. Army, which managed the Host Nation
Trucking Contract. SIGAR is continuing to analyze contracts and prepare materi-
als to support the debarment of trucking companies alleged to have engaged in
misconduct or performed poorly under the Host Nation Trucking Contract.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       37
SIGAR OVERSIGHT




FIGURE 2.2


SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q2 FY 2012

100


 80


 60


 40


 20

   0
            Q2 FY                      Q3 FY           Q4 FY                 Q1 FY          Q2 FY
            2011                       2011            2011                  2012           2012
Source: SIGAR Investigations Directorate, 4/10/2012.



   Suspensions and debarments are important tools to ensure that agencies
award contracts only to responsible entities. SIGAR’s program addresses three
challenges posed by U.S. policy and the contingency contracting environment
in Afghanistan: the need to act quickly, the limited U.S. jurisdiction over Afghan
nationals and Afghan companies, and the vetting challenges inherent in the use
of multiple tiers of subcontractors.

SIGAR Strengthens Partnership with Task Force 2010
During this reporting period, SIGAR hosted a meeting at its headquarters with
the outgoing and incoming commanders of Task Force 2010 to discuss ways to
improve U.S. efforts to combat contract fraud, corruption, and other criminal
activities related to the U.S. reconstruction effort in Afghanistan. SIGAR has
assigned an agent to work full time with the task force.
   In July 2010, DoD established Task Force 2010 under U.S. Forces - Afghanistan
to combat contract and procurement fraud and to prevent U.S. funds from being
used to support insurgents. SIGAR has worked closely with the task force, sup-
porting its mission to recover stolen property, review contracts, and prevent
questionable companies from being awarded U.S.-funded contracts. SIGAR has
collaborated with Task Force 2010 to document and prepare nearly 90 proposals
for suspension and debarment. SIGAR investigators are developing a methodol-
ogy to allow Task Force 2010 greater access to a large amount of information
available through the SIGAR Hotline and SIGAR investigations.
   In April, Brigadier General Ross Ridge relinquished command of Task Force
2010 to Major General Richard Longo. Brigadier General Ridge, who has been
nominated for promotion to Major General, will become the Deputy Inspector




    38                         SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                     SIGAR OVERSIGHT




General for the Department of the Army. He said that SIGAR’s decision to assign
an investigator to work with Task Force 2010 in Afghanistan ensures the timely
and reciprocal flow of information. SIGAR intends to build on its strong rela-
tionship with Task Force 2010 to detect waste, fraud, and abuse, and protect
U.S.-funded reconstruction programs.

SIGAR Deploys New Case Management System
This quarter, SIGAR began using its new Investigative Case Management System
(ICMS), which is accessible to SIGAR investigative personnel in Afghanistan
and the United States. The new ICMS has robust search capabilities that will
enable SIGAR investigators to review and analyze stored information. The ICMS
improvements allow SIGAR investigators to quickly and efficiently search data
developed in Afghanistan and the United States to identify related investigations
or fraudulent schemes, fraud activity within specific regions in Afghanistan,
trends involving fraud affecting U.S. and foreign agencies, and geographic or
program areas requiring additional investigative resources to address emerging
trends or risks.
   SIGAR expects to complete the process of merging stored legacy data from its
predecessor system into the ICMS database during the next quarter. Once fully
implemented, the ICMS database will provide SIGAR investigators with a highly
effective tool to support SIGAR’s mission to detect and deter waste, fraud, and
abuse of U.S. reconstruction funding.

SIGAR STAFF
During this reporting period, SIGAR increased its staff from 133 to 147 federal
employees. SIGAR extended offers of employment that will bring the number of
full-time staff to 171 by the end of June 2012. SIGAR is on target to reach its cur-
rent goal of 180 full-time employees.
   This quarter, SIGAR had 33 authorized positions for personnel at the U.S.
Embassy Kabul and 16 authorized at locations outside the U.S. Embassy. SIGAR
has staff members stationed at seven locations across the country, including
Kandahar and Bagram airfields, Camp Stone, Camp Leatherneck, Forward
Operating Base Salerno, USFOR-A headquarters in Kabul, and the U.S. Consulate
in Herat. SIGAR employs two local Afghans in its Kabul office to support
investigations and has on open billet for a translator/Hotline administrator. In
addition, SIGAR supports its work with staff assigned to short-term temporary
duty in Afghanistan. This quarter, SIGAR had 7 personnel on temporary duty in
Afghanistan for a total of 133 days.



                                     ENDNOTE
14. 	 U.S. Attorney’s Office, Northern District of Georgia, press release, “Former Department of
      Defense Employee Sentenced to Prison for Taking $99,000 in Bribes,” 3/28/2012.




               REPORT TO THE UNITED STATES CONGRESS          I   APRIL 30, 2012               39
Quality Control
U.S. Navy engineers from PRT Farah conduct a quality 	
assessment mission at a construction site in Khak-e
Safayed on March 29. Heightened security restrictions this
quarter limited the ability of PRTs in some regions to travel
and engage with their Afghan counterparts. (U.S. Air Force
photo, SSgt Jonathan Lovelady)
Section 3
RECONSTRUCTION UPDATE




3       RECONSTRUCTION 	
        UPDATE




                41
           RECONSTRUCTION UPDATE




“In Lisbon, we set a goal of transition-
 ing full responsibility for security to
 Afghan security forces by 2014, and
 they’re making real progress toward
that goal…Today, roughly 50 percent
 of the Afghan population lives in an
 area where they are taking responsi-
bility for security. And this spring, the
   number will go up to 75 percent.”
                                         —U.S. Secretary of State
                                         Hillary Rodham Clinton




           Source: U.S. Secretary of State Hillary Rodham Clinton, “Remarks to the World Affairs Council 2012 NATO Conference,” 4/3/2012.




                                          SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                      RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of reconstruction efforts in Afghanistan during
this reporting period. Updates on accomplishments, challenges, and local initia-
tives provide context for the oversight that is needed in reconstruction efforts.
Sidebars throughout the section identify SIGAR audits—both completed and
ongoing—related to those efforts; for ongoing audits, cross-references direct the
reader to more information in Section 1.
   Section 3 is divided into four subsections: Status of Funds, Security,
Governance, and Economic and Social Development. The Security, Governance,
and Economic and Social Development subsections mirror the three pillars
reflected in the Prioritization and Implementation Plan announced by the Afghan
government in 2010 and originally set forth in the 2008 Afghanistan National
Development Strategy.

TOPICS
Section 3 discusses four broad topics: historical and current information on fund-
ing, security conditions, governance-related activities, and economic and social
development programs. The section also provides information on the progress of
efforts to reduce corruption and combat the narcotics trade in Afghanistan.
   The Status of Funds subsection contains a comprehensive discussion of
the monies appropriated, obligated, and disbursed for Afghanistan reconstruc-
tion. It includes specific information on major U.S. funds and international
contributions.
   The Security subsection details U.S. efforts to bolster the Afghan National
Security Forces and highlights developments affecting the security environment
in the country. This subsection focuses on programming to build the capacity
of the Afghan National Army and Afghan National Police. It reviews the status
of private security contractors. It also discusses the ongoing battle against the
narcotics trade in Afghanistan.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward achieving good governance. This subsection focuses on
the status of reconciliation and reintegration. It also reviews the level of Afghan
government control in various eastern and southern provinces. It discusses
capacity-building efforts, rule of law initiatives, and human rights development.
This subsection also reviews U.S. and Afghan government initiatives to combat
corruption.



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        43
RECONSTRUCTION UPDATE




   The Economic and Social Development subsection looks at reconstruction
activities by sector, ranging from energy to mining to health. It provides a snap-
shot of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple organiza-
tions provide the data, numbers may conflict. Except for references to SIGAR
audits or investigations in the text or in sidebars, SIGAR has not verified this
data, and it does not reflect SIGAR opinions. For a complete discussion of SIGAR
audits and investigations this quarter, see Section 1.

Data Call
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 •	 U.S. Department of State.
 •	 U.S. Department of Defense.
 •	 U.S. Agency for International Development.
 •	 U.S. Department of the Treasury.
A preliminary draft of the report was provided to the responding agencies before
publication to allow these agencies to verify and clarify the content of this
section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 •	 U.S. agencies represented in the data call.
 •	 International Security Assistance Force.
 •	 United Nations (and relevant branches).
 •	 International Monetary Fund.
 •	 World Bank.
 •	 Afghan ministries and other government organizations.
 •	 U.K. Foreign and Commonwealth Office.
 •	 Amnesty International.
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  44                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified
                                                                     ASFF in   titles
                                                                             CERP   DoDor
                                                                                        CNnotes.
                                                                                             ESF                 INCLE



                                                                                     DoD                 USAID   DoS
BAR CHARTS                                                               UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                       Because this report details funding in both billions
dollar values ranging from millions to billions. To                      and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                    guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                          billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                                 ASFF are depicted in green.
                                                                         in millions
larger number.

                                                                                        DoD
     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350                                                                               CERP

                                   $50                                          Pie Chart in Billions               Pie Chart in Millions
                                                                                        DoD
        $0                          $0

             Bar chart with a            Bar chart without
              break in scale             a break in scale

                                                                                                DoD CN
CALENDAR AND SOLAR YEARS                                                 FUNDING MARKERS
The Afghan government follows the solar Hejri                            Funding markers identify individual funds discussed
calendar, which began in 622 A.D. SIGAR converts                         in the text. The
                                                                                       DoDagency responsible for managing the
these years to the Gregorian calendar. The current                       fund is listed in the tan box below the fund name.
Afghan solar year is 1391; it began on March 21,
2012, and will end on March 20, 2013.

                                                                                                         ESF
    2011                            2012
      • • • • • • • • •
                                                                                                         USAID
             1390                            1391




                                                                                                                 INCLE



                                                                                                                 DoS

              REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2012                45
                                                                 STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. As of March 31, 2012, the United States had appropriated approxi-
mately $89.42 billion for relief and reconstruction in Afghanistan since FY 2002.
This total has been allocated as follows:
•	 $52.15 billion for security.
•	 $22.33 billion for governance and development.
•	 $5.97 billion for counter-narcotics efforts.
•	 $2.36 billion for humanitarian aid.
•	 $6.62 billion for oversight and operations.
Figure 3.1 shows the major U.S. funds that contribute to these efforts.




FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)                                                           Definition

                                                                                                                                 ASFF: Afghanistan Security Forces Fund
                                       FUNDING SOURCES (TOTAL: $89.42)
                                                                                                                                 CERP: Commander’s Emergency
                                                                                                                                 Response Program
   ASFF        CERP          AIF       TFBSO       DoD CN              ESF                 INCLE                 Other
                                                                                                                                 AIF: Afghanistan Infrastructure Fund
  $50.63       $3.44       $0.80        $0.56       $2.26            $14.95                $3.58                $13.20
                                                                                                                                 TFBSO: Task Force for Business and
                                                                                                                                 Stability Operations
                                                        AGENCIES
                                                                                                                                 DoD CN: DoD Drug Interdiction and
                                                                                       Department of       Distributed to
               Department of Defense (DoD)                           USAID              State (DoS)       Multiple Agenciesa
                                                                                                                                 Counter-Drug Activities
                        $57.69                                       $14.95                $3.58               $13.20
                                                                                                                                 ESF: Economic Support Fund

Note: Numbers affected by rounding.	                                                                                             INCLE: International Narcotics Control
a. Multiple agencies include DoJ, DoS, DoD, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call, 4/19/2012, 4/18/2012, 4/17/2012, 4/11/2012, 3/30/2012, 10/14/2009, and               and Law Enforcement
10/1/2009; DoS, responses to SIGAR data call, 4/17/2012, 4/6/2012, and 4/14/2011; Treasury, response to SIGAR data call,
4/20/2012; OMB, response to SIGAR data call, 4/17/2012; USAID, responses to SIGAR data call, 4/3/2012, 10/15/2010,
1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74,
                                                                                                                                 Other: Other Funding
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory
Statement.




                  REPORT TO THE UNITED STATES CONGRESS                       I   APRIL 30, 2012                      47
                                                                   STATUS OF FUNDS




                                                                   U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF   CERP    AIF   TFBSO DoDCN     ESF     INCLE                As of March 31, 2012, cumulative appropriations for relief and reconstruction
                                                                   in Afghanistan totaled approximately $89.42 billion. This total can be divided
                                                                   into five major categories of reconstruction funding: security, governance and
               DoD                  USAID DoS
                                                                   development, counter-narcotics, humanitarian, and oversight and operations. For
                                                                   complete information regarding U.S. appropriations, see Appendix B.
                                                                      As of March 31, 2012, appropriations for Afghanistan relief and reconstruction
The amount provided to the seven major U.S.
                                                                   for FY 2012 amounted to nearly $16.44 billion, increasing total cumulative funding
funds represents approximately 85.2%
(nearly $76.22 billion) of total reconstruction                    more than 22.5% over total cumulative funding through FY 2011. Figure 3.2 dis-
assistance
   ASFF     in Afghanistan since FY 2002.                          plays the increase in cumulative appropriations by funding category from FY 2002
Of this amount, more than 74.3% (nearly                            to FY 2012. These figures reflect amounts as reported by the respective agencies
$56.65 billion) has been obligated, and more                       and amounts appropriated in legislation.
than 63.0%DoD(nearly $48.04 billion) has been                         In FY 2010, 2011, and 2012, Congress appropriated more than $16 billion for relief
disbursed. The following pages provide ad-                         and reconstruction, as shown in Figure 3.3 on the facing page. Together they make
ditional details on these funds.                                   up more than 55.7% of the approximately $89.42 billion appropriated since 2002.

FIGURE 3.2

    CERP
CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF MARCH 31, 2012 ($ BILLIONS)

  $90                                                                                                                                                             $89.42           $90
               DoD
  $85                                                                                                                                                                              $85
  $80                                                                                                                                                                              $80
  $75                                                                                                                                            $72.98                            $75
  $70                                                                                                                                                                              $70
  $65                     DoD CN                                                                                                                                                   $65
  $60                                                                                                                                                                              $60
                                                                                                                       $56.24
  $55                                                                                                                                                                              $55
               DoD
  $50                                                                                                                                                                              $50
  $45                                                                                                                                                                              $45
                                                                                                   $39.59
  $40                                                                                                                                                                              $40
  $35                                                                                                                                                                              $35
  $30                                 ESF                                             $29.21                                                                                       $30
  $25                                                        $23.01                                                                                                                $25
  $20                                                                                                                                                                              $20
                                    USAID
  $15                                  $12.98                                                                                                                                      $15
  $10            $9.50                                                                                                                                                             $10
   $5                                                                                                                                                                               $5
   $0                                                                                                                                                                               $0
               2002–2005                2006INCLE             2007                    2008          2009                2010                     2011             2012

                      Security          Governance/Development             Counter-Narcotics     Humanitarian         Oversight and Operations            Total

                                             DoSresulted in a lower total for 2009.
Note: Numbers affected by rounding. Updated data
Sources: DoD, responses to SIGAR data call, 4/19/2012, 4/18/2012, 4/17/2012, 4/11/2012, 3/30/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 4/17/2012, 4/6/2012,
and 4/14/2011; Treasury, response to SIGAR data call, 4/20/2012; OMB, response to SIGAR data call, 4/17/2012; USAID, responses to SIGAR data call, 4/3/2012, 10/15/2010, 1/15/2010, and
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
12/19/2009; FY 2010 Defense Explanatory Statement.


                AIF


                                                                        48                     SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
               DoD
                                                                STATUS OF FUNDS




   As in FY 2011, efforts to build, train, and equip the Afghan National Security
Forces (ANSF) received the majority of FY 2012 reconstruction funding. Since
FY 2006, virtually all reconstruction funding allocated for security was appro-
priated for the Afghanistan Security Forces Fund (ASFF). The $11.20 billion
appropriated for the ASFF for FY 2012 is approximately 68.1% of all FY 2012
reconstruction funding. Funding for the ASFF is trending downward as respon-
sibility for security transitions to the ANSF. The amount appropriated for the
ASFF in FY 2012 is a decrease of more than $419.28 million from the nearly
$11.62 billion appropriated for the ASFF in FY 2011. On February 13, 2012,
President Obama submitted to Congress his proposed budget for FY 2013. In it,
he requested nearly $5.75 billion for the ASFF—about half the amount appropri-
ated for the ASFF in FY 2012. 15



FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR AND FUNDING CATEGORY                              ($ BILLIONS AND PERCENT)



$17                                                                                                                   $16.65                    $16.74           $16.44              $17
$16                                                                                                                                                                                  $16
$15                                                                                                                                                                                  $15
$14                                                                                                                                                                                  $14
$13                                                                                                                                                                                  $13
$12                                                                                                                                                                                  $12
$11                                                                                               $10.38                                                                             $11
                                                       $10.03
$10           $9.50                                                                                                                                                                  $10
 $9                                                                                                                                                                                   $9
 $8                                                                                                                                                                                   $8
 $7                                                                            $6.19                                                                                                  $7
 $6                                                                                                                                                                                   $6
 $5                                                                                                                                                                                   $5
 $4                                $3.49                                                                                                                                              $4
 $3                                                                                                                                                                                   $3
 $2                                                                                                                                                                                   $2
 $1                                                                                                                                                                                   $1
 $0                                                                                                                                                                                   $0
           2002–2005               2006                 2007                   2008                2009                2010                     2011             2012




                  Security          Governance/Development           Counter-Narcotics          Humanitarian         Oversight and Operations            Total

Notes: Numbers affected by rounding. Updated data resulted in a lower total for 2009.
Sources: DoD, responses to SIGAR data call, 4/19/2012, 4/18/2012, 4/17/2012, 4/11/2012, 3/30/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 4/17/2012,
4/6/2012, and 4/14/2011; Treasury, response to SIGAR data call, 4/20/2012; OMB, response to SIGAR data call, 4/17/2012; USAID, responses to SIGAR data call, 4/3/2012, 10/15/2010,
1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2012                       49
 ASFF    CERP   AIF    TFBSO DoDCN    ESF    INCLE
                                                       STATUS OF FUNDS

                DoD                  USAID DoS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to provide
                                                       the ANSF with equipment, supplies, services, and training, as well as facility
                                                       and infrastructure repair, renovation, and construction. 16 The primary organiza-
                DoD                                    tion responsible for building the ANSF is the North Atlantic Treaty Organization
                                                       (NATO) Training Mission - Afghanistan/Combined Security Transition Command -
                                                       Afghanistan. 17
ASFF FUNDS TERMINOLOGY                                    The Consolidated Appropriations Act of 2012 provided $11.20 billion for the
DoD reported ASFF funds as available,                  ASFF, bringing the total cumulative appropriations for this fund to nearly
obligated,
       CERPor disbursed.                               $50.63 billion. 18 As of March 31, 2012, more than $37.00 billion of this amount
Available: Total monies available for                  had been obligated, of which more than $32.59 billion had been disbursed. 19
commitments                                            Figure 3.4 displays the amounts made available for the ASFF by fiscal year.
Obligations:DoD
              Commitments to pay monies                   DoD reported that cumulative obligations as of March 31, 2012, increased by
Disbursements: Monies that have been                   more than $1.31 billion over cumulative obligations as of December 31, 2011.
expended                                               Cumulative disbursements as of March 31, 2012, increased by more than
                                                       $1.63 billion over cumulative disbursements as of December 31, 2011. 20
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       Figure 3.5 provides a cumulative comparison of amounts made available,
                          DoD CN
                                                       obligated, and disbursed for the ASFF.

                DoD
                                                       FIGURE 3.4                                                 FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                        ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                               ($ BILLIONS)


                                     ESF
                                                                                                                                      Available
                                                                                                                                         Available             Available
                                                                                                                                                                  Available
                                                       $12.0
                                                         $12.0                                                   $50.0
                                                                                                                   $50.0              $50.63
                                                                                                                                         $50.63                $50.63
                                                                                                                                                                  $50.63

                                     USAID
                                                       $10.0
                                                         $10.0                                                   $45.0
                                                                                                                   $45.0


                                                        $8.0
                                                          $8.0                                                   $40.0
                                                                                                                   $40.0
                                             INCLE
                                                                                                                                                               Obligated
                                                                                                                                                                  Obligated
                                                                                                                                      Obligated
                                                                                                                                         Obligated             $37.00
                                                                                                                                                                  $37.00
                                                        $6.0
                                                          $6.0                                                   $35.0
                                                                                                                   $35.0              $35.69
                                                                                                                                         $35.69
                                             DoS                                                                                                               Disbursed
                                                                                                                                                                  Disbursed
                                                                                                                                      Disbursed
                                                                                                                                         Disbursed             $32.59
                                                                                                                                                                  $32.59
                                                        $4.0
                                                          $4.0                                                   $30.0
                                                                                                                   $30.0              $30.96
                                                                                                                                         $30.96


                AIF                                     $2.0
                                                          $2.0                                                   $25.0
                                                                                                                   $25.0


                DoD                                       $0 $0                                               $0 $0
                                                                200506 06 07 07 08 08 09 09 10 10 11 11 12 12
                                                              2005                                                 As As
                                                                                                                      of Dec
                                                                                                                         of Dec
                                                                                                                             31,31,
                                                                                                                                 2011
                                                                                                                                    2011 As As
                                                                                                                                            of Mar
                                                                                                                                               of Mar
                                                                                                                                                   31,31,
                                                                                                                                                       2012
                                                                                                                                                          2012

                                                       Note: Numbers affected by rounding.                         Note: Numbers affected by rounding.
                                                       Sources: DoD, response to SIGAR data call, 4/11/2012; 	     Sources: DoD, responses to SIGAR data call, 4/11/2012
                                                       P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.            and 1/13/2012; P.L. 112-74, 12/23/2011; P.L. 112-10,
                      TFBSO                                                                                        4/15/2011.




                DoD
                                                           50                         SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                            STATUS OF FUNDS



                                                                                                                        Definition
ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:                                                      Budget Activity Groups: categories within
 •	 Defense Forces (Afghan National Army, ANA).                                                                           each appropriation or fund account that
 •	 Interior Forces (Afghan National Police, ANP).                                                                        identify the purposes, projects, or types of
 •	 Related Activities (primarily Detainee Operations).                                                                   activities financed by the appropriation or
Funds for each budget activity group are further allocated to four sub-activity                                           fund
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                          Sub-Activity Groups: accounting groups
and Sustainment. 21
                                                                                                                          that break down the command’s disburse-
    As of March 31, 2012, DoD had disbursed more than $32.59 billion for ANSF
                                                                                                                          ments into functional areas
initiatives. Of this amount, nearly $20.96 billion was disbursed for the ANA, and
nearly $11.47 billion was disbursed for the ANP; the remaining nearly $0.17 bil-
                                                                                                                        Sources: DoD, “Manual 7110.1-M Department of Defense
lion was directed to related activities. 22                                                                             Budget Guidance Manual,” accessed 9/28/2009;
    As shown in Figure 3.6, the largest portion of the funds disbursed for the                                          Department of the Navy, “Medical Facility Manager
                                                                                                                        Handbook,” p. 5, accessed 10/2/2009.
ANA—nearly $9.07 billion—supported Equipment and Transportation. Of the
funds disbursed for the ANP, the largest portion—more than $3.84 billion—
supported Sustainment, as shown in Figure 3.7. 23




FIGURE 3.6                                                  FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                              ASFF DISBURSEMENTS FOR THE ANP
BY SUB-ACTIVITY GROUP,                                      BY SUB-ACTIVITY GROUP,
FY 2005–MARCH 31, 2012 ($ BILLIONS)                         FY 2005–MARCH 31, 2012 ($ BILLIONS)


                   Total: $20.96                                               Total: $11.47

Infrastructure                               Training and   Infrastructure                               Training and
$2.97              Equipment and             Operations     $1.74              Equipment and             Operations
                   Transportation            $2.04                             Transportation            $2.39
                   $9.07                                                       $3.49




                   Sustainment                                                 Sustainment
                   $6.87                                                       $3.84



Note: Numbers affected by rounding.                         Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 4/11/2012.        Source: DoD, response to SIGAR data call, 4/11/2012.




                   REPORT TO THE UNITED STATES CONGRESS            I   APRIL 30, 2012                        51
                                                         STATUS OF FUNDS
  ASFF



                DoD




                                                         COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                            he Commander’s Emergency Response Program (CERP) enables U.S. command-
                                                         ers in Afghanistan to respond to urgent humanitarian relief and reconstruction
                                                         requirements in their areas of responsibility by supporting programs that will
                DoD
                                                         immediately assist the local population. Funding under thisb program is intended
                                                         for small projects that are estimated to cost less than $500,000 each. 24 Projects
                                                         with cost estimates exceeding $1.00 million are permitted, but they require
CERP FUNDS TERMINOLOGY
                                                         approval from the Commander of U.S. Central Command; projects over $5.00
OMB reported CERP funds as appropriated.                 million require approval from the Deputy Secretary of Defense. CERP-funded
Appropriations: TotalDoD CN
                      monies available for               projects may not exceed $20.00 million. 25
commitments                                                 As of March 31, 2012, DoD reported that the total cumulative funding for
DoD reportedDoDCERP funds as appropriated,               CERP amounted to nearly $3.44 billion. 26 DoD reported that of this amount,
obligated, or disbursed.                                 nearly $2.21 billion had been obligated, of which nearly $2.03 billion had been
Appropriations: Total monies available for               disbursed. 27 Figure 3.8 shows CERP appropriations by fiscal year.
commitments                                                 DoD reported that cumulative obligations as of March 31, 2012, increased
Obligations: Commitments to pay monies                   by nearly $9.61 million over cumulative obligations as of December 31, 2011.
                             ESF been
Disbursements: Monies that have                          Cumulative disbursements as of March 31, 2012, increased by more than
expended                                                 $87.81 million over cumulative disbursements as of December 31, 2011. 28
                                                         Figure 3.9 provides a cumulative comparison of amounts appropriated, obligated,
Sources: OMB, response to SIGAR dataUSAID
                                      call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.             and disbursed for CERP projects.


                                                         FIGURE 3.8                                                     FIGURE 3.9

                                           INCLE         CERP APPROPRIATIONS BY FISCAL YEAR                             CERP FUNDS, CUMULATIVE COMPARISON
                                                         ($ MILLIONS)                                                  ($ BILLIONS)



                                            DoS
                                                         $1,000                                                         $3.5                Appropriated                 Appropriated
                                                                                                                                            $3.44                        $3.44
                                                                                                                        $3.0
                                                          $800
                AIF
                                                                                                                        $2.5
                                                                                                                                            Obligated                   Obligated
                                                          $600                                                                              $2.20                       $2.21
                                                                                                                        $2.0
                DoD                                                                                                                         Disbursed                   Disbursed
                                                                                                                        $1.5                $1.94                       $2.03
                                                          $400

                                                                                                                        $1.0
                      TFBSO                               $200
                                                                                                                        $0.5


                DoD                                          $0                                                          $0
                                                                  2004 05 06 07 08 09 10 11 12                                  As of Dec 31, 2011          As of Mar 31, 2012

                                                         Notes: Numbers affected by rounding. Data may include inter-   Notes: Numbers affected by rounding. Data may include inter-
                                                         agency transfers.                                              agency transfers.
                                                         Sources: DoD, response to SIGAR data call, 4/18/2012; P.L.     Sources: DoD, responses to SIGAR data call, 4/18/2012 and
                                                         112-74, 12/23/2011; OMB, response to SIGAR data call,          1/17/2012; P.L. 112-74, 12/23/2011; OMB, response to
                                                         4/17/2012; P.L. 112-10, 4/15/2011.                             SIGAR data call, 4/17/2012; P.L. 112-10, 4/15/2011.




                                                             52                         SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                    USAID

                                                                 STATUS OF FUNDS
                                                                                                                                                                             INCLE



                                                                                                                                                                              DoS



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                       AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-scale
infrastructure projects that support the U.S. civilian-military effort. Thirty days
                                                                                                                                                DoD
before obligating or expending funds on an AIF project, the Secretary of Defense
is required to notify the Congress with details of the proposed project, including
a plan for its sustainment and a description of how it supports the counter-                                                     AIF FUNDS TERMINOLOGY
insurgency strategy in Afghanistan. 29
    The Consolidated Appropriations Act of 2012 appropriated $400.00 million                                                     DoD reported AIFTFBSO
                                                                                                                                                   funds as appropriated,
for the AIF, bringing the total cumulative appropriations for this fund to                                                       obligated, or disbursed.
$800.00 million. DoD reported that as of March 31, 2012, approximately                                                           Appropriations: Total monies available for
                                                                                                                                 commitments  DoD
$271.20 million of this amount had been obligated, of which approximately
                                                                                                                                 Obligations: Commitments to pay monies
$28.10 million had been disbursed. 30 Figure 3.10 shows AIF appropriations by
                                                                                                                                 Disbursements: Monies that have been
fiscal year.                                                                                                                     expended
    DoD reported that cumulative obligations as of March 31, 2012, increased
by nearly $46.55 million over cumulative obligations as of December 31, 2011.                                                    Source: DoD, response to SIGAR data call, 4/13/2010.
Cumulative disbursements as of March 31, 2012, increased by more than $18.05
million over cumulative disbursements as of December 31, 2012. 31 Figure 3.11
provides a cumulative comparison of amounts appropriated, obligated, and dis-
bursed for AIF projects.

FIGURE 3.10                                                    FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR
($ MILLIONS)
                                                               AIF FUNDS, CUMULATIVE COMPARISON
                                                               ($ MILLIONS)
                                                                                                                                     SIGAR AUDIT
                                                                                                                                     In an ongoing audit, SIGAR is focusing
$800
 $800                                                          $800
                                                               $800                  Appropriated
                                                                                      Appropriated               Appropriated
                                                                                                                  Appropriated       on selection, inter-agency coordination,
                                                                                     $800.00
                                                                                      $800.00                    $800.00
                                                                                                                  $800.00            and sustainability of projects in the
                                                                                                                                     Afghanistan Infrastructure Program
                                                                                                                                     (AIP), which is supported by the AIF.
$600
 $600                                                          $600
                                                               $600
                                                                                                                                     For more information, see Section 2,
                                                                                                                                     page 27.

$400
 $400                                                          $400
                                                               $400


                                                                                                                 Obligated
                                                                                                                 Obligated
                                                                                     Obligated
                                                                                     Obligated                   $271.20
                                                                                                                 $271.20
$200
 $200                                                          $200
                                                               $200                  $224.65
                                                                                     $224.65

                                                                                     Disbursed
                                                                                     Disbursed                   Disbursed
                                                                                                                 Disbursed
                                                                                     $10.05
                                                                                     $10.05                      $28.10
                                                                                                                 $28.10
  $0
  $0                                                             $0
                                                                 $0
         2011
         2011                                 2012
                                              2012                     As
                                                                        AsofofDec
                                                                              Dec31, 20111
                                                                                  31,201             As
                                                                                                      AsofofMar
                                                                                                            Mar31, 20122
                                                                                                                31,201

Notes: Numbers affected by rounding. Data may include inter-   Notes: Numbers affected by rounding. Data may include inter-
agency transfers.                                              agency transfers.
Sources: P.L. 112-74, 12/23/2011; P.L. 112-10,                 Sources: DoD, responses to SIGAR data call, 4/19/2012
4/15/2011.                                                     and 1/17/2012; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                               4/15/2011.




                   REPORT TO THE UNITED STATES CONGRESS                       I   APRIL 30, 2012                        53
                                            DoS

                                                       STATUS OF FUNDS
               AIF



              DoD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             The Task Force for Business and Stability Operations (TFBSO) was established
                                                       in June 2006 and operated for several years in Iraq. In 2010, the TFBSO began
                                                       operations in Afghanistan aimed at stabilizing the countryb band countering
              DoD                                      economically motivated violence by decreasing unemployment and creating eco-
                                                       nomic opportunities for Afghans. TFBSO projects include activities that facilitate
TFBSO FUNDS TERMINOLOGY                                private investment, industrial development, banking and financial system devel-
                                                       opment, agricultural diversification and revitalization, and energy development. 32
DoD reported TFBSO funds as appropriated,                 For FY 2012, the TFBSO received funding of $245.71 million, bringing the total
obligated, or disbursed.                               cumulative funding for the task force to nearly $559.21 million. 33 As of March 31,
Appropriations: Total monies available for             2012, nearly $359.69 million of this amount had been obligated, of which nearly
commitments                                            $165.46 million had been disbursed. 34 Figure 3.12 displays the amounts appropri-
Obligations: Commitments to pay monies
                                                       ated for TFBSO projects by fiscal year.
Disbursements: Monies that have been
expended                                                  DoD reported that cumulative obligations as of March 31, 2012, increased
                                                       by nearly $37.79 million over cumulative obligations as of December 31, 2011.
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       Cumulative disbursements as of March 31, 2012, increased by more than
                                                       $28.55 million over cumulative disbursements as of December 31, 2011. 35
                                                       Figure 3.13 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for TFBSO projects.


                                                       FIGURE 3.12                                                    FIGURE 3.13


                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR	                           TFBSO FUNDS, CUMULATIVE COMPARISON	
                                                       ($ MILLIONS)                                                   ($ MILLIONS)



                                                       $250
                                                        $250                                                          $600
                                                                                                                       $600
                                                                                                                                                                       Appropriated
                                                                                                                                                                        Appropriated
                                                                                                                                              Appropriated
                                                                                                                                               Appropriated            $559.21
                                                                                                                                                                        $559.21
                                                                                                                      $500
                                                                                                                       $500                   $512.66
                                                                                                                                               $512.66
                                                       $200
                                                        $200

                                                                                                                      $400
                                                                                                                       $400
                                                       $150
                                                        $150                                                                                                           Obligated
                                                                                                                                                                        Obligated
                                                                                                                                              Obligated
                                                                                                                                               Obligated               $359.69
                                                                                                                                                                        $359.69
                                                                                                                      $300
                                                                                                                       $300                   $321.90
                                                                                                                                               $321.90
                                                       $100
                                                        $100
                                                                                                                      $200
                                                                                                                       $200
                                                                                                                                                                       Disbursed
                                                                                                                                                                        Disbursed
                                                                                                                                              Disbursed
                                                                                                                                               Disbursed               $165.46
                                                                                                                                                                        $165.46
                                                        $50
                                                         $50                                                                                  $136.91
                                                                                                                                               $136.91
                                                                                                                      $100
                                                                                                                       $100


                                                         $0
                                                          $0                                                           $0
                                                                                                                        $0
                                                            2009
                                                             2009           2010
                                                                             2010          2011
                                                                                            2011         2012
                                                                                                          2012                    AsAsofofDec
                                                                                                                                           Dec31,
                                                                                                                                               31,20111
                                                                                                                                                   201     AsAsofofMar
                                                                                                                                                                    Mar31,
                                                                                                                                                                        31,2012
                                                                                                                                                                            2012

                                                       Notes: Numbers affected by rounding. Data may include inter-   Notes: Numbers affected by rounding. Data may include inter-
                                                       agency transfers.                                              agency transfers.
                                                       Sources: DoD, response to SIGAR data call, 3/30/2012; 	        Sources: DoD, responses to SIGAR data call, 3/30/2012
                                                       P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.               and 1/2/2012; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                                                                                      4/15/2011.




                                                           54                          SPECIAL INSPECTOR GENERAL              I    AFGHANISTAN RECONSTRUCTION
                                                                   STATUS OF FUNDS
                                                                                                                                            CERP



                                                                                                                                                   DoD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) supports                                                                                  DoD CN
efforts to stabilize Afghanistan by combating the drug trade and related activi-
ties. DoD uses the DoD CN to provide assistance to the counter-narcotics effort
by supporting military operations against drug traffickers; expanding Afghan                                                                       DoD
interdiction operations; and building the capacity of Afghan law enforcement
bodies—including the Afghan Border Police—with specialized training, equip-                                                         DOD CN funds terminology
ment, and facilities. 36
   DoD CN funds are appropriated by Congress to a single budget line for all mil-                                                   DoD reported DoD CN funds as appropri-
                                                                                                                                                                   ESF
itary services. To allow for greater execution flexibility, funds are reprogrammed                                                  ated, obligated, or disbursed.
from the Counter-narcotics Central Transfer Account (CTA) to the military ser-                                                      Appropriations: Total monies available for
vices and defense agencies in the year of execution. The services and agencies                                                      commitments                  USAID
                                                                                                                                    Obligations: Commitments to pay monies
have internal accounting systems to track obligations of the transferred funds. As
                                                                                                                                    Disbursements: Monies that have been
a result, DoD reported DoD CN accounts for Afghanistan as a single figure for all
                                                                                                                                    expended
appropriated, obligated, and disbursed amounts for each fiscal year. 37
   As of March 31, 2012, DoD reported that DoD CN received more than                                                                                                             INCLE
                                                                                                                                    Source: DoD, response to SIGAR data call, 4/13/2010.
$376.37 million for Afghanistan for FY 2012, bringing the total cumulative funding
to more than $2.26 billion since FY 2004. Figure 3.14 shows DoD CN appro-
priations by fiscal year, and Figure 3.15 provides a cumulative comparison of                                                                                                   DoS
amounts appropriated, obligated, and disbursed for DoD CN projects.

FIGURE 3.14                                                        FIGURE 3.15
                                                                                                                                                   AIF
DOD CN APPROPRIATIONS BY                                           DOD CN FUNDS,
FISCAL YEAR ($ MILLIONS)                                           CUMULATIVE COMPARISON ($ BILLIONS)
                                                                                                                                                   DoD
$400                                                               $2.3                 Appropriated                 Appropriated
                                                                                        $2.28                        $2.26
                                                                   $2.2                 Obligated
$350                                                                                                                 Obligated
                                                                                        $2.28                        $2.26
                                                                   $2.1                                                                                  TFBSO
                                                                                        Disbursed                    Disbursed
$300                                                                                    $2.28
                                                                   $2.0                                              $2.26
$250                                                               $1.9                                                                            DoD

$200                                                               $1.8

                                                                   $1.7
$150
                                                                   $1.6
$100
                                                                   $1.5
 $50

  $0                                                                $0
       2004 05        06    07     08 09a 10           11 12b             As of Dec 31, 2011           As of Mar 31, 2012

Notes: Numbers affected by rounding. Data may include inter-       Note: Numbers affected by rounding. Data may include inter-
agency transfers.	                                                 agency transfers. Updated data resulted in lower figures.
a. Updated data resulted in a lower appropriation figure.	
                                                                   Source: DoD, responses to SIGAR data call, 4/17/2012 and
b. Decrease in appropriation figure reflects congressional marks
                                                                   1/4/2012.
and related reductions to planned Mi-17 acquisition strategy.
Source: DoD, response to SIGAR data call, 4/17/2012.




                   REPORT TO THE UNITED STATES CONGRESS                       I   APRIL 30, 2012                          55
              DoD




                                                        STATUS OF FUNDS
                        DoD CN



              DoD




                                                        ECONOMIC SUPPORT FUND
                                    ESF                 Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                        countries meet short- and long-term political, economic, and security needs. ESF
                                                        programs support counter-terrorism; bolster national economies; and assist in
                                   USAID                the development of effective, accessible, independent legal systems for a more
                                                        transparent and accountable government. 38
ESF FUNDS TERMINOLOGY
                                                           As of March 31, 2012, USAID reported that the total cumulative funding for the
                                                        ESF amounted to more than $14.95 billion. Of this amount, nearly $11.47 billion
USAID reported ESF funds as appropriated,
                                   INCLE                had been obligated, of which nearly $8.82 billion had been disbursed. 39 Figure 3.16
obligated, or disbursed.                                shows ESF appropriations by fiscal year.
Appropriations: Total monies available                     USAID reported that cumulative obligations as of March 31, 2012, increased
for commitments                     DoS
                                                        by nearly $806.16 million over cumulative obligations as of December 31, 2011.
Obligations: Commitments to pay monies
                                                        Cumulative disbursements as of March 31, 2012, increased by nearly
Disbursements: Monies that have been
                                                        $277.19 million over cumulative disbursements as of December 31, 2011. 40
expended
               AIF
                                                        Figure 3.17 provides a cumulative comparison of the amounts appropriated,
Sources: OMB, response to SIGAR data call, 4/19/2010;   obligated, and disbursed for ESF programs.
USAID, response to SIGAR data call, 4/15/2010.

              DoD

                                                        FIGURE 3.16                                                    FIGURE 3.17


                                                        ESF APPROPRIATIONS BY FISCAL YEAR                              ESF FUNDS, CUMULATIVE COMPARISON
                     TFBSO                              ($ BILLIONS)                                                   ($ BILLIONS)




              DoD                                        $3.5
                                                        $3.5                                                           $16.0
                                                                                                                        $16.0
                                                                                                                                                                         Appropriated
                                                                                                                                                                          Appropriated
                                                        $3.0
                                                         $3.0                                                                                                            $14.95
                                                                                                                                                                          $14.95
                                                                                                                       $14.0
                                                                                                                        $14.0
                                                        $2.5
                                                         $2.5                                                                              Appropriated
                                                                                                                                            Appropriated
                                                                                                                                           $13.02
                                                                                                                                            $13.02
                                                                                                                       $12.0
                                                                                                                        $12.0
                                                        $2.0
                                                         $2.0                                                                                                            Obligated
                                                                                                                                                                         Obligated
                                                                                                                                                                         $11.47
                                                                                                                                                                         $11.47
                                                                                                                                           Obligated
                                                                                                                                           Obligated
                                                         $1.5
                                                        $1.5                                                                               $10.66
                                                                                                                                           $10.66
                                                                                                                       $10.0
                                                                                                                        $10.0

                                                         $1.0
                                                        $1.0                                                                                                             Disbursed
                                                                                                                                                                         Disbursed
                                                                                                                                           Disbursed
                                                                                                                                           Disbursed                     $8.82
                                                                                                                                                                         $8.82
                                                                                                                        $8.0
                                                                                                                         $8.0              $8.54
                                                                                                                                           $8.54
                                                        $0.5
                                                         $0.5


                                                          $0
                                                           $0                                                              $0
                                                                                                                          $0
                                                                2002
                                                                2002 03
                                                                     03 04
                                                                        04 05
                                                                           05 06
                                                                              06 07
                                                                                 07 08
                                                                                    08 09
                                                                                       09 10 11 12
                                                                                          10 11 12                              As
                                                                                                                                 AsofofDec
                                                                                                                                       Dec31,
                                                                                                                                           31,2011
                                                                                                                                              2011           As
                                                                                                                                                              AsofofMar
                                                                                                                                                                    Mar31,
                                                                                                                                                                        31,2012
                                                                                                                                                                           2012

                                                        Notes: Numbers affected by rounding. Data may include inter-    Notes: Numbers affected by rounding. Data may include inter-
                                                        agency transfers. DoS shifted $100 million from FY 2012 to      agency transfers.
                                                        FY 2011 to increase FY 2012 funds available for Egypt.          Sources: USAID, responses to SIGAR data call, 4/3/2012 and
                                                        Sources: USAID, response to SIGAR data call, 4/3/2012; 	        1/5/2012; OMB, response to SIGAR data call, 4/17/2012.
                                                        OMB, response to SIGAR data call, 4/17/2012.




                                                            56                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                      DoD



                                                                     STATUS OF FUNDS
                                                                                                                                                                           ESF



                                                                                                                                                                          USAID




INTERNATIONAL NARCOTICS CONTROL AND LAW
ENFORCEMENT                                                                                                                                                                        INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
manages an account for advancing rule of law and combating narcotics produc-
                                                                                                                                                                                   DoS
tion and trafficking—the International Narcotics Control and Law Enforcement
(INCLE) account. INCLE supports several INL program groups, including police,
counter-narcotics, and rule of law and justice. 41                                                                                     INL FUNDS TERMINOLOGY
   As of March 31, 2012, DoS reported that the total cumulative funding for                                                                            AIF
INCLE amounted to nearly $3.58 billion. Figure 3.18 displays INCLE allotments                                                          INL reported INCLE and other INL funds as
by fiscal year. Of this amount, nearly $3.08 billion had been obligated, of which                                                      allotted, obligated, or liquidated.
nearly $2.15 billion had been liquidated. 42                                                                                           Allotments: Total
                                                                                                                                                    DoD monies available
   DoS reported that cumulative obligations as of March 31, 2012, increased by                                                         for commitments
more than $228.23 million over cumulative obligations as of December 31, 2011.                                                         Obligations: Commitments to pay monies
Cumulative liquidations as of March 31, 2012, increased by more than $78.37                                                            Liquidations: Monies that have been ex-
                                                                                                                                       pended           TFBSO
million over cumulative liquidations as of December 31, 2011. 43 Figure 3.19
provides a cumulative comparison of amounts allotted, obligated, and liquidated                                                        Source: DoS, response to SIGAR data call, 4/9/2010.
for INCLE.
                                                                                                                                                     DoD


FIGURE 3.18                                                       FIGURE 3.19


INCLE ALLOTMENTS BY FISCAL YEAR                                   INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                      ($ BILLIONS)


                                                                                                                         Allotted
$700                                                              $3.5                                                   $3.58
                                                                                           Allotted
                                                                                           $3.26                         Obligated
$600                                                              $3.0                                                   $3.08
                                                                                           Obligated
                                                                                           $2.85
$500
                                                                  $2.5

$400                                                                                                                     Liquidated
                                                                                           Liquidated
                                                                  $2.0                                                   $2.15
                                                                                           $2.07
$300

                                                                  $1.5
$200

                                                                  $1.0
$100


   $0                                                               $0
        2002 03 04 05 06 07 08 09 10 11 12                                   As of Dec 31, 2011           As of Mar 31, 2012

Notes: Numbers affected by rounding. Data may include             Notes: Numbers affected by rounding. Data may include inter-agency
inter-agency transfers. Updated data resulted in a lower appro-   transfers.
priation figure for FY 2005 than reported last quarter.           Sources: DoS, responses to SIGAR data call, 4/17/2012 and
Sources: DoS, responses to SIGAR data call, 4/17/2012 and         4/6/2012.
4/6/2012.




                    REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2012                        57
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING FOR
AFGHANISTAN
In addition to assistance provided by the United States, the international commu-
nity provides a significant amount of funding to support Afghanistan relief and
reconstruction efforts. As noted in previous SIGAR quarterly reports, most of the
international funding provided is administered through trust funds. Contributions
provided through trust funds are pooled and then distributed for reconstruction
activities. The two main trust funds are the Afghanistan Reconstruction Trust
Fund (ARTF) and the Law and Order Trust Fund for Afghanistan (LOTFA). 44

Contributions to the Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan operational and
development budgets comes through the ARTF. From 2002 to March 19, 2012,
the World Bank reported that 33 donors had pledged more than $5.35 billion, of
which more than $5.17 billion had been paid in. 45 According to the World Bank,
donors have pledged $1.12 billion to the ARTF for the past Afghan fiscal year—
solar year 1390—which ran from March 21, 2011, to March 20, 2012. 46 Figure 3.20
shows the 12 largest donors to the ARTF for SY 1390.

FIGURE 3.20


ARTF CONTRIBUTIONS FOR SY 1390 BY DONOR, AS OF DECEMBER 21, 2011 ($ MILLIONS)

                                              Total Commitments: $1,116          Total Paid In: $934


    United States                                                                                               400
            Japan              20                                                                       158
 United Kingdom                                                                                  133
         Australia                                                      89
         Germany                                                  78
          Canada                                       49
          Norway                                       49
           EC/EU          9                       42
     Netherlands                         33
          Sweden                        29
              Italy           11
         Denmark              10
           Others                  23    34
                      0                      40                  80                    120              160   400
                                                       Paid In                       Commitments

Notes: Numbers affected by rounding. SY = solar year. SY 1390 = 3/21/2011–3/20/2012.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of December 21, 2011,” p. 1.




    58                              SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                          STATUS OF FUNDS




   As of March 19, 2012, the United States had paid in its entire ARTF commit-      FIGURE 3.21

ment through solar year 1390—more than $1.37 billion. 47 The United States and
                                                                                    ARTF CONTRIBUTIONS PAID IN BY DONORS
the United Kingdom are the two biggest donors to the ARTF, together contribut-
                                                                                    SINCE SY 1381,
ing nearly 46% of its total funding, as shown in Figure 3.21.                       AS OF MARCH 19, 2012 (PERCENT)
   Contributions to the ARTF are divided into two funding channels—the
Recurrent Cost (RC) Window and the Investment Window. 48 As of March 19,
                                                                                                   Total Paid In: $5.2 billion
2012, according to the World Bank, nearly $2.45 billion of ARTF funds had been
disbursed to the Afghan government through the RC Window to assist with
recurrent costs such as salaries of civil servants. 49 The RC Window supports the                        United States
operating costs of the Afghan government because the government’s domestic                               27%
revenues continue to be insufficient to support its recurring costs. To ensure                                           United
                                                                                                  Others                 Kingdom
that the RC Window receives sufficient funding, donors to the ARTF may not                                               19%
                                                                                                  29%
“preference” (earmark) more than half of their annual contributions for desired
                                                                                                                      Canada
projects. 50                                                                                                          11%
   The Investment Window supports the costs of development programs. As
of March 19, 2012, according to the World Bank, more than $2.15 billion had                    EC/EU                     Netherlands
been committed for projects funded through the Investment Window, of which                     7%                        8%
more than $1.61 billion had been disbursed. The World Bank reported 23 active       Notes: Numbers affected by rounding. SY = solar year. SY
                                                                                    1381 = 3/21/2002–3/20/2003. “Others” includes 28
projects with a combined commitment value of nearly $1.15 billion, of which         donors.
approximately $607.67 million had been disbursed. 51                                Source: World Bank, “ARTF: Administrator’s Report on
                                                                                    Financial Status as of December 21, 2011,” p. 5.


Contributions to the Law and Order Trust Fund for Afghanistan                       FIGURE 3.22
The United Nations Development Programme administers the LOTFA to pay
ANP salaries and build the capacity of the Ministry of Interior. 52 Since 2002,     DONORS’ CONTRIBUTIONS TO THE LOTFA SINCE
donors have pledged nearly $2.13 billion to the LOTFA, of which more than           2002, AS OF SEPTEMBER 30, 2011 (PERCENT)
$2.12 billion had been paid in as of September 30, 2011, according to the most
recent data available. 53
   The LOTFA’s sixth support phase started on January 1, 2011, and runs through
March 31, 2013. In the first nine months of 2011, the LOTFA had transferred
                                                                                                  United States        Japan
more than $356.35 million to the Afghan government to cover ANP salaries,                         38%                  27%
nearly $11.60 million for Central Prisons Directorate staff remunerations, and an
additional $6.67 million for capacity development and other LOTFA initiatives. 54                      Others      EC/EU
As of September 30, 2011, donors had committed more than $598.35 million to                            13%         18%
the LOTFA for Phase VI. Of that amount, the United States had committed more
than $257.07 million, and Japan had committed $240.00 million. Their combined                                      Canada
commitments make up more than 83% of LOTFA Phase VI commitments as of                                              4%
September 30, 2011. 55 The United States had contributed nearly $812.74 million     Notes: Numbers affected by rounding. EC/EU = European
                                                                                    Commission/European Union.
to the LOTFA since the fund’s inception. 56 Figure 3.22 shows the four largest      Source: UNDP, “LOTFA Phase VI Quarterly Progress Report
donors to the LOTFA since 2002, based on the latest data available.                 Q3/2011,” 10/27/2011; SIGAR analysis of UNDP’s quarterly
                                                                                    and annual LOTFA reports, 1/20/2012.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       59
                                                             ENDNOTES




15. 	 OMB, “The Budget Message of the President,” 2/13/2012; DoD, “Department of Defense Budget for Fiscal Year 2013: Financial Summary
      Tables,” 2/2012.
16. 	 P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
17. 	 DoD, response to SIGAR vetting, 7/20/2009.
18. 	 See Appendix B of this report.
19. 	 DoD, response to SIGAR data call, 4/11/2012.
20. 	 DoD, responses to SIGAR data call, 4/11/2012 and 1/13/2012.
21. 	 DoD OIG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund - Phase I,”
      11/5/2007, p. 2.
22. 	 DoD, response to SIGAR data call, 4/11/2012.
23. 	 DoD, response to SIGAR data call, 4/11/2012.
24. 	 DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
25. 	 USFOR-A, “Commander’s Emergency Response Program (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74, 12/23/2011.
26. 	 See Appendix B of this report.
27. 	 DoD, response to SIGAR data call, 4/18/2012.
28. 	 DoD, responses to SIGAR data call, 4/18/2012 and 1/17/2012.
29. 	 U.S. Senate Committee on Armed Services, press release, “Senate Passes Ike Skelton National Defense Authorization Act for Fiscal Year 2011,”
      12/22/2010.
30. 	 DoD, response to SIGAR data call, 4/19/2012; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.
31. 	 DoD, responses to SIGAR data call, 4/19/2012 and 1/17/2012.
32. 	 TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response to SIGAR data call, 7/22/2011.
33. 	 See Appendix B of this report.
34. 	 DoD, response to SIGAR data call, 3/30/2012.
35. 	 DoD, responses to SIGAR data call, 3/30/2012 and 1/2/2012.
36. 	 DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed 4/13/2010.
37. 	 DoD OIG, “Independent Auditor’s Report on the DoD FY 2011 Detailed Accounting Report of the Funds Obligated for National Drug Control
      Program Activities,” Report No. DODIG-2012-04, 1/30/2012.
38. 	 OMB, response to SIGAR vetting, 7/16/2009.
39. 	 USAID, response to SIGAR data call, 4/3/2011.
40. 	 USAID, responses to SIGAR data call, 4/3/2012 and 1/5/2012.
41. 	 DoS, response to SIGAR data call, 10/13/2009.
42. 	 DoS, response to SIGAR data call, 4/6/2012.
43. 	 DoS, responses to SIGAR data call, 4/6/2012 and 1/10/2012.
44. 	 SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
45. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of March 19, 2012,” p. 4.
46. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of March 19, 2012,” p. 1.
47. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of March 19, 2012,” p. 4.




                                                      60                    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




48. 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.
49. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of March 19, 2012,” p. 6.
50. 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.
51. 	 World Bank, “ARTF: Administrator’s Report on Financial Status as of March 19, 2012,” p. 6.
52. 	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
53. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 1, 10/27/2011; SIGAR analysis of UNDP’s quarterly and annual LOTFA
      reports, 1/20/2012.
54. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 2, 10/27/2011.
55. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 1, 10/27/2011; SIGAR analysis of UNDP’s quarterly and annual LOTFA
      reports, 1/20/2012.
56. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2011,” Table 1, 10/27/2011; SIGAR analysis of UNDP’s quarterly and annual LOTFA
      reports, 1/20/2012.




             REPORT TO THE UNITED STATES CONGRESS           I   APRIL 30, 2011             61
                                                                   SECURITY




SECURITY
As of March 31, 2012, the U.S. Congress had appropriated more than $52.1 billion
to support the Afghan National Security Forces (ANSF). Most of these funds
($50.6 billion) were appropriated through the Afghanistan Security Forces Fund
(ASFF) and provided through the Combined Security Transition Command -
Afghanistan (CSTC-A). They were used to build, equip, train, and sustain the
ANSF—which consists of the Afghan National Army (ANA) and the Afghan
National Police (ANP)—and for related activities such as detainee operations.
(For more information on detainee operations, see “Governance.”) Of the
$50.6 billion appropriated for the ASFF, approximately $37.0 billion had been
obligated, and $32.6 billion had been disbursed, as of March 31, 2012. 57
   This quarter, the U.S. Department of Defense (DoD) released its FY 2013
budget request for the ASFF. This request, which is for 49% less than the
amount appropriated for FY 2012, marks a shift in emphasis as the building and
equipping phase draws to a close and the focus turns to professionalizing and
sustaining the ANSF. 58
   This section discusses assessments of the ANSF and the ministries of Defense
and Interior, and gives an overview of U.S. funds used to support the ANSF. It
also provides an update on efforts to combat the cultivation and trade of illicit
narcotics in Afghanistan.

FY 2013 BUDGET REQUEST FOR THE ASFF
The ASFF has provided the resources needed to train and equip 352,000
members of the ANSF and 30,000 members of the Afghan Local Police (ALP),
according to DoD. For FY 2013, DoD requested $5.75 billion to fund the ASFF—a
significant decrease from the $11.2 billion appropriated for FY 2012. 59 Although
in most funding categories the amounts requested were reduced from prior-year
levels, the most dramatic decreases were for infrastructure and equipment. 60 For
example, the amount requested for ANA infrastructure was reduced by 85% from
the amount appropriated for FY 2012, and the amount for ANP infrastructure by
96%. By contrast, the amount requested for sustainment efforts was reduced by
only 17% for the ANA and by 27% for the ANP, as shown in Table 3.1 on the fol-
lowing page.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012      63
                                                 SECURITY




                                                 TABLE 3.1


                                                 AFGHANISTAN SECURITY FORCES FUND
                                                                                           Consolidated Appropriations             FY 2013 Overseas Contingency
                                                                                              Act, 2012 (P.L. 112-74)                  Operations (OCO) Request         Change
                                                 MoD/ANA
                                                 Infrastructure                                            1,304,350,000                           190,000,000            –85%
                                                 Equipment and Transportation                              1,432,490,000                           241,521,000            –83%
                                                 Training and Operations                                     751,073,000                           758,380,000             +1%
                                                 Sustainment                                               3,033,984,000                         2,523,825,000            –17%
                                                 MoI/ANP
                                                 Infrastructure                                            1,128,584,000                             50,000,000           –96%
                                                 Equipment and Transportation                                601,915,000                             84,859,000           –86%
                                                 Training and Operations                                   1,102,430,000                           569,868,000            –48%
                                                 Sustainment                                               1,800,425,000                         1,305,950,000            –27%
                                                 Related Activities
                                                 Infrastructure                                                15,000,000                             1,200,000           –92%
                                                 Equipment and Transportation                                   1,218,000                             1,239,000            +2%
                                                 Training and Operations                                        7,344,000                             4,000,000           –46%
                                                 Sustainment                                                   21,187,000                            18,325,000           –14%
                                                 TOTAL                                                11,200,000,000                           5,749,167,000             –49%
                                                 Notes: Numbers affected by rounding. MoD = Ministry of Defense. MoI = Ministry of Interior.
                                                 Sources: P.L. 112-74, 12/23/2011, p. 58, accessed 4/13/2012; U.S. Congress, “Joint Explanatory Statement of the Committee of
                                                 Conference,” H. Rept. 112-331, accessed 4/13/2012; DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan
                                                 Security Forces Fund (ASFF),” 2/2012, pp. 2–3.




                                                 KEY EVENTS THIS QUARTER
                                                 This quarter, several events affected the security environment in Afghanistan,
                                                 strained U.S.-Afghan relations, and hampered U.S. and coalition efforts to train
                                                 and advise the ANSF. This quarter also marked the first phase of transition-
                                                 ing security responsibilities for project sites and convoys from private security
                                                 contractors (PSCs) to the Afghan Public Protection Force (APPF). Assessments
                                                 during the quarter showed that the ANSF and the ministries of Defense and
                                                 Interior have continued to make progress toward operating effectively and inde-
                                                 pendent of coalition support.

                                                 Koran Burning Incident and Effects
                                                 In February, International Security Assistance Force (ISAF) personnel inadver-
A private security contractor passes             tently burned Islamic religious materials, including Korans. Demonstrations and
a rifle to a member of the Afghan Public         riots sparked by the incident resulted in the deaths of 32 Afghans and attacks on
Protection Force, symbolizing the transfer       ISAF troops by ANSF personnel. 61
of responsibility for security at the Tarakhil
Power Plant on March 15. This quarter, the
Afghan government began to implement             ANSF Personnel Attacks on Coalition Troops
its strategy to disband all national and         Attacks on ISAF troops by ANSF personnel—what DoD calls “green-on-blue”
international PSCs. (USAF photo, SSgt Terri      incidents—are on the rise, according to DoD. 62 From May 2007 to January 2012,
L. Barriere)
                                                 approximately 70 coalition personnel had been killed and 110 had been wounded



                                                    64                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                    SECURITY




in 42 such attacks, according to testimony by DoD officials before the House
Armed Services Committee on February 1. 63
   Since the start of the year, 13 ISAF troops had been killed by ANSF person-                SIGAR AUDIT
nel, according to testimony on March 20 by ISAF Commander General John R.                     In a June 2011 special report to
Allen before the same committee. 64 He noted that some of the attacks by ANSF                 Congress on contracting in Afghanistan,
personnel may have been motivated by the burning of Korans by ISAF personnel                  SIGAR found that Afghan deaths
in February. 65 In one such attack this quarter, an ANP intelligence officer killed           caused by PSC personnel had not
two U.S. military officers serving as advisors at the Ministry of Interior (MoI)              been systematically tracked and that
headquarters. That incident prompted ISAF to temporarily recall its personnel                 casualty data may not be complete.
from Afghan ministries. 66                                                                    For details, see SIGAR Audit 11-1SP,
   On March 27, the Chairman of the Joint Chiefs of Staff, General Martin E.                  “Analysis of Recommendations Con-
Dempsey, stated that the North Atlantic Treaty Organization (NATO) will have to               cerning Contracting in Afghanistan, as
build up Afghan counter-intelligence capabilities to prevent insurgents from infiltrat-       Mandated by Section 1219 of the Fis-
ing the ANSF to kill coalition personnel. General Dempsey noted that an eight-step            cal Year 2011 NDAA,” at www.sigar.mil.
vetting process is in place, which includes obtaining letters from tribal leaders and
conducting biometric screening. He also stated that resolving the problem will
require the Afghans to adopt the same vetting process used by the United States.
According to the General, the NATO Training Mission - Afghanistan (NTM-A) has
expanded counter-intelligence training and bolstered the vetting process. 67

Attack on Civilians in Kandahar
On March 23, 2012, a U.S. Army staff sergeant was formally charged under the
U.S. Code of Military Justice with 17 counts of premeditated murder. The charges
alleged that on March 11 the accused killed 17 residents in the Panjwai district of
Kandahar and tried to kill 6 others. 68 Following the incident, initial media reports
quoted Afghan witnesses who said that U.S. forces entered homes in a village
during the early hours and opened fire on civilians. 69 DoD officials stated that
only one U.S. soldier was suspected in the attack and that an investigation was
ongoing. 70 In the aftermath of the tragedy, several high-ranking U.S. officials—
including President Barack Obama and ISAF Commander General Allen—offered                 Definition
their condolences; in accordance with cultural norms in Afghanistan, compensa-
tion payments were made to the families of the victims. 71                                  Risk management company (RMC): An
                                                                                            organization that advises on the security
Private Security Contractors and the Afghan Public                                          of sites, buildings, people, logistics, trans-
                                                                                            portation of goods and equipment, and
Protection Force                                                                            contract management of security service
This quarter, the Afghan government began transitioning responsibility for the              operations based on professional norms
security provided by PSCs for development and humanitarian projects to the                  derived from industry best practices. RMCs
MoI’s APPF. 72 This marked the first phase of a bridging strategy to implement              do not provide security services: they pro-
President Karzai’s 2010 decree to disband all national and international PSCs,              vide training and security advisory services
as noted in the January 2012 SIGAR quarterly report. As part of the transition,             to the APPF. They also contract for such
several companies that had been providing security for development projects                 services with the APPF on behalf of organi-
registered with the MoI as a risk management company (RMC). RMCs work                       zations and individuals.
with and advise the APPF and their clients on security-related issues but do not
provide security. 73 Another part of the transition is the recruitment into the APPF      Source: GIRoA, APPF, “For PSCs/RMCs,” accessed
                                                                                          3/22/2012.




            REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2012          65
                                                                   SECURITY




TABLE 3.2


ANA UNIT ASSESSMENTS: QUARTERLY CHANGE
                             111th Division      201st Corps         203rd Corps        205th Corps         207th Corps       209th Corps       215th Corps       Commando         HSSB
                              Dec       Feb      Dec       Feb       Dec       Feb      Dec       Feb       Dec       Feb      Dec    Feb        Dec    Feb        Dec    Feb     Dec  Feb
Rating                       2011      2012     2011      2012      2011      2012     2011      2012      2011      2012     2011   2012       2011   2012       2011   2012    2011 2012
Independent with                  0        1         0         2         1         1        3         7         0         0      2          3      0          0     0        0     1      1
Advisors
Effective with Advisors           9       19       15        19        12        16        17       18          5       13       9     13         11     21         5        0     2      3
Effective with Partners           1        4       11        10        25        29        19       18          8       11       8          9     14     10         3        0     0      0
Developing with                   1        1         2         3         2         3        2         1         2         6      1          3      4          1     5        0     0      0
Partners
Established                       0        0         0         0         0         0        0         1         1         0      0          1      1          1     0        0     0      0
Not Assessed                      9        0         1         1         0         0        0         0         1         0      0          0      1          1     0        0     0      0
Total Units Assessed           11        25        28        34       40        49        41        45       16        30      20      29        30      33        13        0     3      4
Notes: Rating categories are explained on page 63. HSSB = Headquarters Security and Support Brigade (ministry-level unit).
Sources: ISAF-IJC, responses to SIGAR data call, 3/30/2012 and 1/3/2012.




                                                                   of Afghan guards who had been trained and employed by PSCs by offering them
                                                                   salaries and benefits commensurate with those they received as private guards. 74
                                                                      As of March 27, 2012, the APPF had 6,762 personnel, according to CSTC-A. Of
                                                                   those, 5,722 were assigned and present for duty, including 319 national and zone
                                                                   headquarters personnel who are funded through the Law and Order Trust Fund
                                                                   for Afghanistan (LOTFA). 75
   SIGAR AUDIT                                                        This quarter, the United Nations (UN) Secretary-General noted that the
   In an ongoing audit, SIGAR is identify-                         Afghan government’s decision to replace PSCs with the APPF had “met legal and
   ing the PSCs used by USAID’s imple-                             operational difficulties.” 76 He also noted that the UN and diplomatic missions
   menting partners and determining their                          in Afghanistan would be allowed to continue using their current security within
   costs and status in light of the Afghan                         their compounds, but that the government’s demand for the removal of security
   government’s intention to transfer PSC                          barriers on Kabul roads “will inevitably compromise the level of mandatory mini-
   security functions to the APPF. For                             mum operating security standards.” 77
   details, see Section 2, page 26.
                                                                   ANSF ASSESSMENT
                                                                   This quarter, the operational effectiveness of the ANA continued to improve,
                                                                   according to the ISAF Joint Command (IJC). This assessment was based on a
                                                                   February 2012 Commander’s Unit Assessment Tool (CUAT) report, which rated
                                                                   249 units of the ANA’s six corps, as well as its Special Operations Force, 111th
                                                                   Capital Division, and Headquarters Security and Support Brigade. The assess-
                                                                   ment reported a total of 251 units—an increase of 35 since the December 2011
                                                                   report (2 were not assessed this quarter). In the highest rating categories, 15
                                                                   units were rated “independent with advisors” (compared with 7 in the December
                                                                   report), as shown in Table 3.2. In addition, 122 were rated “effective with advi-
                                                                   sors” (compared with 85), and 91 were rated “effective with partners” (compared
                                                                   with 89). Nearly half of those rated “independent” were in the 205th Corps. 78
                                                                      The operational effectiveness of the ANP also continued to improve this quar-
                                                                   ter. Within the three main ANP components—the Afghan Uniform Police (AUP),



                                                                        66                          SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                                   SECURITY




TABLE 3.3


ANP UNIT ASSESSMENTS: QUARTERLY CHANGE
                                                  AUP                               ABP                             ANCOP
                                          Dec             Feb              Dec             Feb              Dec              Feb
Rating                                   2011            2012             2011            2012             2011             2012
Independent with Advisors                   19              31                6                4                4               6
Effective with Advisors                   106              144               20               26                8               4
Effective with Partners                     91              68               14               10                3               6
Developing with Partners                    19              24                4                7                3               3
Established                                 12              11                2                2                1               1
Not Assessed                                68              57                0                4                2               2
Total Units Assessed                     247              278               46               49               19               20
Notes: Rating categories are explained on this page. AUP = Afghan Uniform Police. ABP = Afghan Border Police. ANCOP = Afghan
National Civil Order Police.
Sources: ISAF-IJC, responses to SIGAR data call, 3/30/2012 and 1/3/2012.



the Afghan Border Police (ABP), and the Afghan National Civil Order Police
(ANCOP)—41 units received the “independent with advisors” rating, according
to IJC. 79 Most were rated “effective with advisors” (42%) or “effective with part-
ners” (20%), as shown in Table 3.3.

CUAT Ratings
In assessing the capability of ANA and ANP units, ISAF’s CUAT uses five ratings: 80                                                 SIGAR AUDIT
•	 Independent with Advisors: plans and executes missions, maintains com-
   mand and control of subordinates, calls on and coordinates quick reaction                                                        In a June 2010 audit, SIGAR made
   forces and medical evacuations, exploits intelligence, and operates in a                                                         10 recommendations to IJC and 3
   wider intelligence system.                                                                                                       to NTM-A/CSTC-A to improve the ac-
•	 Effective with Advisors: conducts effective planning, synchronizing,                                                             curacy and usefulness of the Capability
   directing, and reporting of operations and status with only limited, occa-                                                       Milestone (CM) rating system. During
   sional guidance from coalition forces and enablers as needed, and occasional                                                     the audit, IJC replaced the CM rating
   augmentation from coalition forces.                                                                                              system with the Commander’s Unit As-
•	 Effective with Partners: requires routine advising for planning, synchro-                                                        sessment Tool. For details, see SIGAR
   nizing, directing, and reporting operations and status; coordinating and                                                         Audit 10-11, “Actions Needed to Im-
   communicating with other units; and maintaining effective readiness reports.                                                     prove the Reliability of Afghan Security
   Unit enablers augmented by coalition force enablers.                                                                             Force Assessments,” at www.sigar.mil.
•	 Developing with Partners: requires partnering and assistance for planning,
   synchronizing, directing, and reporting operations and status; coordinating
   and communicating with other units; and maintaining effective readiness
   reports. Some effective unit enablers but most enablers and support from
   coalition forces.
•	 Established: beginning to organize but barely capable of planning, synchroniz-
   ing, directing, or reporting operations and status, even with the assistance of a
   partner unit; barely able to coordinate and communicate with other units. Few
   effective unit enablers; most support. Coalition forces provide most support.




                  REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2012                         67
SECURITY




MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
ASSESSMENTS
Assessments of the Ministry of Defense (MoD) and the Ministry of Interior (MoI)
this quarter showed continued progress. To rate the operational capability of
these ministries, the NATO Training Mission - Afghanistan (NTM-A) uses the
Capability Milestone (CM) rating system. This system assesses staff sections
(such as the offices headed by assistant or deputy ministers) and cross-func-
tional areas (such as general staff offices), using four primary and two secondary
ratings: 81
•	 CM-1A: capable of autonomous operations.
•	 CM-1B: capable of executing functions with coalition oversight only.
•	 CM-2A: capable of executing functions with minimal coalition assistance.
•	 CM-2B: can accomplish its mission but requires some coalition assistance.
•	 CM-3: cannot accomplish its mission without significant coalition assistance.
•	 CM-4: exists but cannot accomplish its mission.
   At the MoD, 38 of 47 staff sections and cross-functional areas were assessed
this quarter. Of those, 26% had achieved a rating of CM-2A (the same percentage
as last quarter), and 37% had achieved a rating of CM-2B (a 4% increase over last
quarter), as shown in Figure 3.23. Eight staff sections and cross-functional areas
improved (two achieved a CM-1B rating—the second highest rating—bringing
the number rated CM-1B to 3), and 29 were stable. One section regressed—the
office of the Assistant Minister of Defense for Intel Policy, which fell two levels
from a CM-2B last quarter to a CM-4 (the lowest rating). Three of the nine sec-
tions that were not assessed this quarter were rated CM-4 last quarter. 82
   At the MoI, 29 of 30 staff sections were assessed this quarter; 20% had
achieved a rating of CM-2A or higher—a 5% increase from last quarter. Seven
staff sections improved, 19 were stable, and none regressed. 83 Most staff sections
were rated CM-2B (8 sections) or CM-3 (11 sections), as shown in Figure 3.23.

ANSF STRENGTH GOALS
This quarter, the force strength of the ANSF was 337,516 (187,874 in the ANA;
149,642 in the ANP). 84 In June 2011, the Afghan government approved an
increase to 352,000 by October 2012—195,000 in the ANA and 157,000 in the ANP.
According to DoD, the ANA and ANP are on track to achieve those goals. 85
Table 3.4 shows the progress in achieving strength goals since last quarter.
   On April 10, 2012, the Afghan Minister of Defense and the Minister of Interior
met with the U.S. Secretary of Defense. 86 Among topics discussed at their
meeting was the possibility that the ANSF will need to undergo a significant
reduction—possibly to 230,000 personnel—after the NATO mission ends in 2014.
According to media reports, the reductions projected beyond 2014 were based
on plans to ensure that the ANSF can defend Afghanistan and remain sustainable
as international contributions decrease. 87




  68               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                      SECURITY




FIGURE 3.23


CAPABILITY MILESTONE RATINGS OF MoD AND MoI: QUARTERLY CHANGE

                                                                   MoD                                                                                   MoI


CM-1A: capable of                            0                                                                                    0
                                CM-1A                                                                                 CM-1A
autonomous operations                        0                                                                                    0
CM-1B: capable of                                 1                                                                                         2
executing functions with        CM-1B                                                                                 CM-1B
coalition oversight only                                   3                                                                                2
CM-2A: capable of                                                                                11                                         2
executing functions with        CM-2A                                                                                 CM-2A
minimal coalition assistance                                                                10                                                       4
CM-2B: can accomplish its                                                                                   14                                                     7
mission but requires some       CM-2B                                                                                 CM-2B
coalition assistance                                                                                        14                                                         8
CM-3: cannot accomplish its                                                            9                                                                                           11
mission without significant     CM-3                                                                                  CM-3
coalition assistance                                                               8                                                                                               11

CM-4: exists but cannot                                                       7                                                                      4
accomplish its mission          CM-4                                                                                  CM-4
                                                           3                                                                                         4
Not Assessed                                                          5                                                                              4
                                  NA                                                                                    NA
                                                                                       9                                                1
                                         0                        5                        10                   15            0                          5                  10                      15

                                                 Q1 2012 MoD Staff Sections        Q2 2012 MoD Staff Sections                         Q1 2012 MoI Staff Sections       Q2 2012 MoI Staff Sections

Sources: CSTC-A, responses to SIGAR data call, 3/27/2012 and 1/3/2012.




TABLE 3.4


 ANSF FORCE STRENGTH AGAINST TARGET GOALS
                                                                                                                     Change Since
 Priority                      Targets                                    Status                                      Last Quarter
 Afghan National Army          195,000 troops by 10/2012                  187,874 personnel (as of 3/2012)               +11,520
 Afghan National Police        157,000 personnel by 10/2012 149,642 personnel (as of 3/2012)                                 +5,845
 Sources: DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, p. 4; CSTC-A, responses to SIGAR data
 call, 3/27/2012 and 1/3/2012; ISAF-IJC, ANP Personnel Status Report, 2/2012.




SECURITY HIGHLIGHTS
This quarter, the UN released a report on civilian casualties that noted an
ongoing rise in civilian deaths. The transition to ANSF-led security in areas
throughout Afghanistan continued to progress as planned.




                    REPORT TO THE UNITED STATES CONGRESS                           I   APRIL 30, 2012                        69
                                            SECURITY




                                            Transition Progress
                                            In his March 5, 2012 report to the UN Security Council, the UN Secretary-General
                                            noted that the transition to ANSF-led security had progressed as planned in
                                            the 18 areas that comprise the second tranche of transition areas. 88 According
                                            to DoD, the ANSF is providing effective security in these transitioning areas
                                            and is demonstrating its readiness to assume responsibility for a third tranche.
                                            Approximately 50% of Afghanistan’s population lives in the areas in Tranches 1
                                            and 2; transition is expected to occur in five tranches. 89 The United Nations
                                            Assistance Mission in Afghanistan (UNAMA) provides logistical support to the
                                            Afghan government’s Transition Coordination Commission, which assesses prog-
                                            ress in transition areas, according to the UN Secretary-General. 90

                                            Civilian Casualties
                                            This quarter, UNAMA noted that civilian casualties had risen for the fifth year in
                                            a row. In its “2011 Annual Report on Protection of Civilians in Armed Conflict,”
                                            UNAMA cited an 8% rise in civilian deaths—from 2,790 in 2010 to 3,021 in 2011.
                                            The number of civilians killed during suicide attacks rose 80%. Nearly one of
                                            every three civilian deaths was caused by an improvised explosive device. 91

                                            AFGHAN NATIONAL ARMY
SIGAR AUDIT                                 As of March 31, 2012, the U.S. government had obligated $23.8 billion and dis-
                                            bursed $21.0 billion of ASFF funds to build, train, and sustain the ANA. 92 For
This quarter, SIGAR’s audit of the
                                            FY 2013, DoD requested $3.7 billion through the ASFF to support the ANA—a
CENTCOM Joint Theater Support Con-
                                            43% decrease from the amount authorized for this purpose in FY 2012. 93
tracting Command’s (CJTSCC) contract
data recommended that CJTSCC
assess the feasibility of correcting data
                                            ANA Strength
                                            On March 12, 2012, the ANA’s strength was 187,874—an increase of 11,520
for FY 2009 and earlier. For details, see
                                            since last quarter—according to CSTC-A. Of those personnel, 27,629 were on
Section 2, page 19.
                                            leave, sick, or assigned to temporary duty, and 9,208 were absent without leave
                                            (AWOL). The ANA consists of 24,691 officers, 52,248 noncommissioned officers,
                                            107,922 soldiers, and 3,013 cadets. 94
                                               Most ANA personnel are assigned to the ANA’s six corps, its Special
                                            Operations Force, and its 111th Capital Division, as noted in previous SIGAR
                                            quarterly reports. This quarter, SIGAR included in the total the number of person-
                                            nel in the Afghan Air Force, to better reflect the whole of the ANA’s main combat
                                            forces. According to CSTC-A, 124,351 personnel were assigned to these forces as
                                            of March 12, 2012. However, the number of personnel assigned does not neces-
                                            sarily equal the number of troops present for duty, as noted in previous SIGAR
                                            reports and shown in Figure 3.24. Of these forces, 3–11% were AWOL, as shown
                                            in Figure 3.25. 95




                                              70                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                     SECURITY




FIGURE 3.24                                                                                                                                   FIGURE 3.25

ANA PERSONNEL STRENGTH, SELECTED COMPONENTS,                                                                                                  ANA PERSONNEL PRESENCE, SELECTED
ON MARCH 12, 2012                                                                                                                             COMPONENTS, ON MARCH 12, 2012 (PERCENT)


 203rd Corps                                           15,929                                                  4,371            20,300      203rd Corps                    79                 11 10

 205th Corps                                                                                                            19,095              205th Corps                                             8

 201st Corps                                      13,968                                        2,895       16,863                          201st Corps                    83                  3 14

 215th Corps                                11,963                                     3,729          15,692                                215th Corps                   76                 8 16

 207th Corps                            10,565                                 3,291        13,856                                          207th Corps                   76                 11 13

 209th Corps                             10,472                             2,884        13,356                                             209th Corps                   79                  6 15

 SOF Division                                                           10,039                                                              SOF Division                                            4
111th Capital                                                                                                                              111th Capital
     Division                    7,595                     1,914 9,509                                                                          Division                   80                  7 13

    Air Force                                                     5,641                                                                        Air Force                                              3

                0                       5,000                      10,000                     15,000                     20,000                            0      20       40       60      80      100


                    Present for Duty            Assigned but Not Present for Duty            Data Not Available                                 PDY            AWOL      Other        Data Not Available


Notes: SOF = Special Operations Force. PDY = present for duty. Assigned but not PDY = on medical, training, or authorized leave, as well      Notes: Numbers affected by rounding. 	
as absent without leave. For the 203rd, 111th, and SOF, the number of personnel on medical, training, or authorized leave was not avail-      SOF = Special Operations Force. PDY = present for duty. 	
able this quarter. As a result, the number of personnel present for duty and assigned but not present for duty could not be accurately        AWOL = absent without leave. Other = on medical, training, or
counted.                                                                                                                                      authorized leave. For the 203rd, 111th, and SOF, the number
                                                                                                                                              of personnel on medical, training, or authorized leave was not
Source: CSTC-A, response to SIGAR data call, 3/27/2012.
                                                                                                                                              available this quarter. As a result, the number of personnel
                                                                                                                                              present for duty and assigned but not present for duty could
                                                                                                                                              not be accurately counted.
ANA Sustainment                                                                                                                               Source: CSTC-A, response to SIGAR data call, 3/27/2012.
As of March 31, 2012, the U.S. government had obligated $7.6 billion and dis-
bursed $6.9 billion of ASFF funds for ANA sustainment. 96 These funds are used to
provide logistical items (such as fuel), maintenance services, clothing, individual
equipment, medical supplies, ammunition, and personnel salaries and incentives. 97
For FY 2013, DoD requested $2.5 billion through the ASFF for ANA sustainment—
a 17% decrease from the amount authorized for this purpose in FY 2012. 98

ANA Salaries
As of March 27, 2012, the U.S. government had provided $988.2 million to pay
ANA salaries, including $157.8 million this quarter, according to CSTC-A. The
United States funds 72% of ANA salaries with incentives (extra pay for person-
nel engaged in combat or employed in specialty fields such as special forces,
medical, and explosive ordnance disposal) and funds 47% of salaries without
incentives (for personnel not employed in certain specialty fields or engaged in
combat). CSTC-A estimated that the ANA will require nearly $881.6 million per




                    REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2012                           71
SECURITY




year to fund salaries, incentives, and bonuses when it reaches its final strength of
195,000 personnel. 99
   To cover ANA salaries, NTM-A/CSTC-A personnel determine the amount of
funding needed and submit a request to the Defense Financing and Accounting
Service (DFAS). DFAS processes the payment and releases the funds to the
Ministry of Finance, which releases the funds to the MoD in the form of checks
that can be electronically deposited in personal bank accounts or cashed and
distributed to ANA personnel who do not have bank accounts. 100
   For FY 2013, DoD requested $556.3 million through the ASFF for ANA sala-
ries, food, incentives, and personnel management—a 7% decrease from the
amount authorized for this purpose in FY 2012. 101

DoD OIG Audit of ANA Payroll Process
This quarter, the DoD Office of Inspector General (DoD OIG) released a report
on the ANA payroll process that focused on two areas: 102
•	 distributing $410.4 million of ASFF funds to supplement the ANA payroll
   from April 2009 through January 2011
•	 building the capacity of MoD and ANA personnel so they can independently
   sustain the payroll process
   In the report, DoD OIG found that NTM-A/CSTC-A’s Finance Reform Office
had not implemented adequate controls to ensure that funds provided to
the MoD to cover future ANA salaries were properly calculated and used
for approved purposes. As a result, the Finance Reform Office’s calculations
included $47.8 million in errors. These errors resulted in incorrect estimates of
quarterly funding for ANA salaries. DoD OIG noted that providing the MoD with
an accurate funding amount for the ANA payroll is important if the MoD is to
prepare future budgets accurately and sustain the payroll. The report also found
that personnel in the Finance Reform Office needed to improve how they advise
MoD personnel and ANA personnel below the corps level. 103
   DoD OIG noted that during the course of the audit, NTM-A/CSTC-A took
action to improve controls and increase the number of advisors for the ANA pay-
roll process. 104 For more information on this audit report, see Section 4.

ANA Equipment and Transportation
As of March 31, 2012, the U.S. government had obligated and disbursed $9.1 billion
of ASFF funds for ANA equipment and transportation. 105
    As of March 27, 2012, the United States had provided the ANA with 176,433
weapons (at a cost of $359.8 million), 35,767 vehicles ($3.55 billion), and 80,614
pieces of communications equipment ($409.6 million). 106 These numbers are
lower than those reported last quarter for the following reasons: 107
 •	 Weapons: Last quarter, CSTC-A included weapon accessories in the total it
    provided; no accessories were included this quarter.




  72                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




•	 Vehicles: Last quarter, CSTC-A included 1,044 vehicles that had not yet been
   issued to the ANA; a correction was made this quarter.
•	 Pieces of communications equipment: Last quarter, an error in the data             SIGAR AUDIT
   reported to SIGAR resulted in a higher count of VHF radios.                        In an audit of DoD accountability for
   As of March 27, 2012, the Afghan Air Force inventory consisted of 87 aircraft,     vehicles provided to the ANSF, SIGAR
11 more than last quarter: 108                                                        found that because CSTC-A did not
•	 41 Mi-17s (transport helicopters).                                                 regularly file claims for damaged or
•	 11 Mi-35s (attack helicopters).                                                    missing equipment, it was provid-
•	 15 C-27s (cargo planes).                                                           ing fuel for vehicles that had been
•	 8 C-208Bs (light transport planes).                                                destroyed. For details, see SIGAR Audit
•	 6 C-182Ts (four-person trainers).                                                  12-04, “DoD Improved Its Accountabil-
•	 6 MD-530Fs (light helicopters).                                                    ity for Vehicles Provided to the Afghan
                                                                                      National Security Forces, but Should
   According to CSTC-A, an additional six Mi-17s, two C-208Bs, and one C-27 are       Follow Up on End-Use Monitoring Find-
expected to be delivered to the Afghan Air Force in 2012. 109                         ings,” at www.sigar.mil.
   For FY 2013, DoD requested $241.5 million through the ASFF for ANA equip-
ment and transportation—an 83% decrease from the amount authorized for this
purpose in FY 2012. 110 This request does not include amounts for weapons or
vehicles; the requested funds would support the Afghan Air Force ($169.8 mil-
lion), provide communications and intelligence equipment ($1.7 million), and
support airlift operations ($70 million). 111 According to DoD, most of the FY 2013
ANSF equipment and ammunition requirements can be fulfilled with FY 2012 and
FY 2013 funds. 112

ANA Infrastructure
As of March 31, 2012, the U.S. government had obligated $5.0 billion and disbursed
$3.0 billion of ASFF funds for ANA infrastructure. 113 As of March 16, 2012, the
                                                                                      SIGAR AUDIT
United States had completed 178 ANA infrastructure projects (valued at                In audits of task orders to support
$2.14 billion), 143 projects were ongoing ($2.94 billion), and 76 were planned        construction of the Kabul Military Train-
($1.53 billion). 114                                                                  ing Center and the Afghan National
   For FY 2013, DoD requested $190 million through the ASFF for ANA infra-            Security University, SIGAR found that
structure—an 85% decrease from the amount authorized for this purpose in              both projects cost more and took
FY 2012. 115 Instead of construction projects—the focus of most funds in this         longer to complete than planned. For
category in previous years—the requested amount is to be used to upgrade              details, see SIGAR Audit 12-02, “Better
ANA garrisons ($30 million), upgrade and modernize force protection systems           Planning and Oversight Could Have
($60 million), and prepare coalition facilities for handover to the ANSF ($100        Reduced Construction Delays and
million). 116                                                                         Costs at the Kabul Military Training
                                                                                      Center,” and SIGAR Audit 12-03, “Af-
ANA Training and Operations                                                           ghan National Security University Has
As of March 31, 2012, the U.S. government had obligated $2.1 billion and disbursed    Experienced Cost Growth and Schedule
$2.0 billion in ASFF funds for ANA operations and training. 117 For FY 2013, DoD      Delays, and Contract Administration
requested $758.4 million through the ASFF for ANA training and operations—a           Needs Improvement,” at www.sigar.mil.
1% increase above the amount authorized for this purpose in FY 2012. 118




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        73
SECURITY




ANA Literacy
This quarter, CSTC-A noted that the UN Educational, Scientific, and Cultural
Organization (UNESCO) estimated the literacy rate for the entire ANSF at approx-
imately 14%, but it did not provide rates for the ANA and ANP separately. 119
    CSTC-A identifies three levels of literacy, using the UNESCO definition for
level 3: 120
 •	 Level 1: read and write single words; count to 1,000; add and subtract whole
    numbers.
 •	 Level 2: read and write sentences, multiply and divide numbers, identify units
    of measurement.
 •	 Level 3: “identify, understand, interpret, create, communicate, compute and
    use printed and written materials associated with varying contexts”. 121
   At levels 1 and 2, individuals are classified as functionally illiterate. According
to CSTC-A, functional literacy is achieved only upon completing level 3 literacy
training. 122
   The United States funds three contracts to provide literacy training to the
ANA and the ANP. According to CSTC-A, as of March 27, 2012, these contractors
were providing 1,435 literacy trainers to the ANA (an increase of 211 from last
quarter): 123
•	 OT Training Solutions (a U.S. company) was providing 533 trainers.
•	 Insight Group (an Afghan company) was providing 261 trainers.
•	 The Higher Education Institute of Karwan (an Afghan company) was provid-
    ing 641 trainers.

Women in the ANA
As of March 27, 2012, ANA personnel included 350 women—239 officers, 104
noncommissioned officers, and 7 soldiers—according to U.S. Central Command
(CENTCOM). Of the officers, approximately 75% served in medical roles.
Approximately 50% of the noncommissioned officers were working in logistical
roles, and 25% were in medical roles. 124
   According to CENTCOM, recruiting goals are based on the availability of
training facilities for women rather than on strategic plans to meet personnel
requirements. Places for 60 women were available in the January 2012 officer
candidate school class; 16 women enrolled. Places for another 60 women were
available in the National Military Academy of Afghanistan class of 2016; 40
women were enrolled as of March 27. Classes were scheduled to begin as this
report went to press. 125

U.S. Support for the Ministry of Defense
As of March 27, 2012, the United States had spent or otherwise made available
$435.4 million to develop the MoD, including $198 million for FY 2012, according
to CSTC-A. Over the next five years, the funds programmed for MoD develop-
ment (a total of $572 million) are expected to gradually decrease from
$156 million for FY 2013 to $62 million for FY 2017. 126



  74                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                       SECURITY




   As noted in previous SIGAR quarterly reports, the number of advisors
assigned to the MoD had fallen from 304 in October 2011 to 187 in December
2011. As of March 27, 2012, the number of advisors was further reduced to
123—65 U.S. personnel, 13 coalition personnel, and 45 contractors. According
to CSTC-A, two factors reduced the number of advisors needed at the MoD: a
restructuring of NTM-A in November and December 2011, coupled with the ANA
taking the lead in several areas. CSTC-A noted that the number of advisors will
likely continue to decrease as the MoD and ANA assume more responsibility. 127

AFGHAN NATIONAL POLICE
As of March 31, 2012, the United States had obligated $13.1 billion and disbursed
$11.5 billion of ASFF funds to build, train, and sustain the ANP. 128 For FY 2013,
DoD requested $2.0 billion through the ASFF to support the ANP—nearly a 57%
decrease from the amount authorized for this purpose in FY 2012. 129
   According to the UN Secretary-General, the 2011 Police Perception Survey
“showed some positive trends in confidence in the police and the role of female
officers.” 130 The survey is conducted by the UN Development Programme
(UNDP). Although perceptions of police corruption decreased over the past year,
this issue was still deemed an “outstanding challenge,” the UN Secretary-General
noted. 131

ANP Strength
This quarter, the total strength of the ANP was 149,642, according to CSTC-A. Of
that number, 84,006 were assigned to the AUP, 22,222 were assigned to the ABP,
and 16,460 were assigned to the ANCOP, as shown in Table 3.5.


TABLE 3.5


ANP FORCE STRENGTH, MARCH 2012
                                                                    Authorized (Tashkil)              Assigned to Tashkil Positions               Not Assigned to Tashkil Positions
ANP (Total Strength: 149,642a)                                                 140,579b                                     140,947a                                             8,695d
Breakdown By ANP Component
AUP                                                                                 80,275                                      84,006                                                  —
ABP                                                                                 23,086                                      22,222                                                  —
ANCOP                                                                               13,678                                      16,460                                                  —
Other Units                                                                        23,540c                                     22,637c                                                  —
Notes: AUP = Afghan Uniform Police. ABP = Afghan Border Police. ANCOP = Afghan National Civil Order Police. — = not available.
a. Does not include traffic and fire units.
b. Includes authorized AUP, ABP, and ANCOP personnel in addition to authorized personnel for MoI headquarters, anti-crime, training, counter-narcotics, traffic, medical, intelligence, and
fire units.
c. Includes personnel authorized for or assigned to MoI headquarters, anti-crime, training, counter-narcotics, traffic, medical, intelligence, and fire units.
d. Students enrolled in initial entry training programs and officer graduates.
Source: CSTC-A, ANP PERSTAT, 3/2012.




                   REPORT TO THE UNITED STATES CONGRESS                            I   APRIL 30, 2012                            75
                                                        SECURITY




                                                        ANP Sustainment
SIGAR AUDIT                                             As of March 31, 2012, the United States had obligated $4.2 billion and disbursed
                                                        $3.8 billion of ASFF funds for ANP sustainment. 132 For FY 2013, DoD requested
In a 2011 audit of ANP personnel                        $1.3 billion through the ASFF for ANP sustainment—a 27% decrease from the
management systems, SIGAR found                         amount authorized for this purpose in FY 2012. 133
that the systems and databases
that the ANP uses to track personnel                    ANP Salaries
are decentralized, incomplete, and                      As of March 27, 2012, the United States had provided approximately $914.0 million
unverified. For details, see SIGAR Audit                to the UNDP’s LOTFA for ANP salaries, according to CSTC-A. Of that amount,
11-10, “Despite Improvements in MoI’s                   $218 million was provided in FY 2011. 134 The LOTFA supports the establishment,
Personnel Systems, Additional Actions                   payment, equipping, and training of the ANP. 135 To support the ALP, the United
are Needed to Completely Verify ANP                     States provided an additional $28.9 million in non-LOTFA contributions. 136
Payroll Costs and Workforce Strength,”                     CSTC-A estimated that the ANP will require approximately $726.9 million per
at www.sigar.mil.                                       year to fund salaries, incentives, and food when it reaches its final strength of
                                                        157,000 personnel: 137
                                                        •	 salaries: $471.6 million.
                                                        •	 incentives: $117.8 million.
                                                        •	 food: $137.5 million.
                                                           For FY 2013, DoD requested $384.2 million through the ASFF for ANP salaries,
                                                        food, incentives, and personnel management—a 2.4% increase over the amount
                                                        authorized for this purpose in FY 2012. Most of the funds requested in this cat-
                                                        egory are for salaries ($185.2 million) and incentives ($184.9 million). 138

                                                        ANP Equipment and Transportation
                                                        As of March 31, 2012, the United States had obligated and disbursed $3.5 billion
                                                        of ASFF funds for ANP equipment and transportation. 139
                                                           As of March 27, 2012, the United States had provided the ANP with 294,702
                                                        weapons (valued at $333.4 million), 28,878 vehicles ($1.66 billion), and 62,645 pieces
                                                        of communications equipment ($119.3 million). The cost of these items is 67% of
                                                        the total cost required to fully equip the ANP, as shown in Table 3.6. The largest

             TABLE 3.6


             U.S.-PROVIDED ANP EQUIPMENT, MARCH 2012
                                                                                              Percentage of                                    Percentage of
                                                                  Fielded          Cost ($)       Total Cost   Remaining            Cost ($)       Total Cost
             Weapons                                            294,702        333,356,034               82         51,922       72,305,874               18
             Vehicles                                             28,878     1,656,820,266               64         14,956      923,134,573               36
             Communications equipment                             62,645       119,329,600               71         25,908       48,240,450               29
             Total                                             386,225      2,109,505,900               67         92,786    1,043,680,897               33
             Notes: Numbers affected by rounding. Data as of 3/27/2012.
             Source: CSTC-A, response to SIGAR data call, 3/27/2012.




                                                             76                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




costs have been for versions of the high-mobility multi-purpose wheeled vehicles or
HMMWVs (approximately $796.2 million) and AK-47 rifles ($200.2 million). 140
  For FY 2013, DoD requested $84.9 million through the ASFF for ANP equip-            SIGAR AUDIT
ment and transportation—an 86% decrease from the amount authorized for this           In an ongoing audit, SIGAR is focusing
purpose in FY 2012. 141 For the first time since the creation of the ASFF, no funds   on U.S. Army Corps of Engineers opera-
were requested for weapons or vehicles. According to DoD, most of the ANSF’s          tions and maintenance contracts for
equipment and ammunition requirements in FY 2013 can be fulfilled with FY 2012        ANSF facilities. For details, see Section
and FY 2013 funds. 142                                                                2, page 26.

ANP Infrastructure
As of March 31, 2012, the U.S. government had obligated $2.9 billion and disbursed
$1.7 billion of ASFF funds for ANP infrastructure. 143 These funds support the
construction, expansion, and modernization of two kinds of facilities: 144
•	 police facilities, such as district headquarters, new or expanded ANP and
   ANCOP facilities, fire stations, and special police facilities.
•	 enabler facilities, such as MoI administrative buildings.
   As of March 16, 2012, the United States had completed 404 ANP infrastructure
projects (valued at $1.13 billion), 224 projects were ongoing ($1.26 billion), and
170 were planned but not under way ($1.15 billion). 145
   For FY 2013, DoD requested $50 million through the ASFF for ANP infrastruc-
ture—a 96% decrease from the amount authorized for this purpose in FY 2012. 146

ANP Training and Operations
As of March 31, 2012, the United States had obligated and disbursed $2.4 billion
of ASFF funds for ANP training and operations. 147 This quarter, 3,927 students
graduated from 16 ANP courses, according to CSTC-A. 148
   For FY 2013, DoD requested $569.9 million through the ASFF for ANA training
and operations—a 48% decrease from the amount authorized for this purpose in
FY 2012. 149

GAO Report on DoD Efforts To Train the ANP
This quarter, the Government Accountability Office (GAO) released a report on
DoD efforts and its use of contractors to train ANP personnel. The report found
that 778 U.S. government, coalition government, and DoD contractor personnel
(as of November 2011) were supporting ANP training at 23 NATO-managed sites
by serving in three main roles: 150
•	 as advisors to build capacity in areas such as financial and human resource
   management at the MoI.
•	 as advisors and trainers to develop the abilities of ANP commanders to oper-
   ate training sites and provide training to recruits in areas such as criminal
   investigation, weapons, survival skills, and physical fitness.
•	 as embedded advisors to help deployed ANP units develop civilian policing
   skills.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        77
SECURITY




   Approximately 66% of these trainers and advisors were coalition personnel,
21% were U.S. government personnel, and the other 13% were DoD contractor
personnel. In addition to these roles, GAO found that approximately 2,825 DoD
contractor personnel provided maintenance, logistics, and security services at 12
NATO-managed training sites. 151
   As of January 2012, the United States and 12 coalition countries were provid-
ing 325 police advising and liaison teams (with 15 to 20 personnel each), the
report noted. In total, more than 3,400 DoD contractor personnel were support-
ing the ANP training program. 152

ANP Literacy
This quarter, CSTC-A noted that UNESCO estimated the literacy rate for the
entire ANSF at approximately 14%, but it did not provide rates for the ANA and
ANP separately. 153
    CSTC-A identifies three levels of literacy, using the UNESCO definition for
level 3: 154
 •	 Level 1: read and write single words; count to 1,000; add and subtract whole
    numbers.
 •	 Level 2: read and write sentences, multiply and divide numbers, identify units
    of measurement.
 •	 Level 3: “identify, understand, interpret, create, communicate, compute and
    use printed and written materials associated with varying contexts”.
   At levels 1 and 2, individuals are classified as functionally illiterate. According
to CSTC-A, functional literacy is achieved only upon completing level 3 literacy
training. 155
   As noted earlier, the United States funds three contracts to provide literacy
training to the ANA and the ANP. 156 According to CSTC-A, as of March 27, 2012,
these contractors were providing 1,434 literacy trainers to the ANP (an increase
of 319 from last quarter): 157
•	 OT Training Solutions (a U.S. company) was providing 452 trainers.
•	 Insight Group (an Afghan company) was providing 326 trainers.
•	 The Higher Education Institute of Karwan (an Afghan company) was provid-
    ing 656 trainers.

Women in the ANP
As of March 27, 2012, ANP personnel included 1,320 women—194 officers, 561
noncommissioned officers, and 565 enlisted personnel—according to CSTC-A.
The goal for the ANP is to recruit 5,000 women by the end of 2014. The ANP’s




  78                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




recruiting campaign, funded through the LOTFA, is targeting specific locations for
recruits. The United States provides a human rights and gender advisor through
DoD’s program of MoD advisors to work with the MoI’s Gender Department to
meet the recruitment goal. 158

U.S. Support for the Ministry of Interior
The U.S.-funded MoI training and advising contract—awarded to DynCorp
International at a cost of $1.19 billion—provides training and support services in
the following areas: 159
•	 advising MoI staff in conjunction with ISAF.
•	 training ANP and providing support services at regional training centers.
•	 supporting police advisor teams under the IJC.
   Through the advising portion of the contract, DynCorp provides expert sup-
port to develop the skills, systems, and education needed to run MoI sections
effectively. The support provided depends on the missions of the directorates
within NTM-A that are responsible for meeting the requirement and on the skills
that need to be developed at the MoI. According to CSTC-A, contracted advi-
sors are monitored to ensure that they continue to provide value to their Afghan
counterparts. Each is evaluated monthly to ensure that contract requirements
are being met. 160
   Through the ANP training and base support portion of the contract, DynCorp
provides advisors and trainers at ANP training locations across Afghanistan,
and support and security services at some locations. Trainers and advisors work
alongside ISAF and Afghan partners to develop Afghan training and command at
the regional training centers. 161
   Through the police advisor teams portion of the contract, DynCorp pro-
vides law enforcement experts who embed with military units assigned to ANP
units. These advisors augment the capacity of military units with subject matter
expertise to instill basic police skills in ANP personnel in the field. According to
CSTC-A, oversight in this area has improved from past quarters, but more IJC-
trained and qualified contracting officer representatives are still needed. 162

Local Initiatives
The MoI’s community watch initiative, the Afghan Local Police (ALP), enables
communities to protect themselves where there is no significant ISAF or ANSF
presence. 163 Although called “police,” ALP members do not have arrest author-
ity, and they are not counted in tallies of the ANP’s strength, as noted in SIGAR’s
January 2012 quarterly report. 164 ALP members are nominated by local councils,
vetted by the Afghan intelligence service, and serve under local police chiefs.
They are trained by and partner with elements of the ANP, ANA, and U.S.
Special Forces. 165




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         79
SECURITY




   In testimony before the Senate Armed Services Committee in March, ISAF
Commander General Allen expressed optimism regarding the success of the
ALP. He noted that the Taliban are particularly threatened by the ALP because
of its ability to deny insurgents a hold on local populations. General Allen also
testified that, as the ALP reaches its full strength, decisions would be made as to
whether to continue the initiative and allowed for the possibility that the force
could be expanded. 166
   This quarter, the UN Secretary-General stated that although reports indicated
that security had improved in areas where the ALP is operating, there had also
been reports of human rights abuses against civilians. He noted that he shared
“the view of the Government of Afghanistan that such security initiatives should
have clear lines of accountability, command, and control linking them to formal
national security forces and institutions, namely the Afghan National Army and
the Afghan National Police.” 167
   As of March 25, 2012, the ALP had 12,660 members, according to the
Combined Forces Special Operations Component Command - Afghanistan
(CFSOCC-A). The goal is 30,000 members in 99 districts and at ALP headquarters
in Kabul by 2014. To support the ALP and cover its salaries, NTM-A/CSTC-A and
CFSOCC-A had obligated $36.4 million of ASFF funds as of March 25, 2012. 168

U.S. FORCES
According to U.S. Forces - Afghanistan (USFOR-A), approximately 88,000 U.S.
forces were serving in the country as of March 28, 2012. 169 Of those, approxi-
mately 60,000 were assigned to ISAF and 2,220 to NTM-A/CSTC-A (the joint
NATO/U.S. mission responsible for training, equipping, and sustaining the ANSF).

REMOVING UNEXPLODED ORDNANCE
From 2002 through March 2012, the U.S. Department of State (DoS) had pro-
vided more than $212.6 million in funding for non-proliferation, anti-terrorism,
demining, and related programs in Afghanistan, according to its Political-Military
Affairs’ Office of Weapons Removal and Abatement (PM/WRA). 170 Of that fund-
ing, $171.6 million had been provided since 2006. 171
    As of March 31, 2012, DoS directly funds five Afghan non-governmental orga-
nizations (NGOs), five international NGOs, and one U.S. company (DynCorp) to
carry out sustained clearance operations and remove and mitigate abandoned and
at-risk weapons. DynCorp, which has received approximately $47.7 million since
2006, also provides advising to and oversight of the five Afghan NGOs (which
had received $77.3 million). Since 2006, international NGOs received $44.3
million, public institutions (such as UN and NATO program offices) received
$1.6 million, and a U.K. university received $0.7 million for weapons removal
and demining activities. According to the PM/WRA, in addition to clearance,
removal, and mitigation activities, these organizations also do the following: 172
 •	 provide stockpile management support.
 •	 support the purchase of mine-detection dogs.




  80               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                               SECURITY




•	 build Afghan capacity through training programs.
•	 conduct surveys.
•	 provide services to survivors of accidents caused by landmines or explosive
   remnants of war.
•	 educate the public on the threat of mines and explosives.
   In 2011, DoS-funded implementing partners had cleared 39.0 million square
meters of minefields, according to the most recent data available from the
PM/WRA. An estimated 588.0 million square meters of contaminated area remain
to be cleared as shown in Table 3.7. The PM/WRA defined a “minefield” as an
area contaminated by landmines, and a “contaminated area” as an area contami-
nated with both landmines and explosive remnants of war. 173


COUNTER-NARCOTICS
From 2002 to March 31, 2012, the United States had appropriated $5.8 billion for
counter-narcotics initiatives in Afghanistan. Most of these funds were appropri-
ated through two sources: the DoS International Narcotics Control and Law
Enforcement account ($3.6 billion), and the DoD Drug Interdiction and Counter-
Drug Activities fund (nearly $2.3 billion). 174
   The manufacture and distribution of illicit drugs remains a major problem in
Afghanistan. The illicit nature of the business fosters an underground economy
in which corruption flourishes, undermining political stability, economic growth,
and rule of law. Moreover, the proceeds from drug production and sales have
been a key source of funding for insurgents. Together these factors create a
nexus between the insurgency and the illicit narcotics industry that creates
opportunities for corruption.


TABLE 3.7


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JANUARY 1, 2011–DECEMBER 31, 2011
                                    AT/AP                                                   Fragments         Minefields   Estimated Contaminated Area
Date Range                       Destroyed      UXO Destroyed       SAA Destroyed              Cleared      Cleared (m2)                Remaining (m2)
1/1–3/31/2011                        2,171              55,005               80,156         5,899,573        11,405,068                   627,000,000
4/1–6/30/2011                        4,043              68,542             481,877          6,259,343         6,799,279                   612,000,000
7/1–9/30/2011                        2,071             120,616             627,656          6,258,408         7,735,897                   602,000,000
10/1–12/31/2011                      2,616              88,998             449,589         13,376,738        13,097,574                   588,000,000
Total                             10,901             333,161          1,639,278         31,794,062          39,037,818       (remaining) 588,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM/WRA, response to SIGAR data call, 4/4/2012.




                  REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2012                   81
SECURITY




Key Events
This quarter, a jury in the U.S. District Court for the District of Columbia con-
victed an Afghan national of conspiracy, distribution of heroin for importation
into the United States, and narco-terrorism, according to the Department of
Justice (DoJ). The investigation by the Drug Enforcement Administration (DEA)
leading up to the arrest and conviction revealed that the individual was “one
of the largest heroin traffickers in the world” who manufactured the drug in
Afghanistan, sent it to more than 20 countries (including the United States), and
used the proceeds to support the Taliban and its insurgency. 175
   On February 16, 2012, the UN Secretary-General attended the Third Ministerial
Conference of the Paris Pact, which was held in Vienna. The conference is part
of a comprehensive international effort to stem the flow of opium and heroin
from Afghanistan. Ministers stressed the need to reduce cultivation, produc-
tion, trafficking, and abuse, and to establish an international coalition to combat
opiate trafficking. The Paris Pact partners adopted the Vienna Declaration, a
statement of commitment to “act in a balanced and comprehensive manner
against the menace of illicit Afghan opiates” by “addressing both the demand and
supply sides” of the illicit narcotics trade. 176

Counter-Narcotics Police of Afghanistan
This quarter, the force strength of the Counter-Narcotics Police of Afghanistan
(CNPA) was 2,750, according to CENTCOM. The CNPA is advised by 90 civilian,
military, and contractor personnel from the United States, the United Kingdom,
Canada, France, and the UN Office on Drugs and Crime (UNODC). Of the U.S.
advisors, 56 were contractors, and 10 were DEA personnel. 177

Interdiction Operations
This quarter, the ANSF partnered with ISAF in conducting 97 narcotics interdic-
tion operations, according to DoD. These operations included partnered patrols,
cordon-and-search actions, detentions, and over-watch operations. They resulted
in 67 arrests and led to the seizure of the following narcotics contraband: 178
 •	 100,324 kg of hashish and marijuana.
 •	 5,791 kg of opium.
 •	 4,384 kg of morphine.
 •	 211 kg of heroin.
 •	 7,623 kg of narcotics-related chemicals.




  82               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




   To put this in context, from 2010 to 2011 the amount of opium produced in
Afghanistan increased from 3.6 million kg to 5.8 million kg, according to UNODC.
Its December 2011 Opium Survey noted that the total area under opium cultiva-      SIGAR AUDIT
tion had risen from 123,000 hectares in 2010 to 131,000 hectares in 2011. 179      In two 2009 audits of the then-new
   This quarter, most interdiction operations continued to be conducted in the     Counter-Narcotics Justice Center,
south and southwest, where most opiates are grown, processed, and smuggled         SIGAR recommended that DoS amend
out of Afghanistan. According to DoD, these operations focused on countering       the scope of work to include needed
the insurgency-narcotics-corruption nexus. 180                                     utility upgrades and increase funding
   The DEA and its Afghan counterparts continued to conduct investigations         to ensure construction of additional fa-
across Afghanistan as the U.S. military focused on partnering with and building    cilities was expedited. For details, see
the capacity of Afghan counter-narcotics institutions, according to DoD. These     SIGAR Audit 09-04, “Actions Needed
efforts were supported by DoD’s Combined Joint Interagency Task Force - Nexus      to Resolve Construction Delays at the
and the U.S.- and U.K.-led Interagency Operations Coordination Center. DoD         Counter-Narcotics Justice Center,” and
noted that all operations were coordinated with and received support from the      SIGAR Audit 09-07, “Documenting
U.S. and coalition militaries. 181                                                 Detention Procedures Will Help Ensure
                                                                                   Counter-Narcotics Justice Center Is
                                                                                   Utilized as Intended,” at www.sigar.mil.




           REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012      83
                                                            ENDNOTES




57. 	 See Appendix B.

58. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 2–3.

59. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 2–3; DoD,
     “Justification for FY 2012 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2011, p. 2.

60. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 3.

61. 	 Congressional Quarterly, “Transcript: House Armed Services Committee Holds Hearing on Recent Developments in Afghanistan,” 3/20/2012.

62. 	 DoD, “‘Green on Blue’ Deaths Won’t Derail Strategy, Spokesman Says,” 3/1/2012, accessed 3/8/2012.

63. 	 House Armed Services Committee, “Statement by David S. Sedney, Deputy Assistant Secretary of Defense for Afghanistan, Pakistan, and Central
     Asia; Gary J. Motsek, Deputy Assistant Secretary of Defense for Program Support; Brigadier General (Promotable) Stephen J. Townsend,
     Director, Pakistan-Afghanistan Coordination Cell; Brigadier General Kenneth R. Dahl, Deputy Commanding General for Support, 10th Mountain
     Division; Before the House Armed Services Committee, Use of Afghan Nationals to Provide Security to U.S. Forces,” 2/1/2012, p. 3.

64. 	 Congressional Quarterly, “Transcript: House Armed Services Committee Holds Hearing on Recent Developments in Afghanistan,” 3/20/2012.

65. 	 Congressional Quarterly, “Transcript: House Armed Services Committee Holds Hearing on Recent Developments in Afghanistan,” 3/20/2012.

66. 	 DoD, “‘Green on Blue’ Deaths Won’t Derail Strategy, Spokesman Says,” 3/1/2012, accessed 3/8/2012; DoD, “Officials Reaffirm Commitment to
     Afghan Strategy,” 2/27/2012, accessed 3/8/2012.

67. 	 DoD, “Dempsey: Afghans Must Prevent ‘Green-on-Blue’ Violence,” 3/27/2012.

68. 	 DoD, “U.S. Forces Afghanistan Prefers Criminal Charges Against Bales,” 3/23/2012, accessed 4/10/2012.

69. 	 Reuters, “Western Forces Kill 16 Civilians in Afghanistan - Kabul Govt,” 3/11/2012, accessed 3/21/2012.

70. 	 DoD, “Officials Believe Gunman Acted Alone, Press Secretary Says,” 3/12/2012, accessed 3/21/2012.

71. 	 DoD, “DoD News Briefing with Gen. Allen from the Pentagon,” 3/26/2012, accessed 4/13/2012; White House, “Statement of the President on
     Civilian Deaths in Afghanistan,” 3/11/2012, accessed 4/13/2012.

72. 	 APPF, “News,” 3/20/2012, accessed 4/10/2012.

73. 	 APPF, “For PSCs/RMCs,” accessed 4/10/2012.

74. 	 APPF, “About,” accessed 4/10/2012.

75. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

76. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 13.

77. 	 UN Secretary General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, pp. 13–14.

78. 	 ISAF-IJC, response to SIGAR data call, 1/3/2012.

79. 	 ISAF-IJC, response to SIGAR data call, 3/30/2012.

80. 	 CENTCOM, response to SIGAR data call, 7/1/2012.

81. 	 NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2012,” pp. 3–5.

82. 	 CSTC-A, responses to SIGAR data call, 3/27/2012 and 1/3/2012.

83. 	 CSTC-A, responses to SIGAR data call, 3/27/2012 and 1/3/2012.

84. 	 CSTC-A, response to SIGAR data call, 3/27/2012; ISAF-IJC, ANP PERSTAT, 2/2012.

85. 	 DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2011, p. 4.

86. 	 DoD, “Panetta Meets Afghan Defense, Interior Ministers at Pentagon,” 4/10/2012, accessed 4/12/2012.




                                                       84                  SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




87. 	 UNAMA, “Featured News,” 4/12/2012, accessed 4/12/2012; DoD, “Panetta Meets Afghan Defense, Interior Ministers at Pentagon,” 4/10/2012,
     accessed 4/12/2012; New York Times, “Afghan Force Will Be Cut After Taking Leading Role,” 4/10/2012, accessed 4/12/2012.

88. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 4.

89. 	 DoD, “Third U.S.-Afghanistan Security Consultations Forum Held at Pentagon,” 4/10/2012.

90. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 4.

91. 	 UNAMA, “Civilian Casualties Rise for Fifth Consecutive Year in Afghan Conflict,” 2/4/2012.

92. 	 DoD, response to SIGAR data call, 4/11/2012.

93. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

94. 	 CSTC-A, responses to SIGAR data call, 3/28/2012 and 3/27/2012.

95. 	 CSTC-A, responses to SIGAR data call, 3/28/2012 and 3/27/2012.

96. 	 DoD, response to SIGAR data call, 4/11/2012.

97. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 29–30.

98. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 29–34.

99. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

100. 	 DoD OIG, “Distribution of Funds and Mentoring of Finance Officers for the Afghanistan National Army Payroll Need Improvement,” DODIG-
     2012-058, 2/29/2012, p. 2.

101. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 31.

102. 	 DoD OIG, “Distribution of Funds and Mentoring of Finance Officers for the Afghanistan National Army Payroll Need Improvement,” DODIG-
     2012-058, 2/29/2012, pp. i, 2, 5.

103. 	 DoD OIG, “Distribution of Funds and Mentoring of Finance Officers for the Afghanistan National Army Payroll Need Improvement,” DODIG-
     2012-058, 2/29/2012, pp. i, 2, 5.

104. 	 DoD OIG, “Distribution of Funds and Mentoring of Finance Officers for the Afghanistan National Army Payroll Need Improvement,” DODIG-
     2012-058, 2/29/2012, pp. i, 2, 5.

105. 	 DoD, response to SIGAR data call, 4/11/2012.

106. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

107. 	 CSTC-A, response to SIGAR data call, 4/6/2012.

108. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

109. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

110. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

111. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 8, 17.

112. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 3.

113. 	 DoD, response to SIGAR data call, 4/11/2012.

114. 	 DoD, response to SIGAR data call, 3/27/2012.

115. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

116. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, pp. 5–6.

117. 	 DoD, response to SIGAR data call, 4/11/2012.




          REPORT TO THE UNITED STATES CONGRESS           I   MONTH 30, 2012                  85
                                                            ENDNOTES




118. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

119. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

120. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

121. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

122. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

123. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

124. 	 CENTCOM, response to SIGAR data call, 3/27/2012.

125. 	 CENTCOM, response to SIGAR data call, 3/27/2012.

126. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

127. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

128. 	 DoD, response to SIGAR data call, 4/11/2012.

129. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

130. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 4.

131. 	 UN Secretary General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 4.

132. 	 DoD, response to SIGAR data call, 4/11/2012.

133. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

134. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

135. 	 UNDP, “Law and Order Trust Fund for Afghanistan,” 4/2011, accessed 1/9/2012.

136. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

137. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

138. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 62.

139. 	 DoD, response to SIGAR data call, 4/11/2012.

140. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

141. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

142. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 3.

143. 	 DoD, response to SIGAR data call, 4/11/2012.

144. 	 DoD, “Justification for FY 2012 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2011, p. 50.

145. 	 DoD, response to SIGAR data call, 3/27/2012.

146. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

147. 	 DoD, response to SIGAR data call, 4/11/2012.

148. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

149. 	 DoD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p. 2.

150. 	 GAO, “Afghanistan Security: Department of Defense Effort to Train Afghan Police Relies on Contractor Personnel to Fill Skill and Resource
     Gaps,” GAO-12-293R, p. 3, 2/23/2012.




                                                      86                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




151. 	 GAO, “Afghanistan Security: Department of Defense Effort to Train Afghan Police Relies on Contractor Personnel to Fill Skill and Resource
     Gaps,” GAO-12-293R, 2/23/2012.

152. 	 GAO, “Afghanistan Security: Department of Defense Effort to Train Afghan Police Relies on Contractor Personnel to Fill Skill and Resource
     Gaps,” GAO-12-293R, 2/23/2012.

153. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

154. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

155. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

156. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

157. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

158. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

159. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

160. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

161. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

162. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

163. 	 OSD, response to SIGAR data call, 4/3/2011.

164. 	 DoD, “Department of Defense Budget, Fiscal Year 2012,” 2/2011, p. 82.

165. 	 OSD, response to SIGAR data call, 4/3/2011.

166. 	 ISAF, “Senate Armed Services Committee Holds Hearing on the Situation in Afghanistan,” 3/22/2012, accessed 4/13/2013.

167. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 14.

168. 	 CSTC-A, response to SIGAR data call, 3/27/2012.

169. 	 CENTCOM, response to SIGAR data call, 3/29/2012.

170. 	 DoS, PM/WRA, response to SIGAR data call, 1/4/2012.

171. 	 DoS, PM/WRA, response to SIGAR data call, 4/4/2012.

172. 	 DoS, PM/WRA, response to SIGAR data call, 4/4/2012.

173. 	 DoS, PM/WRA, response to SIGAR data call, 4/4/2012.

174. 	 DoS, response to SIGAR data call, 4/6/2012; DoD, response to SIGAR data call, 4/17/2012.

175. 	 DoJ, “Haji Bagcho Convicted by Federal Jury in Washington, D.C., on Drug Trafficking and Narco-terrorism Charges,” 3/13/2012, assessed
     4/15/2012.

176. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 13.

177. 	 CENTCOM, response to SIGAR data call, 3/27/2012.

178. 	 DoD, response to SIGAR data call, 4/3/2012.

179. 	 UNODC, “Afghanistan Opium Survey 2011,” 12/2011, p. 1.

180. 	 DoD, response to SIGAR data call, 4/3/2012.

181. 	 DoD, response to SIGAR data call, 4/3/2012.




          REPORT TO THE UNITED STATES CONGRESS           I   MONTH 30, 2012                   87
88
                                                        GOVERNANCE




GOVERNANCE
As of March 31, 2012, the United States had provided $22.3 billion to support
governance and economic development in Afghanistan. (See Appendix B.) This
quarter, U.S.-funded programs continued to address persistent problems related
to corruption, governmental control, reintegration and reconciliation, rule of law,
human rights, and governmental capacity and service delivery.

KEY EVENTS
Widespread protests and political fallout from the burning of Korans by
International Security Assistance Force (ISAF) personnel at Bagram Air Force
Base in February and the killings of 17 civilians allegedly by a U.S. soldier in
Kandahar in March strained U.S.-Afghan relations this quarter. Security restric-
tions imposed on U.S. personnel as a result of the incidents also impeded U.S.
efforts to build Afghan governing capacity.
    The Wolesi Jirga did not pass any significant legislation this quarter, but it did
confirm a number of ministers. In the judicial sector, the Afghan government did
not pursue any major corruption cases, although a new initiative aimed at pros-
ecuting major cases was announced.
    At the time this report went to press, the U.S. and Afghan governments were
still negotiating a new strategic partnership that would provide a framework
for the political-military relationship between the two countries after 2014. The
two sides made some progress during the reporting period, reaching agreements
on transferring responsibilities for special forces operations and detainees to
Afghan control.

RECONCILIATION AND REINTEGRATION
During this reporting period, the Afghan government continued its attempts to
negotiate settlements with the Taliban and other insurgent forces. Higher-level
reconciliation efforts did not result in any major breakthroughs, but a growing
number of lower-level insurgents reintegrated this quarter—mostly in the west.
   Political debate continued inside and outside Afghanistan this quarter, focused
on the goals and terms of reconciliation and how the process should proceed.
There were conflicting accounts about the state of negotiations and who was par-
ticipating in talks. Many political observers continued to worry about the lack of
transparency in the negotiations; some are concerned that a deal could roll back
the progress made in the past 10 years. 182 U.S. Secretary of State Hillary Rodham



            REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2012          89
GOVERNANCE




Clinton reiterated that women’s rights will not be sacrificed in negotiations. She
also stated that the dialogue must include women, ethnic minorities, and repre-
sentatives of civil society. 183
    On January 3, 2012, the Taliban reportedly agreed to open a political office
in Qatar to “come to an understanding with other nations.” 184 In a speech to the
National Assembly on January 21, President Karzai publicly supported the agree-
ment; however, as of March 30, the Taliban had not opened an office. 185 Karzai
also announced that he had begun preliminary discussions with representatives
of the Hezb-e Islami party, the organization led by Gulbuddin Hekmatyar that
opposes the Karzai government. On February 15, 2012, Karzai claimed that the
Afghan government had engaged in talks with the Taliban, but the United Nations
(UN) Secretary-General noted that the Taliban apparently rejected that claim. 186
It appears that the Taliban suspended their participation in peace talks in late
March, according to the U.S. Department of State (DoS). 187
    On February 17, 2012, the presidents of Afghanistan, Pakistan, and Iran held
their third trilateral summit. The Pakistani and Iranian leaders offered their full
support for a peace process that is led by and owned by Afghans, according to
the UN Secretary-General. 188

Reintegration Funding
As of February 2012, the Afghan Peace and Reintegration Program (APRP) had
expended $13.4 million of the $94 million in its trust fund. DoS noted that expen-
ditures should increase when the weather improves and community recovery
projects that were approved by the APRP in the last Afghan fiscal year (which
ended March 20) are implemented. This quarter, the Netherlands and Spain
pledged a combined $8.9 million in additional funding for the APRP. 189

High Peace Council
The High Peace Council’s general assembly did not meet this quarter, and
the chairmanship position remained vacant; it has been unfilled since the
September 2011 assassination of Burhannuddin Rabbani. The Council’s
16-member executive board met at least eight times, according to DoS. It
discussed the strategic release of detainees and approved plans for provincial
assessments and for a joint project of the Ulema Council and the Ministry of
the Hajj and Religious Affairs. 190
   This quarter, the Council worked with the UN and its Sanctions Committee
to remove from its blacklist insurgents who have joined the peace process. The
committee lifted the travel ban on one Taliban member for humanitarian reasons.
As the quarter closed, a request to remove a senior Taliban member from the list
was awaiting a final decision. DoS noted that lifting travel bans will encourage
more leaders and senior members of the insurgency to join the peace process. 191




  90               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




FIGURE 3.26


REINTEGREES UNDER THE APRP, 2010–MARCH 30, 2012

4,000


3,000


2,000


1,000


     0
 As of    Dec 31              Mar 31             Jun 30             Sep 30              Dec 30             Mar 30
           2010               2011                2011               2011                2011              2012
Note: Numbers affected by rounding.
Sources: DoS, responses to SIGAR data call, 3/30/2012, 12/30/2011, 10/6/2011, 7/1/2011, 4/15/2011, and 1/12/2011.




Afghan Peace and Reintegration Program
Reintegration accelerated this quarter; progress continued to be concentrated in the
less volatile northern and western parts of the country. By March 30, the number
of insurgents enrolled in the APRP had reached almost 3,900, according to DoS. 192
That is an increase of more than 900 over the number SIGAR noted last quarter
and continued the steady increase since March 2011, as shown in Figure 3.26. Most
reintegration events occur when mid- and lower-level leaders bring in their fighters
in groups of 5 to 25, according to the U.S. Department of Defense (DoD). 193
   Rumors of reconciliation negotiations in Qatar caused confusion among insur-
gents about their leaders’ intentions, according to ISAF’s Force Reintegration Cell.
Insurgent fighters lose direct contact with leaders during the colder, less busy
winter months because those leaders often leave the country during that period. 194

Regional Reintegration Progress
Reintegration continued to be most successful in the north and west: as of March
30, 2012, about 84% of reintegrees were located in those regions, as shown in Figure
3.27 on the next page. More than one of every three reintegrees comes from either
Herat or Badghis, according to DoD. These provinces have energized leadership
and effective cooperation with the National Directorate of Security (NDS). 195
   In the south and east, the focus was on establishing formal reintegration pro-
grams. The APRP Joint Secretariat tasked regional coordinators with analyzing
grievances and prioritizing them for resolution; DoS expected that the Secretariat
will also assign this task to provincial peace committees. DoS noted that although
the number of formal reintegrations had not increased significantly, provincial
APRP personnel are becoming more active and competent. 196




                 REPORT TO THE UNITED STATES CONGRESS                 I   APRIL 30, 2012                     91
                                                                    GOVERNANCE




FIGURE 3.27


REINTEGREES BY REGIONAL COMMAND, DECEMBER 2011 AND MARCH 2012

2,000


          1,684
                  1,609                                                                          1,640
                                                                                                                                                     RC-NORTH
1,500



                                                                                                                             RC-WEST
1,000                                                                                      979                                                           RC-EAST



                                                                                                                                          RC-SOUTH


  500                                                                                                                    RC-SOUTHWEST
                                     371
                                                         211
                               157                131
                                                                       19     22
     0
           RC-North            RC-East            RC-South          RC-Southwest           RC-West


              December 2011
              March 2012

Note: The decrease in RC-North was due to the Joint Secretariat disqualifying about 250 previous enrollees from Sar-e Pul this quarter.
Sources: DoS, responses to SIGAR data call, 3/30/2012 and 12/30/2011.




                                                                       The APRP also helped negotiate several important peace deals in Herat,
                                                                    Ghor, Kunar, and Nangarhar. DoD noted that these deals resolved long-standing,
                                                                    violent, intra-tribal conflicts. The ISAF-supported APRP strategy for final griev-
                                                                    ance resolution, which was near completion, should accelerate similar peace
                                                                    deals in the country. 197 According to the UN Secretary-General, endorsement of
                                                                    reintegration efforts last quarter by the Loya Jirga has reinvigorated reintegration
                                                                    activities. For the first time, insurgents from Kabul and Zabul reintegrated. 198

                                                                    Kandahar Reintegration
                                                                    In Kandahar, funding and security challenges continued to hinder reintegration
                                                                    efforts, but informal reintegration activity proceeded. Problems with funding
                                                                    have threatened the long-term sustainability of reintegration efforts in the prov-
                                                                    ince—especially the Provincial Joint Secretariat Team (PJST). In addition, the
                                                                    public reactions to the burning of Korans and the killings in Kandahar hindered
                                                                    the PJST’s mobility in the region. However, the PJST was able to communicate
                                                                    more effectively with the central government and travel to Kabul during this
                                                                    reporting period. 199
                                                                       Informal reintegration in Kandahar has largely consisted of low-ranking
                                                                    insurgents informing their village elders that they want to stop fighting in




                                                                        92                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




exchange for returning to their community without being penalized. Although
the elders sometimes help broker solutions to the disputes that caused a fighter
to join the insurgency, DoS noted that most elders are not active in the APRP
because they either wish to avoid unwanted attention or have problems with
the program’s process. 200

Eastern Reintegration
This quarter, reintegration progress in the eastern provinces remained incon-
sistent, although support programs and peace negotiations were forming and
solidifying in some areas. The PJST in Paktika formed a peace council that is
awaiting funding approval from the Joint Secretariat. In Paktiya, preliminary
negotiations took place about conducting a peace shura and a tribal unity shura.
In Nangarhar, the new provincial peace council and PJST, which began operating
in December 2011, led to improvements in reintegration efforts this quarter. DoS
noted that Khowst has not been as successful as other eastern provinces in its
conduct of reintegration activities. 201

Capacity Development for Reintegration
This quarter, the APRP’s Joint Secretariat held a number of targeted capacity-
building sessions for PJSTs because the teams’ capacity—and implementation
of the APRP—continued to vary considerably. The Joint Secretariat planned
to conduct those sessions throughout 2012. DoS is examining whether a
PJST capacity-building program can be funded through DoD’s Afghanistan
Reintegration Program. 202
   This quarter, the provinces made progress in implementing action plans for
accelerating reintegration. Increased training, improved planning, and better
communications with Kabul have helped the APRP become more effective at
the local level. In addition, a plan for APRP at the national level was developed
for the current Afghan fiscal year (solar year 1391, which began March 21). This
quarter, DoS noted that the PJSTs had more access to reintegration funds and
were using these funds properly. National financial managers have successfully
declined unauthorized expenditures by provincial staff. 203
   This quarter, provincial peace councils and local authorities conducted more
outreach programs to support reintegration. However, these outreach efforts
have had only a limited impact because most provincial peace councils do not
have broad representation from civil society, women, or victims’ groups, accord-
ing to the UN Secretary-General. 204
   Elements of ministries and the security forces are increasingly being asked
to support the APRP. The High Peace Council, APRP Joint Secretariat, and ISAF
are working with the Afghan government to engage the Afghan National Army,
NDS, Ministry of Hajj and Religious Affairs, and the Ministry of Border and Tribal
Affairs in reconciliation efforts, according to DoD. 205
   Vetting of reintegrees has improved since the program began, when vet-
ting processes were not properly defined, according to the ISAF Force




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       93
                                                           GOVERNANCE




                                                           Reintegration Cell. 206 However, the UN Secretary-General noted that although
                                                           the APRP’s Joint Secretariat adopted standard operating procedures for vetting,
                                                           local peace councils have independently promised amnesty to insurgents who
                                                           join the program. 207

Community recovery programs, which were                    Community Recovery Programs
launched in August 2011, are put in place                  Ministries supporting the APRP have expanded the availability of community
after insurgents who choose to reintegrate                 recovery activities for reintegrees and their communities. DoS noted that the
have been formally demobilized. The pro-
                                                           Joint Secretariat has made significant progress in reducing the amount of time
grams provide funds for such activities as
                                                           between when an insurgent comes forward to reintegrate and when he receives
demining, agriculture, vocational training,
and literacy; they are designed to benefit                 transition assistance. 208
reintegrees and the communities that                          From October 2011 to March 2012, the APRP vastly improved its delivery of
accept them.                                               community recovery programs, according to DoD. 209 It implemented more than
                                                           180 community recovery projects for 1,719 reintegrees; however, violence in
Sources: DoD, responses to SIGAR data call, 4/3/2012 and
12/30/2011.                                                the south and east made it more difficult to deliver assistance in those volatile
                                                           regions, according to DoS. More than 62,000 reintegrees and community mem-
                                                           bers benefited directly from community recovery projects. In addition, the APRP
                                                           had approved at the provincial level 35 small grant programs, 21 of which were
                                                           being implemented by the end of the quarter, according to DoS. 210


                                                           NATIONAL AND SUB-NATIONAL GOVERNANCE
                                                           The United States supports a number of efforts to improve Afghanistan’s national
                                                           and sub-national governance in such areas as capacity building, local governance,
                                                           and civil service training. International partners have also committed to con-
                                                           tinue their support in these areas. On January 28, 2012, the United Kingdom and
                                                           Afghanistan signed a strategic partnership declaration outlining the commitment
                                                           of the United Kingdom after 2014. 211

                                                           National Assembly
                                                           On March 5, 2012, the Wolesi Jirga confirmed all nine of President Karzai’s minis-
                                                           terial nominees. The nomination process was drawn out—it began in 2010—and
                                                           contentious, but the entire cabinet has now been confirmed. Seven of the nomi-
                                                           nees had been serving in an acting capacity at their ministries, according to DoS.
                                                           The Wolesi Jirga did not pass any significant legislation this quarter. 212
                                                              This quarter, the National Assembly questioned the Minister of Finance on
                                                           why his and other ministries had failed to follow their allotted budgets during
                                                           the past fiscal year. The Wolesi Jirga had planned to call for questioning up to 15
                                                           additional ministers on these budget issues, but it shifted its focus to confirm-
                                                           ing the cabinet nominees. 213 At press time, the Wolesi Jirga had not passed the
                                                           budget for the current fiscal year. 214




                                                             94                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




PRT and DST Support
This quarter, heightened security restrictions resulting from the fallout from the
inadvertent Koran burnings at Bagram Air Force Base and the alleged massacre
in Kandahar limited the ability of the staff of Provincial Reconstruction Teams
(PRTs) and District Support Teams (DSTs) in southern and eastern Afghanistan
to travel and engage with their Afghan counterparts. Under the restrictions, PRT
and DST staff in eastern Afghanistan could contact their Afghan counterparts
only through phone and email, although meaningful work still occurred, accord-
ing to DoS. 215

Provincial and District Governance                                                     During much of the reconstruction
                                                                                       effort, central line ministries typically have
DoS noted that local governance in the south and east had improved in terms
                                                                                       implemented development projects in the
of leadership, financial management, coordination with the central government,
                                                                                       provinces and have not fully communicated
and freedom of movement. Nevertheless, provincial and district governments             with their line directorates. DoS noted that
continue to struggle to overcome many challenges, such as the lack of governing        the U.S. Embassy Kabul works with the
capacity and inadequate judicial resources. This quarter’s incidents provoked          Ministry of Finance to improve communica-
anger throughout the country, but many Afghan officials made effective efforts to      tion about projects between the central and
control the situation.                                                                 local governments.
                                                                                       Source: DoS, response to SIGAR data call, 3/30/2012.
Khowst Province
In Khowst, the provincial line directors have strengthened their ties to the central
government’s line ministries, and the Afghan government appears to have gained
some legitimacy in the eyes of provincial elders in some areas. Line directors
often travel to Kabul to lobby line ministries for additional resources and infra-
structure projects in Khowst. This has made the provincial government better
informed about the status of projects and has improved its influence and execu-
tion of projects, according to DoS. The formal justice system has also improved.
For example, a Kabul Supreme Court delegation resolved 105 backlogged cases,
resulting in 75 convictions. 216
   Although recent assassinations of elders by insurgents have left many wary
of showing support for the government, the district governor in Shamal has had
some success encouraging elders to openly support the government. In addi-
tion, at a shura in Gorbuz this quarter, elders vowed to oppose criminals and
support the government. DoS noted that this commitment could help ease the
implementation of projects to improve the Ghulam Khan corridor, a trade route
that leads to Pakistan. 217

Nangarhar Province
Leaders in Nangarhar helped quell the violent protests following this quarter’s
adverse events, during which two U.S. soldiers were killed. The provincial gov-
ernor convened a large gathering of elders, maliks (tribal leaders), and mullahs,
and asked them to persuade their followers to remain calm. The governor also
directed ANSF forces to protect ISAF facilities; this order provided important
and effective protection to ISAF personnel in the province, according to DoS. 218




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         95
                                                         GOVERNANCE




                                                         Paktika Province
                                                         In Paktika, the makeup of the province’s leadership has changed, but the PRT
                                                         has continued its partnership program, according to DoS. PRT staff helped the
                                                         new director of education travel to remote areas to reopen schools and deliver
                                                         salaries. DoS noted that such visits have often been haphazard and ill planned. 219
                                                            The ALP helped improve security in Paktika as well, enabling local officials
                                                         to travel more and engage with more citizens. Because of the security situation,
                                                         judges had been confined to Sharana district, the province’s capital. This quar-
                                                         ter, nine judges were sent to three other districts; however, the judges’ ability
                                                         to improve the justice system was minimized because those areas had a severe
                                                         shortage of prosecutors and no defense attorneys. In addition, in February, the
                                                         new ALP unit in Yahia Khel aided in the reopening of a bazaar. 220

                                                         Paktiya Province
                                                         This quarter in Paktiya, the restrictions on PRT and DST staff made it difficult
                                                         for U.S. staff to engage with some members of the government, and development
FIGURE 3.28                                              activities slowed; however, meetings with officials and shuras did occur. The
                                                         tribal land dispute in Jaji district discussed in previous SIGAR quarterly reports
KANDAHAR DISTRICTS                                       continued to provoke tensions: two fatalities occurred in February. In response,
                                                         the Provincial Peace Council chair, the governor, and tribal elders agreed to
                                                         extend a peace agreement until April 23, 2012. 221

                                                         Helmand Province
                                                         The governor of Helmand and the ANSF’s effective response to the burning
                                                         of Korans in February resulted in a relatively restrained response by the local
                                                         population. Local officials have demonstrated increasing levels of leadership
                                                         and have been more accepting of the role of the central government in resolving
                                                         key issues. 222

                                                         Kandahar Province
                       NISH       MIANESHIN              The capacity and leadership of local officials vary considerably in Kandahar
         GHOWRAK     SHAH VALI KOWT                      (Figure 3.28). In some districts where capacity is poor, progress is stifled. In
                 KHAKRIZ
 ARGHANDAB
                                                         Shah Vali Kowt, the district governor is inexperienced, barely literate, and does
               ZHARI                                     not have local legitimacy, according to DoS. In other areas, such as the district
     MAIWAND                      ARGESTAN
                                                MA RUF
                                                         of Arghandab and the village of Dand, the government is very capable and fairly
                    DAMAN
         PANJWAYI
                               SPIN         KANDAHAR     well-staffed. The Kandahar City government has developed its institutions, estab-
                              BOLDAK
                                                         lished better ties between governance and security, and is more connected to
                                                         the provincial administration. The mayor has increasingly focused on resolving
                                                         everyday matters like city codes, parking, and the vetting of construction ven-
            RIG             SHURABAK
                                                         dors—all signs of improved governance, according to DoS. 223
                                                            During the fallout from this quarter’s adverse events, the provincial governor,
                                                         the Kandahar Media Information Center, and the Kandahar Ulema Council were
Source: USAID, “Afghanistan Provinces and Districts,”
                                                         extremely proactive; however, the provincial government often failed to provide
9/9/2009.                                                the districts with the leadership, oversight, and support required to make further
                                                         improvements in governance. DoS noted that progress in district governance will



                                                           96                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




require the provincial government to enhance its capacity to provide strategic
guidance and to support requests for on-budget operations, maintenance, and
development resources. Since the Loya Jirga held in November 2011, provincial
officials have increasingly traveled independently, often relying only on ISAF air
support. District governors in insecure areas have traveled to previously inacces-
sible locations, both with and without ISAF support. 224
   The success of the district councils supported by USAID’s Afghanistan Social
Outreach Program (ASOP) in Kandahar has depended largely on their composi-
tion and legitimacy, and the district’s security situation. In some districts, like
Maiwand, Zhari, and Shah Vali Kowt, the ASOP-supported councils that were cre-
ated in more volatile periods have resulted in councils largely made up of elders
who are not legitimate in the eyes of the locals and who lack real decision-mak-
ing authority, according to DoS. These councils have not continued to operate
after ASOP funding ended. In other places, such as Dand and Daman, ASOP
councils have become effective decision-making bodies. 225

Village Stability Operations                                                          Definition
The Village Stability Operations (VSO) program had expanded its operations to
more than 100 communities in 58 districts as of March 30, 2012. According to            Village Stability Operations (VSO): a pro-
DoD, in districts where the program operates, governance has improved in vil-           gram that partners with the ALP to protect
lages, as well as between village and district authorities. A recent survey found       rural and remote populations, reduce in-
that village leaders and district authorities interacted an average of three times      surgent violence, and expand the influence
every two weeks; the VSO supported nearly half of them. DoD noted that the              of the Afghan government. U.S. Special
VSO’s successes are particularly significant because many other local gover-            Operations Forces and Afghan National
nance efforts continue to struggle. The VSO is most effective in villages that          Army Special Operations Forces conduct
have functioning government structures that the VSO can use. According to               the VSO. The program facilitates the es-
DoD, the Taliban has targeted Afghan Local Police (ALP) personnel who work              tablishment of community development
                                                                                        councils and shuras to connect villages to
with the VSO because it recognizes the threat the VSO and the ALP pose to the
                                                                                        the districts. In addition to improving the
insurgency. In response, the ALP has become better at resisting attacks, mak-
                                                                                        capacity of district centers, the VSO helps
ing it possible for governance and development efforts in villages to continue          villagers stand up against insurgents and
to progress. 226                                                                        provides development assistance.

Capacity Building for Public Administration                                           Source: DoD, responses to SIGAR data call, 3/30/2012 and
In January and February 2012, all 34 provincial councils held their annual elec-      1/11/2011.

tions for their administrative boards. According to the UN Secretary-General, the
elections were mostly free of controversy, but some disagreements arose over
the definition of a quorum. The Secretary-General noted that these disputes high-
lighted the need for more widespread understanding of an agreement on election
regulations. The Independent Directorate of Local Governance (IDLG) and the
Independent Election Commission were working to resolve these challenges. 227

Provincial and District Government Vacancies
Insecurity, lack of education, and inexperience continued to hamper the process
of filling civil service positions, but there were signs of improvements. In the 14
most insecure provinces, 70% of positions were filled as of April 11, 2012. This is



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         97
                                                                GOVERNANCE




FIGURE 3.29                                                     an improvement from April 2011, when 50% of positions were filled. The ability of
                                                                these provinces to fill open positions varied, as shown in Figure 3.29. The IDLG
PROPORTION OF CIVIL SERVICE POSITIONS
                                                                standards for recruitment of district governors were recently lowered from an
FILLED, SELECTED PROVINCES (PERCENT)
                                                                undergraduate degree to a high school diploma. In Kandahar, Uruzgan, Zabul,
                                                                and Helmand, education requirements were waived completely. USAID noted
                                                                that these changes increased the number of applicants. 228
                                                                   From October 1, 2011, to March 30, 2012, the Independent Administrative
                                                                Reform and Civil Service Commission (IARCSC) held job fairs in Nimroz
                                                                and Khowst that recruited more than 514 individuals to the civil service. The
                                                                Provincial Affairs Directorate in the IARCSC is establishing regionally based
                                                     No data
                                                     40–55
                                                                training teams to support human resources and administrative functions and is
                                                     56–71      advertising job openings in neighboring provinces. The IARCSC also established
                                                     72–87
                                                                a women’s professional development center where women interested in joining
                                                     88+
                                                                the civil service can get information and talk with women civil servants. 229

Notes: Numbers affected by rounding. Data reflects
the percentage of tashkil positions filled by either civil      Independent Administrative Reform and Civil Service Commission
service or contracted employees in the ministries of
Education, Agriculture, Interior, Public Health, Finance, and   Of the $15 million in FY 2010 and FY 2011 grant funds available for on-budget
Communication and Information Technology, as well as the
Independent Directorate of Local Governance. USAID pro-
                                                                support of the IARCSC, $4.75 million had been disbursed as of March 31, 2012.
vided statistics for only the 14 most insecure provinces.       Although the grant agreement restricts USAID’s involvement in the spending
Source: USAID, response to SIGAR data call, 4/18/2012.
                                                                of funds, the agency stated that it has been in close contact with the IARCSC
                                                                to ensure that funds are used properly and that it reserves the right to conduct
                                                                an audit of that use. USAID noted that the IARCSC met all of 14 benchmarks in
                                                                human resources, organizational governance, asset management, financial man-
                                                                agement, and procurement, including the development of an assets management
                                                                manual that will be disseminated to provincial IARCSC staff next quarter. 230

                                                                Afghanistan Civil Service Support
                                                                USAID’s Afghanistan Civil Service Support (ACSS) program ended on March 20,
                                                                2012. USAID disbursed more than $237 million for the program, which helped
                                                                conduct 9 job fairs and recruit more than 1,500 new civil servants in insecure
                                                                areas of the country. Insecurity continued to impede civil service recruitment;
                                                                mobility restrictions and limited education remained challenges in the recruit-
                                                                ment of women for the civil service. 231
                                                                   This quarter, ACSS trained more than 750 civil servants on new procedures for
                                                                procurement, financial management, and human resources for the IARCSC. In
                                                                addition, the ACSS helped to develop the IARCSC’s ability to conduct technical
                                                                capacity assessments. The IARCSC had conducted programs in 4 ministries and 3
                                                                provincial governments, as of March 30, 2012; it was preparing for 14 more. 232

                                                                RAMP UP Program
                                                                USAID provides technical assistance and capacity building to help municipali-
                                                                ties improve their management; deliver services; and enable, support, and
                                                                sustain economic growth. It provides this assistance through two programs:
                                                                the Afghan Municipalities Program for Urban Populations (RAMP UP), which




                                                                  98               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




operates in 33 municipalities, and the Kabul City Initiative (KCI). As of March
31, 2012, USAID had expended almost $126 million for RAMP UP and almost
$15.8 million for KCI. 233
    RAMP UP and KCI activities address public works and services, such as
park renovations; installation of public latrines; culvert, sidewalk, and drain-
age construction; procurement and installation of traffic management signs and
intersection physical improvements; irrigation systems for medians and parks;
basic demographics of the citizenry; communication and outreach; trash removal
projects; solid waste collection; landfill expansion projects; and street asphalting.
USAID noted that RAMP UP and KCI have had a number of accomplishments,
including improving tax collection revenue (almost 50% in RAMP UP areas, 60% in
Kabul), improved accounting systems, a better trained civil service, establishment
of transparency and anti-corruption measures, and greater civic and government
participation in the planning and implementation of municipal projects. 234
    To improve the municipal operations of local governments, the programs face
a number of challenges: 235
 •	 appointed mayors who do not feel accountable to the citizens/constituents
 •	 a municipal law that is still in draft form
 •	 inconsistent abilities of municipal officials
 •	 security issues and their accompanying delays, especially in the south and east
 •	 funding cuts
 •	 lack of cooperation between the provincial governors and mayors
 •	 difficulties in finding qualified subcontractors

JUDICIAL REFORM AND RULE OF LAW
This section reviews Afghan and U.S. efforts to develop the judicial system.
Development is concentrated on updating laws, educating and training Afghan legal
professionals, strengthening the connections between the informal and formal sys-
tems, and improving prison and detention center conditions and operations.

Criminal Procedure Code
In February 2012, the Council of Ministers approved a modified version of the draft
Criminal Procedure Code (CPC). Later that month, the Taqnin department of the
Ministry of Justice (MoJ) sent the modified draft to the Ministry of Parliamentary
Affairs, which is charged with submitting the draft to the National Assembly. The
legislation was submitted to the National Assembly in late March. 236

U.S. Justice Sector Support Program
As of April 1, 2012, attorneys and advisors for the Justice Sector Support
Program (JSSP) included 216 U.S., Afghan, and third-country nationals, accord-
ing to the DoS Bureau of International Narcotics and Law Enforcement Affairs
(INL). The JSSP, an INL program, conducts training of Afghan legal profes-
sionals. That training has led to improvements in their professional capacity to




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012          99
                                                        GOVERNANCE




                                                        administer a sound judicial system in some provinces, according to DoS. The
                                                        legal system in Herat has become more professional, transparent, and sustain-
                                                        able. In addition, graduates of JSSP programs in Bamyan are better able to argue
                                                        cases and cite specific laws. This quarter, the JSSP trained 343 judges, defense
                                                        attorneys, prosecutors, police officers, and other Afghan legal professionals. The
                                                        training covered a number of topics: 237
                                                         •	 preparation of defense documents and trial advocacy
                                                         •	 gender justice issues, including rape, adultery, forced marriage, and the issue
                                                            of “running away”
                                                         •	 human rights and torture
                                                         •	 legal ethics
                                                         •	 effective oral arguments and opening and closing statements
                                                         •	 prosecution of terrorism, kidnapping, and trafficking
                                                         •	 crime scene investigations
                                                           On March 11, 2012, the United States signed an agreement with the Afghan
                                                        government to allocate more than $238 million for programs related to rule of
                                                        law, counter-narcotics, and law enforcement. The funding will support justice
                                                        programs such as the Afghan Legal Education Project, which publishes and dis-
                                                        tributes free legal textbooks. The funding also will support counter-narcotics and
                                                        law enforcement efforts through the operation of 29 residential drug treatment
                                                        centers and more joint Afghan-U.S. interdiction efforts. 238

USAID’s Rule of Law and Stabilization                   USAID Rule of Law Stabilization Program
program has two components—formal and                   As of March 31, 2012, USAID had obligated more than $36 million to support
informal. The goals of the formal program               both the formal and informal components of its Rule of Law and Stabilization
are to build the capacity of the judiciary,             program. The program has been successful in meeting its goals for building the
institute a court management unit, build
                                                        capacity of the judiciary and law schools, according to USAID. As of February
the capacity of faculties at law schools
                                                        2012, the program had a number of accomplishments: 239
and Sharia schools, and increase public
awareness of the formal justice system. The
                                                        •	 trained 579 judges; 76% of all civilian judges had completed the judicial stage
informal program trains village elders in                  program
dispute resolution, Afghan law, and Sharia              •	 reached 27% of the population through legal awareness campaigns
law. The informal program also works to                 •	 produced and disseminated almost 3.2 million printed legal documents
strengthen links between the formal and                 •	 completed a baseline assessment of the informal justice system to help
informal justice systems.                                  USAID measure increases in stability
Source: USAID, response to SIGAR data call, 7/4/2011.      The connection between the more traditional, informal dispute resolution
                                                        system and the government’s formal justice system varies throughout the country.
                                                        USAID noted that central and local government officials generally do not have a
                                                        common understanding of the recognition and prevalence of the informal system;
                                                        local government institutions continue to refer parties to the traditional system. 240

                                                        Detention Center Transfer
                                                        On March 9, 2012—in response to the demand from President Karzai—the United
                                                        States and the Ministry of Defense signed a memorandum of understanding that




                                                         100                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




began the transfer of control of the Detention Facility in Parwan (DFIP) from the
United States to the Afghan government. 241 The DFIP, which is located adjacent
to Bagram Airfield, holds more than 3,000 individuals detained by the United
States. The transition is scheduled to take place by September 9, 2012, if the U.S.
and Afghan governments meet certain conditions, according to DoD. 242 Under
the agreement, the Afghan government is responsible for resourcing and manag-
ing the facility, organizing appropriate procedures for processing detainees, and
determining their disposition under the law, according to DoS. 243 DoD noted that
a physical divider will be built between Bagram Airfield and the facility. 244 The
United States will assist in the transfer process and continue to provide advisory,
technical, and logistical support at the facility until March 9, 2013. 245
   The success of the detainee transfer will be affected by the development
of the judicial system because many detainees will face criminal prosecution.
The Combined Joint Inter-agency Task Force-435 (CJIATF-435) is working with
Afghan leaders to establish a detainee review system similar to the system in use
in the United States, to ensure that the transfer complies with international law
and the memorandum. 246
   The Afghan government’s record of violating detainees’ rights continued to
provoke criticism and cause delays in the transfer of detainees from U.S. to
Afghan control. For more information on the human rights issues and their effect
on operations, see “Human Rights” later in this section.

Prison Operations
This quarter, the MoI officially took over responsibility for the Central Prisons
Directorate (CPD) from the MoJ, completing a process initiated by President
Karzai in April 2011 after more than 470 prisoners escaped from the Saraposa
prison in Kandahar. 247 The move reversed the August 2003 transfer of the CPD
to the MoJ from the MoI. The non-governmental organization Human Rights
Watch (HRW) expressed concern that the transfer to the MoI could put detain-
ees at heightened risk for torture and other abuses because ANP personnel who
have been implicated in human rights abuses would have direct authority over
suspects during interrogations. According to HRW, the transfer casts doubt on
the government’s stated commitment to end abusive practices at its prisons
and detention centers. 248 According to the UN Secretary-General, the MoI has
committed to having the CPD report directly to the Minister of the Interior, not
through the ANP or any other departments. 249 INL is working with its partners in
the international community to draft legislative proposals that will ensure that
CPD operations are separate from the ANP, according to DoS. 250

Overcrowding
Afghanistan’s prisoners continued to be imprisoned in overcrowded facilities
throughout the country, as shown in Figure 3.30 on the following page. As of
March 30, 2012, provincial prisons held more than double their capacity (202.4%).




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       101
                                          GOVERNANCE




                                          FIGURE 3.30


                                          PROVINCIAL PRISON OVERCROWDING
                                          Top 10 Prisons by Number of Inmates (PERCENT)


                                          1,000
                                            900
                                            800
                                            700
                                            600
                                            500
                                            400
                                            300
                                            200
                                            100
                                               0
                                                     Kabul       Jowzjan Kandahar Helmand               Balkh       Farah        Herat      Kunduz       Faryab       Takhar

                                                          Capacity (100%)              Over Capacity
                                          Notes: The capacity level of each prison is calculated using the International Committee of the Red Cross allowance of 3.4 square
                                          meters per prisoner. Data is as of 3/31/2012.
                                          Source: DoS/INL, response to SIGAR data call, 4/6/2012.




                                          To alleviate overcrowding, INL is funding the construction of new prisons in
                                          Wardak and Baghlan. Additionally, funding has been provided for the construc-
                                          tion of a new prison in Balkh and a 2,000-bed expansion of the Herat prison,
                                          along with the total renovation of all of the Pol-i Charki prison housing units.
                                          These projects will add approximately 4,000 beds and improve conditions for
                                          thousands of Afghan prisoners. 251

                                          Prisoner Classification
                                          As of March 30, 2012, all of Afghanistan’s 33 provincial prisons were working to
                                          classify and keep records of their prisoners. INL’s Corrections System Support
                                          Program (CSSP), in partnership with Afghanistan’s CPD, had classified about
                                          12,000 prisoners from January 2011 to March 31, 2012. Prisoner classification
SIGAR ACTIVITY                            includes the prisoner’s criminal history and the severity of the crime. Since the
In February, Acting Inspector General     program began in 2010, INL had provided about $2 million per year for classifica-
Steven Trent visited Kabul to discuss     tion efforts. INL noted that the implementation of this system helps leaders make
the ongoing problem of corruption with    important decisions that affect prisoner safety and security. 252
Afghan and U.S. officials. His meetings
included discussions with the Monitor-    ANTI-CORRUPTION
ing and Evaluation Committee, the UN      SIGAR reviews and monitors a number of issues and indicators related to
Assistance Mission to Afghanistan,        corruption in the Afghan government; corruption continues to be a signifi-
Attorney General Aloko, Senior Minister   cant impediment to reconstruction efforts. This quarter, progress in Afghan
Arsala, and Ambassador Ryan Crocker.      investigations and prosecutions of corrupt officials remained stagnant. The
                                          implementation of asset verification efforts was slow and uneven, and little




                                             102                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




progress was made to counter corruption at customs points of entry. The United
States continued to advocate for improved anti-corruption programs and poli-
cies within the Afghan government and began a new initiative that is intended to
spark progress in high-level prosecutions.

U.S. and International Assistance for Anti-Corruption Efforts
The United States and the international community have developed a number of
programs and committees to help officials counter government corruption. These
efforts continue to face a fair amount of resistance from some high-level officials.

Monitoring and Evaluation Committee
This quarter, the Afghan government sought to modify the role and place of the
Monitoring and Evaluation Committee (MEC). On February 11, 2012, President
Karzai told members of the MEC that the committee must limit its work to
concentrating on international donors and determining how Afghan institutions
are spending donor money. According to DoS, this differs radically from the
MEC’s terms of reference, which specify a focus on monitoring and evaluating
the government’s progress in its anti-corruption efforts. After Karzai’s declara-
tion, negotiations took place that appeared to moderate Karzai’s position, and the
MEC was operating under its original framework. 253
   In other developments this quarter, the High Office of Oversight (HOO)
attempted to gain jurisdiction over the MEC, although it appeared to DoS that
Karzai believed that the MEC should remain independent. This quarter, the MEC
presented two sets of anti-corruption benchmarks to the Afghan government that
Karzai and his cabinet apparently found amenable. 254

                                                                                       The Combined Joint Inter-agency Task Force
Task Force Shafafiyat
                                                                                       Shafafiyat works with the Afghan govern-
This quarter, the CJIATF-Shafafiyat continued to establish coordinated anti-
                                                                                       ment to initiate mentorship and training
corruption efforts between U.S., international, and Afghan government agencies.
                                                                                       with the High Office of Oversight for Anti-
These efforts included the CJIATF-Shafafiyat’s Corruption and Organized Crime          Corruption, the Office of the National
Interagency Effects Group. The group, which consists of representatives from           Security Council, the Ministry of Finance,
U.S. agencies and international partners, focuses on improving the understand-         the Ministry of Commerce and Industries,
ing and response to corruption in the customs and security sectors. DoD noted          and the Ministry of Interior. Training
that the group will also soon focus on the judicial sector. In addition, the CJIATF-   focuses on developing capacity for criminal
Shafafiyat, U.S. Central Command, and the Afghan Threat Finance Cell are               investigations, prosecutions, and regula-
developing a list of nominees for designation as kingpins for Treasury’s Office of     tions designed to prevent corruption and
Foreign Asset Control. 255                                                             prosecute those who perpetuate it.
   The CJIATF-Shafafiyat was also leading the proposal of an inter-agency body         Source: OSD, response to SIGAR data call, 10/11/2011.

to develop cases and manage the application of targeted sanctions and interna-
tional law enforcement actions against transnational Afghan criminal networks.
The proposal had been approved by DoD and the U.S. Embassy Kabul and
was awaiting final interagency review. Another joint Afghan and international
anti-corruption group completed a 54-point anti-corruption action plan for the
Ministry of Defense. The plan focuses on logistics, acquisitions, and personnel
systems and was being implemented as of March 30, 2012. 256



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        103
                                           GOVERNANCE




                                              ISAF and its international partners—with the help of the CJIATF-Shafafiyat—
                                           are also working with Afghan leaders to integrate assessments of corruption and
                                           organized crime into their transition planning process. This work is intended to
                                           ensure that the security and governance institutions in areas of transition are not
                                           subverted by criminality. DoD noted that ISAF had also developed with UNAMA
                                           and other international partners a number of progress indicators for governance
                                           and anti-corruption. 257

                                           Vendor Vetting
                                           Task Force 2010, the Senior Contracting Official-Afghanistan, and the ISAF Joint
                                           Command (IJC) are partnering to promote a better process for vetting vendors.
SIGAR INVESTIGATIONS                       The three organizations intend to form a new advisory panel on business integrity
SIGAR’s robust suspensions and             to replace the current one, which was created by IJC. They announced plans to
debarment program has resulted in 88       improve the integrity of the vendor vetting process and disseminate the results
referrals, which had resulted in 21 sus-   more widely. In addition to the current risk assessment techniques, the new panel
pensions, 45 proposals for debarment,      will assess risk by reviewing past performance, legal background checks, and intel-
and 5 finalized debarments as of the       ligence information. It will also devise strategies to address high-risk companies. 258
end of 2011. For more information,            As of March 30, 2012, Task Force 2010 had conducted more than 2,000 con-
see Section 2, page 35.                    tract assessments and reviewed tens of thousands of financial transactions to
                                           identify companies that have ties to the insurgency, criminal patronage networks,
                                           or power brokers. After identification, Task Force 2010 has used suspension
                                           and debarments to deny vendors further contracting funding. As of March 30,
                                           2012, Task Force 2010 had avoided about $1.2 billion in contract costs through
                                           improved contract oversight. The Task Force began vetting vendors in August
                                           2010; 102 of the 1,387 vendors that have been vetted have been assessed as high
                                           force protection risks, as of March 30, 2012. In addition, 81 U.S., international,
                                           and Afghan companies have been debarred. 259 SIGAR has collaborated with the
                                           task force by documenting and preparing proposals for suspensions and debar-
                                           ments and developing a methodology to allow for greater access to information.
                                           For more information, see Section 1.
                                              U.S. Forces - Afghanistan also convened a contract oversight and management
                                           shura on January 19–20, 2012. At the shura, participants agreed to 26 actions
                                           intended to improve oversight and management. 260

                                           USAID’s Assistance to Anti-Corruption Authority (4A)
                                           This quarter, USAID’s Assistance to Anti-Corruption Authority (4A) program
                                           supported the anti-corruption efforts of the Afghan government—particularly the
                                           HOO—in asset verification, coordination, process improvement, public outreach,
                                           and whistle blowing. The program continued to face persistent problems, includ-
                                           ing bribery in the asset registration process, undependable political support, and
                                           inadequate staffing and skills in the HOO, according to USAID. As of March 30,
                                           2012, USAID had obligated $6 million for 4A, about $5 million of which had been
                                           expended. USAID is considering funding the second option year to focus on
                                           engaging civil society. As of March 30, 2012, 4A had assisted the HOO in a num-
                                           ber of accomplishments: 261




                                            104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




•	 completing 43 asset registration workshops for ministries and agencies.
•	 drafting a non-disclosure agreement to protect officials when they submit
   asset declarations.
•	 signing nine coordination-related memorandums of understanding between
   ministries and the HOO.
•	 installing secure complaint boxes in the ministries and agencies.
   4A also identified a number of ministries that are receptive to undertak-
ing business process redesigns to develop more transparent and accountable
business practices that would be less vulnerable to corruption. As the first step
to redesigning the business process, the ministries of Public Health and Public
Works have approved the launch of special units to assess their vulnerability to
corruption. The HOO will carry out the coordination and training, and 4A will
provide technical advice and guidance. 262
   This quarter, 4A selected three civil society organizations to design and imple-
ment public outreach projects to educate and engage citizens, organizations, and
communities on ways to combat corruption through administrative intervention.
4A’s grant project is intended to establish a Citizens Legal Advocate Office to
resolve corruption complaints and issues through administrative intervention. 263

Infrastructure Monitoring
A U.K.-supported anti-corruption program to help Afghan citizens monitor
the delivery of infrastructure projects continued to expand this quarter. From
December 2011 to February 2012, community-based monitoring efforts expanded
from 184 to 239 projects. The U.K. Foreign and Commonwealth Office noted that
communities can flag projects that do not meet requirements or have poor-
quality construction materials. 264

Afghan Anti-Corruption Efforts
The Afghan government has a number of agencies and government-wide efforts
that are designed to counter corruption. As of the end of this quarter, these
efforts had fallen short of delivering the reforms, prosecutions, and structural
changes needed to prevent corruption.
   The following subsections describe the status of anti-corruption efforts made
this quarter by six Afghan government bodies:
•	 Attorney General’s Office.
•	 High Office of Oversight for Anti-Corruption.
•	 Anti-Corruption Unit.
•	 Major Crimes Task Force.
•	 Control and Audit Office.
•	 Anti-Corruption Tribunals.

Afghan Attorney General’s Office
The Afghan Attorney General’s Office (AGO) continued to avoid prosecuting sig-
nificant corruption cases this quarter: it did not prosecute any high-level officials




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012          105
GOVERNANCE




at the national or provincial levels. However, the AGO did form a Special Cases
Committee (SCC) in January 2012 with the stated aim of significantly improving
its prosecution of major corruption cases like the National Military Hospital case,
which involves the solicitation of bribes for medical care by hospital staff. 265
    The SCC is intended to prioritize, organize, facilitate, and monitor efforts
related to significant public corruption cases; it will not investigate and pros-
ecute cases on its own. The SCC’s role is to make sensible decisions about
prosecution and court proceedings in major cases. The SCC is made up of
Afghan and international officials selected by the Attorney General, including
senior prosecutors from the AGO’s Anti-Corruption Unit (ACU) and Military Anti-
Corruption Unit, as well as representatives from the CJIATF-Shafafiyat, the U.S.
Embassy Kabul, EUPOL, and the British Embassy. DoS noted that the establish-
ment of the SCC is the first positive development in prosecuting and investigating
major corruption cases since the fallout from the arrest and subsequent release
of President Karzai’s advisor, Muhammad Zia Salehi, in 2010. 266

High Office of Oversight for Anti-Corruption
The HOO’s core functions of combating corruption remained mostly ineffective
this quarter, and some have deteriorated. According to DoS, under the leadership
of Dr. Azizullah Lodin, the HOO has improved the collection of asset declara-
tions; however, the verification of those assets has remained stagnant, and the
data has not been made public. 267
   DoS noted that Lodin headed the inquiry into the Kabul Bank scandal that led
to a cover-up of those responsible for the bank’s failure and delayed prosecu-
tions. Although Lodin has been publicly outspoken in his commitment to fighting
corruption, the HOO has not followed through with appropriate actions. This
disappointing record has diminished the HOO and Lodin’s credibility. 268

Anti-Corruption Unit
This quarter, the Department of Justice (DoJ) and the JSSP continued its suspen-
sion of training of the Anti-Corruption Unit (ACU). DoS noted that training will
likely resume if the work of the SCC is taken seriously. 269

Major Crimes Task Force
This quarter, the Major Crimes Task Force (MCTF) made no progress in getting
the AGO to prosecute the public corruption cases the MCTF had developed.
The DoJ did assign a senior legal advisor to review cases with the MCTF to see
whether the SCC can use the MCTF’s investigations. 270

Control and Audit Office
This quarter, the National Assembly’s legislative committee rejected a draft audit
law to strengthen the Control and Audit Office (CAO). Since at least 2009, the




 106               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




MoJ and the National Assembly have been unable to reach an agreement about
the law. According to DoS, the committee expressed a number of concerns about
the most recent draft law: 271
•	 The Auditor General should be appointed for 6 to 10 years.
•	 The CAO should have an independent budget.
•	 The CAO should be accountable to the President and the President of the
   Parliament.
•	 The Auditor General should be selected by a parliamentary committee and
   approved by the President.

Anti-Corruption Tribunals
The Afghan government’s Anti-Corruption Tribunals (ACTs) have not had a great
deal of success in countering corruption. The ACTs in Kabul, Nangarhar, Balkh,
and Herat are properly functioning; however, others are not, including those in
Kunduz and Kandahar, according to DoS. ACT judges face a number of chal-
lenges in their work: 272
 •	 inconsistent sentencing standards.
 •	 insufficient training.
 •	 underdeveloped case management systems.
 •	 considerable political pressure from local officials.
 •	 inadequate facilities.

Anti-Corruption Issues
In addition to administrative and procedural improvements aimed at reducing
corruption, Afghan and international efforts focus on certain areas prone to corrup-
tion. The following sub-sections address legal requirements, customs enforcement,
and oversight of Afghan government personnel and government bodies.

Anti-Corruption Laws
Afghanistan’s laws do not conform to its treaty obligations under the UN Convention
Against Corruption (UNCAC), which it adopted in 2004. DoS noted that the Afghan
government has proposed amendments to existing laws and enacted new laws to
address the UNCAC, but that progress has been slow and sporadic. 273

Corruption in the Afghan Civil Service
A policy aimed at implementing a merit-based hiring system of provincial and
deputy-provincial governors has remained stalled since May 2011, when the pol-
icy was suspended. A new policy was at the President’s Office pending approval
as of March 31, 2012. The Independent Appointments Board of the Civil Service
Commission has continued to appoint civil servants in grades one and two to line
ministries, using a merit-based system. 274




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        107
GOVERNANCE




Financial Oversight
 The Afghan government has had some difficulties in conducting financial
oversight of its ministries. Managers within ministries have not established and
clearly communicated the objectives of financial controls, and there are few pro-
cedural documents to help most staff understand the controls, according to the
U.S. Department of the Treasury (Treasury). Internal audits in line ministries usu-
ally focus on compliance and have limited scope for undertaking systems audits
and developing management actions to improve process efficiency. Treasury
noted that some ministries, including the Ministry of Education, do have proper
internal control practices, which should be shared or implemented throughout
the government. 275

Progress in Asset Verification
The Afghan government’s progress in implementing asset verification for govern-
ment officials continued to fall short of U.S. expectations. The asset verification
and registration department in the HOO has insufficient staff, lacks the expertise
required to carry out its mission, and faces uncooperative Afghan agencies. DoS
noted that these limitations remain despite years of international support for
verification efforts. Weak political will at the HOO and at high levels of govern-
ment have been the biggest hindrance toward adequate verification efforts. 276
   As of March 31, 2012, the HOO was pursuing asset verifications of seven min-
isters and eight directors. More than 2,300 government officials had completed
their declarations, and these declarations were generally accurate, according to
DoS. However, the HOO has refused to report to DoS the extent to which it has
referred any suspicious asset declarations to the AGO. DoS considered it unlikely
that the AGO has investigated any dubious declarations. 277
   Many officials have been unwilling to fully declare their assets because they
fear that the information could be used in blackmail or hostage-taking. DoS
noted reports of HOO officials soliciting bribes for ensuring that declarations are
not verified or published. In addition, the collection of asset data is inconsistent:
high-ranking officials sometimes have more time to submit their declarations
than lower-level officials. The international community has been unable to
persuade the Afghan government to enact a law that establishes penalties for
delaying or failing to submit such declarations. 278
   In addition to the asset verification conducted through the 4A program, the
United States has established a working formal relationship between the HOO’s
asset verification and registration department and the Financial Transactions and
Reports Analysis Center (FinTRACA) that enables the two agencies to exchange
suspicious transaction data securely. 279

Corruption in Customs Collections
Customs collections are very susceptible to fraud and corruption at all major
entry points, and the Afghan government continued to make little progress coun-
teracting the problem. Corruption issues range from small bribes paid to customs




 108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




inspectors to large-scale smuggling and fraud that are often tied to provincial
governments and criminal patronage networks, according to DoS. Customs col-
lection has grown tremendously during reconstruction—from $50 million in 2004
to almost $1 billion in 2011. However, staff members at inland custom depots
have suggested that up to 70% of potential border revenue is lost because of
corruption. The Presidential Executive Commission (PEC) was designed to root
out corruption in customs collections, but it had still not been established as of
March 30, 2012. DoS noted that the PEC’s authority could be used for counter-
corruption efforts at borders, airports, and customs depots. 280
   The U.S. Department of Homeland Security’s Border Management Task
Force is the main U.S. agency that aids the Afghan government in its develop-
ment of anti-corruption measures at customs locations in Afghanistan. The Task
Force provides infrastructure and training programs to the Afghan Customs
Department and Afghan Border Police. 281

Passport Access
The Afghan government has been unable to meet the demand for passports, and
its passport agency is beset by corruption. The Afghan Passport Agency is lim-
ited in its ability to efficiently process passports, according to DoS. 282 In October
2011, the government announced that it was running out of blank passports and
would no longer issue them. Radio Free Europe/Radio Liberty reported that as
of February 9, 2012, more than 1 million Afghans were waiting for a passport. To
alleviate the shortage, the Ministry of Finance (MoF) ordered the production of
1.4 million new passports; 35,000 of them arrived in March 2012. 283
     Because of the massive shortage in passports, some passport officials have
illicitly sold passports to middlemen, giving rise to a thriving black market in
which passports can easily be bought for $500–700. Staff members of the Afghan
Passport Agency illegally sell passports on the street outside the department. In
addition, because Afghan passports lack basic controls such as lamination, they
can easily be altered. According to DoS, the U.S. Embassy Kabul has been unsuc-
cessful in its attempts to develop a relationship with the Passport Agency. 284

HUMAN RIGHTS
In a report released this quarter, Human Rights Watch harshly criticized the
depth of the Afghan government’s commitment to protecting human rights. It
claimed that the government continues to give free rein to warlords, human
rights abusers, and corrupt politicians and business people. The report also
noted that the government has not been aggressive in curbing either long-stand-
ing practices of torture and abuse in prisons or violations of women’s rights. 285

Detention Center Operations
This quarter, human rights issues at detention centers continued to provoke
controversy and operational changes as ISAF and the Afghan government
worked to alleviate abuses at detention centers that had been discovered by




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012          109
GOVERNANCE




outside observers. In October 2011, the United Nations Assistance Mission in
Afghanistan (UNAMA) identified the practice of systemic torture at 16 Afghan
facilities. Last quarter, ISAF suspended the transfer of detainees to those 16
facilities. This quarter, ISAF implemented on-site inspections and remediation
training at those facilities for investigative personnel of the NDS and Afghan
National Police (ANP). On February 15, 2012, ISAF announced it had recertified
eight facilities and conditionally certified four others, pending further on-site
inspections. ISAF resumed the transfer of detainees to the fully certified facili-
ties; it will monitor any detainee it transfers from custody to trial. 286
    The Afghan government also implemented new policies and programs to
prevent torture in Afghan detention facilities. The NDS established a human
rights department to investigate allegations of abuse and torture, and instructed
its staff to follow national and international standards. To reassess the treatment
of detainees this quarter, UNAMA visited 78 detention facilities managed by the
NDS, ANP, and CPD. 287
    A report released in March by the Afghan Independent Human Rights
Commission (AIHRC) and the Open Society Foundation raised further concerns
about the extent of human rights abuses and responses to them. The report’s
authors monitored facilities and interviewed detainees; they allege that torture
took place at nine NDS facilities and several ANP facilities. Four of the NDS
facilities had not been flagged in UNAMA’s October 2011 report. 288 ISAF sus-
pended transfers to those four facilities following discussions with the report’s
authors. 289
    Human rights violations cited in the report included beatings, suspension from
the ceiling, abuse of genitals, electric shock, and sexual abuse. The AIHRC and
the Foundation noted that these tactics were used routinely to obtain confes-
sions or other information. In addition, they alleged that violations of detainees’
due process rights were widespread and deliberate, including obstructions of
the right to counsel and family notifications. They pointed out that hindering due
process raises the risk of torture and other abuses. The report contends that the
Afghan government generally has not held accountable the individuals respon-
sible for these violations; in some cases, the government merely transferred
them to other detention facilities. 290 The NDS disputed the findings of the report,
according to media reports. 291

Gender Equity
Women have made great progress in Afghan society since the fall of the Taliban
in 2001, when they had largely been excluded from virtually all levels of gov-
ernment, education, and the economy. According to the Foreign Ministry, as
of March 21, 2012, the share of women participating in these areas had risen
dramatically since 2001: 292
 •	 28% of legislators in the Parliament.
 •	 25% of government workers, including 9% of decision-making officials.
 •	 24% of doctors and other medical workers.




 110                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




•	 30% of schoolteachers and 15% of university teachers.
Under Taliban rule, girls were not permitted to attend school. As of March 21, 2012,
there were 3 million girls in school. Since 2001, there was also a 40% increase in     Definition
female life expectancy, to 62 years from 44 years. 293
   On March 2, 2012, the Ulema Council of Afghanistan, a religious advisory              Ulema Council: a network of 3,000 cler-
board charged with raising awareness on religious matters, issued a statement            ics that advises the government. Since its
with a number of troubling directives for women, including the following: 294            formation, it has taken increasingly con-
•	 It forbids travel without the accompaniment of a close relative.                      servative positions. The Afghan government
                                                                                         pays each cleric about $100 per month.
•	 It obligates respect for the right of men to maintain polygamous relationships.
                                                                                         Members of the Council are supposed to
•	 It prohibits interaction with “stranger men” in public places such as offices
                                                                                         promote the government’s policies; how-
   and schools.                                                                          ever, in August 2010, approximately 350
   A commissioner of the AIHRC said in a UNAMA publication that the Council’s            Council members demanded that the gov-
statement had political objectives, likely aimed at demonstrating openness               ernment implement Islamic (Sharia) law.
to the Taliban for negotiating women’s role in society. According to the com-
missioner, if the Council’s directives were followed, it would likely increase         Source: Congressional Research Service, “Afghanistan:
separation between the sexes and roll back women’s progress in society, educa-         Politics, Elections, and Government Performance,” Kenneth
                                                                                       Katzman, 2/27/2012.
tion, and the economy. 295

Children’s Rights
This quarter, according to the UN Secretary-General, the Afghan government
reported progress in implementing the child protection plan signed in February
2011. The plan is designed to prevent recruitment of children into the Afghan
National Security Forces, a practice that had put the ANP on the UN’s list of
organizations that commit “grave violations against children in armed conflict.” 296
The Afghan government has issued decrees and conducted a program to raise
awareness of children’s rights. The UN Secretary-General noted that child protec-
tion units in ANA and ANP recruitment sections have been established in Herat
and Ghor. In addition, UNAMA has implemented mechanisms to monitor and
report on the situation of children. 297

Displaced Persons
Since 2007, the number of internally displaced persons (IDPs) has continued
to rise, according to DoS. 298 About 500,000 Afghans had been displaced as
a result of the surge in hostilities as of January 2012, according to Amnesty
International. 299 DoS pointed out that IDPs sometimes live in areas of disputed
control and are often caught between anti-government elements and the interna-
tional military. 300
   Amnesty International noted that IDPs face very difficult living conditions—
even worse than poor families who have not been displaced. Their shelters are
constructed from mud, poles, plywood, plastic sheeting, and cardboard; they
typically provide little protection or warmth. Because of the unusually cold win-
ter, nearly two dozen displaced children under the age of five froze to death in
January 2012. Many families do not have access to the minimum recommended




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        111
GOVERNANCE




Afghan refugees receive clothes, blankets, and other aid from ISAF volunteers in Kabul on
February 11. In 2011, about a quarter of all returning refugees settled in the capital. Credit:
U.S. Army photo, SPC Anthony Murray Jr.

amount of water. In addition, because IDPs have a hard time finding employ-
ment, their families often do not get adequate food or basic health care. IDPs’
access to education is also extremely low. Most lack the identification cards
required to enroll; some are turned away for appearing dirty—a mostly unavoid-
able condition. Compounding the problem, men claiming to own the land on
which IDPs find shelter routinely evict IDPs without notice. 301
   The Afghan government’s programs to improve the lives of IDPs have been
ineffective, inconsistent, and insufficient, according to Amnesty International. A
land allocation initiative that began in 2005 has given displaced families houses



  112                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




and small plots of land; however, these allocations are typically located too far
from employment, health care, schools, and sometimes even water. Furthermore,
Amnesty noted that some government officials and IDPs believe that only return-
ing refugees—not IDPs—are eligible for these allocations. The organization
stated that many Afghan government officials downplay the extent and perma-
nence of the IDP issue. As a consequence, the government relies on international
assistance to support IDPs and requests that such assistance be temporary. 302
The UN High Commissioner for Refugees (UNHCR) has advocated that the
Afghan government should establish a national IDP policy. 303

Refugees
The number of voluntary returnees decreased in 2011 compared with 2010. The
number returning from Pakistan has declined greatly in recent years. According
to the UNHCR, many refugees cite insecurity and a lack of livelihood options as
the major reasons for their reluctance to return. About a quarter of all returnees
settled in Kabul in 2011. 304
   On January 29–31, 2012, Afghan, Iranian, and Pakistani officials met in
Dubai to discuss solutions to the refugee problem. Pakistan and Iran together
host about 3 million Afghan refugees. UNHCR has reported that up to 60% of
returnees face significant problems rebuilding their lives. At the meeting, rep-
resentatives of the three governments agreed to a strategy aimed at creating
conditions conducive to voluntary repatriation through community investments
and promotion of employment opportunities. According to the UN Secretary-
General, the countries will launch the strategy in May 2012. 305

Freedom of the Press
Afghanistan ranks 150th of 179 countries in regard to freedom of the press,
according to a report released this quarter by Reporters without Borders. The
threat of violence from the Taliban, religious extremists, and political groups had
the largest detrimental effect on journalists’ freedom to investigate and report. 306

Afghan Human Rights Organizations
This quarter, President Karzai reappointed six of the nine AIHRC commission-
ers whose terms expired in December 2011. 307 As of March 30, 2012, the three
remaining positions were still vacant, according to USAID. 308 The United States
and some Afghan civil society organizations have advocated a transparent appoint-
ment process that includes consulting civil society organizations. 309 USAID pointed
out that an opaque selection process or the appointment of commissioners solely
loyal to Karzai could threaten the agency’s independence. 310 DoS noted that the
Afghan government should abide by the Paris Principles on National Human
Rights Institutions by having an independent AIHRC that respects minority
rights. 311 The Afghan government held discussions this quarter with civil society
organizations about the appointment process, a move that both the UNHCR and
UNAMA viewed positively. 312




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         113
                                                              ENDNOTES




182. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 15.
183. 	 DoS, “Remarks at the U.S.-Afghan Women’s Council 10th Anniversary Celebration Luncheon,” 3/21/2012.
184. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 2.
185. 	 DoS, response to SIGAR data call, 3/30/2012.
186. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 2.
187. 	 DoS, “Press Availability with Italian Foreign Minister Giulio Terzi di Sant’Agata,” 3/28/2002.
188. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 2.
189. 	 DoS, response to SIGAR data call, 3/30/2012.
190. 	 DoS, response to SIGAR data call, 3/30/2012.
191. 	 DoS, response to SIGAR data call, 3/30/2012.
192. 	 DoS, response to SIGAR data call, 3/30/2012.
193. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 2/22/2012.
194. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 2/22/2012.
195. 	 DoD, response to SIGAR data call, 4/3/2012.
196. 	 DoS, response to SIGAR data call, 3/30/2012.
197. 	 DoD, response to SIGAR data call, 4/3/2012.
198. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 2.
199. 	 DoS, response to SIGAR data call, 3/30/2012.
200. 	 DoS, response to SIGAR data call, 3/30/2012.
201. 	 DoS, response to SIGAR data call, 3/30/2012.
202. 	 DoS, response to SIGAR data call, 3/30/2012.
203. 	 DoS, response to SIGAR data call, 3/30/2012.
204. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 24.
205. 	 DoD, response to SIGAR data call, 4/3/2012; DoS, response to SIGAR vetting, 4/11/2012.
206. 	 DoD, “DoD News Briefing with Maj. Gen. Hook via Teleconference from Afghanistan,” 2/22/2012.
207. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 24.
208. 	 DoS, response to SIGAR data call, 3/30/2012.
209. 	 DoD, response to SIGAR data call, 4/3/2012.
210. 	 DoS, response to SIGAR data call, 3/30/2012.
211. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: January 2012,” 2/10/2012, p. 2.
212. 	 DoS, response to SIGAR data call, 3/30/2012; Congressional Research Service, “Afghanistan: Politics, Elections, and Government
       Performance,” Kenneth Katzman, 2/27/2012.
213. 	 DoS, response to SIGAR data call, 3/30/2012.
214. 	 CFC, “Afghanistan Review,” 4/10/2012.
215. 	 DoS, response to SIGAR data call, 3/30/2012.
216. 	 DoS, response to SIGAR data call, 3/30/2012.
217. 	 DoS, response to SIGAR data call, 3/30/2012.




                                                      114                    SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




218. 	 DoS, response to SIGAR data call, 3/30/2012.
219. 	 DoS, response to SIGAR data call, 3/30/2012.
220. 	 DoS, response to SIGAR data call, 3/30/2012.
221. 	 DoS, response to SIGAR data call, 3/30/2012.
222. 	 DoS, response to SIGAR data call, 3/30/2012.
223. 	 DoS, response to SIGAR data call, 3/30/2012.
224. 	 DoS, response to SIGAR data call, 3/30/2012.
225. 	 DoS, response to SIGAR data call, 3/30/2012.
226. 	 DoD, response to SIGAR data call, 3/30/2012.
227. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 10.
228. 	 USAID, response to SIGAR data call, 4/3/2012.
229. 	 USAID, response to SIGAR data call, 4/3/2012.
230. 	 USAID, response to SIGAR data call, 4/3/2012.
231. 	 USAID, response to SIGAR data call, 4/3/2012.
232. 	 USAID, response to SIGAR data call, 4/3/2012.
233. 	 USAID, response to SIGAR data call, 4/3/2012.
234. 	 USAID, response to SIGAR data call, 4/3/2012.
235. 	 USAID, response to SIGAR data call, 4/3/2012.
236. 	 DoS/INL, responses to SIGAR data call, 4/17/2012 and 4/6/2012.
237. 	 DoS/INL, response to SIGAR data call, 4/6/2012.
238. 	 U.S. Embassy Kabul, “U.S. Government Provides Funding for Continuation of Key Rule of Law and Counternarcotics Programs in
       Afghanistan,” 3/12/2012.
239. 	 USAID, response to SIGAR data call, 4/3/2012.
240. 	 USAID, response to SIGAR data call, 4/3/2012.
241. 	 DoS, response to SIGAR data call, 3/30/2012.
242. 	 DoD, response to SIGAR data call, 3/30/2012.
243. 	 DoS, response to SIGAR data call, 3/30/2012.
244. 	 DoD, response to SIGAR data call, 3/30/2012.
245. 	 DoS, response to SIGAR data call, 3/30/2012.
246. 	 DoD, response to SIGAR data call, 3/30/2012.
247. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: January 2012,” 2/10/2012, p. 3; HRW, “Afghanistan: Decree
       Increases Detainees’ Risk of Torture,” 1/10/2012.
248. 	 HRW, “Afghanistan: Decree Increases Detainees’ Risk of Torture,” 1/10/2012.
249. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 22.
250. 	 DoS/INL, response to SIGAR vetting, 4/17/2012.
251. 	 DoS/INL, response to SIGAR data call, 4/6/2012; DoS/INL, response to SIGAR vetting, 4/17/2012.
252. 	 DoS/INL, response to SIGAR data call, 4/6/2012; DoS/INL, response to SIGAR vetting, 4/17/2012.




            REPORT TO THE UNITED STATES CONGRESS           I   APRIL 30, 2012                115
                                                             ENDNOTES




253. 	 DoS, response to SIGAR data call, 3/30/2012.
254. 	 DoS, response to SIGAR data call, 3/30/2012.
255. 	 DoD, response to SIGAR data call, 3/30/2012.
256. 	 DoD, response to SIGAR data call, 3/30/2012.
257. 	 DoD, response to SIGAR data call, 3/30/2012.
258. 	 DoD, response to SIGAR data call, 3/30/2012.
259. 	 DoD, response to SIGAR data call, 3/30/2012.
260. 	 DoD, response to SIGAR data call, 3/30/2012.
261. 	 USAID, response to SIGAR data call, 4/3/2012.
262. 	 USAID, response to SIGAR data call, 4/3/2012.
263. 	 USAID, response to SIGAR data call, 4/3/2012.
264. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report: February 2012,” March 2012, p. 3.
265. 	 DoS, response to SIGAR data call, 3/30/2012.
266. 	 DoS, response to SIGAR data call, 3/30/2012.
267. 	 DoS, response to SIGAR data call, 3/30/2012.
268. 	 DoS, response to SIGAR data call, 3/30/2012.
269. 	 DoS, response to SIGAR data call, 3/30/2012.
270. 	 DoS/INL, response to SIGAR data call, 4/6/2012.
271. 	 DoS, response to SIGAR data call, 3/30/2012.
272. 	 DoS, response to SIGAR data call, 3/30/2012.
273. 	 DoS, response to SIGAR data call, 3/30/2012.
274. 	 DoS, response to SIGAR data call, 3/30/2012.
275. 	 Treasury, response to SIGAR data call, 3/29/2012.
276. 	 DoS, response to SIGAR data call, 3/30/2012.
277. 	 DoS, response to SIGAR data call, 3/30/2012.
278. 	 DoS, response to SIGAR data call, 3/30/2012.
279. 	 DoS, response to SIGAR data call, 3/30/2012.
280. 	 DoS, response to SIGAR data call, 3/30/2012.
281. 	 DoS, response to SIGAR data call, 3/30/2012.
282. 	 DoS, response to SIGAR data call, 3/30/2012.
283. 	 Radio Free Europe/Radio Liberty, “Afghans Accuse Authorities of Passport Scam,” 2/9/2012; DoS, response to SIGAR data call, 3/30/2012.
284. 	 DoS, response to SIGAR data call, 3/30/2012.
285. 	 HRW, “World Report 2012,” 1/22/2012, p. 288.
286. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, pp. 7-8.
287. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 8.
288. 	 AIHRC, “Torture, Transfers, and Denial of Due Process: The Treatment of Conflict-Related Detainees in Afghanistan,” 3/17/2012, p. 2.
289. 	 ISAF, “ISAF Acknowledges AIHRC Report Release,” 3/2012.




                                                       116                 SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




290. 	 AIHRC, “Torture, Transfers, and Denial of Due Process: The Treatment of Conflict-Related Detainees in Afghanistan,” 3/17/2012, pp. 2–3.
291. 	 AP, “Afghan Intel Service: No Torture at Our Prisons,” Heidi Vogt, 3/20/2012; BBC, “Afghanistan Rejects UN Allegations of Torture in Jails,”
       accessed 4/18/2012.
292. 	 DoS, “Remarks at the U.S.-Afghan Women’s Council 10th Anniversary Celebration Luncheon,” 3/21/2012.
293. 	 DoS, “Remarks at the U.S.-Afghan Women’s Council 10th Anniversary Celebration Luncheon,” 3/21/2012.
294. 	 UNAMA, “Points of View in Afghanistan on Ulema Council’s Statement on Women,” 3/19/2012.
295. 	 UNAMA, “Points of View in Afghanistan on Ulema Council’s Statement on Women,” 3/19/2012.
296. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 7; UNAMA,
       “Government, UN Sign Plan To Stop Under-age Recruits in Security Forces,” 1/30/2011.
297. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 7.
298. 	 DoS Humanitarian Information Unit, “Afghanistan: Humanitarian Crises in 2011,” 2/16/2012.
299. 	 Amnesty International, “Fleeing War, Finding Misery: The Plight of the Internally Displaced in Afghanistan,” 2/2012, p. 10.
300. 	 DoS, response to SIGAR vetting, 4/11/2012.
301. 	 Amnesty International, “Fleeing War, Finding Misery: The Plight of the Internally Displaced in Afghanistan,” 2/2012, pp. 10–12.
302. 	 Amnesty International, “Fleeing War, Finding Misery: The Plight of the Internally Displaced in Afghanistan,” 2/2012, p. 12.
303. 	 UNHCR, “Minutes – National IDP Task Force (NIDP TF) Meeting,” 3/14/2012.
304. 	 DoS Humanitarian Information Unit, “Afghanistan: Humanitarian Crises in 2011,” 2/16/2012.
305. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 6.
306. 	 Reporters Without Borders, “2011–2012 World Press Freedom Index,” 1/25/2012.
307. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 8.
308. 	 USAID, response to SIGAR data call, 4/3/2012.
309. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 8.
310. 	 USAID, response to SIGAR data call, 4/3/2012.
311. 	 DoS, response to SIGAR data call, 3/30/2012.
312. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, p. 8.




            REPORT TO THE UNITED STATES CONGRESS            I   APRIL 30, 2012               117
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of March 31, 2012, the U.S. government had provided more than $22.3 billion
  to support governance and economic development in Afghanistan. 313
      This quarter, the U.S. government underscored the importance of “sustainable,
  inclusive economic growth” as essential to achieving the U.S. government’s over-
  all goal of a stable Afghanistan that can provide for its own security and is not
  a safe haven for terrorists. 314 This is especially true because the transition may
  challenge the economic gains made so far. The government’s reiteration builds
  on a November 2011 report from the U.S. Department of State (DoS) stating that
  U.S. economic efforts in Afghanistan are designed to sustain growth to levels that
  meet the needs of the people, yet minimize government dependence on massive
  external assistance. 315
      For Afghanistan to sustain its economy and forestall any damage from
  the decreased spending, a number of efforts are necessary, according to a
  report delivered to Congress this quarter under the FY 2011 National Defense
  Authorization Act (NDAA). First, it must continue to develop the agriculture sec-
  tor—the country’s largest source of employment—while improving food security
  and increasing exports. Achieving these objectives requires expanding regional
  transportation, which is important to the development of and timely access to
  external markets for Afghanistan’s products. Second, it must continue to develop
  the minerals and hydrocarbons sectors: both the Afghan government and the
  international community rely on the sectors as sources of long-term revenue,
  but it needs significant investment in infrastructure, human capital, and other
  elements if extraction is to be profitable. Third, it must continue to increase the
  stability of the financial system by strengthening regulations and supervision so
  that it can support the private sector. Fourth, it must expand light manufacturing
  and services in order to respond to the high local demand for low-value con-
  sumer goods and services. 316

  KEY EVENTS THIS QUARTER
  This quarter, the United States and its international partners continued to pro-
  mote Afghanistan’s economic growth and development. This section includes
  updates on these efforts and other key developments:
  •	 regional integration: Afghanistan participated in several regional meetings to
     discuss economic cooperation as well as cooperation on trade, development,
     transportation, energy, and mining.



              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       119
ECONOMIC AND SOCIAL DEVELOPMENT




•	 efforts to hold accountable those responsible for economic crimes: President
   Karzai called for the establishment of a Special Prosecutor’s Office and a
   Special Tribunal to investigate and prosecute those involved in economic
   crimes at Kabul Bank.
•	 economic sustainability: the international community continued its efforts to
   mitigate the economic risks from transition.
•	 humanitarian assistance: the international community mobilized to help
   Afghans affected by last quarter’s drought and this quarter’s harsh winter.

ECONOMIC IMPACT OF DECLINING DONOR ASSISTANCE
Assessing the economic impact of the drawdown of U.S. and coalition forces
remained challenging this quarter for two primary reasons: 317
 •	 the Afghan government’s incomplete and unreliable data on the economy and
    demographics.
 •	 the lack of a standardized process for tracking funds provided for the exter-
    nal budget by donor nations.
The World Bank and the International Monetary Fund (IMF) continued to refine
their assessments of the economic impact of transition. In November 2011, the
World Bank projected that GDP growth would continue to slow throughout the
2014 transition and beyond—from 8.4% to between 5 and 6%. 318 Afghanistan’s
budgetary gaps remained a significant concern, especially as the government
takes on additional sustainment costs, as noted in SIGAR’s January 2012 quar-
terly report. The largest driver of these gaps is the Afghan National Security
Forces (ANSF), according to DoS. 319
    Last quarter in Bonn, the United States continued to encourage the inter-
national donor community to maintain its assistance after the transition; next
quarter, specific decisions will be made at the NATO Chicago Summit about how
best to provide continued support to the ANSF. Then the associated costs will
be revised, and budget requirements will become clearer. Concurrently, the U.S.
economic strategy continues to promote regional integration, sustainable growth
and programming, and decreased dependence on foreign assistance while advo-
cating for that assistance to be on-budget. 320 On the ground, the United States
is working to minimize the adverse effects of the transition by helping increase
local spending by the international community, helping improve Afghanistan’s
business and investment conditions, and promoting trade. 321
    The best way for Afghanistan to improve its macroeconomic and financial
stability is to fulfill the conditions set by the Extended Credit Facility (ECF)
agreement it reached with the IMF last quarter, according to the U.S. Department
of Treasury (Treasury). Treasury also noted that adherence to the ECF agree-
ment will help enhance revenues, improve transparency, and uphold the basic
governance standards required for development of the finance sector. To build
capacity in the Afghan government, Treasury’s Office of Technical Assistance
continued to provide technical advice on revenue collection and public financial




 120               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  TABLE 3.8


  GDP FIGURES AND COUNTRY RANKING, 2010 AND 2011
                                                                2010 (est.)                  Country Rank            2011 (est.)               Country Rank
  GDP purchasing power parity (PPP)                          $27.36 billion                    111 of 227            $29.99 billion                 110 of 226
  GDP per capita PPP                                                   $900                    218 of 227                  $1,000                   214 of 226
  GDP, real growth ratea                                               8.2%                      17 of 215                   7.1%                    20 of 215
  Notes: Numbers affected by rounding. 2010 data is in 2010 U.S. dollars; 2011 data is in 2011 U.S. dollars. 	
  The number of countries ranked varies based on the availability of data.	
  a. Real growth rate is expected to decline rapidly in 2014 after the reduction of the international presence.
  Sources: CIA, “Afghanistan,” World Factbook, 4/10/2012, accessed 4/13/2012; CIA, “Afghanistan,” World Factbook, 12/21/2011, accessed 4/17/2012.




  management, such as budget formulation and execution. Better capacity will
  help Afghanistan weather some of the economic effects of the transition and
  improve prospects for growth, according to Treasury. 322

  LEADING INDICATORS
  In 2011, the Afghan economy improved slightly from 2010 in terms of GDP pur-
  chasing power parity (PPP) and GDP per capita PPP, but the GDP real growth
  rate declined. For the latest GDP figures and Afghanistan’s ranking compared
  with other nations, see Table 3.8.

  U.S. Economic Strategies
  This quarter, the NDAA-mandated inter-agency review of the economic strat-
  egy in Afghanistan emphasized six broad elements as the basis for sustainable
  growth: 323
  •	 improved security.
  •	 sustainable macroeconomic and fiscal policies.
  •	 strengthened government and economic capacity.
  •	 favorable business environment.
  •	 sustainable infrastructure.
  •	 investment in human capital.
  To help the Afghan government make progress in these elements by the end of
  the transition, the review noted U.S. policy is focused on four short-term eco-
  nomic goals: 324
  •	 minimize the negative fiscal, political, and economic impacts of the transition.
  •	 accelerate Afghanistan’s capacity to manage economic policy.
  •	 foster regional economic integration and private-sector investment.
  •	 support a long-term foundation for sustainable economic growth led by the
     private sector.
     In the medium term, as donor aid diminishes, the United States advocates
  poverty reduction policies, inclusive development projects, and efforts to expand
  the private sector. These short- and medium-term strategies are designed to
  make tangible progress toward the long-term U.S. strategy—the New Silk Road




                     REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2012                121
                                                                ECONOMIC AND SOCIAL DEVELOPMENT




                                                                vision—which seeks greater regional economic integration between Afghanistan
                                                                and its neighbors, including the free movement of goods, services, capital, and
                                                                people. 325

                                                                BANKING AND FINANCE
                                                                This quarter, two major issues came to the forefront—the alarming levels of
                                                                capital flight, and the rise in counterfeit Afghani banknotes and the conse-
    SIGAR AUDIT                                                 quent increased amount of foreign currency in circulation. On a positive note,
    In its audit of U.S. efforts to improve the                 the Afghan government continued to enhance regional banking and economic
    capacity of the Afghan government to                        integration.
    regulate the financial sector, SIGAR iden-                     In March, media reports stated that the central bank found that $4.6 billion in
    tified the challenges facing anti-corrup-                   cash was carried out through Kabul International Airport in 2011—twice as much
    tion efforts. For details, see SIGAR Audit                  as in 2010 and almost equal to the Afghan government’s core operating 2010–2011
    11-13, “Limited Interagency Coordina-                       budget of $4.8 billion. 326 The true amount leaving the country may be higher,
    tion and Insufficient Controls over U.S.                    given the Afghan government’s limited capacity to seal or monitor its porous
    Funds in Afghanistan Hamper U.S. Efforts                    borders. Treasury confirmed that in response, the governor of the central bank
    To Develop the Afghan Financial Sector                      announced a $20,000 limit on international transfers of cash; greater amounts
    and Safeguard U.S. Cash” (available at                      must be transferred through formal banks by electronic funds transfer. Treasury
    www.sigar.mil).                                             explained that cash outflows are supposed to be recorded on declaration forms,
                                                                but compliance and enforcement are limited. The problem is exacerbated by
                                                                individuals who depart through the airport’s VIP lounge, where the reporting
                                                                requirements are not enforced. Treasury questioned whether the new rules will
                                                                be enforced any better than the previous requirements. 327
                                                                   The Institute for War and Peace Reporting (IWPR), a non-partisan, non-profit
                                                                international NGO, noted that counterfeiting was disrupting the money market
                                                                and driving merchants to expand their use of more stable, foreign currency.
                                                                Perpetrators are now creating counterfeit currency in higher denominations and
                                                                of better quality than in previous years. Economists warn that the increased vol-
                                                                ume of currency in circulation could spur inflation, according to IWPR. 328
                                                                   On March 12, Afghanistan took another step toward regional banking and
Definition                                                      economic integration by agreeing to become a full member of the Economic
                                                                Cooperation Organization Trade and Development Bank (ETDB), headquartered
                                                                in Istanbul. Formal approval of membership is pending Afghan ratification of
  Multilateral development bank:                                the agreement. 329 Established in 2005 by Iran, Pakistan, and Turkey, the ETDB
  International financial institution that
                                                                is a multilateral development bank that seeks to finance sustainable regional
  promotes economic and social prog-
                                                                development programs/projects through direct funding and through international
  ress in member developing countries by
  providing financial and technical sup-
                                                                capital markets. 330 At press time, it remained unclear how U.S. sanctions on
  port to strengthen economic growth and                        Iranian-affiliated banking institutions will affect Afghanistan’s ratification of the
  government institutions, encourage entre-                     agreement and ETDB funding of its Afghan development programs.
  preneurship, and reduce poverty.
                                                                Recapitalization of DAB
                                                                As reported in SIGAR’s January 2012 quarterly report, efforts are under way to
Sources: Treasury, Resource Center, “Multilateral Development
Banks,” 3/22/2011, accessed 3/21/2012; Export.gov,              recapitalize the central bank—Da Afghanistan Bank (DAB)—which helped stave
Trade Leads, “Multilateral Development Banks,” 2/19/2009,
accessed 3/21/2012.                                             off a full-blown financial crisis by covering $935 million in losses stemming from




                                                                 122                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  the Kabul Bank scandal. 331 As a precondition to the ECF agreement with the
  IMF, the lower house of the National Assembly approved an initial tranche of
  $51 million to DAB in October 2011. No additional disbursements have been
  made since, according to DoS. 332 Treasury stated that it expects future alloca-
  tions to be decided and authorized annually, most likely as part of the budget
  process. 333
     This quarter, DAB and the Ministry of Finance (MoF) worked on a recapital-
  ization agreement with the assistance of the IMF, leading to a signed MOU. The
  details had not been made public at press time, but the IMF is in discussions with
  both parties to refine the recapitalization framework. The IMF attributed the
  delay of a final agreement to unspecified capacity limitations at DAB, according
  to DoS. 334 The IMF continued to monitor DAB’s progress in implementing the
  reforms required of it under the ECF. Treasury considers DAB technically able
  to fulfill its obligations and was not aware of any significant delays by DAB that
  would defer the program’s first review, which the IMF tentatively plans to present
  to the Board in late June, pending completion of prior actions. It should be noted
  that the ECF agreement also includes several other structural requirements for
  reform that are outside the realm and authority of DAB as outlined in SIGAR’s
  January 2012 quarterly report, which could affect IMF review timelines. 335

  Kabul Bank
  In pursuit of a more aggressive prosecution strategy, President Hamid Karzai met
  with senior government officials on April 3 to discuss the Kabul Bank, includ-
  ing the progress made recovering loans. They decided to establish a Special
  Prosecutor’s Office and a Special Tribunal to investigate and prosecute those
  involved in economic crimes at Kabul Bank. They also set a two-month deadline
  for the full repayment of any loans obtained illegally. 336
     This quarter, there were no prosecutions for economic crimes committed
  at Kabul Bank. According to DAB, Kabul Bank’s founder and its former chief
  executive officer remain in custody in Kabul, where they are released periodi-
  cally during the day under close supervision to assist in asset recovery. This is
  contrary to widely circulated news reports that the two are free during the day
  and reside in their homes at night. Treasury had no direct knowledge to contra-
  dict these press reports. Furthermore, it is unclear what type of cooperation the
  Afghan government is getting. The DAB Governor has pointed to the properties
  in Dubai that the central bank has recovered for liquidation as evidence of the
  two men’s cooperation. According to DoS, however, the levels of cooperation
  are mixed. Of note, the two are still listed as principals on the Kabul Bank/New
  Kabul Bank website. 337
     One aim of the IMF’s ECF agreement signed in November 2011 is to “achieve
  maximum recovery of Kabul Bank losses.” 338 Since then, however, asset recov-
  ery has been limited. DoS stated that DAB had recovered more than $5 million
  in cash this quarter, for a total of $41 million at press time. Last quarter, SIGAR
  reported that the Afghan government recovered $153 million in assets available




              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       123
ECONOMIC AND SOCIAL DEVELOPMENT




for sale (out of $483 million the government expects to eventually recover), but
the IMF does not consider recoveries of non-cash assets until liquidation. No
new repayment agreements were reached with shareholders this quarter. 339 The
number of repayment agreements remains at 21 signed agreements valued
at $270 million ($232 million of which is in pledged collateral), as reported in
SIGAR’s January 2012 quarterly report.
    It is unclear if this limited pace of prosecutions and asset recoveries will affect
the timing of the IMF’s first review of the ECF, given that stepped-up asset recov-
ery was a precondition for the program’s initial approval and is required in order
to bring the first review to the IMF Executive Board. 340 When the Afghan govern-
ment representatives signed the ECF, they announced only their intention to
enforce Afghan laws, hold those responsible for economic crimes accountable,
and compel repayment. According to DoS, no further details were ever provided;
however, it said the Afghan government plans to use the forensic audit of Kabul
Bank to help inform its legal recourse. 341 According to Treasury, the Afghan gov-
ernment’s stated reason for not yet pursuing individual prosecutions aggressively
is to induce cooperation for repayment agreements. 342

New Kabul Bank
After the Kabul Bank scandal, the bank was split into two entities. The bad
assets were put into receivership, which is overseen by the Financial Dispute
Resolution Commission. The good assets, loans, and deposits were put into a
“bridge bank” called New Kabul Bank (NKB), which cannot extend new loans
(avoiding the risk of a bad loan portfolio). Under the IMF’s ECF program, NKB
was required to help reduce operating losses by closing 20 branches by March 31,
2012, which Treasury and DoS noted has happened. 343
   The MoF plans to sell NKB to private investors by June 30, 2012, and the
government is currently looking for a privatization advisor. Because the bank
cannot extend new loans, it must manage its assets conservatively, causing it to
continue suffering modest operating losses before any sale. It is also possible
that additional or continuing cases of corruption may be revealed in the forensic
audit of Kabul Bank. Treasury was uncertain whether the audit report will be a
public document or if these issues will inhibit a successful sale of the bank. If a
buyer is not found, NKB will be liquidated by March 2013. Treasury stated that no
modifications have yet been made to that timeline. 344

Financial Audits
As noted last quarter, the Kabul Bank scandal triggered a series of World Bank-
funded audits of the banking sector. According to DoS, the Kabul Bank forensic
audit was completed by the March 31 deadline; the Afghan government will use
the results to advance legal proceedings against those accused of fraud. The pru-
dential audits of 10 unidentified Afghan commercial banks continued this quarter,
but it is unclear if any were completed by the government’s deadline of March 31.
Without these results or the identities of the 10 banks, it remains difficult—if not




 124                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  impossible—to assess the commercial banking sector’s stability as a whole. At
  press time, no detailed updates on any audit result were available. 345
      On a related issue, the government has formed a working group to produce
  a strategic road map for building institutional capacity and frameworks so that
  it can respond better and more quickly to financial crimes, according to DoS.
  In addition, a National Steering Committee is to be established by May 2012 to
  supervise and direct financial reporting and auditing reforms of the financial
  sector. 346

  Mobile Money
  As noted in previous SIGAR quarterly reports, “mobile money” is the use of cell           “In Afghanistan, officials
  phones to store currency, pay for goods, and receive and transfer funds. Because
  more than half of Afghan households own a mobile phone, U.S. agencies con-
                                                                                            have cut down markedly
  tinued to encourage greater access to mobile money services as a way to spur              on corruption by paying
  economic growth and reduce corruption.                                                    members of the national
     As part of its effort to promote women’s active participation in the economy,           police force by mobile
  the U.S. Agency for International Development (USAID) sponsored a partner-
                                                                                           phone instead of by cash.”
  ship program this quarter between the agency, mobile phone carrier Etisalat,
  and the Ministry of Women’s Affairs to support gender equality through the use                              —U.S. Secretary of State
  of mobile money technology. The program will offer business training oppor-                                         Hillary Clinton
  tunities for Afghan women, complemented by prenatal and daycare centers, an
                                                                                          Source: DoS, “Secretary of State Clinton Delivers Remarks at
  emergency hotline, and health services—including vaccination and immunization           the Transparency International-USA’s Annual Integrity Award
                                                                                          Dinner, as Released by the State Department,” 3/22/2012,
  programs. 347                                                                           accessed 3/26/2012.

     This quarter, Etisalat announced a partnership with the national power utility,
  Da Afghanistan Breshna Sherkat (DABS), to provide mobile phone bill payment
  options to the utility’s 300,000 customers in Kabul. Previously, bill payment
  options were limited to either DABS offices or select bank branches. Through
  this partnership, customers can pay their power bill at Etisalat shops or autho-
  rized distributors. 348
     In addition, Roshan and Western Union announced a partnership to pro-
  vide international money remittances directly to their mobile phones through
  Roshan’s M-Paisa service. M-Paisa allows customers to transfer money, pay bills,
  receive and pay loans, and purchase airtime from their mobile phones. Through
  Western Union, customers will soon be able to receive money transfers from
  abroad. Afghanistan is only the ninth country in which Western Union offers this
  service. 349

  AGRICULTURE
  As noted in previous quarterly reports, agriculture plays a dominant role in the
  Afghan economy. Because an estimated 75% of Afghans directly and indirectly earn
  a living from agriculture, it can be a catalyst for GDP growth, improved food secu-
  rity, and more stable employment opportunities. 350 The United States is helping
  to improve the sector by providing vouchers and technical assistance to farmers;
  equipment, facilities, and training to strengthen agribusiness and other agricultural




              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012         125
ECONOMIC AND SOCIAL DEVELOPMENT




subsectors; and training to enhance the government’s capacity to build, maintain,
and effectively distribute strategic food reserves to vulnerable Afghans.

Food Prices
The World Food Programme (WFP) reported that prices for wheat and cooking
oil in Afghanistan’s major cities were higher in February 2012 than in February
2011, but the price of wheat flour dropped. The price of wheat increased by 9.6%,
cooking oil rose by 3.7%, and wheat flour decreased by 4%. 351

Drought and Food Security
Since 2002, Afghanistan has faced repeated natural disasters, causing substantial
humanitarian crises. Floods, landslides, earthquakes, avalanches, and drought
affect an average of 400,000 Afghans every year, according to USAID. Since 2000,
Afghanistan has suffered eight serious droughts. In 2011, a drought affected
approximately 2.4 million people in 14 provinces in the northern, northeastern,
and western parts of the country. The winter of 2011/2012 was the most severe
since 1996. Avalanches struck villages in Badakhshan, Nuristan, and Parwan this
quarter, resulting in approximately 60 deaths and affecting hundreds of people. 352
   This quarter, the WFP continued distributing food to Afghans in need. The
WFP estimates that almost 7.6 million Afghans will need assistance in 2012,
requiring more than 346,000 metric tonnes of food and costing approximately
$488 million. 353 In a 2010 quarterly report, SIGAR cited an estimated population
of 29.1 million. Current estimates range from 25 to 35 million. 354 There
has been no census in Afghanistan since 1979, as noted in previous SIGAR
quarterly reports.
   USAID’s Office of Food for Peace helps the WFP and international NGOs
based in the United States to reach the most vulnerable Afghans and help reduce
food insecurity caused, in part, by natural disasters and the high number of inter-
nally displaced persons. Last quarter, USAID provided $40 million to the WFP
to purchase 33,900 metric tonnes of wheat and 600 metric tonnes of high-energy
biscuits. As of March 26, in FY 2012 USAID had already provided $40.6 million
to WFP to purchase approximately 31,270 metric tonnes of food commodities.
(The total FY 2011 contribution by the Office of Food for Peace to the WFP
and international NGOs for Afghan food security initiatives was 109,150 metric
tonnes of food, costing almost $168 million.) In addition, USAID awarded Save
the Children more than $5 million this quarter to use cash-for-work incentives
to support an estimated 30,870 beneficiaries in 4,410 households in Faryab and
Sar-e Pul provinces. 355
   Questions persist about the ability of the Ministry of Agriculture, Irrigation, and
Livestock (MAIL) to adequately handle the stockpiling and distribution of food
reserves. Afghanistan has only four food silos—in Kabul, Mazar, Pul-e Khomri, and
Herat. The Kabul, Mazar, and Pul-e Khomri silos can hold 40,000 metric tonnes
of wheat in bulk, and the Herat silo can hold 20,000. According to USAID, the old
silo equipment hinders operational capacity, which affects intake and outflow,




 126                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  the quality of cleaning, and grain monitoring. To address some of these deficien-
  cies, the WFP is designing and constructing warehousing, storage, and associated
  facilities through the MAIL’s Strategic Grain Reserve Project. In addition, a joint
  program of the World Bank and Japan is scheduled to refurbish the four silos. 356

  U.S. Development Programs
  As part of its Agriculture Development Assistance Project, the Task Force for
  Business and Stability Operations (TFBSO) works with the Norman Borlaug
  Institute of International Agriculture and others to strengthen the agribusiness,
  processing, livestock, crop, and horticulture sub-sectors of the agriculture indus-
  try. As of March 30, the team had completed more than 200 in-field missions for
  data gathering, assessments, and consultations. 357
      The TFBSO’s FY 2012 agriculture project is the Food Safety and Inspection
  Initiative. It is intended to open up export markets to Afghan farmers by help-
  ing them improve the quality of their produce in order to meet international
  standards. The project provides food safety advisory services for farmers in
  Helmand, for a produce-packing house in Marjah, for grape and raisin farmers
  in Kandahar, and for potato farmers in Bamyan. Some FY 2011 funds ($717,000)
  continue to be used for training and proof-of-concept demonstration plots to
  showcase harvesting and drying techniques in Kandahar and hygiene standards
  in Bamyan. For FY 2012, $636,000 is budgeted for training and advisory services
  in Helmand. 358
      In FY 2011, the TFBSO funded four other ongoing agriculture projects:
   •	 Herat University College of Agriculture Building: The TFBSO is over-
      seeing a private donation to complete the construction of a building for the
      agriculture and agribusiness faculty and more than 2,000 students. It will
      contain classrooms, laboratories, and scientific equipment. Construction is
      on schedule; the expected completion date is October 2012. 359
   •	 Nangarhar University Agricultural Faculty Building: The TFBSO is
      managing the construction of and providing $464,000 for training equipment
      for an agriculture school on the campus of Nangarhar University. With the
      availability of laboratory facilities, students will be trained in basic analytic
      and diagnostic capabilities, and faculty will be trained in plant protection,
      horticulture, agronomy, animal husbandry, and mechanized agriculture. The
      building will accommodate more than 1,800 students and 7 departments,
      including the new food technology and forestry departments. It is scheduled
      to be completed in mid-2012. 360
   •	 Herat Women’s Food Processing Centers: The TFBSO built sanitary food
      processing centers for two women-owned cooperatives and is providing one
      year of training to increase the safety and marketability of locally produced
      preserves. One facility is in Rabat Sange village (Injil District); the other is in
      Karabad village (Guzara District). Construction is complete, and equipment
      is installed. The training includes food safety, preservation techniques, and
      product marketing; it will conclude in August 2012. 361




               REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012          127
                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                            •	 Herat Quality Control Laboratory Equipment for DAIL and Herat
                                               University: The TFBSO is building and equipping a quality control research/
                                               testing facility for wheat and cereal grains, which will be sustained by
                                               TFBSO-trained DAIL technicians to provide standardization and feedback on
                                               growing practices to local wheat farmers. Herati wheat is a low-value, low-
                                               nutritional crop because of poor growing practices involving over-irrigation,
                                               driving consumers to higher quality imports. The TFBSO will also provide
                                               equipment grants in support of eight agribusiness research projects at Herat
                                               University. The combined cost for both endeavors is $550,000. Equipment
                                               began arriving in Herat in January 2012. 362

                                            ESSENTIAL SERVICES
                                            As noted in previous quarterly reports, improving the government’s ability to
                                            deliver public services will help contribute to long-term stability and sustain-
                                            able economic growth. Therefore, the United States is prioritizing its assistance
                                            programs in essential areas that will best mitigate the economic impact of the
                                            transition. This section addresses key developments in U.S. efforts to improve
                                            government capacity and services.

SIGAR AUDIT                                 Energy
                                            Electricity supply is a high priority for Afghanistan. 363 This quarter, the United
In an ongoing audit, SIGAR is evaluating    States continued to focus on power sector reform. USAID collaborated with the
the implementation of the Afghanistan       government to help forge regional transmission agreements as well as design,
Infrastructure Program, including project   build, or modernize the country’s energy systems and infrastructure. These
selection, outcomes, and fulfillment of     efforts were intended to improve low-cost energy generation, expand outflow,
legislative requirements. For more infor-   increase revenues, reduce losses, and build capacity. In addition, the TFBSO
mation, see Section 2, page 27.             helped the Afghan government capitalize on its vast hydrocarbons resources by
                                            assisting with the execution of a tender award and the offering of a new explora-
                                            tion tender.

                                            Power Transmission, Expansion, and Connectivity Program
                                            The Power Transmission, Expansion, and Connectivity Program (PTEC) is a
                                            U.S.-funded program designed in collaboration with the Ministry of Finance, the
                                            Ministry of Energy and Water, and Da Afghanistan Breshna Sherkat (DABS)—the
                                            national electric utility—to modernize the power generation, transmission, and
                                            distribution systems. 364 It directly supports the National Energy Supply Program
                                            of the Afghanistan National Development Strategy, which calls for improving
                                            the collection rate and increasing the supply of power. According to USAID,
                                            the PTEC is also the top energy priority on the Ministry of Finance’s top 10 list
                                            of infrastructure priorities. 365 The cost of the PTEC was reduced from almost
                                            $1.3 billion to $665 million because of budget constraints, a reduced scope of
                                            work, and revised cost estimates. 366 According to USAID, the PTEC addresses
                                            critical energy needs. USAID made efforts to ensure that all components—on-
                                            budget assistance, the electricity commercialization program, and the energy




                                             128                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  capacity-building program—have been closely coordinated with the government
  and other major donors. Success depends on the PTEC’s integrated approach,
  it noted. The PTEC supports four program objectives that contribute to sustain-
  able, Afghan-owned electricity services for the nation: 367
   •	 improved energy sector governance through strengthened corporate gover-
      nance, better management and effectiveness in DABS, improved capacity
      of the Ministry of Energy and Water, and tailored curriculums at Afghan
      universities
   •	 commercialization of DABS so it can be financially viable and self-sustaining
   •	 modernized critical infrastructure to reduce dependence on unsustainable,
      diesel-fueled generation and to enable effective management of the national grid
   •	 creation of Afghan-led operations and maintenance capacity in the energy
      sector
      According to USAID, if the PTEC helps DABS become commercially viable,
  that will likely help create private-sector jobs and spur economic growth
  through reliable, sustainable, and low-cost power generation. USAID anticipates
  that PTEC activities will use local resources and labor pools to implement the
  program, and provide new skills training that workers can apply in the public
  and private sectors. USAID envisions that the PTEC will lead to a number of
  benefits: 368
   •	 increased revenue.
   •	 greater efficiency and capacity.
   •	 improved governance through improved capacity at the Ministry of Energy
      and Water.
   •	 regional economic integration through the support of PTEC on-budget
      activities.
   •	 food security through low-cost power, which facilitates the production,
      transport, processing, storage, and preparation of food.
   •	 an elevated societal role for women through the provision of opportunities
      for greater social, political, and economic participation.

  Major Power Networks
  Connecting the Northeast Power System (NEPS) to the Southeast Power System
  (SEPS) is one of USAID’s proposed PTEC projects to be funded with on-budget
  assistance. It calls for the construction of 490 km of 220-kilovolt transmission
  lines from Kabul-South to Kandahar to connect the NEPS and the SEPS into a
  unified grid along the eastern ring road corridor. The transmission line for Kabul-
  South to Ghazni is funded by $101 million from the Afghanistan Infrastructure
  Fund. The line from Ghazni to Kandahar is estimated to cost $294 million and is
  planned to be funded through the Economic Support Fund, although as of March
  26 no money had been obligated, and no contracts had been let. 369
     Power in cities south of Kabul is limited; it is produced, in part, through high-
  cost diesel generators. Substations will be provided at all major cities along the
  transmission line alignment, and distribution will be included to provide low-cost




              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        129
ECONOMIC AND SOCIAL DEVELOPMENT




grid power and displace high-cost diesel generated power. The line will have a
single circuit capable of transmitting 150 MW that will provide the backbone for
power delivery south of Kabul through 2018. A second circuit may be added to
expand the capacity to 300 MW as additional power supplies become available.
Delivery of NEPS grid power to the SEPS has been identified as a national prior-
ity, allowing the government to extend service to the underserved and unserved
areas in Wardak, Ghazni, Zabul, and Kandahar. 370

Kajaki Dam
USAID is working with DABS and the U.S. Army Corps of Engineers (USACE) to
deliver a reliable and improved energy supply to Kandahar and Helmand provinces
through the Kandahar Helmand Power Project (KHPP). Budgeted at $266 million,
the KHPP comprises six integrated components, one of which is the installation
of the long-delayed Unit 2 turbine at the Kajaki Hydropower Plant, which will add
another 16 MW of power to the SEPS, at an estimated cost of $85 million. 371
   This quarter, USAID issued a notice to proceed with the installation of Kajaki
Unit 2. As of March 30, contract and budget requirements were being finalized,
but progress faces several challenges: 372
•	 Multiple shipments are held up at the Afghanistan-Pakistan border, causing
    delays and cost increases.
•	 The handover of security for the dam to the APPF has not been finalized.
•	 Waivers from the Kandahar authorities for six up-armored vehicles for per-
    sonnel protection have not yet been granted.
•	 Tribal support and protection must be obtained for construction at the dam.

Other Regional Transmission Agreements
As discussed in previous SIGAR quarterly reports, the Turkmenistan-
Afghanistan-Pakistan-India (TAPI) pipeline project is designed to deliver gas
from Turkmenistan through Afghanistan to Pakistan and India.
   If fully realized, TAPI could bring a much-needed source of transit revenue
to Afghanistan, promote regional integration, and improve energy security.
However, the project has been hampered by pricing disagreements, the absence
of a commercial framework, and the need for international financing and tech-
nical assistance. According to DoS, the United States remains engaged with all
parties to resolve these challenges. 373
   This quarter, DoS continued to emphasize the need to involve an international
oil company to help develop a business plan that would make the pipeline eco-
nomically viable. Citing unconfirmed press reports, DoS stated that preliminary
pricing agreements may have been reached between Turkmenistan, Pakistan,
and India, and that final agreements could be signed at the next ministerial-level
TAPI Steering Committee meeting. Other reports suggested that India is attempt-
ing to re-open negotiations. According to DoS, the United States continues to
support pricing agreement negotiations. 374




 130               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Public Utilities
  Since 2009, USAID has been working with DABS-Kabul to improve revenue
  collection and reduce losses. In 2010, USAID embarked on a similar but less
  successful initiative with DABS-Kandahar. The initial impediment was a lack of
  adequate metering and customer information systems. Without these systems,
  it is difficult to calculate technical and commercial losses; however, USAID
  estimated losses between 60 and 80%. If these losses are not reduced, USAID has
  concluded that donor investments in DABS-Kandahar are unlikely to be sustain-
  able. 375 The goals of the ongoing DABS-Kandahar commercialization project are
  to increase revenue and to improve capacity and sustainability. USAID has initi-
  ated several efforts to improve billing and collections processes: 376
   •	 computerized billing.
   •	 customer verification.
   •	 revenue management.
   •	 finance management.
   •	 customer care, through a new customer call center.
   •	 customer cash receipting.
   •	 bills delivered to customers by cell phone.
     From February to August 2011, when customer bills were first printed, DABS-
  Kandahar found evidence of meter reader collusion, ineffective meter reading
  procedures, and meter tampering. To improve collections, USAID supported a radio
  campaign to notify customers of new billing and payment procedures and a new
  customer call center to improve community relations and resolve complaints. 377
     USAID’s recommended goal for DABS-Kandahar is to reduce commercial and
  technical losses to no more than 20% and increase collection rates to 90%. To
  reduce commercial losses, DABS-Kandahar is terminating illegal electricity con-
  nections, saving $20,000 as of March 26, and further disconnections are planned.
  Technical losses are estimated to be at least 50%, according to USAID. By the end
  of last quarter, bulk transformer meters were to be installed in large sections of
  Kandahar City, so that those readings could be compared with customer readings
  to determine whether the transformer is sized adequately for the distribution
  requirements. The efficiency gained is expected to increase the volume of elec-
  tricity delivered to customers. 378

  Tenders
  The objective of the TFBSO energy team is to help the Afghan government,
  the private sector, and U.S. agencies to provide access to affordable electric-
  ity and fuel. It is doing this, in part, by continuing to support the Ministry of
  Mines’ (MoM) capitalization of oil and gas resources. 379 According to the MoM,
  Afghanistan has substantial hydrocarbon resources. It estimates that reserves
  and undiscovered but technically recoverable resources amount to 500 million to
  2 billion barrels of oil equivalent in two areas in the north—the Amu Darya Basin
  and the Afghan-Tajik Basin. 380




              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012      131
ECONOMIC AND SOCIAL DEVELOPMENT




   As SIGAR noted in its January 2012 quarterly report, the MoM awarded China
National Petroleum Corporation International-Watan (CNPCIW) the rights to
develop three blocks in the Amu Darya Basin in December 2011. This quarter,
CNPCIW is performing field assessments and tendering for services and has com-
mitted to produce at least 150,000 barrels in 2012. 381 The TFBSO, which is helping
develop and execute the Amu Darya Basin oil tender, values the contract at
$7.1 billion over 25 years. As of the end of December 2011, the TFBSO reported
that the Ministry of Finance had received $1.3 million from this tender and
an additional $11 million of investment by CNPCIW. 382 SIGAR’s January 2012
quarterly report noted that the MoM estimates that there are 80 million barrels of
crude oil in the Amu Darya Basin, plus potentially 80 million additional barrels in
yet-to-be-discovered reserves.
   On March 7, the MoM opened a tender for the exploration, development, and
production of hydrocarbons in six blocks in the western portion of the Afghan‐
Tajik Basin of northern Afghanistan. The TFBSO, which conducted seismic data
collection and analysis for the tender, estimates that there are between 700 and
900 million barrels in reserves in the Afghan-Tajik Basin, although no value has
been announced. 383 Expressions of interest are due on June 30, 2012, and bids
are due in late October 2012. The ministry expects to announce winners in late
2012 and to award contracts in early 2013. The following six areas and estimated
block sizes are being offered: 384
•	 Ahmadabad: 1,855 km2.
•	 Balkh: 1,861 km2.
•	 Mazar‐i Sharif: 2,715 km2 .
•	 Mohammed Jan Dagar: 3,603 km2.
•	 Sanduqli: 2,583 km2.
•	 Shamar 2,143 km2.

U.S. Assistance
This quarter, the TFBSO continued helping the Ministry for Rural Rehabilitation
and Development develop rural energy solutions. SIGAR’s January 2012 quarterly
report noted the TFBSO’s assistance in helping complete the rehabilitation of the
Tira Koh micro-hydroelectric power plant in Parwan province and the restoration of
the Shah Delir site across the river, which is nearing completion. After Shah Delir is
fully restored, it will be connected to Tira Koh, creating a mini-grid system that will
generate more dependable power and efficient water usage for both villages. 385

Health
A joint report by the Afghan government and the World Bank released this quar-
ter stated that Afghan children have one of the world’s highest rates of chronic
malnutrition: 54% under the age of five are stunted, and 34% are underweight. In
that age group, 72% are deficient in key micro-nutrients such as iron and iodine.
Furthermore, 29% of the general population is calorie-deficient, consuming less
than 2,100 calories daily, and 20% suffer from a poor diet with inadequate variety.




 132                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  These problems become more acute during lean harvest seasons and periods of
  greater food insecurity. 386
     According to the Ministry of Public Health, the World Health Organization
  (WHO) estimates that about 10,000 Afghans die each year from tuberculosis
  (TB). The Minister of Public Health noted the link between TB and poverty,
  malnutrition, stress, and disorders associated with the lack of security. The WHO
  representative to Afghanistan emphasized that TB is a preventable disease and
  that every child who dies from TB can be saved with a “daily 3-cent pill.” 387
     This quarter, the WHO released these statistics on TB in Afghanistan in 2011: 388
  •	 10,500 deaths from TB were recorded.                                                An Afghan mother worries as a child lies
  •	 53,000 new cases of TB are diagnosed each year.                                     on a bed in the tuberculosis ward of Herat
                                                                                         Hospital. About 10,000 Afghans die annu-
  •	 66% of patients with TB are women; 10% are children.
                                                                                         ally from this preventable disease. (UNAMA
  •	 1,197 health facilities provided TB control services in 2011, compared with 10      photo, Fraidoon Poya)
     in 2000.
  •	 242,347 TB cases were treated from 2001 to 2011.
  •	 97% of Afghans had access to Directly Observed Treatment Short (DOTS)
     Program facilities, compared with 14% in 2000.

  Regional Meetings
  A key goal of the U.S. reconstruction strategy in Afghanistan is to promote
  greater regional economic integration through the New Silk Road initiative. This
  quarter, Afghanistan participated in a number of regional meetings to improve
  trade relations and increase economic cooperation:
  •	 Afghanistan and Iran signed a memorandum of understanding (MOU) on
     January 30 to increase economic cooperation and improve trade relations.
     The MOU included establishing an Afghan road transport office and trading
     area at Iran’s Chabahar port. 389
  •	 President Hamid Karzai and Pakistan’s Minister of State for Foreign Affairs
     met in Kabul on February 1 to discuss enhancing bilateral cooperation,
     including security, development, and trade. 390
  •	 At a meeting with regional ambassadors on February 5, Afghan officials cir-
     culated a concept paper with 12 confidence-building measures for economic,
     educational, and cultural regional integration. A follow-up ministerial-level
     meeting is scheduled for June. 391
  •	 Afghanistan, Pakistan, and Iran held a trilateral summit in Islamabad
     February 16–18, to enhance cooperation on economic, trade, infrastructure,
     and energy issues, as well as security and counter-narcotics. 392
  •	 The Afghan-Russia Joint Economic Commission in Moscow on March 1–2
     discussed economic cooperation initiatives and agreed on several infrastruc-
     ture and education projects. 393
  •	 The presidents of Afghanistan, Iran, and Tajikistan met on March 25 in
     Dushanbe to discuss regional economic cooperation opportunities, conclud-
     ing with a signed MOU that called for the construction of railways, power
     transfer mechanisms (oil, gas, and electricity), and a water transmission
     line to supply water from Tajikistan to Iran through Afghanistan. It outlined



              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012        133
ECONOMIC AND SOCIAL DEVELOPMENT




   expectations for the three countries to meet within two months to work out
   implementation details. 394
•	 An Indian delegation from the Ministry of Steel visited Kabul April 9–10. The
   Afghan Minister of Mines and the Indian Minister of Steel signed a MOU to
   build Afghan iron and steel sector capacity, encourage Indian investment,
   and promote economic cooperation. 395


Regional Agreement Updates
As noted in the January 2012 quarterly report, the eighth meeting of the Joint
Economic Commission between Afghanistan and Pakistan was held on
January 17 in Islamabad. In addition to discussing transit and bilateral trade
issues, the Afghan delegation sought the release of 700 shipping containers held
up in Pakistani ports. Pakistan committed to resolving the issue within 7 to
10 days; the MoF confirmed that an average of 20 containers pass through the
Torkham border each day. 396
    Generally, economic cooperation between Afghanistan and Pakistan is
impeded by Pakistan’s unwillingness to conclude negotiations for full imple-
mentation of the Afghanistan Pakistan Transit Trade Agreement, despite U.S.
efforts to broker an agreement, according to DoS. A meeting that was tentatively
planned for January 2012 did not take place and has not been rescheduled. As a
result of this delay and Pakistan’s closure of the ground lines of communication
in response to U.S. airstrikes that killed 24 Pakistani soldiers in November 2011,
military supplies have been held up at the border, along with numerous contain-
ers of commercial goods, as well as diplomatic, humanitarian, and development
supplies. 397
    In search of alternative transit routes, Afghan traders are increasingly shift-
ing their focus to Iran—up to 40–45% of commercial cargo by one estimate.
According to DoS, Iran and Afghanistan signed an MOU in January to increase
their economic cooperation. In light of the U.S.-led sanctions against Iran, the
United States is encouraging Afghanistan to diversify its trading partners. 398
    In November 2004, Afghanistan applied for membership in the World Trade
Organization (WTO) with the goal of joining by the end of 2014. Afghanistan’s
WTO designation as a “Least Developed Country” would enable it to take advan-
tage of special provisions in WTO agreements and receive technical assistance
from the WTO Secretariat. 399 As a full member, Afghanistan would gain a number
of benefits: 400
 •	 better market access for its exports.
 •	 greater Afghan investment opportunities in other WTO-member countries.
 •	 access to international dispute settlement mediation.
 •	 the ability to help shape international agreements to its benefit.
 •	 opportunities for enhanced domestic production and international
    competitiveness.
 •	 increased foreign investment as a result of its adherence to WTO legal sys-
    tem requirements.
 •	 an improved reputation as a competent trade partner.



 134               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     According to DoS, Afghanistan’s membership in the WTO would demonstrate
  a commitment to economic and market reforms, which is essential for strength-
  ening its investment framework and enhancing economic opportunities. Part
  of the New Silk Road vision, WTO membership will also help strengthen trade
  relations with regional neighbors, such as Kazakhstan and Tajikistan, which are
  also applying to join the WTO, and with the Kyrgyz Republic, which is already a
  member. 401

  Commercial Aviation
  This quarter, Afghanistan made progress toward greater regional and interna-
  tional integration in aviation. At the second NATO-led “Tiger Team” meeting, held
  in Istanbul on February 14–16, the Minister of Transport and Civil Aviation spoke
  of the need to grow an Afghan workforce with the appropriate skill sets and
  to build the necessary infrastructure to achieve a sustainable aviation system,
  which he feels is vital to economic growth and prosperity. Because Afghanistan
  is land-locked, the minister highlighted the current difficulty of linking inacces-
  sible areas and ensuring that remote communities have access to humanitarian
  aid and basic public services. 402
      The Tiger Team discussed the road map for civil aviation in Afghanistan, an
  aviation action plan (prepared by the International Civil Aviation Organization
  [ICAO]), and the terms of reference for a coordinating group to help rehabilitate
  the aviation sector and transition authority from military to civilian control.
  The road map also seeks to build institutional training, and regulatory capacity;
  develop a dedicated revenue framework; and establish appropriate oversight
  of safety and security. According to DoS, the ministry has implemented some
  of these reforms and is in the process of implementing others. In his opening
  remarks to the Tiger Team, the minister indicated that the National Assembly had
  approved the establishment of a Civil Aviation Authority, whose main goal is to
  attain full compliance with ICAO standards and provide regulatory management
  oversight of aviation, but DoS has disputed that assertion. 403

  Progress Toward Meeting International Standards
  This quarter, the United States continued to provide training and assistance to
  support Afghanistan’s efforts to strengthen its civil aviation capacity to inter-
  national standards. Airport advisors from USAID and the Federal Aviation
  Administration (FAA) made efforts to help upgrade and refurbish regional
  airports. The U.S. Department of Transportation continued to mentor the Afghan
  Safety Board to build capacity in regulation and oversight of pilot certification
  and proficiency standards. In addition, the United States is coordinating with
  U.S. Forces - Afghanistan to initiate a three-year process to help the Afghan gov-
  ernment assume air traffic management responsibilities after 2014. 404
     In the meantime, the most pressing issue for the civil aviation sector this
  quarter, according to DoS, was the potential loss of ICAO-compliant aviation
  security at the Kabul and Kandahar international airports. The current security




              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       135
ECONOMIC AND SOCIAL DEVELOPMENT




contract, funded by the United Arab Emirates, expires on May 7, 2012; without
a new, signed contract, commercial air traffic into and out of Afghanistan would
cease on May 8. As of March 25, only one bid had been submitted. The MoF has
allocated funding for a new contract, which will be paid for partly with new pas-
senger fees. On March 29, the Ministry of Transport and Civil Aviation announced
the implementation of a passenger security fee starting August 1—$25 per flight
for international travel, and $10 per flight for domestic. 405

Regional Airport Upgrades
According to the Asian Development Bank (ADB), renovations have been
completed at four airports in northern Afghanistan—Chaghcharan, Faizabad,
Maimana, and Qalai-Naw. 406 The United States is the largest ADB shareholder,
with contributions of $8.55 billion as of April 1, 2009, the most current data avail-
able at press time. For FY 2012, the United States appropriated $106.6 million for
ADB and $100 million to its Asian Development Fund. 407 Airport improvements
included the following: 408
 •	 6.6 km of new runway.
 •	 4,800 m2 of taxiway.
 •	 21,600 m2 of apron.
 •	 1,013 m2 of new passenger terminal buildings (including furniture, water sup-
    ply, sewerage, power supply, and access for vehicles).
 •	 12.4 km of airport boundary fence, apron security fencing, and gates.
 •	 2,420 m2 of staff housing and infrastructure.
   Each airport now has a maintenance plant, fire station, control towers, and a
precision approach path indicator. The overall cost was $35.3 million, $29.1 mil-
lion of which was an ADB loan. The remainder was financed. 409
   The project originally included three additional airports and was to have been
completed in mid-2008, but insufficient bidding and deteriorating security caused
repeated delays, which resulted in an 87.2% increase in construction costs.
Despite the increased cost, the ADB noted that it improved year-round air travel
access for approximately two million people. Previously, air and road travel to
the four remote regions were limited or nonexistent. The airport enhancements
will help connect these regions to cities and economic centers and are expected
to improve the government’s delivery of services. According to the ADB project
review team, the airport renovations were the first development projects in these
regions in 30 years. 410

Mining
Although the mineral sector is seen as a significant source of long-term rev-
enue for the Afghan government, it could take 10 to 20 years to fully develop
Afghanistan’s vast deposits, shown in Figure 3.31. Moreover, no estimates or
timelines have been provided for when the government might receive any pro-
ceeds. The Aynak copper mine (awarded to China Metallurgical Group Company
in 2007) and the Hajigak iron-ore mine (awarded to Steel Authority India, Ltd in




 136                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  2011) could enter initial production by 2016, according to the NDAA-mandated
  inter-agency review this quarter, but the TFBSO points out that contract nego-
  tiations for the Hajigak mine are still ongoing. 411 The review noted that mining
  should be viewed not as a source of jobs and revenue generation but as a means
  of financing economic activities across sectors and fueling long-term growth,
  productivity, and employment. 412

  FIGURE 3.31


  MINERAL
  MINERAL AREAS
          AREAS OF
                OF INTEREST AND MINERAL
                   INTEREST AND MINERAL TENDERS
                                        TENDERS




                                                                                     UZBEKISTAN
                                                                                                                                                                        TAJIKISTAN               CHINA

                                                                                                                                                        Badakhshan: Lode Gold
                                                                                                       Takhar: Placer Gold

                        TURKMENISTAN
                                                                                              Kunduz: Celestite                       Takhar: Evaporite


                                                                                     Dudkash: Industrial Minerals                 Panjshir Valley:
                                                                                                                                  Emeralds, Silver
                                                                       Balkhab: Copper

                                                                                                                                                         Nuristan: Pegmatites, Lithium, Cesium
                                                                                                                    Baghlan: Clay-Gipsum
                                Herat: Barium, Limestone
                                                                                                 Hajigak: Iron

                                                      Nalbandon: Lead, Zinc
                                                                                    Aynak: Copper, Chromite, Cobalt
                   Hamakaar-e-Herat: Lithium                                                                                                             Ghunday Achin: Magnesite, Talc
                                                                                                   Daykundi: Tin, Tungsten
                                  Dusar-Shaida: Copper, Tin
                                                                                                                 Katawas: Gold


                               Tourmaline Tin Veins
                                                                    Kharnak-Khanjar: Mercury
                                                                                                              Zarkashan: Copper, Gold


                                                         Bakhud: Fluorite                                           Ab-e-Istade: Lithium

                                                                                            Kundalan: Copper, Gold


                                      Chakhansoor: Lithium
                                                                                                                                                PAKISTAN
      IRAN
                                                                                                                                           Mineral areas of interest as defined
                                                                                                                                           by the U.S. Geological Survey
                                                           Khanneshin: Carbonite, Rare Earths, Uranium
                                                                                                                                           Current mineral tenders
    Bukhad: Fluorite

                                                                                                                                           Awarded tenders for Hajigak and Aynak
                                                                    Chaigai Hills: Travertine, Copper, Gold



  Source: MoM, “Mineral Tenders,” accessed 4/13/2012.
  Source: MoM, “Mineral Tenders,” accessed 4/13/2012.      |E084|




                       REPORT TO THE UNITED STATES CONGRESS                     I    APRIL 30, 2012                              137
ECONOMIC AND SOCIAL DEVELOPMENT




   As noted in SIGAR’s January 2012 quarterly report, the TFBSO helped the
MoM tender five mineral exploration packages for copper, gold, and lithium.
They attracted substantial interest from businesses in 13 countries: 42 companies
had submitted expressions of interest as of March 9, 2012, and 29 companies had
submitted pre-qualification questionnaires as of March 16. The actual number
of bids received will depend on the number of bidders judged to be technically
capable during the qualification phase, which was completed in early April. 413
   According to the TFBSO, the MoM has reported that two gold mines are active
in northern Afghanistan; one is the Sadat Naderi mine, which is financed by
JP Morgan. The TFBSO also noted activity in artisanal mining efforts around the
country for gemstones, marble, chromite, and placer gold. 414

U.S. Assistance
This quarter, the MoM and the TFBSO attended two conferences on mining: 415
•	 Mining Indaba Cape Town, February 5–9.
•	 Prospectors & Developers Association of Canada Convention, Toronto,
    March 4–7.
USAID is helping the MoM gather and evaluate geological data. It is training MoM
personnel in geo-science field investigation and drilling activities, and is teaching
basic lab management, mineral analysis techniques, and quality control methods
to staff of the Afghanistan Geological Survey laboratory. In addition, USAID and
the Afghanistan Geological Survey are training MoM staff on the use of four core
sample drill rigs, which the MoM will use to provide investors with better detail
on a site’s potential. 416
   As a result, the MoM is gaining experience in data analysis and management,
so that it can verify the location and quantity of mineral deposits, evaluate and
package tenders, and manage contracts. This effort is applying international stan-
dards, to attract private sector investment, generate revenue, and improve local
economic development. 417

Extractive Industries Transparency Initiative
The stated goal of the Extractive Industries Transparency Initiative (EITI) is
to improve transparency and accountability in the extractives sector, thereby
strengthening governance. The initiative does this by verifying and publish-
ing company payments and government revenues from oil, gas, and mining. 418
Afghanistan announced its intent to implement the EITI in March 2009, became
an EITI candidate on February 10, 2010, and is required to complete validation by
August 9, 2012. 419
   According to the TFBSO, EITI membership will benefit Afghanistan by
increasing its legitimacy in the mining sector through an internationally rec-
ognized commitment to public transparency. The TFBSO told SIGAR that
Afghanistan’s candidacy bid is being completed through the World Bank and that
the application process is well under way, despite some initial delays that may
require an extension beyond the August 9 deadline. The TFBSO is not aware of
any obstacles to Afghanistan gaining membership. 420



 138                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  MoM Mines Protection Unit
  The Afghan government is responsible for security at its mining operations. The
  Mines Protection Unit (MPU) was established specifically to safeguard the coun-
  try’s mineral deposits. According to the MoM, 1,500 MPU personnel are deployed
  around the Aynak copper mine, where there have been no security incidents
  since it was established in 2007. The government plans to increase the total
  number of MPU personnel to 7,000 to provide security to all current and future
  mining projects. 421

  Government Transparency
  According to the TFBSO, the Minister of Mines and his senior staff understand
  the economic potential of Afghanistan’s mineral wealth and have been effective
  at promoting the country’s mineral tenders. The TFBSO added that the MoM is
  actively developing the skills to be able to effectively and transparently manage
  the mining sector. The MoM will need to grow as the sector grows and establish
  consistent tender processes. For the four gold and copper mineral exploration
  packages that the TFBSO helped introduce last quarter at the London Mines and
  Money Conference, expert industry advisors were hired to help the MoM expand
  its capabilities. 422

  Communications
  At a signing ceremony at the Ministry of Communications & Information
  Technology (MCIT) on March 19, Etisalat Afghanistan announced the launch
  of its 3G services. The carrier will offer video calling and chatting, high-speed
  voice and data transfer, and advanced Internet broadband connectivity. 423 The
  MCIT Minister said that 3G technology is a key factor for Afghanistan’s economic
  growth and will accelerate development in education, health, and commerce
  through enhanced speed and connectivity. Etisalat paid $35 million for its
  3G license, and the MCIT Minister estimated that the government will receive
  $100 million in future revenue after additional 3G license agreements are signed
  with other telecommunication companies. 424
     This quarter, the MCIT decided to license its International Telecommunication
  Union–allotted satellite slot at 50 degrees east longitude through an international
  competitive tender to be administered by the Afghanistan Telecom Regulatory
  Authority. The purpose of the expression of interest is to support private and
  public telecommunications services. The expression of interest deadline was
  March 18, and the MCIT announced it would invite qualified submissions to make
  formal proposals within 30 days. 425




              REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       139
                                                            ENDNOTES




313. 	 See Appendix B.
314. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),” p. 1,
       accessed 3/20/2012.
315. 	 DoS, “Status Report: Afghanistan and Pakistan Civilian Engagement,” 11/2011, p. 9, accessed 3/20/2012.
316. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),” p. 1,
       accessed 3/20/2012.
317. 	 Treasury, response to SIGAR data call, 12/30/2011.
318. 	 World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011, accessed 12/21/2011.
319. 	 DoS, response to SIGAR data call, 3/30/2012.
320. 	 DoS, response to SIGAR data call, 3/30/2012; World Bank, “Transition in Afghanistan Looking Beyond 2014,” 11/21/2011, accessed 12/21/2011;
       NATO, “NATO and Afghanistan: Through Transition and Beyond,” 3/19/2012, accessed 4/9/2012.
321. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),”
       accessed 4/11/2012.
322. 	 Treasury, response to SIGAR data call, 3/29/2012.
323. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),”
       accessed 4/11/2012.
324. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),”
       accessed 4/11/2012.
325. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),”
       accessed 4/11/2012.
326. 	 Financial Times, “Afghanistan Acts to Curb Flight of Capital,” 3/18/2012, accessed 4/4/2012; Wall St. Journal, “Afghan Central Bank Targets
       Cash Flight,” 2/22/2012, accessed 4/18/2012.
327. 	 Treasury, response to SIGAR data call, 3/29/2012.
328. 	 IWPR, “Afghans Alarmed at Spread of Fake Banknotes,” 3/2/2012, accessed 4/4/2012.
329. 	 ETDB, “The Islamic Republic of Afghanistan Has Signed the Articles of Agreement Establishing the ECO Trade and Development Bank in
       Order To Become a Member of the Bank,” 3/12/2012, accessed 3/20/2012.
330. 	 ETDB, “ECO Trade and Development Bank in Brief,” accessed 3/21/2012.
331. 	 IMF, “Afghanistan to get $133.6 Million IMF Loan,” 11/15/2011, accessed 4/3/2012.
332. 	 DoS, response to SIGAR data call, 3/30/2012.
333. 	 Treasury, response to SIGAR data call, 3/29/2012.
334. 	 DoS, response to SIGAR data call, 3/30/2012; Treasury, response to SIGAR data call, 3/29/2012.
335. 	 Treasury, responses to SIGAR data call, 4/13/2012 and 3/29/2012; IMF, Country Report No. 11-330, 11/2011, accessed 4/3/2012.
336. 	 GIRoA, Office of the President, “Economic Meeting Assesses Kabul Bank Loan Recovery Progress,” 4/3/2012, accessed 4/4/2102.
337. 	 DAB, “Public Statement on Progress in Prosecution of Economic Crimes in Afghanistan,” accessed 4/3/2012;
       Treasury, response to SIGAR data call, 3/29/2012; DoS, response to SIGAR data call, 3/30/2012; New Kabul Bank, “Kabul Bank-A Brief Profile,
       About Us,” accessed 4/3/2012.
338. 	 IMF, Country Report No. 11-330, 11/2011, accessed 4/3/2012.
339. 	 DoS, response to SIGAR data call, 3/30/2012; Treasury, response to SIGAR data call, 3/29/2012.
340. 	 Treasury, response to SIGAR data call, 3/29/2012.
341. 	 DoS, response to SIGAR data call, 3/30/2012.




                                                      140                  SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                               ENDNOTES




342. 	 Treasury, response to SIGAR data call, 3/29/2012.
343. 	 IMF, Country Report No. 11-330, 11/2011, accessed 4/3/2012; Treasury, response to SIGAR data call, 3/29/2012; DoS, response to SIGAR data
       call, 3/30/2012.
344. 	 Treasury, response to SIGAR data call, 3/29/2012; DoS, response to SIGAR data call, 3/30/2012.
345. 	 DoS, response to SIGAR data call, 3/30/2012.
346. 	 DoS, response to SIGAR data call, 3/30/2012.
347. 	 USAID, “Mobile Money Services Customized for Women,” 3/6/2012, accessed 3/31/2012.
348. 	 Etisalat, Press Release, “Da Afghanistan Breshna Sherkat and Etisalat Afghanistan Sign Mobile Bill Payments Partnership,” 3/28/2012, accessed
       3/31/2012.
349. 	 Roshan, “Western Union and Roshan to Introduce International Mobile Money Transfer Service in Afghanistan,” 2/27/2012, accessed 4/18/2012.
350. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),” p. 1,
       accessed 3/20/2012.
351. 	 WFP, Afghanistan Market Price Bulletin March 2012,” 4/2/2012, accessed 4/11/2012.
352. 	 USAID, Fact Sheet, “Afghanistan-Complex Emergency,” 3/20/2012, accessed 4/6/2012; USAID, response to SIGAR data call, 3/26/2012.
353. 	 WFP, Afghanistan Homepage, “Food For Drought-Affected Afghans,” accessed 4/4/2012.
354. 	 USAID, Fact Sheet, “Afghanistan-Complex Emergency,” 3/20/2012, accessed 4/6/2012; CIA, “Afghanistan,” World Factbook, 3/14/2012, accessed
       4/13/2012; World Bank, “Afghanistan,” data, accessed 4/13/2012.
355. 	 USAID, response to SIGAR data call, 3/26/2012; Save the Children Australia, “Afghanistan Crisis,” accessed 4/16/2012.
356. 	 USAID, response to SIGAR data call, 3/26/2012.
357. 	 TFBSO, response to SIGAR data call, 3/30/2012.
358. 	 TFBSO, response to SIGAR data call, 3/30/2012.
359. 	 TFBSO, response to SIGAR data call, 3/30/2012.
360. 	 TFBSO, response to SIGAR data call, 3/30/2012.
361. 	 TFBSO, response to SIGAR data call, 3/30/2012.
362. 	 TFBSO, response to SIGAR data call, 3/30/2012.
363. 	 USAID Fact Sheet, “Infrastructure,” 6/2011, accessed 4/18/2012.
364. 	 USAID, Fact Sheet, “U.S. Government Builds A State-of-the-Art Power Control Center in Kabul,” 8/24/2011, accessed 4/10/2012.
365. 	 USAID, response to SIGAR data call, 3/26/2012.
366. 	 USAID, response to SIGAR data call, 3/26/2012.
367. 	 USAID, response to SIGAR data call, 3/26/2012.
368. 	 USAID, response to SIGAR data call, 3/26/2012.
369. 	 USAID, response to SIGAR data call, 3/26/2012.
370. 	 USAID, response to SIGAR data call, 3/26/2012.
371. 	 USAID, Factsheet, “Kandahar Helmand Power Project (KHPP),” 6/2011, accessed 4/11/2012; USAID, response to SIGAR data call, 3/26/2012.
372. 	 USAID, response to SIGAR data call, 3/26/2012.
373. 	 DoS, response to SIGAR data call, 3/30/2012.
374. 	 DoS, response to SIGAR data call, 3/30/2012.
375. 	 USAID, response to SIGAR data call, 3/26/2012.




          REPORT TO THE UNITED STATES CONGRESS             I   MONTH 30, 2012               141
                                                            ENDNOTES




376. 	 USAID, response to SIGAR data call, 3/26/2012.
377. 	 USAID, response to SIGAR data call, 3/26/2012.
378. 	 USAID, response to SIGAR data call, 3/26/2012.
379. 	 TFBSO, response to SIGAR data call, 3/30/2012.
380. 	 MoM, “Oil & Gas Development in Afghanistan, Industry Background Presentation,” 2/21/2012, accessed 4/14/2012.
381. 	 MoM, “Oil & Gas Development in Afghanistan, Industry Background Presentation,” 2/21/2012, accessed 4/14/2012.
382. 	 TFBSO, response to SIGAR data call, 3/30/2012.
383. 	 TFBSO, “Enabling Security Through Economic Opportunity,” 1/2012, accessed 4/14/2012; MoM, press release, “Afghanistan Announces Oil
       Tender,” 3/7/2012, accessed 4/10/2012; TFBSO, response to SIGAR data call, 3/30/2012.
384. 	 MoM, “Request for Expressions of Interest-Oil and Gas Exploration Tender,” 3/2/2012, accessed 4/10/2012.
385. 	 TFBSO, response to SIGAR data call, 3/30/2012.
386. 	 GIRoA, “Poverty and Food Insecurity in Afghanistan,” 2/12/2012, accessed 4/11/2012.
387. 	 MoPH, “World Tuberculosis Day Marked,” 4/4/2012, accessed 4/11/2012.
388. 	 MoPH, “World Tuberculosis Day Marked,” 4/4/2012, accessed 4/11/2012.
389. 	 MoF, “Memorandum of Understanding for Economic Cooperation signed with Iran,” 1/31/2012, accessed 3/20/2012.
390. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, accessed 3/20/2012.
391. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, accessed 3/20/2012.
392. 	 UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/5/2012, accessed 3/20/2012;
       DoS, response to SIGAR data call, 3/30/2012.
393. 	 MoF, “First Afghan Russia Joint Economic Commission (JEC) Meeting,” 3/4/2012, accessed 3/20/2012.
394. 	 Embassy, Republic of Tajikistan, “Trilateral Meeting of the Presidents of Tajikistan, Afghanistan, and Iran,” 3/25/2012, accessed 4/4/2012;
       GIRoA, “Agreement Signed between Afghanistan, Iran, and Tajikistan for Railway Construction and Energy Transfer,” 3/26/2012, accessed
       4/4/2012.
395. 	 MoM, “Mr. Shahrani and Mr. Verma signed MoU between Afghanistan and India,” 4/9/2012, accessed 4/12/2012.
396. 	 MoF, “Importing of 700 of Containers Begins from Pakistan,” 2/5/2012, accessed 3/21/2012.
397. 	 DoS, response to SIGAR data call, 3/30/2012.
398. 	 DoS, response to SIGAR data call, 3/30/2012.
399. 	 WTO, “Accessions: Afghanistan,” accessed 4/4/2012; DoS, response to SIGAR data call, 3/30/2012.
400. 	 MoCI, “Afghanistan’s Accession to the World Trade Organization (WTO),” accessed 4/12/2012.
401. 	 DoS, response to SIGAR data call, 3/30/2012.
402. 	 MoTCA, News, “H.E. Minister Daoud Ali Najafi Attended an Aviation ‘Tiger Team’ Meeting in Istanbul, Turkey, To Discuss the Normalization of
       the Aviation Sector,” 2/22/2012, accessed 3/21/2012; MoTCA, News, “Afghanistan Partners Tiger Team Meeting, Istanbul, 14–16 Feb, 2012 - H.E.
       Minister Daoud Ali Najafi,” 2/22/2012, accessed 3/21/2012; MoTCA, News, “Afghanistan Partners Tiger Team Meeting, Istanbul, 14–16 Feb, 2012
       - H.E. Deputy Under Secretary Minister of Transport of Turkey, Suat Hayri Aka,” 2/22/2012, accessed 3/21/2012.
403. 	 MoTCA, News, “Afghanistan Partners Tiger Team Meeting, Istanbul, 14–16 Feb, 2012 - H.E. Minister Daoud Ali Najafi,” 2/22/2012, accessed
       3/21/2012; DoS, response to SIGAR data call, 3/30/2012.
404. 	 DoS, response to SIGAR data call, 3/30/2012.




                                                      142                  SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                              ENDNOTES




405. 	 DoS, response to SIGAR data call, 3/30/2012; MoTCA, News, “The Minister of Transport and Civil Aviation Announces the Implementation of a
       Security Fee at the International Airports in the Islamic Republic of Afghanistan,” 3/29/2012, accessed 4/3/2012; MoTCA, News, “The Minister
       of Transport and Civil Aviation Announces the Implementation of a Security Fee at the International Airports in the Islamic Republic of
       Afghanistan,” 3/29/2012, accessed 4/3/2012.
406. 	 ADB, “Afghanistan: Regional Airports Rehabilitation Project Phase I,” Project Completion Report, December 12/2011, accessed 3/20/2012.
407. 	 ADB, “Asian Development Bank & United States Fact Sheet,” 9/22/2011, accessed 4/9/2012; CRS, “Multilateral Development Banks: U.S.
       Contributions FY2000–FY2013,” 2/14/2012, accessed 4/19/2012.
408. 	 ADB, “Afghanistan: Regional Airports Rehabilitation Project Phase I,” Project Completion Report, 12/2011, accessed 3/20/2012; ADB, “Asian
       Development Bank & United States Fact Sheet,” 9/22/2011, accessed 4/9/2012.
409. 	 ADB, “Afghanistan: Regional Airports Rehabilitation Project Phase I,” Project Completion Report, December 12/2011, accessed 3/20/2012.
410. 	 ADB, “Afghanistan: Regional Airports Rehabilitation Project Phase I,” Project Completion Report, 12/2011, accessed 3/20/2012.
411. 	 TFBSO, response to SIGAR data call, 3/30/2012; NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense
       Authorization Act for Fiscal Year 2011 (P.L. 111-383),” p. 1, accessed 3/20/2012.
412. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton National Defense Authorization Act for Fiscal Year 2011 (P.L. 111-383),” p. 1,
       accessed 3/20/2012.
413. 	 TFBSO, response to SIGAR data call, 3/30/2012. The 13 countries are Afghanistan, Australia, Azerbaijan, Canada, China, India, Iran,
       Kazakhstan, Turkey, Russia, United Kingdom, the United States, and the United Arab Emirates.
414. 	 TFBSO, response to SIGAR data call, 3/30/2012.
415. 	 TFBSO, response to SIGAR data call, 3/30/2012; Mining Indaba, Search for Conference Sessions, accessed 4/18/2012; PDAC 2012, accessed
       4/18/2012.
416. 	 USAID, “Maximizing Afghanistan’s Natural Resources,” 4/1/2012, accessed 4/10/2012.
417. 	 USAID, “Maximizing Afghanistan’s Natural Resources,” 4/1/2012, accessed 4/10/2012.
418. 	 EITI, “About Us, What is EITI?” accessed 4/10/2012.
419. 	 EITI, “Candidate Country, Afghanistan,” accessed 4/10/2012.
420. 	 TFBSO, response to SIGAR data call, 3/30/2012.
421. 	 MoM, “Mineral tenders, Frequently Asked Questions,” accessed 4/10/2012.
422. 	 TFBSO, response to SIGAR data call, 3/30/2012.
423. 	 Etisalat, press release, “Etisalat Launches 3G Services in Afghanistan,” 3/19/2012, accessed 3/31/2012; Etisalat, press release, “3G Services
       Launch by Etisalat Attracts Customers in Afghanistan,” 3/26/2012, accessed 3/31/2012.
424. 	 MCIT, “The First 3G License Issuance to Etisalat Telecommunications Company,” 3/19/2012, accessed 4/11/2012.
425. 	 MCIT, “Announcement & Call for Expression of Interest for the License of Afghanistan’s Allotted Satellite Slot at 50 Degrees East,” 2/18/2012,
       accessed 4/11/2012.




          REPORT TO THE UNITED STATES CONGRESS            I   MONTH 30, 2012                  143
Growing the Afghan National Army
An ANA soldier processes recruits inside the biometrics 	
section in Kabul on March 28. This quarter, the ANA grew 	
by 11,520 to nearly 190,000 personnel. (USAF photo, 	
SSgt Nestor Cruz)
4   OTHER AGENCY
    OVERSIGHT




        145
                               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State and the
Secretary of Defense fully informed about problems relating to the administra-
tion of reconstruction programs and to submit a report on SIGAR’s oversight
work and on the status of the U.S. reconstruction effort to the Congress no later
than 30 days after the end of each fiscal quarter. Each quarter, SIGAR requests
updates from other agencies on completed and ongoing oversight activities.
This section contains these updates. The descriptions appear as they were
submitted, with these changes for consistency with other sections of this report:
acronyms and abbreviations in place of full names; standardized capitalization,
hyphenation, punctuation, and preferred spellings; and third-person instead of
first-person construction.
    These agencies are performing oversight activities in Afghanistan and provid-
ing results to SIGAR:
 •	 Department of Defense Office of Inspector General (DoD OIG).
 •	 Department of State Office of Inspector General (DoS OIG).
 •	 Government Accountability Office (GAO).
 •	 U.S. Army Audit Agency (USAAA).
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG).

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the eight oversight projects related to reconstruction that the
participating agencies reported were completed this quarter.
TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2012
Agency       Report Number         Date Issued        Project Title
DoD OIG      D-2012-058            2/29/2012          Distribution of Funds and Mentoring of Finance Officers for the Afghanistan National Army Payroll Need Improvement
DoD OIG      D-2012-057            2/27/2012          Requirements Development Process for Military Construction Projects in Afghanistan
DoD OIG      D-2012-036            1/5/2012           Management and Oversight for DoD Acquisition and Support of Non-Standard Rotary Wing Aircraft
GAO          GAO-12-290            3/29/2012          Operational Contract Support: Management and Oversight Improvements Needed in Afghanistan
GAO          GAO-12-285            2/27/2012          Afghanistan: Improvements Needed To Strengthen Management of U.S. Civilian Presence
GAO          GAO-12-293R           2/23/2012          Afghanistan Security: Department of Defense Effort To Train Afghan Police Relies on Contractor Personnel To Fill Skill and
                                                      Resource Gaps
USAAA        A-2012-0072-MTE 3/16/2012                Commander’s Emergency Response Program - Afghanistan
USAID OIG F-306-12-002-P           2/7/2012           Audit of USAID/Afghanistan’s Skills Training for Afghan Youth (STAY) Project
Sources: DoD OIG, response to SIGAR data call, 3/22/2012; DoS OIG, response to SIGAR data call, 3/15/2012; GAO, response to SIGAR data call, 3/26/2012; USAID OIG, response to SIGAR
data call, 3/23/2012.



                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2012                       147
OTHER AGENCY OVERSIGHT




U.S. Department of Defense Office of Inspector General
During this quarter, DoD OIG issued three reports related to Afghanistan
reconstruction.

Distribution of Funds and Mentoring of Finance Officers for the
Afghanistan National Army Payroll Need Improvement
(Report No. D-2012-058, Issued February 29, 2012)
The North Atlantic Treaty Organization Training Mission - Afghanistan/Combined
Security Transition Command - Afghanistan (NTM-A/CSTC-A), CJ8 Directorate
Finance Reform Office (known as the CJ8 Financial Management Oversight
Office as a result of NTM-A/CSTC-A reorganization after audit fieldwork) did not
implement adequate controls to ensure that $410.4 million of Afghan National
Army (ANA) payroll funds were properly advanced and reported to the Ministry
of Defense. This occurred because CJ8 Financial Management Oversight Office
personnel did not have written procedures or perform adequate reviews, and
they relied on summary and not detailed data when distributing the quarterly
advances.
   As a result, CJ8 Financial Management Oversight Office personnel did not
have visibility over ANA payroll funds, and they could not accurately calcu-
late and report quarterly advances to the Ministry of Defense. Specifically, CJ8
Financial Management Oversight Office included $47.8 million in absolute errors
in their ANA payroll advances and reporting from April 2009 through January
2011. During the audit, NTM-A/CSTC-A took action to improve controls over the
ANA payroll reconciliation process.
   Additionally, CJ8 Financial Management Oversight Office personnel needed
to improve the mentoring of the Ministry of Defense personnel. Specifically, CJ8
Financial Management Oversight Office personnel only assigned one part-time
mentor, with no financial expertise, to visit the ANA corps, and they did not pro-
vide enough mentoring below the corps level.
   This occurred because CJ8 Financial Management Oversight Office did not
have enough staff or expertise to mentor the ANA during site visits and on inter-
nal controls over the payroll process. Additionally, CJ8 Financial Management
Oversight Office did not have adequate procedures for planning site visits.
   Without improving its mentoring, CJ8 Financial Management Oversight Office
personnel cannot successfully complete the mission to prepare the Afghanistan
government to sustain the ANA payroll process without coalition support. During
the audit, NTM-A/CSTC-A increased the number of mentors for the ANA payroll
process.




  148                SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Requirements Development Process for Military Construction
Projects in Afghanistan
(Report No. D-2012-057, Issued February 27, 2012)
This audit is the first in a series of reports on military construction (MILCON)
projects in Afghanistan. The Army and Air Force requirements development and
design processes for the 17 projects reviewed resulted in defined requirements,
measurable outcomes, and projects that generally met DoD’s needs. Despite the
processes, one Air Force project did not fully meet DoD’s needs. Specifically, the
Air Force project justification required the repair of a runway to be C-17 aircraft
capable, but the justification did not include a requirement for wider taxiways to
support C-17 aircraft. Subsequently, the Congress approved a separate project
that included the necessary taxiway to fully meet DoD’s needs.
   In addition, the design process for 3 of the 17 projects did not result in U.S.
Army Corps of Engineers (USACE) and Air Force Center for Engineering and the
Environment (AFCEE) officials constructing facilities in accordance with facil-
ity sizes on the congressional request for authorization. This occurred because
the scope of work variations permissible by section 2853, Title 10, United States
Code, from the congressional request for authorization are unclear and incon-
sistently applied. As a result, DoD officials do not have assurance that MILCON
projects are built consistent with congressional intent and in accordance with
legislative requirements.

Management and Oversight for DoD Acquisition and Support of
Non-Standard Rotary Wing Aircraft
(Report No. D-2012-036, Issued January 5, 2012)
DoD officials did not adequately manage the acquisition and support of Non-
Standard Rotary Wing Aircraft (NSRWA). Specifically, DoD officials were unable
to identify a comprehensive list of all DoD-owned and supported Mi-17s, their
total ownership costs, and all planned requirements in support of these air-
craft. This occurred because the Under Secretary of Defense for Acquisition,
Technology, and Logistics established the NSRWA Project Management Office as
a temporary solution without fully authorizing the project manager and his staff
to make DoD-wide decisions and did not follow the Defense acquisition process,
even though it met the requirements of a major defense acquisition program. As
a result, DoD may not have achieved the best value for the more than $1.6 billion
NSRWA effort and is at risk for inadequate management of the more than $1 bil-
lion in estimated future costs.

U.S. Department of State Office of Inspector General–Middle
East Regional Office
During this quarter, DoS OIG issued no reports related to Afghanistan
reconstruction.




             REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012      149
OTHER AGENCY OVERSIGHT




Government Accountability Office
During this quarter, GAO issued three reports related to Afghanistan reconstruction.

Operational Contract Support: Management and Oversight
Improvements Needed in Afghanistan
(Report No. GAO-12-290, Issued March 29, 2012)
In fiscal year 2011, DoD reported obligating over $16 billion for contracts that
were executed primarily in Afghanistan. GAO has previously identified the need
for DoD to improve its oversight of contractors by non-acquisition personnel,
such as contracting officer’s representatives (CORs) or liaisons between the
contractor, contracting officer, and unit receiving support, and Congress has
addressed this issue in legislation. Following up on previous GAO work on this
topic, GAO determined the extent to which (1) DoD’s required training prepares
CORs to perform their contract management and oversight duties, (2) CORs
have the subject area-related technical expertise needed to oversee contracts,
and (3) the number of CORs is sufficient to oversee the contracts in Afghanistan.
GAO found that DoD has taken steps to enhance its existing training program
for CORs, but the required training does not fully prepare them to perform their
contract oversight duties in contingency areas such as Afghanistan. Furthermore,
CORs do not always have the necessary subject area-related technical expertise
to oversee U.S. Central Command (CENTCOM) contracts they were assigned to
oversee. For example, because CORs do not have the subject area-related techni-
cal expertise needed to oversee contracts or access to subject matter experts,
facilities were sometimes deficient and had to be reconstructed at great addi-
tional expense to the taxpayer. Lastly, DoD does not have a sufficient number of
CORs to oversee the numerous contracts in Afghanistan. As a result and after
reviewing more than a dozen construction projects, GAO found that construc-
tion was completed without sufficient government oversight and problems
were sometimes identified after facilities had been completed. To provide for
improved oversight of operational contract support, DoD should enhance the
current strategy for providing contract management and oversight in Afghanistan
and other areas of operations.

Afghanistan: Improvements Needed To Strengthen Management of
U.S. Civilian Presence
(Report No. GAO-12-285, Issued February 27, 2012)
In March 2009, the President called for an expanded U.S. civilian presence under
Chief of Mission authority to build the capacity of the Afghan government to
provide security, essential services, and economic development. In response,
DoD established the Civilian Expeditionary Workforce (CEW) in 2009 to create
a cadre of civilians trained, cleared, and equipped to respond urgently to expe-
ditionary requirements. Deployed civilians are under combatant commander
authority in Afghanistan to support combat and capacity-building missions.
United States agencies under Chief of Mission authority and the DoD reported



  150               SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




that their civlian presence in Afghanistan is expanding. For example, these
agencies and DoD reported taking steps to improve civilian presence track-
ing abilities, to establish a CEW program office that implements CEW policies,
and to provide pre-deployment training for civilians. However, nearly three
years after DoD’s directive established the CEW, DoD faced challenges and the
program has not been fully developed and implemented. DoD’s offering of dupli-
cative training courses, the use of ineffective guidance and the failure to have
processes for identifying and synchronizing training requirements for civilians
failed to meet Combatant Commander’s theater requirements in Afghanistan.
The Secretary of Defense should enable DoD in developing key assumptions and
identifying the number and types of positions that should constitute the CEW
and establish a process to identify and synchronize training requirements for
deployed civilians in Afghanistan.

Afghanistan Security: Department of Defense Effort To Train
Afghan Police Relies on Contractor Personnel To Fill Skill and
Resource Gaps
(Report No. GAO-12-293R, Issued February 23, 2012)
The U.S. strategy in Afghanistan depends in part on building that country’s capac-
ity to provide for its own security by training and equipping the Afghan National
Security Forces, including the Afghan National Police (ANP). The ANP training
program is intended to create and sustain a professionally-led police force that
is accountable to the Afghan people and is capable of enforcing laws and main-
taining civil order. Since 2002, the United States has allocated over $14 billion to
train, equip, and sustain the ANP. In June 2010, the Senate Committee on Armed
Services reported concerns over DoD oversight and contract management. GAO
reported that (1) U.S. government (USG), non-USG coalition, and DoD contrac-
tor personnel perform various roles in the ANP training program; (2) DoD did not
assess the advantages or disadvantages of using USG or contractor personnel for
the ANP training program and has not assessed the potential impact of trans-
ferring responsibilities to USG personnel for the ANP training program since
awarding an ANP training contract in 2010; and (3) DoD officials reported that
they were not aware of any lessons learned from other DoD-led foreign police
training programs that directly address the advantages and disadvantages of
using USG or contractor personnel to carry out the ANP training program.




            REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2012      151
OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
The U.S. Army Audit Agency reported completing one new audit related to
Afghanistan reconstruction this quarter.

Commander’s Emergency Response Program - Afghanistan
(Report No. A-2012-0072-MTE, Issued March 16, 2012)
USAAA audited the Commander’s Emergency Response Program - Afghanistan
(CERP-A) overall program management, project review, and funding require-
ments processes at the request of the former U.S. Forces - Afghanistan
(USFOR-A) Commander. Auditors found that CERP had evolved to include
complex, long-term projects that did not provide immediate benefit to the Afghan
people. Auditors reviewed 73 projects, each valued at over $500,000, and found
9 of the projects did not meet authorized CERP criteria. Although the remain-
ing 64 met criteria, many of them didn’t meet the intent of providing immediate
benefit. Specifically, 29 projects had an average estimated project execution time
of over 10 months, excluding the project development. This occurred because
(1) policies and controls for CERP had not evolved along with the program; (2)
guidance and criteria for CERP projects were not clearly defined; and (3) there
was not a defined, objective, and measurable methodology for evaluating and
prioritizing projects. Also, funding levels drove projects rather than approved,
necessary CERP projects driving funding levels. During the audit, USFOR-A took
immediate actions to improve both the project review and funding requirements
determination processes. After the exit briefing, USFOR-A developed a project
review and risk assessment matrix to increase project scrutiny. USFOR-A also
deobligated one CERP project valued at about $32 million. The report contains
the official Army position on the recommendations and potential monetary ben-
efits. Command concurred with the recommendations and potential monetary
benefits.

U.S. Agency for International Development
Office of Inspector General
During this quarter, USAID OIG issued one report related to Afghanistan
reconstruction.

Audit of USAID/Afghanistan’s Skills Training for Afghan Youth
(STAY) Project
(Report No. F-306-12-002-P, Issued February 7, 2012)
USAID/OIG conducted this audit to determine whether the project was achieving
its main goals of providing technical, vocational, and functional skills for produc-
tive work; basic education equivalency and life skills; and youth outreach and
networking activities. The final report includes the following issues:
 •	 The project lacked clearly defined goals, objectives, and priorities. The pro-
    gram description did not clearly communicate the project’s purpose, goals,
    objectives, priorities, and activities.



  152                SPECIAL INSPECTOR GENERAL   I     AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




•	 Important communications were not always documented or effective. Some
   key discussions between the agreement officer’s technical representative
   (AOTR) and the Education Development Center (EDC) regarding the design
   of the project were not documented, and USAID officials’ communications
   with EDC did not achieve the mutual understanding necessary to enable
   implementation of Phase Two of the project.
•	 USAID issued EDC a remedy notice for failure to comply with the terms and
   conditions specified in its cooperative agreement. However, the components
   and activities in the agreement’s program description were largely illustra-
   tive. As a result, USAID claimed EDC had made insufficient progress on
   tasks that it was not required to perform.
•	 The project lacked an approved marking and branding plan. EDC submit-
   ted a marking and branding plan to the agreement officer (AO) and AOTR
   for review on January 22, 2011. Yet six months later, the plan had not been
   formally approved.
   The report included four recommendations to address these issues.

ONGOING OVERSIGHT ACTIVITIES
As of March 31, 2012, the participating agencies reported 39 ongoing oversight
activities related to reconstruction in Afghanistan. The activities reported are
listed in Table 4.2 and described in the following sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2012
Agency          Project Number          Date Initiated         Project Title
DoD OIG         D2012-D000AS-0137.000   3/9/2012               Oversight Processes and Procedures for the Afghan National Police Mentoring/Training and
                                                               Logistics Support Contract
DoD OIG         D2012-D000AT-0129.000   3/8/2012               Datron Radio Contracts To Support the Afghan National Security Forces
DoD OIG         D2012-D000JB-0126.000   3/8/2012               Air Force Center for Engineering and the Environment’s Contract Management and Oversight of
                                                               Military Construction Projects in Afghanistan
DoD OIG         D2012-D00SPO-0090.000   2/28/2012              U.S. and Coalition Efforts To Develop Leaders in the Afghan National Army
DoD OIG         D2012-DT0TAD-0002.000   2/14/2012              Technical Assessment of Military Construction Compliance with Fire Suppression Standards at
                                                               Select Facilities in Afghanistan
DoD OIG         D2012-DT0TAD-0001.000   2/14/2012              Technical Assessment of Military Construction Compliance with Electrical Standards at Select
                                                               Facilities in Afghanistan
DoD OIG         D2012-D000JB-0093.000   1/11/2012              Building Institutional Capacity Through the Ministry of Defense Advisors Program
DoD OIG         D2012-D00SPO-0085.000   1/6/2012               U.S. Efforts to Develop the Afghan National Security Forces Command and Control System
DoD OIG         D2012-D000JB-0071.000   12/16/2011             Contract Management and Oversight of Military Construction Projects in Afghanistan
DoD OIG         D2012-DINT01-0084.000   12/13/2011             Investigation of a USCENTCOM Referral; Non-Compliance with Interrogation Policy
DoD OIG         D2012-D000AS-0075.000   12/7/2011              Task Orders for Mi-17 Overhauls and Cockpit Modifications
DoD OIG         D2012-D000AS-0031.000   11/17/2011             Afghanistan Rotary Wing Transport Contracts for the U.S. Transportation Command
DoD OIG         D2011-D000AS-0271.000   8/12/2011              Afghan National Police Mentoring/Training and Logistics Support Contract
DoD OIG         D2011-D000AT-0246.000   7/12/2011              Adequacy of Controls Over Small Arms Contracts for the Afghan National Security Forces
DoD OIG         D2011-D000JA-0240.000   6/15/2011              Management of Pharmaceuticals Within the Afghan National Security Forces Health System
DoD OIG         D2011-D00SPO-0234.000   5/20/2011              Assessment of U.S. and Coalition Plans To Train, Equip, and Field the Afghan Air Force




            REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2012                   153
                                                                 OTHER AGENCY OVERSIGHT




TABLE 4.2 CONTINUED


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2012
Agency                  Project Number                       Date Initiated            Project Title
DoD OIG                 D2011-D000AT-0222.000                4/29/2011                 Development of Individual Equipment Requirements for the Afghan National Army
DoD OIG                 D2011-D000AT-0221.000                4/29/2011                 Accountability for Night Vision Devices Procured for the Afghan National Security Forces
DoD OIG                 D2011-D000FD-0121.000                3/30/2011                 Fees and Surcharges on Intragovernmental Orders Funded by Afghanistan Security Forces Fund
                                                                                       Appropriations
DoD OIG                 D2011-D000JO-0137.000                1/18/2011                 Facilities Management Training Provided Under the National Operations and Maintenance
                                                                                       Contracts in Afghanistan
DoD OIG                 D2010-D000JO-0229.000                6/14/2010                 Construction of the Detention Facility in Parwan, Afghanistan
DoS OIG-MERO            12AUD30                              12/2011                   Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System
                                                                                       Support Program in Afghanistan
GAO                     121049                               3/29/2012                 Assessment of Joint Report on Contracting in Iraq and Afghanistan
GAO                     121042                               2/2/2012                  Recommendations of the Commission on Wartime Contracting
GAO                     320889                               2/2/2012                  Streamlining Aid to Afghanistan
GAO                     351708                               2/1/2012                  U.S. Capabilities to Support Afghanistan Security Transition
GAO                     351688                               11/19/2011                DoD’s Preparations for Drawdown of Forces in Afghanistan
GAO                     320856                               9/26/2011                 Security Transition Afghanistan
GAO                     351616                               7/11/2011                 DoD Oversight of Private Security Contractors in Afghanistan
GAO                     320850                               6/20/2011                 Cost To Sustain ANSF
GAO                     320851                               6/9/2011                  Screening of Afghan Security Personnel and Recruits
GAO                     351613                               6/2/2011                  Fuel Demand Management at Forward-Deployed Locations in Afghanistan
GAO                     120976                               3/31/2011                 State Contracting for Conflicted Countries
GAO                     351603                               3/31/2011                 Intelligence, Surveillance, and Reconnaissance (ISR) Collection and Tasking Management
USAID OIG               FF100312                             2/9/2012                  Audit of USAID/Afghanistan’s Performance-based Governor’s Fund
USAID OIG               FF101812                             12/1/2011                 Review of USAID/Afghanistan’s Monitoring and Evaluation System
USAID OIG               FF101712                             10/25/2011                Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
                                                                                       Selected Projects
USAID OIG               FF100411                             9/18/2011                 Audit of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North, East, and
                                                                                       West Program
USAID OIG               FF100711                             6/15/2011                 Audit of USAID/Afghanistan’s Internal Controls in Administration of the Involuntary Separate
                                                                                       Maintenance Allowance
Sources: DoD OIG, response to SIGAR data call, 3/22/2012; DoS OIG, response to SIGAR data call, 3/15/2012; GAO, response to SIGAR data call, 3/26/2012; USAAA, response to SIGAR data call,
3/20/2012; USAID OIG, response to SIGAR data call, 3/23/2012.




                                                                 Department of Defense Office of Inspector General
                                                                 DoD continues to face many challenges in executing its Overseas Contingency
                                                                 Operations (OCO). DoD OIG has identified priorities based on those challenges
                                                                 and high risks and has responded by expanding its coverage of OCO operations
                                                                 and its presence in Southwest Asia. In FY 2012, DoD OIG continues to focus
                                                                 oversight on overseas contingency operations with a majority of its resources
                                                                 supporting operations in Afghanistan. The DoD OIG focus in Afghanistan contin-
                                                                 ues in the areas of the management and execution of the Afghanistan Security
                                                                 Forces Fund, military construction, and the administration and oversight of
                                                                 contracts supporting coalition forces.




                                                                   154                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




    As billions of dollars continue to be spent in Afghanistan, a top priority will
continue to be the monitoring and oversight of acquisition and contracting
processes focused on training, equipping, and sustaining the Afghan National
Security Forces (ANSF). The DoD OIG planned oversight efforts address the
administration and oversight of contracts for equipping the ANSF, such as rotary
wing aircraft, airplanes, ammunition, radios, and night vision devices. DoD OIG
will also continue to review and assess DoD’s efforts in managing and executing
contracts to train the Afghan National Police.
    As military construction continues in Afghanistan to build or renovate new
living areas, dining and recreation facilities, medical clinics, base expansions,
and police stations, DoD OIG will continue to provide aggressive oversight of
contract administration and military construction projects. DoD OIG will also
continue to focus on the accountability of property, such as contractor-managed
government-owned property and Army high-demand items; DoD’s efforts to
strengthen institutional capacity at the Afghan Ministry of Defense; and financial
management controls.
    The DoD OIG–led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DoD OCO–related oversight activities. DoD OIG con-
tinues to work with SIGAR as well as fellow inspectors general and Defense
oversight community members to develop a FY 2013 strategic audit plan for the
entire inspector general community working in Afghanistan. This SIGAR-led
effort provides the Congress and key stakeholders with more effective oversight
of reconstruction programs.

Office of the Deputy Inspector General for Auditing
The ongoing Operation Enduring Freedom–related oversight addresses the safety
of personnel with regard to construction efforts; force protection programs for
U.S. personnel; accountability of property; improper payments; contract admin-
istration and management including construction and on construction projects;
oversight of the contract for training the Afghan police; logistical distribution
within Afghanistan; health care; and acquisition planning and controls over fund-
ing for Afghan Security Forces.

Oversight Processes and Procedures for the Afghan National
Police Mentoring/Training and Logistics Support Contract
(Project No. D2012-D000AS-0137.000, Initiated March 9, 2012)
DoD OIG is conducting the second in a series of audits on the Afghan National
Police Mentoring/Training and Logistics support contract. The overall objective
for the series of audits is to determine whether DoD officials are using appropri-
ate contracting processes to satisfy mission requirements and are conducting
appropriate oversight of the contract in accordance with federal and DoD poli-
cies. For this audit DoD OIG will determine whether the Army, the North Atlantic
Treaty Organization Training Mission - Afghanistan/Combined Security Transition
Command - Afghanistan, and the Defense Contract Management Agency had




             REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       155
OTHER AGENCY OVERSIGHT




adequate oversight processes and procedures for the contract. Additionally, DoD
OIG will determine whether the Army, the North Atlantic Treaty Organization
Training Mission - Afghanistan/Combined Security Transition Command -
Afghanistan, and the Defense Contract Management Agency conducted ade-
quate contractor surveillance. The first audit in this series is “Afghan National
Police Mentoring/Training and Logistics Support Contract,” Project Number
D2011-D000AS-0271.000.

Datron Radio Contracts To Support the Afghan
National Security Forces
(Project No. D2012-D000AT-0129.000, Initiated March 8, 2012)
DoD OIG is determining whether the U.S. Army Communications-Electronics
Command implemented effective policies and procedures for awarding Datron
radio contracts, negotiating fair and reasonable prices, verifying timely deliver-
ies, and establishing quality assurance measures in accordance with applicable
requirements.

Air Force Center for Engineering and the Environment’s Contract
Management and Oversight of Military Construction Projects
in Afghanistan
(Project No. D2012-D000JB-0126.000, Initiated March 8, 2012)
DoD OIG is determining whether Air Force Center for Engineering and the
Environment officials are providing effective oversight of construction projects
in Afghanistan. This is the second in a series of audits on contract management
and oversight of military construction projects in Afghanistan. The first project,
D2012-D000JB-0071.000, focuses on U.S. Army Corps of Engineers contract man-
agement and oversight of military construction projects in Afghanistan.

U.S. and Coalition Efforts To Develop Leaders in the Afghan
National Army
(Project No. D2012-D00SP0-0090.000, Initiated February 28, 2012)
DoD OIG is assessing the sufficiency and effectiveness of the Coalition’s leader
programs for developing Afghan National Army officers and Non-Commissioned
Officers.

Technical Assessment of Military Construction Compliance with
Fire Suppression Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0002.000, Initiated February 14, 2012)
DoD OIG is determining whether fire suppression systems built by military
construction in selected U.S. occupied facilities in Afghanistan are in compli-
ance with the U.S. Central Command Unified Facilities Criteria and National Fire
Protection Association standards. DoD OIG will assess U.S. occupied facilities
at Kandahar Air Field, Bagram Air Field, Camp Eggers, and other locations as




  156                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




necessary. It will also assess the status of DoD OIG recommended corrective
actions from previous fire suppression system assessments.

Technical Assessment of Military Construction Compliance with
Electrical Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0001.000, Initiated February 14, 2012)
DoD OIG is determining whether electrical systems built by military construction
in selected U.S. occupied facilities in Afghanistan are in compliance with United
States Central Command Unified Facilities Criteria and National Electrical Code
standards. DoD OIG will assess U.S. occupied facilities at Kandahar Air Field,
Bagram Air Field, Camp Eggers, and other locations as necessary. DoD OIG will
also assess the status of DoD OIG recommended corrective actions from previ-
ous electrical system assessments.

Building Institutional Capacity Through the Ministry of Defense
Advisors Program
(Project No. D2012-D000JB-0093.000, Initiated January 11, 2012)
DoD OIG is determining whether the Ministry of Defense Advisors Program is
achieving its intended purpose. Specifically, DoD OIG will determine whether the
program’s goals, objectives, and resources are being managed effectively and effi-
ciently to achieve the program’s intended results.

U.S. Efforts To Develop the Afghan National Security Forces
Command and Control System
(Project No. D2012-D00SPO-0085.000, Initiated January 6, 2012)
DoD OIG is determining whether the Department of Defense will complete the
development of the Afghan National Security Forces Command and Control
System by established end-state dates. Specifically, DoD OIG will assess whether
U.S. government and coalition strategy, guidance, plans, and resources are
adequate for the development and operational implementation of an effective
Afghan National Security Forces Command and Control System.

Contract Management and Oversight of Military Construction
Projects in Afghanistan
(Project No. D2012-D000JB-0071.000, Initiated December 16, 2011)
DoD OIG is determining whether DoD is providing effective oversight of mili-
tary construction projects in Afghanistan. Specifically, DoD OIG will determine
whether DoD is properly monitoring contractor performance during construc-
tion and adequately performing quality assurance oversight responsibilities.
To provide command timely and focused reports, this project has been sepa-
rated into two projects. The original project will focus on U.S. Army Corps of
Engineers’ contract management and oversight of military construction projects
in Afghanistan. The second project, D2012-D000JB-0126.000, focuses on Air




             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2012    157
OTHER AGENCY OVERSIGHT




Force Center of Environmental Excellence’s contract management and oversight
of military construction projects in Afghanistan.

Investigation of a USCENTCOM Referral; Non-Compliance with
Interrogation Policy
(Project No. D2012-DINT01-0084.000, Initiated December 13, 2011)
DoD OIG is conducting this investigation at the request of CENTCOM. The objec-
tives of this project are For Official Use Only.

Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DoD OIG is determining whether DoD officials properly awarded and admin-
istered task orders for the overhaul and modification of Mi-17 aircraft in
accordance with federal and DoD regulations and policies. Contracting officers
issued the task orders under indefinite-delivery, indefinite-quantity contract num-
ber W58RGZ-09-D-0130.

Afghanistan Rotary Wing Transport Contracts for the U.S.
Transportation Command
(Project No. D2012-D000AS-0031.000, Initiated November 17, 2011)
DoD OIG plans to conduct a series of audits relating to Afghanistan rotary-
wing transportation contracts to determine whether TRANSCOM officials are
properly managing and administering the contracts in accordance with Federal
Acquisition Regulation and DoD guidance while contracting for services per-
formed in a contingency environment. For this first audit in the planned series,
DoD OIG will determine whether contracting officials have adequate controls
over the transportation of supplies, mail, and passengers in Afghanistan.

Afghan National Police Mentoring/Training and Logistics
Support Contract
(Project No. D2011-D000AS-0271.000, Initiated August 12, 2011)
The audit will be the first in a series of audits on the Afghan National Police
Mentoring/Training and Logistics Support contract. DoD OIG’s overall objective
for the series of audits is to determine whether DoD officials are using appropri-
ate contracting processes to satisfy mission requirements and are conducting
appropriate oversight of the contract in accordance with federal and DoD poli-
cies. For this audit, DoD OIG will determine whether the Army is appropriately
administering the Afghan National Police Mentoring/Training and Logistics
Support contract in accordance with federal and DoD guidance.




  158                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Adequacy of Controls Over Small Arms Contracts for the Afghan
National Security Forces
(Project No. D2011-D000AT-0246.000, Initiated July 12, 2011)
DoD OIG is evaluating the contract award, pricing, and quality assurance pro-
visions for small arms, to include accessories and spare parts, acquired using
Afghanistan Security Forces Funds. Specifically, DoD OIG will determine
whether the contract processes were in accordance with applicable acquisition
regulations.

Management of Pharmaceuticals Within the Afghan National
Security Forces Health System
(Project No. D2011-D000JA-0240.000, Initiated June 15, 2011)
DoD OIG is determining the effectiveness of pharmaceutical distribution within
the ANSF health care system. Specifically, DoD OIG will evaluate the procure-
ment, delivery, and inventory control processes for pharmaceuticals at ANSF
medical facilities and depots.

Assessment of U.S. and Coalition Plans To Train, Equip, and Field
the Afghan Air Force
(Project No. D2011-D00SP0-0234.000, Initiated May 20, 2011)
DoD OIG is determining whether U.S. government and coalition forces goals,
objectives, plans, and guidance to train, equip, and field a viable and sustainable
Afghan Air Force are prepared, issued, operative, and relevant.

Development of Individual Equipment Requirements for the Afghan
National Army
(Project No. D2011-D000AT-0222.000, Initiated April 29, 2011)
DoD OIG is determining whether the development process for ANA individual
equipment requirements was adequate. Specifically, DoD OIG will determine the
adequacy of the acquisition, sustainment, and training requirements established
for individual equipment items for the ANA.

Accountability for Night Vision Devices Procured for the Afghan
National Security Forces
(Project No. D2011-D000AT-0221.000, Initiated April 29, 2011)
DoD OIG is evaluating the accountability for night vision devices and associated
spare parts procured for the ANSF.




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2012     159
OTHER AGENCY OVERSIGHT




Fees and Surcharges on Intragovernmental Orders Funded by
Afghanistan Security Forces Fund Appropriations
(Project No. D2011-D000FD-0121.000, Initiated March 30, 2011)
DoD OIG is determining what fees and surcharges DoD components charge on
intragovernmental orders funded by Afghanistan Security Forces Fund appropri-
ations. DoD OIG will also evaluate whether the cost data exists to support those
charges.

Facilities Management Training Provided Under the National
Operations and Maintenance Contracts in Afghanistan
(Project No. D2011-D000JO-0137.000, Initiated January 18, 2011)
DoD OIG is determining whether the vocational training provided under the
National Operations and Maintenance contracts is effective in developing the
infrastructure maintenance capabilities of the ANSF.

Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers (USACE)
and USFOR-A procured construction services and administered the construc-
tion contract for the Detention Facility in Parwan, Afghanistan, in accordance
with the Federal Acquisition Regulation and other applicable laws and regula-
tions. Specifically, DoD OIG will determine whether USACE properly monitored
contractor performance during construction of the detention facility in Parwan
and whether USACE has taken or should take recourse against the contractor
because of potential latent defects, negligence, or fraud.

Department of State Office of Inspector General–
Middle East Regional Office
This quarter, DoS OIG did not initiate any new projects related to Afghanistan
reconstruction.

Audit of the Bureau of International Narcotics and Law
Enforcement Affairs’ Correction System Support Program
in Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the Bureau of International
Narcotics and Law Enforcement Affairs’ (INL) Correction System Support
Program (CSSP) in building a safe, secure, and humane prison system that meets
international standards and Afghan cultural requirements. Specifically, OIG will
evaluate whether INL is achieving intended and sustainable results through the
following CSSP components: training and mentoring; capacity building; Counter-
Narcotics Justice Center and Judicial Security Unit compound operations and




  160                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




maintenance; Pol-i-Charkhi management and stabilization team; Central Prison
Directorate engagement and reintegration team; and Kandahar expansion and
support team.

Government Accountability Office
Assessment of Joint Report on Contracting in Iraq
and Afghanistan
(Project No. 121049, Initiated March 29, 2012)
In response to a mandate in the National Defense Authorization Act for Fiscal
Year 2011, Section 835, GAO will (1) assess the data and data sources used by the
Department of Defense, Department of State, and U.S. Agency for International
Development (USAID) to develop their annual joint report on contracting in Iraq
and Afghanistan; (2) review how the Department of Defense, Department of
State, and USAID are using the data and data sources to manage, oversee, and
coordinate contracting in Iraq and Afghanistan; and (3) assess the department’s
and agency’s plans for strengthening or improving common databases for track-
ing statutorily required information on contracts and associated personnel with
performance in Iraq and Afghanistan.

Recommendations of the Commission on Wartime Contracting
(Project No. 121042, Initiated February 2, 2012)
Key questions: (1) What actions have DoD, DoS, and USAID taken or planned to
address the CWC’s final and special report recommendations?

Streamlining Aid to Afghanistan
(Project No. 320889, Initiated February 2, 2012)
Key questions: (1) To what extent do the development projects administered by
U.S. agencies in Afghanistan address similar objectives? (2) What mechanisms do
U.S. agencies use to coordinate planning and implementation of these projects?
(3) To what extent is there duplication in these projects?

U.S. Capabilities To Support Afghanistan Security Transition
(Project No. 351708, Initiated February 1, 2012)
Key questions: (1) What is the process for transitioning operational lead security
responsibility to the ANSF? (2) To what extent has DoD identified the enabling
capabilities that it will need to support the transition? (3) What factors, if any,
may affect DoD’s ability to provide these capabilities?




             REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012       161
OTHER AGENCY OVERSIGHT




DoD’s Preparations for Drawdown of Forces in Afghanistan
(Project No. 351688, Initiated November 19, 2011)
Key questions: To what extent is DoD (1) prepared to execute drawdown of
forces and materiel in Afghanistan and (2) implementing lessons learned in Iraq
as it prepares for the Afghanistan drawdown?

Security Transition in Afghanistan
(Project No. 320856, Initiated September 26, 2011)
Key questions: (1) What are the key elements of the framework established to
transition lead security responsibility to the ANSF? (2) What progress has been
made in achieving the transition of security responsibility to the ANSF?

DoD Oversight of Private Security Contractors in Afghanistan
(Project No. 351616, Initiated July 11, 2011)
Key questions: GAO intends to examine to what extent (1) DoD has a process to
determine if the use of PSCs in Afghanistan to meet specific missions is appro-
priate; (2) DoD has a process to ensure that PSCs in Afghanistan are selecting
personnel with appropriate backgrounds, training, and capabilities; (3) DoD has
established a process to ensure that private security prime contractors and sub-
contractors are performing their duties in Afghanistan; and (4) DoD has begun to
formulate plans to meet security requirements in Afghanistan without the use of
PSCs.

Cost To Sustain ANSF
(Project No. 320850, Initiated June 20, 2011)
Key questions: (1) To what extent are the U.S. government’s and others’ esti-
mates of the costs to build and sustain the ANSF through 2014 and beyond
reliable and consistent? (2) What are the projected sources of funding to cover
the costs of ANSF through 2014 and beyond?

Screening of Afghan Security Personnel and Recruits
(Project No. 320851, Initiated June 9, 2011)
Key questions: (1) To what extent are recruits and other ANA-ANP person-
nel vetted or screened by the U.S. government for ties to criminal, terrorist, or
insurgent forces? (2) What challenges to these efforts exist, if any, and how have
U.S. agencies addressed these challenges? (3) To what extent have Defense and
State modified screening procedures in response to attacks? (4) What, if any,
safeguards are in place to protect U.S. personnel training or working with ANA/
ANP forces?




  162                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Fuel Demand Management at Forward-Deployed Locations
in Afghanistan
(Project No. 351613, Initiated June 2, 2011)
Key questions: (1) To what extent has DoD established a viable approach to pro-
vide visibility and accountability for fuel demand management in Afghanistan?
(2) What initiatives does DoD have underway to promote fuel efficiency across
services in Afghanistan and what are the related challenges? (3) To what extent
are these efforts being coordinated across services? (4) To what extent does DoD
currently measure or have plans in place to measure the results of its energy
efficiency efforts in Afghanistan?

State Contracting for Conflicted Countries
(Project No. 120976, Initiated March 31, 2011)
Key questions: (1) What is the extent and nature of DoS’s reliance on DoD for
acquisition support for Iraq and Afghanistan? (2) What factors led to this reli-
ance? (3) What efforts are under way to determine whether to continue this
reliance?

Intelligence, Surveillance, and Reconnaissance (ISR) Collection
and Tasking Management
(Project No. 351603, Initiated March 31, 2011)
Key questions: (1) To what extent does DoD have visibility over all available
national, theater, and organic ISR capabilities used in support of military opera-
tions? (2) To what extent do DoD collection managers involved in the tasking of
ISR capabilities have access to real-time information regarding ISR capabilities
and their mission availability and use such information to guide additional task-
ing? (3) To what extent do DoD collection managers involved in the tasking of
ISR capabilities receive relevant collection management training?

U.S. Army Audit Agency
This quarter, U.S. Army Audit Agency does not have any ongoing audits related
to reconstruction initiatives.

U.S. Agency for International Development
Office of Inspector General
Audit of USAID/Afghanistan’s Performance-based Governor’s Fund
(Project No. FF100312, Initiated February 9, 2012)
Objective: Did the design and implementation of the Performance-based
Governors’ Fund provide for capacity improvements so that governors and their
teams are better able to (1) meet operational and community outreach needs,
(2) enhance relationships with citizens, and (3) improve overall management
capacity?



             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2012      163
OTHER AGENCY OVERSIGHT




Review of USAID/Afghanistan’s Monitoring and Evaluation System
(Project No. FF101812, Initiated December 1, 2011)
Objective: To determine whether USAID/Afghanistan has a monitoring and evalu-
ation system to effectively manage selected program activities.

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2011)
Objective: To determine whether the CERP funds distributed by USFOR-A to
USAID for specific projects were used for their intended purposes and in com-
pliance with applicable laws and regulations and whether the costs charged to
CERP-funded projects were reasonable, allowable, and allocable.

Audit of USAID/Afghanistan’s Incentives Driving Economic
Alternatives for the North, East, and West Program
(Project No. FF100411, Initiated September 18, 2011)
Objective: To determine whether USAID/Afghanistan’s Incentives Driving
Economic Alternatives for the North, East, and West Program is achieving its
main goals of increasing licit and commercially viable agricultural-based alter-
natives for rural Afghans and significantly reducing and ultimately eradicating
opium poppy production and sales.

Audit of USAID/Afghanistan’s Internal Controls in Administration
of the Involuntary Separate Maintenance Allowance
(Project No. FF100711, Initiated June 15, 2011)
Objective: To determine whether USAID/Afghanistan has adopted appropri-
ate internal controls to prevent improper use of the separate maintenance
allowance.

U.S. Department of Defense Office of Inspector General
The Defense Criminal Investigative Service (DCIS) continues to conduct sig-
nificant fraud and corruption investigations in Afghanistan and Southwest Asia.
Currently, there are six DCIS agents assigned to the International Contract
Corruption Task Force (ICCTF) in three locations: Kabul, Bagram Airfield, and
Kandahar Airfield. The ICCTF is a partnership between DCIS, SIGAR, and seven
other agencies to efficiently and effectively investigate fraud and corruption in
Southwest Asia. DCIS continues to assign one special agent to Task Force 2010,
which is a task force led by the U.S. military that utilizes intelligence analysts,
criminal investigators, auditors, and forensic financial analysts to gain visibility




  164                SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                    OTHER AGENCY OVERSIGHT




on the flow of contracting funds in order to prevent the U.S. from doing busi-
ness with insurgents, corrupt officials, and criminal groups. In addition to these
forward-deployed special agents, 109 DCIS agents based in the United States and
Europe are currently conducting investigations related to fraud and corruption in
Southwest Asia.
   As of March 31, 2012, DCIS has 113 open OCO investigations involving
Afghanistan. Of the open investigations, 24 are joint with SIGAR.
   As of March 31, 2012, DCIS has closed 113 OCO investigations involving
Afghanistan.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012      165
The Official Seal of SIGAR
The Official Seal of SIGAR represents the coordination of efforts 	
between the United States and Afghanistan to provide accountability
and oversight of reconstruction activities. The phrase along the top 	
side of the seal’s center is in Dari and means “SIGAR.” The phrase
along the bottom side of the seal’s center is in Pashtu and has the
same meaning.
APPENDICES




        167
                        APPENDICES




                        APPENDIX A
                        CROSS-REFERENCE OF REPORT TO STATUTORY
                        REQUIREMENTS
                        This appendix cross-references the pages of this report to the quarterly report-
                        ing and related requirements under SIGAR’s enabling legislation, the National
                        Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table
                        A.1), and to the semiannual reporting requirements prescribed for inspectors
                        general more generally under the Inspector General Act of 1978, as amended
                        (5 U.S.C. App. 3) (Table A.2).

TABLE A.1

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                            SIGAR Action                    Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping       Ongoing; quarterly report       Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to
                        the administration of such programs and operations and the
                        necessity for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                        Report to the Secretary of      Full report
                        to, and be under the general supervision                           State and the Secretary of
                        of, the Secretary of State and the Secretary of Defense            Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                          Review appropriated/            Full report
                        It shall be the duty of the Inspector General to conduct,          available funds
                        supervise, and coordinate audits and investigations of the
                        treatment, handling, and expenditure of amounts appropri-          Review programs, operations,
                        ated or otherwise made available for the reconstruction of         contracts using appropriated/
                        Afghanistan, and of the programs, operations, and contracts        available funds
                        carried out utilizing such funds, including subsections (A)
                        through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expendi-        Review obligations and          SIGAR Oversight
                        ture of such funds                                                 expenditures of appropriated/   Funding
                                                                                           available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded      Review reconstruction activi-   SIGAR Oversight
                        by such funds                                                      ties funded by appropriations
                                                                                           and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds        Review contracts using appro-   Note 1
                                                                                           priated and available funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and        Review internal and external    Appendix B
                        associated information between and among departments,              transfers of appropriated/
                        agencies, and entities of the United States, and private and       available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facili-     Maintain audit records          SIGAR Oversight
                        tate future audits and investigations of the use of such fund[s]                                   Appendix C
                                                                                                                           Appendix D




                          168                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                             APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                             SIGAR Action                   Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United            Monitoring and review          Audits
                                States coordination with the Governments of Afghanistan             as described
                                and other donor countries in the implementation of the
                                Afghanistan Compact and the Afghanistan National
                                Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate pay-            Conduct and reporting of       Investigations
                                ments or duplicate billing and any potential unethical or           investigations as described
                                illegal actions of Federal employees, contractors, or affiliated
                                entities, and the referral of such reports, as necessary, to the
                                Department of Justice to ensure further investigations, pros-
                                ecutions, recovery of further funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                 Establish, maintain, and       Full report
                                The Inspector General shall establish, maintain, and oversee        oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector             and controls
                                General considers appropriate to discharge the duties under
                                paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL                 Duties as specified in         Full report
                                ACT OF 1978 —                                                       Inspector General Act
                                In addition,. . .the Inspector General shall also have the duties
                                and responsibilities of inspectors general under the Inspector
                                General Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                           Coordination with the          Other Agency
                                The Inspector General shall coordinate with, and receive            inspectors general of          Oversight
                                the cooperation of, each of the following: (A) the Inspector        DoD, DoS, and USAID
                                General of the Department of Defense, (B) the Inspector
                                General of the Department of State, and (C) the Inspector
                                General of the United States Agency for International
                                Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                  Expect support as              Full report
                                Upon request of the Inspector General for information or            requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as
                                is practicable and not in contravention of any existing law, fur-
                                nish such information or assistance to the Inspector General,
                                or an authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                   None reported                  N/A
                                Whenever information or assistance requested by the
                                Inspector General is, in the judgment of the Inspector General,
                                unreasonably refused or not provided, the Inspector General
                                shall report the circumstances to the Secretary of State or the
                                Secretary of Defense, as appropriate, and to the appropriate
                                congressional committees without delay.




                REPORT TO THE UNITED STATES CONGRESS                 I   APRIL 30, 2012                    169
                         APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
 Public Law Section      SIGAR Enabling Language                                           SIGAR Action                     Report Section
 Reports
 Section 1229(i)(1)      QUARTERLY REPORTS —                                               Report – 30 days after the       Full report
                         Not later than 30 days after the end of each fiscal-year          end of each calendar quarter     Appendix B
                         quarter, the Inspector General shall submit to the appropri-
                         ate committees of Congress a report summarizing, for the          Summarize activities of the
                         period of that quarter and, to the extent possible, the period    Inspector General
                         from the end of such quarter to the time of the submission of
                         the report, the activities during such period of the Inspector    Detailed statement of all
                         General and the activities under programs and operations          obligations, expenditures, and
                         funded with amounts appropriated or otherwise made avail-         revenues
                         able for the reconstruction of Afghanistan. Each report shall
                         include, for the period covered by such report, a detailed
                         statement of all obligations, expenditures, and revenues
                         associated with reconstruction and rehabilitation activities in
                         Afghanistan, including the following –
 Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds        Obligations and expenditures     Appendix B
                                                                                           of appropriated/donated
                                                                                           funds
 Section 1229(i)(1)(B)   A project-by-project and program-by-program account-              Project-by-project and           Funding
                         ing of the costs incurred to date for the reconstruction of       program-by-program account-      Note 1
                         Afghanistan, together with the estimate of the Department         ing of costs. List unexpended
                         of Defense, the Department of State, and the United States        funds for each project or
                         Agency for International Development, as applicable, of the       program
                         costs to complete each project and each program
 Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by       Revenues, obligations, and       Funding
                         foreign nations or international organizations to programs and    expenditures of donor funds
                         projects funded by any department or agency of the United
                         States Government, and any obligations or expenditures of
                         such revenues
 Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized   Revenues, obligations, and       Funding
                         or frozen that contribute to programs and projects funded by      expenditures of funds from
                         any U.S. government department or agency, and any obliga-         seized or frozen assets
                         tions or expenditures of such revenues
 Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts      Operating expenses of            Funding
                         appropriated or otherwise made available for the reconstruc-      agencies or any organization     Appendix B
                         tion of Afghanistan                                               receiving appropriated funds




                            170                       SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                                           APPENDICES




TABLE A.1 (CONTINUED)

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section                         SIGAR Enabling Language                                                    SIGAR Action                            Report Section
Section 1229(i)(1)(F)                      In the case of any contract, grant, agreement, or other funding            Describe contract details               Note 1
                                           mechanism described in paragraph (2)* —
                                           (i) The amount of the contract or other funding mechanism;
                                           (ii) A brief discussion of the scope of the contract or other
                                           funding mechanism;
                                           (iii) A discussion of how the department or agency of the
                                           United States Government involved in the contract, grant,
                                           agreement, or other funding mechanism identified and solic-
                                           ited offers from potential contractors to perform the contract,
                                           grant, agreement, or other funding mechanism, together with
                                           a list of the potential individuals or entities that were issued
                                           solicitations for the offers; and
                                           (iv) The justification and approval documents on which was
                                           based the determination to use procedures other than proce-
                                           dures that provide for full and open competition
Section 1229(i)(3)                         PUBLIC AVAILABILITY —                                                      Publish report as directed at           Full report
                                           The Inspector General shall publish on a publically-available              www.sigar.mil
                                           Internet website each report under paragraph (1) of this
                                                                                                                      Dari and Pashtu translation
                                           subsection in English and other languages that the Inspector
                                                                                                                      in process
                                           General determines are widely used and understood in
                                           Afghanistan
Section 1229(i)(4)                         FORM —                                                                     Publish report as directed              Full report
                                           Each report required under this subsection shall be submitted
                                           in unclassified form, but may include a classified annex if the
                                           Inspector General considers it necessary
Section 1229(j)(1)                         Inspector General shall also submit each report required under             Submit quarterly report                 Full report
                                           subsection (i) to the Secretary of State and the Secretary of
                                           Defense.

Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being reviewed,
analyzed, and organized for all future SIGAR purposes.
* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use of
amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes:	
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




                     REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2012                          171
                                 APPENDICES




TABLE A.2

CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                    172                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




TABLE A.2 (CONTINUED)

CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section          IG Act Language                                       SIGAR Action                                        Section
Section 5(a)(11)       A description and explanation of the reasons for       Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                       any significant revised management decision            member reports                                      members

                                                                              Explain SIGAR audit reports in which significant    None
                                                                              revisions have been made to management
                                                                              decisions
Section 5(a)(12)       Information concerning any significant manage-         Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                       ment decision with which the Inspector General is      member reports                                      members
                       in disagreement
                                                                              Explain SIGAR audit reports in which SIGAR          No disputed decisions
                                                                              disagreed with management decision                  during the reporting period
Section 5(a)(13)       Information described under [Section 804(b)] of        Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                       the Federal Financial Management Improvement           member reports                                      members
                       Act of 1996 (instances and reasons when an
                       agency has not met target dates established in a       Provide information where management has not        No disputed decisions
                       remediation plan)                                      met targets from a remediation plan                 during the reporting period
Section 5(a)(14)(A)    An Appendix containing the results of any peer         SIGAR has posted in full the results of, and        Posted in full at
                       review conducted by another Office of Inspector        reports from, SIGAR’s most recent peer reviews      www.sigar.mil
                       General during the reporting period; or                (completed during July 2010, prior to the current
                                                                              reporting period), on its website
Section 5(a)(14)(B)    If no peer review was conducted within that report- 15 July 2010                                           Posted in full at
                       ing period, a statement identifying the date of the                                                        www.sigar.mil
                       last peer review conducted by another Office of
                       Inspector General
Section 5(a)(15)       A list of any outstanding recommendations from         None – all peer review recommendations              Recommendations and
                       any peer review conducted by another Office of         effectively addressed, and remedial measures        related materials posted in
                       Inspector General that have not been fully imple-      implemented, by 30 September 2010                   full at www.sigar.mil
                       ment, including a statement describing the status
                       of the implementation and why implementation is
                       not complete
Section 5(a)(16)       Any peer reviews conducted by SIGAR of another         Not applicable (SIGAR did not conduct, or           SIGAR Oversight
                       IG Office during the reporting period, including a     participate in the conduct, of a peer review of
                       list of any outstanding recommendations made           another Office of Inspector General during the
                       from any previous peer review . . . that remain        reporting period)
                       outstanding or have not been fully implemented




                   REPORT TO THE UNITED STATES CONGRESS                I    APRIL 30, 2012                     173
                                                            APPENDICES                                                                                                                                                        APPENDICES


                                                            APPENDIX B
                                                            U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                            Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                            per year, as of March 31, 2012.
                                                            TABLE B.1


                                                             U.S. FUNDING SOURCES                                                     AGENCY             TOTAL     FY 2002    FY 2003    FY 2004     FY 2005     FY 2006         FY 2007     FY 2008     FY 2009      FY 2010      FY 2011       FY 2012
                                                             SECURITY
                                                               Afghanistan Security Forces Fund (ASFF)                                DoD              50,625.70       0.00       0.00       0.00       968.18    1,908.13        7,406.40    2,750.00     5,606.94     9,166.77    11,619.28    11,200.00
                                                               Train & Equip (DoD)                                                    DoD                 440.00       0.00       0.00     150.00       290.00        0.00            0.00        0.00         0.00         0.00         0.00         0.00
                                                               Foreign Military Financing (FMF)                                       DoS               1,059.14      57.26     191.00     414.08       396.80        0.00            0.00        0.00         0.00         0.00         0.00         0.00
                                                               International Military Education & Training (IMET)                     DoS                  12.06       0.20       0.30       0.60         0.80        0.80            1.10        1.60         1.40         1.76         1.56         1.95
                                                               NDAA Section 1207 Transfer                                             Other                 9.90       0.00       0.00       0.00         0.00        0.00            0.00        9.90         0.00         0.00         0.00         0.00
                                                             Total—Security                                                                           52,146.80      57.46     191.30     564.68     1,655.78    1,908.93        7,407.50    2,761.50     5,608.34     9,168.53    11,620.84    11,201.95
                                                             GOVERNANCE & DEVELOPMENT
                                                               Commander’s Emergency Response Program (CERP)                          DoD               3,439.00       0.00       0.00       40.00      136.00     215.00           209.00      488.33       550.67     1,000.00       400.00       400.00
                                                               Afghanistan Infrastructure Fund (AIF)                                  DoD                 800.00       0.00       0.00        0.00        0.00       0.00             0.00        0.00         0.00         0.00       400.00       400.00
                                                               Task Force for Business and Stability Operations (TFBSO)               DoD                 559.21       0.00       0.00        0.00        0.00       0.00             0.00        0.00        15.00        59.26       239.24       245.71
                                                               Economic Support Fund (ESF)                                            USAID            14,953.44     117.51     239.29      893.87    1,280.56     473.39         1,210.71    1,399.51     2,088.32     3,346.00     2,067.51     1,836.76
                                                               Development Assistance (DA)                                            USAID               883.65      18.30      42.54      153.14      169.56     183.96           166.81      148.65         0.40         0.30         0.00         0.00
                                                               Afghanistan Freedom Support Act (AFSA)                                 DoD                 550.00       0.00     165.00      135.00      250.00       0.00             0.00        0.00         0.00         0.00         0.00         0.00
                                                               Child Survival & Health (CSH + GHAI + GHP)                             USAID               554.28       7.52      49.68       33.40       38.00      41.45           100.77       63.02        58.23        92.30        69.91         0.00
                                                               Commodity Credit Corp (CCC)                                            USAID                31.65       7.48       1.33        0.00        0.00       0.00             0.00       10.77         4.22         4.22         3.09         0.55
                                                               USAID (other)                                                          USAID                40.52       0.00       0.50        5.00        0.00       0.00             0.00       22.32         3.55         2.90         6.25         0.00
                                                               Non-Proliferation, Anti-Terrorism, De-mining & Related (NADR)          DoS                 505.51      44.00      34.70       66.90       38.20      18.20            36.60       26.60        48.60        57.66        69.30        64.75
                                                               Provincial Reconstruction Team Advisors                                USDA                  5.70       0.00       0.00        0.00        0.00       0.00             0.00        0.00         5.70         0.00         0.00         0.00
                                                               Treasury Technical Assistance                                          Treasury              4.45       0.90       1.00        0.06        0.95       0.19             0.13        0.75         0.47         0.00         0.00         0.00
                                                             Total—Governance & Development                                                           22,327.40     195.71     534.04    1,327.37    1,913.27     932.19         1,724.02    2,159.95     2,775.16     4,562.63     3,255.29     2,947.77
                                                             COUNTER-NARCOTICS
                                                               International Narcotics Control and Law Enforcement (INCLE)            DoS               3,578.24      60.00      0.00      220.00      709.28      232.65           251.74     307.57       484.00       589.00        400.00       324.00
                                                               Drug Interdiction and Counter-Drug Activities (DoD CN)                 DoD               2,263.40       0.00      0.00       71.80      224.54      108.05           290.97     192.81       230.06       392.27        376.53       376.37
                                                               Drug Enforcement Administration (DEA)                                  DoJ                 127.37       0.58      2.87        3.72       16.77       23.66            20.38      40.59        18.80         0.00          0.00         0.00
                                                             Total—Counter-Narcotics                                                                   5,969.02      60.58       2.87     295.52      950.59      364.36           563.09     540.97       732.86       981.27        776.53       700.37
                                                             HUMANITARIAN
                                                               P.L. 480 Title I                                                       USDA                  5.00       0.00       5.00       0.00        0.00        0.00             0.00       0.00         0.00         0.00          0.00         0.00
                                                               P.L. 480 Title II                                                      USAID               716.71     159.50      46.10      49.20       56.60       60.00            60.00     177.00        65.41        27.40         15.50         0.00
                                                               Disaster Assistance (IDA)                                              USAID               478.79     197.09      85.52      11.16        4.22        0.04             0.03      16.90        26.91        29.60         66.56        40.75
                                                               Transition Initiatives (TI)                                            USAID                35.87       8.07      11.69      11.22        1.60        0.00             0.00       0.00         0.75         0.89          1.18         0.46
                                                               Migration & Refugee Assistance (MRA)                                   DoS                 749.75     135.47      61.50      63.30       47.10       41.80            53.80      44.25        76.79        81.48         65.00        79.26
                                                               Voluntary Peacekeeping (PKO)                                           DoS                  69.33      23.93       9.90      20.00       15.50        0.00             0.00       0.00         0.00         0.00          0.00         0.00
                                                               Emergency Refugee & Migration Assistance (ERMA)                        DoS                  25.20      25.00       0.00       0.00        0.00        0.00             0.00       0.00         0.20         0.00          0.00         0.00
                                                               Food for Progress                                                      USDA                109.49       0.00       4.96       9.08       30.10       23.24             9.47      20.55        12.09         0.00          0.00         0.00
Notes: Numbers affected by rounding. DoS shifted 	
$100 million in ESF from FY 2012 to FY 2011 to increase 	
                                                               416(b) Food Aid                                                        USDA                 95.18      46.46      14.14      34.58        0.00        0.00             0.00       0.00         0.00         0.00          0.00         0.00
FY 2012 funds available for Egypt.                             Food for Education                                                     USDA                 50.49       0.00       9.27       6.12       10.02       25.08             0.00       0.00         0.00         0.00          0.00         0.00
Sources: DoD, responses to SIGAR data call, 4/19/2012,         Emerson Trust                                                          USDA                 22.40       0.00       0.00       0.00        0.00        0.00             0.00      22.40         0.00         0.00          0.00         0.00
4/18/2012, 4/17/2012, 4/11/2012, 3/30/2012,
10/14/2009, and 10/1/2009; DoS, responses to SIGAR           Total—Humanitarian                                                                        2,358.20     595.52     248.08     204.66      165.14      150.16           123.30     281.10       182.15       139.37        148.25       120.47
data call, 4/17/2012, 4/6/2012, and 4/14/2011; Treasury,
response to SIGAR data call, 4/20/2012; OMB, response        INTERNATIONAL AFFAIRS OPERATIONS
to SIGAR data call, 4/17/2012; USAID, responses to            Oversight                                                                                   172.60       0.00       0.00       0.00        0.00        0.00             2.50      14.30         25.20        34.40        37.20        59.00
SIGAR data call, 4/3/2012, 10/15/2010, 1/15/2010, and
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009;        Other                                                                                     6,442.40     155.60      35.30     207.60      136.10      131.90           207.80     434.40      1,060.70     1,761.70       905.10     1,406.20
USDA, response to SIGAR data call, 4/2009; P.L. 112-74,
12/23/2011; P.L.  112-10, 4/15/2011; P.L. 111-212,
                                                             Total—International Affairs Operations                                                    6,615.00     155.60      35.30     207.60      136.10      131.90           210.30     448.70      1,085.90     1,796.10       942.30     1,465.20
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense        TOTAL FUNDING                                                                            89,416.42    1,064.87   1,011.59   2,599.83    4,820.88    3,487.54       10,028.22    6,192.22    10,384.41    16,647.90    16,743.20    16,435.76
Explanatory Statement.




                                                               174                       SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION                  REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2012             175
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
SIGAR completed three audits during this reporting period, as listed in Table C.1.

TABLE C.1

COMPLETED SIGAR AUDITS AS OF APRIL 30, 2012
Report Identifier   Report Title                                                                              Date Issued
SIGAR Audit 12-9    USAID Has Disbursed $9.5 Billion for Reconstruction and Funded Some                            4/2012
                    Financial Audits as Required, but Many Audits Face Significant Delays,
                    Accountability Limitations, and Lack of Resources
SIGAR Audit 12-8    USAID Spent Almost $400 Million on an Afghan Stabilization Project Despite                     4/2012
                    Uncertain Results, but Has Taken Steps To Better Assess Similar Efforts
SIGAR Audit 12-7    C-JTSCC Has Taken Steps To Improve the Accuracy of Its Contract Data, but Should               4/2012
                    Assess the Feasibility of Correcting its Data for Fiscal Year 2009 and Earlier



New Audits
SIGAR initiated three new audits during this reporting period, as listed in Table C.2.

TABLE C.2

NEW SIGAR AUDITS AS OF APRIL 30, 2012
Audit Identifier    Project Title                                                                            Date Initiated
SIGAR 058A          USAID’s Southern Region Agricultural Development Project’s Partnership with                    4/2012
                    International Relief and Development, Inc.
SIGAR 055A          Construction of the 3rd Brigade, 207th Afghan Army Corps Garrison in Badghis                   3/2012
                    Province
SIGAR 054A          Afghan National Army (ANA) Logistics Capability for Petroleum, Oil, and Lubricants             2/2012



Ongoing Audits
SIGAR has six audits in progress during this reporting period, as listed in Table C.3.

TABLE C.3

ONGOING SIGAR AUDITS AS OF APRIL 30, 2012
Audit Identifier    Project Title                                                                            Date Initiated
SIGAR 052A          Oversight of A-TEMP for the ANP                                                                1/2012
SIGAR 053A          Implementation of the Afghanistan Infrastructure Program                                     11/2011
SIGAR 051A          Costs of Private Security Contractors (PSCs) Utilized by USAID Contractors for                 9/2011
                    Reconstruction in Afghanistan
SIGAR 050A          Outcomes of DoS Public Diplomacy Grants in Support of Reconstruction in                        8/2011
                    Afghanistan
SIGAR 049A          USACE Operations and Maintenance Contracts with ITT Systems Corporation for                    7/2011
                    ANSF Facilities
SIGAR 047A          USAID’s Task Order in Support of the Afghanistan Stabilization Initiative–East Program         5/2011




  176                     SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                              APPENDICES




Forensic Audits
SIGAR continued work on three forensic audits during this reporting period, as
listed in Table C.4.
TABLE C.4

SIGAR FORENSIC AUDITS AS OF APRIL 30, 2012
Audit Identifier     Project Title                                                                     Date Initiated
SIGAR-027A           Forensic Review of DoS Transaction Data Related to Afghanistan Reconstruction           6/2010
SIGAR-026A           Forensic Review of USAID Transaction Data Related to Afghanistan Reconstruction         6/2010
SIGAR-022A           Forensic Review of DoD Transaction Data Related to Afghanistan Reconstruction           2/2010



INSPECTIONS
SIGAR had four ongoing inspections during this reporting period, as listed in
Table C.5.
TABLE C.5

SIGAR INSPECTIONS AS OF APRIL 30, 2012
Audit Identifier     Project Title                                                                     Date Initiated
SIGAR 1004           Wardak ANP Training Center (USACE)                                                      1/2012
SIGAR 1003           Nangarhar Border Police Company Headquarters Facilities (USACE)                         1/2012
SIGAR 1002           Jalalabad ANA Garrison (USACE)                                                          1/2012
SIGAR 1001           Kunduz ANA Facility−2/209th Headquarters (USACE)                                        1/2012




                   REPORT TO THE UNITED STATES CONGRESS               I   APRIL 30, 2012                    177
                                                            APPENDICES




FIGURE D.1


SIGAR INVESTIGATIONS: NEW
                                                            APPENDIX D
INVESTIGATIONS, 
                                                            SIGAR INVESTIGATIONS AND HOTLINE
JANUARY 1–MARCH 31, 2012
                                                            SIGAR Investigations
                       Total: 45
                                                            This quarter, SIGAR opened 45 new investigations and closed 7, bringing the total
                                                            number of open investigations to 164. Of the new investigations, most involved
                                                            contract fraud, public corruption, and bribery, as shown in Figure D.1. Of the
                              Public
                              Corruption
                                                            seven investigations that were closed, the majority were closed due to unsub-
             Contract &       & Bribery                     stantiated allegations, as shown in Figure D.2.
             Procurement      15
             Fraud
             14                                             FIGURE D.2


                                                            SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JANUARY 1–MARCH 31, 2012
Civil                                   Theft of Property
Investigation                           and Services                                                                       Total: 7
1                                       6
Assessment                              Miscellaneous       Unsubstantiated Allegations                                                                        6
4                                       Criminal Activity
                                        5                     Lack of Investigative Merit                 1

Source: SIGAR Investigations Directorate, 4/6/2012.
                                                                                            0                     2                         4              6

                                                            Source: SIGAR Investigations Directorate, 4/6/2012.




                                                            SIGAR Hotline
                                                            Of the 70 Hotline complaints received this quarter, most were received by email
FIGURE D.3
                                                            or telephone, as shown in Figure D.3. Of these complaints, most were closed or
SOURCE OF SIGAR HOTLINE COMPLAINTS,                         assigned to further investigation within SIGAR, as shown in Figure D.4.
JANUARY 1–MARCH 31, 2012
                                                            FIGURE D.4
                                                            STATUS OF SIGAR HOTLINE COMPLAINTS: JANUARY 1–MARCH 31, 2012
                        Total: 70


                                                                                                                           Total: 70

                        Email 63                                   Closed                                                                                           35
                                                             Referred (In)                                                                      22
                                                            Referred (Out)                          7
                                                            Under Review                        6

                                                                             0              5             10          15               20            25   30       35
       Written                                              Source: SIGAR Investigations Directorate, 4/5/2012.
       (non-email) 1                    Phone 6

Source: SIGAR Investigations Directorate, 4/5/2012.




                                                              178                         SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS

ACRONYM OR
ABBREVIATION            DEFINITION
4A                      Assistance to Anti-Corruption Authority
A-TEMP                  Afghanistan - Technical Equipment Maintenance Program
ABP                     Afghan Border Police
ACSS                    Afghanistan Civil Service Support
ACT                     Anti-Corruption Tribunal (Afghan)
ACU                     Anti-Corruption Unit (Afghan)
ADB                     Asian Development Bank
AGO                     Attorney General’s Office (Afghan)
AIF                     Afghanistan Infrastructure Fund
AIHRC                   Afghan Independent Human Rights Commission
AIP                     Afghanistan Infrastructure Program
ALP                     Afghan Local Police
ANA                     Afghan National Army
ANCOP                   Afghan National Civil Order Police
ANP                     Afghan National Police
ANSF                    Afghan National Security Forces
APPF                    Afghan Public Protection Force
APRP                    Afghanistan Peace and Reintegration Program
ARD                     Associates in Rural Development
ARTF                    Afghanistan Reconstruction Trust Fund
ASFF                    Afghanistan Security Forces Fund
ASOP                    Afghanistan Social Outreach Program
AUP                     Afghan Uniform Police
AWOL                    absent without leave
C-JTSCC                 CENTCOM Joint Theater Support Contracting Command
CAO                     Control and Audit Office (Afghan)
CENTCOM                 Central Command (U.S.)
CERP                    Commander’s Emergency Response Program
CFSOCC-A                Combined Forces Special Operations Component Command - Afghanistan
CJIATF-435              Combined Joint Inter-agency Task Force-435
CM                      Capability Milestone
CNPA                    Counter-Narcotics Police of Afghanistan
CNPCIW                  China National Petroleum Corporation International-Watan
COR                     contracting officer’s representative
CPC                     Criminal Procedure Code
CPD                     Central Prison Directorate
CSSP                    Correctional System Support Program
CSTC-A                  Combined Security Transition Command - Afghanistan
CTA                     Central Transfer Account




             REPORT TO THE UNITED STATES CONGRESS              I   APRIL 30, 2012            179
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
CUAT               Commander’s Unit Assessment Tool
DAB                Da Afghanistan Bank
DABS               Da Afghanistan Breshna Sherkat
DAI                Development Alternatives Inc.
DCAA               Defense Contract Audit Agency
DCIS               Defense Criminal Investigative Service
DEA                Drug Enforcement Administration (U.S.)
DFAS               Defense Financing and Accounting Service (U.S.)
DFIP               Detention Facility in Parwan
DoD                Department of Defense (U.S.)
DoD CN             Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
DoD OIG            Department of Defense Office of Inspector General (U.S.)
DoJ                Department of Justice (U.S.)
DoS                Department of State (U.S.)
DoS OIG            DoS Office of Inspector General (U.S.)
DST                Development Support Team
ECF                Extended Credit Facility
EITI               Extractive Industries Transparency Initiative
ESF                Economic Support Fund
ETDB               Economic Cooperation Organization Trade and Development Bank
FAA                Federal Aviation Administration (U.S.)
FBI                Federal Bureau of Investigation (U.S.)
FinTRACA           Financial Transactions and Reports Analysis Center
FMS                Foreign Military Sales
FY                 fiscal year
GAO                Government Accountability Office (U.S.)
GDP                gross domestic product
HMMWV              high-mobility, multi-purpose, wheeled vehicle
HOO                High Office of Oversight (Afghan)
HRW                Human Rights Watch
HSSB               Headquarters Security and Support Brigade
IARCSC             Independent Administrative Reform and Civil Service Commission (Afghan)
ICAO               International Civil Aviation Organization
ICCTF              International Contract Corruption Task Force
ICMS               Investigative Case Management System
IDLG               Independent Directorate of Local Governance
IDP                internally displaced person
IG                 Inspector General
IG Act             IG Act of 1978
IJC                International Security Assistance Force Joint Command
IMF                International Monetary Fund
INCLE              International Narcotics Control and Law Enforcement (U.S.)
INL                Bureau of International Narcotics and Law Enforcement Affairs (U.S.)




  180          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




ACRONYM OR
ABBREVIATION           DEFINITION
IRD                    International Relief and Development, Inc.
ISAF                   International Security Assistance Force
IWPR                   Institute for War and Peace Reporting
JSSP                   Justice Sector Support Program
KCI                    Kabul City Initiative
KHPP                   Kandahar Helmand Power Project
LGCD                   Local Governance and Community Development
LOTFA                  Law and Order Trust Fund for Afghanistan
MAIL                   Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCIT                   Ministry of Communications & Information Technology (Afghan)
MCTF                   Major Crimes Task Force (Afghan)
MDB                    multilateral development bank
MEC                    Monitoring and Evaluation Committee
MoD                    Ministry of Defense (Afghan)
MoF                    Ministry of Finance (Afghan)
MoI                    Ministry of Interior (Afghan)
MoJ                    Ministry of Justice (Afghan)
MoM                    Ministry of Mines (Afghan)
MOU                    memorandum of understanding
MPU                    Mines Protection Unit
NATO                   North Atlantic Treaty Organization
NDAA                   FY 2011 National Defense Authorization Act
NDS                    National Directorate of Security (Afghan)
NEPS                   North East Power System
NGO                    non-governmental organization
NKB                    New Kabul Bank
NTM-A                  NATO Training Mission - Afghanistan
OCO                    overseas contingency operations
OIG                    Office of Inspector General
PEC                    Presidential Executive Commission
PJST                   Provincial Joint Secretariat Team
PM/WRA                 Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement (U.S.)
PPP                    pur­chasing power parity
PRT                    Provincial Reconstruction Team
PSC                    private security contractor
PTEC                   Power Transmission Expansion and Connectivity Program
RAMP UP                Afghan Municipalities Program for Urban Populations
RC                     Regional Command
RC Window              Recurrent Cost Window
RMC                    risk management company
SCC                    Special Cases Committee (Afghan)
SEPS                   South East Power System
SIGAR                  Special Inspector General for Afghanistan Reconstruction




            REPORT TO THE UNITED STATES CONGRESS               I   APRIL 30, 2012                 181
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
SY                 solar year
TAPI               Turkmenistan-Afghanistan-Pakistan-India
TB                 tuberculosis
TFBSO              Task Force for Business and Stability Operations
Treasury           Department of the Treasury (U.S.)
UN                 United Nations
UNAMA              UN Assistance Mission in Afghanistan
UNCAC              UN Convention Against Corruption
UNDP               UN Development Programme
UNESCO             UN Educational, Scientific, and Cultural Organization
UNHCR              UN High Commissioner for Refugees
UNODC              UN Office on Drugs and Crime
USAAA              U.S. Army Audit Agency
USACE              U.S. Army Corps of Engineers
USAID              U.S. Agency for International Development
USAID OIG          USAID Office of Inspector General
USFOR-A            U.S. Forces - Afghanistan
VSO                Village Stability Operations
WFP                World Food Programme
WHO                World Health Organization
WTO                World Trade Organization




  182          SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
Afghans gather at the Sakhi Shrine in Kabul on March 20 to celebrate Nowruz, the Afghan new
         year. Once banned by the Taliban, Nowruz marks the spring equinox and the
            beginning of the Afghan solar year. (© AFP 2012, Massoud Hossaini)
SIGAR
SPECIAL INSPECTOR GENERAL
FOR AFGHANISTAN RECONSTRUCTION

2530 Crystal Drive
Arlington, VA 22202
